No. _______

In the

Supreme Court of the United States
FMC CORPORATION,
Petitioner,
v.
SHOSHONE-BANNOCK TRIBES,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
GREGORY G. GARRE
Counsel of Record
ELANA NIGHTINGALE DAWSON
SAMIR DEGER-SEN
GENEVIEVE P. HOFFMAN
ALLISON HERZOG
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
Counsel for Petitioner

QUESTIONS PRESENTED
This Court has long held that tribal efforts “to
regulate nonmembers, especially on non-Indian fee
land, are presumptively invalid.” Plains Commerce
Bank v. Long Family Land & Cattle Co., 554 U.S. 316,
330 (2008) (citation omitted). This rule is subject to
two exceptions, “known as the Montana exceptions.”
Id. But the Court has repeatedly stressed that these
exceptions are “limited” and cannot be construed so as
to “swallow the rule” against tribal jurisdiction over
nonmembers. Id. (citation omitted). The Court has
also emphasized that, even when a Montana
exception is met, a tribe’s regulation of nonmembers
still “must stem from the tribe’s inherent authority to
set conditions on entry, preserve tribal selfgovernment, or control internal relations.” Id. at 337.
The Ninth Circuit, which is home to some 400
Indian tribes, has repeatedly resisted these limits,
leading one judge to observe that the court has
“flip[ped] Montana’s general rule on its head.”
Window Rock Unified Sch. Dist. v. Reeves, 861 F.3d
894, 907, 916 (9th Cir. 2017) (Christen, J., dissenting).
Here, in direct conflict with the decisions of this Court
as well as those of the Seventh and Eighth Circuits,
the Ninth Circuit overhauled Montana’s carefully
tailored framework and turned it into an
unprecedented source of tribal jurisdiction over
nonmembers who have no say in tribal government.
The questions presented are:
1. Whether the Ninth Circuit correctly holds that
tribal jurisdiction over nonmembers is established
whenever a Montana exception is met, or whether, as
the Seventh and Eighth Circuits have held, a court
must also determine that the exercise of such

ii
jurisdiction stems from the tribe’s inherent authority
to set conditions on entry, preserve tribal selfgovernment, or control internal relations.
2. Whether the Ninth Circuit has construed the
Montana exceptions to swallow the general rule that
tribes lack jurisdiction over nonmembers.

iii
RULE 29.6 STATEMENT
Pursuant to Rule 29.6 of the Rules of this Court,
petitioner FMC Corporation hereby states that it is a
publicly traded company, it is not owned by a parent
company, and no publicly held corporation owns 10%
or more of its stock.

iv
LIST OF RELATED PROCEEDINGS
Pursuant to Supreme Court Rule 14.1(b)(iii),
petitioner states that there are no proceedings
directly related to this case in this Court.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ....................................... i
RULE 29.6 STATEMENT......................................... iii
LIST OF RELATED PROCEEDINGS ..................... iv
TABLE OF AUTHORITIES ..................................... ix
OPINIONS AND ORDERS BELOW ......................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED................................... 1
INTRODUCTION ...................................................... 1
STATEMENT OF THE CASE ................................... 4
A. FMC’s Fee Land And EPA’s Containment
Plan For Waste On The Site ........................... 4
B. The
Tribes’
Increasing
Regulatory
Demands And Closure Of FMC’s Plant .......... 7
C. This Dispute And Tribal Court Process
Resulting In The Judgment At Issue ............. 8
D. Federal Court Decisions Below ..................... 10
REASONS FOR GRANTING THE WRIT............... 12
I. THE
NINTH
CIRCUIT’S
DECISION
CONFLICTS WITH THE DECISIONS OF
THIS COURT AND OTHER CIRCUITS ........... 12
A. The Ninth Circuit Refuses To Recognize A
Fundamental Limitation On Tribal
Sovereignty Over Nonmembers .................... 13

vi
TABLE OF CONTENTS—Continued
Page
B. The Ninth Circuit Vastly Expanded The
Scope Of Montana’s First Exception ............ 20
C. The Ninth Circuit Vastly Expanded The
Scope Of Montana’s Second Exception ......... 23
D. All Told, The Ninth Circuit’s Revamped
Montana Framework “Swallows The Rule”
That
Tribes
Presumptively
Lack
Jurisdiction Over Nonmembers .................... 28
II. THIS CASE PRESENTS A RECURRING
ISSUE
OF
UNQUESTIONABLE
IMPORTANCE AND WARRANTS THIS
COURT’S INTERVENTION HERE................... 29
A. This Court Has Repeatedly Recognized
The Need To Enforce The Limits On Tribal
Jurisdiction Over Nonmembers .................... 29
B. This Case Presents An Ideal Vehicle To
Clarify And Reinforce The Limits Of
Tribal Jurisdiction Over Nonmembers ......... 33
CONCLUSION ......................................................... 35
APPENDIX
Opinion of the United States Court of Appeals
for the Ninth Circuit, FMC Corp. v.
Shoshone-Bannock Tribes, 942 F.3d 916
(9th Cir. 2019) .....................................................1a

vii
TABLE OF CONTENTS—Continued
Page
Memorandum Decision and Order of the
United
States
District
Court
for
the District of Idaho, FMC Corp. v.
Shoshone-Bannock Tribes, No. 4:14-CV489-BLW, 2017 WL 4322393 (D. Idaho
Sept. 28, 2017) ..................................................56a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc, FMC Corp. v.
Shoshone-Bannock Tribes, Nos. 17-35840,
17-35865 (9th Cir. Jan. 13, 2020).....................90a
Opinion, Order, Findings of Fact and
Conclusions of Law, Shoshone-Bannock
Tribes Land Use Department and Fort Hall
Business Council v. FMC Corp., Nos. C-060069, C-07-0017, C-07-0035 (Tribal Ct.
App. filed Apr. 30, 2014), ER63-78 ..................92a
Amended Findings of Fact, Conclusions of
Law, Opinion and Order Re Attorney
Fees and Costs, Nunc Pro Tunc, ShoshoneBannock Tribes Land Use Department
and Fort Hall Business Council v. FMC
Corp., Nos. C-06-0069, C-07-0017, C-070035 (Tribal Ct. App. filed Feb. 5, 2013),
ER119-37 .........................................................111a

viii
TABLE OF CONTENTS—Continued
Page
Amended Nunc Pro Tunc Findings of Fact,
Conclusions of Law, Opinion and Order,
FMC Corp. v. Shoshone-Bannock Tribes
Land Use Department and Fort Hall
Business Council, Nos. C-06-0069, C-070017, C-07-0035 (Tribal Ct. App. filed June
14, 2012), ER158-224......................................136a
Opinion, FMC Corp. v. Shoshone-Bannock
Tribes’ Land Use Department and Fort
Hall Business Council and Shoshone
Bannock Tribes’ Land Use Policy
Commission, Nos. C-06-0069, C-07-0017,
C-07-0035 (Tribal Ct. May 21, 2008),
ER293-311 .......................................................225a

ix
TABLE OF AUTHORITIES
Page(s)
CASES
Atkinson Trading Co. v. Shirley,
532 U.S. 645 (2001) .................................. 22, 23, 28
Belcourt Public School District v. Davis,
786 F.3d 653 (8th Cir. 2015)................................27
Dolgencorp, Inc. v. Mississippi Band of
Choctaw Indians,
746 F.3d 167 (5th Cir. 2014), aff’d by an
equally divided court sub nom. Dollar
General Corp. v. Mississippi Band of
Choctaw Indians, 136 S. Ct. 2159 (2016)............19
Dolgencorp, Inc. v. Mississippi Band of
Choctaw Indians,
746 F.3d 588 (5th Cir. 2014)................................19
Dollar General Corp. v. Mississippi Band of
Choctaw Indians,
136 S. Ct. 2159 (2016)......................................3, 30
Grand Canyon Skywalk Development, LLC
v. ‘Sa’ Nyu Wa Inc.,
715 F.3d 1196 (9th Cir. 2013)..............................15
Jackson v. Payday Financial, LLC,
764 F.3d 765 (7th Cir. 2014), cert.
denied, 575 U.S. 983 (2015) .............................3, 18
Kodiak Oil & Gas (USA) Inc. v. Burr,
932 F.3d 1125 (8th Cir. 2019).................... 3, 17, 18

x
TABLE OF AUTHORITIES—Continued
Page(s)
Montana v. United States,
450 U.S. 544 (1981) ...................................... passim
Nevada v. Hicks,
533 U.S. 353 (2001) .................................. 14, 20, 30
Plains Commerce Bank v. Long Family
Land & Cattle Co.,
554 U.S. 316 (2008) ...................................... passim
Stifel, Nicolaus & Co. v. Lac du Flambeau
Band of Lake Superior Chippewa
Indians,
807 F.3d 184 (7th Cir. 2015)................................27
Strate v. A-1 Contractors,
520 U.S. 438 (1997) ...................... 14, 20, 24, 25, 29
United States v. FMC Corp.,
531 F.3d 813 (9th Cir. 2008)..................................9
United States v. Shoshone-Bannock Tribes,
229 F.3d 1161, 2000 WL 915398 (9th
Cir. 2000), cert. denied, 532 U.S. 1019
(2001) ......................................................................6
Water Wheel Camp Recreational Area, Inc.
v. LaRance,
642 F.3d 802 (9th Cir. 2011)................................15
Window Rock Unified School District v.
Reeves,
861 F.3d 894 (9th Cir. 2017)............................3, 15

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Zidell Explorations, Inc. v. Conval
International, Ltd.,
719 F.2d 1465 (9th Cir. 1983)..............................22
STATUTES
28 U.S.C. § 1254(1)......................................................1
42 U.S.C. § 6901 et seq. ...............................................5
42 U.S.C. § 9601 et seq. ...............................................5
OTHER AUTHORITIES
5 Corbin on Contracts § 24.29 (Online ed.,
2019) .....................................................................22
Eagles, Hotel California (Asylum Records
1976) .....................................................................21
Unemployment on Indian Reservations at
50 Percent: The Urgent Need to Create
Jobs in Indian Country: Hearing Before
the S. Comm. on Indian Affairs, 111th
Cong. (2010) .........................................................32

PETITION FOR A WRIT OF CERTIORARI
Petitioner FMC Corporation respectfully petitions
this Court for a writ of certiorari to review the
judgment of the United States Court of Appeals for
the Ninth Circuit in this case.
OPINIONS AND ORDERS BELOW
The opinion of the court of appeals (App. 1a-55a)
is reported at 942 F.3d 916. The district court’s
opinion (App. 56a-89a) is available at 2017 WL
4322393.
JURISDICTION
The court of appeals entered its opinion on
November 15, 2019, App. 1a, and denied rehearing en
banc on January 13, 2020, id. at 90a. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Because the asserted tribal jurisdiction at issue in
this case is outside the Constitution and not based on
any federal statute, there are no relevant
constitutional or statutory provisions.
INTRODUCTION
This case seeks review of the Ninth Circuit’s
expansive conception of tribal authority over
nonmembers on non-Indian fee land. In the decision
below, the Ninth Circuit held that respondent
Shoshone-Bannock Tribes (Tribes) had jurisdiction to
impose what amounts to a perpetual, $1.5 million
annual penalty on petitioner FMC Corporation (FMC)
based on the presence of hazardous waste on FMC’s
own fee land, even where that waste is subject to a

2
containment plan designed and approved by the U.S.
Environmental Protection Agency (EPA).
That
decision directly conflicts with the decisions of this
Court and those of other circuits. And it underscores
that the Ninth Circuit has become a stark outlier in
liberalizing the test for determining whether, and
when, tribal jurisdiction may be exercised over
nonmembers. This Court’s intervention is needed.
Because nonmembers “have no say in the laws and
regulations that govern tribal territory,” and tribal
sovereignty itself “is ‘a sovereignty outside the basic
structure of the Constitution,’” this Court has long
held that Indian tribes generally lack authority over
nonmembers, especially when it comes to non-Indian
fee land. Plains Commerce Bank v. Long Family
Land & Cattle Co., 554 U.S. 316, 330, 337 (2008)
(citation omitted); Montana v. United States, 450 U.S.
544, 565 (1981) (“[T]he general proposition [is] that
the inherent sovereign powers of an Indian tribe do
not extend to the activities of nonmembers of the
tribe.”). This rule is subject to two exceptions, which
stem from this Court’s decision in Montana v. United
States, known as the “Montana exceptions.”
Under the first Montana exception, a tribe may
regulate “the activities of nonmembers who enter
consensual relationships with the tribe or its
members, through commercial dealing, contracts,
leases, or other arrangements.” Montana, 450 U.S. at
565. And, under the second, a tribe may regulate
“conduct [that] threatens . . . the political integrity,
the economic security, or the health or welfare of the
tribe.” Id. at 566. Critically, however, there is a more
fundamental limit: even if a Montana exception is
met, a tribe’s regulation of nonmembers “must stem
from the tribe’s inherent sovereign authority” and,

3
thus, is permitted only “to the extent necessary to
protect tribal self-government [and] to control
internal relations.” Plains Commerce, 554 U.S. at
332; see Montana, 450 U.S. at 564 (emphasis added).
This Court has repeatedly stressed that Montana’s
exceptions are “limited” and should not be expanded.
Plains Commerce, 554 U.S. at 330 (citation omitted).
Nonetheless, some courts have pressed Montana’s
limits, and confusion exists over the scope of tribal
power over nonmembers. Twice in recent years this
Court has granted certiorari to address questions
regarding the scope of Montana—although in one case
(Plains Commerce), it resolved the question presented
on narrow grounds and, in the other (Dollar General
Corp. v. Mississippi Band of Choctaw Indians, 136 S.
Ct. 2159, 2159 (2016)), it split 4-4, and so issued no
opinion at all. Accordingly, confusion has persisted.
The Ninth Circuit, in particular, has repeatedly
stretched Montana’s limits, leading one judge to
observe that the court, in effect, has “flip[ped]
Montana’ s general rule on its head.” Window Rock
Unified Sch. Dist. v. Reeves, 861 F.3d 894, 907, 916
(9th Cir. 2017) (Christen, J., dissenting). In this case,
the Ninth Circuit reached a new extreme. The court’s
decision overhauls not one but both Montana
exceptions, while disregarding the touchstone
requirement that the regulation at issue must be
necessary to set conditions on entry, preserve tribal
self-government, or control internal relations to begin
with. The court’s decision not only flouts this Court’s
precedent, but directly conflicts with the decisions of
other circuits. See, e.g., Kodiak Oil & Gas (USA) Inc.
v. Burr, 932 F.3d 1125, 1138 (8th Cir. 2019); Jackson
v. Payday Fin., LLC, 764 F.3d 765, 783 (7th Cir.
2014), cert. denied, 575 U.S. 983 (2015).

4
The practical consequences of the decision below
will be dramatic. Under the Ninth Circuit’s decision
in this case, an agreement or relationship entered into
by a nonmember with a tribe—even under threat of
massive regulatory penalties—triggers regulatory
and adjudicatory jurisdiction over all aspects of the
arrangement, as later characterized by the tribe’s
own courts. Likewise, the tribe’s assertion of a
speculative threat is a basis for exercising tribal
jurisdiction over nonmembers on their own fee lands,
even where the federal government itself (EPA, here)
has rejected the alleged threat. And, on top of that,
there is no requirement that a tribe tie the regulation
at issue to its inherent authority to protect tribal selfgovernment or control internal relations.
In a circuit home to more than 400 of the nation’s
567 federally-recognized Indian tribes, this
fundamental refashioning of tribal sovereignty is a
recipe for uncertainty and strife among nonmembers
and tribes, as well as jurisdictional conflict among
federal, state, local, and tribal governments.
The petition should be granted.
STATEMENT OF THE CASE
A. FMC’s Fee Land And EPA’s Containment
Plan For Waste On The Site
FMC owns 1,450 acres of fee land a few miles west
of Pocatello, Idaho, located mostly inside the eastern
boundary of the Fort Hall Indian Reservation. App.
56a. Fee title to the on-reservation land passed from
the Tribes under the General Allotment Act, and later
to FMC. The adjacent reservation land consists
largely of other fee parcels owned by non-Indians,
including the Pocatello Municipal Airport, owned by

5
the City of Pocatello, and a railroad owned by Union
Pacific Railroad, which runs through the reservation
alongside FMC’s property. CA Excerpts of Record
(ER) 877-78, 969, 971, 1211. Interstate Highway 86
and U.S. Highway 30 cut through the reservation
adjacent to FMC’s property as well. See CA9 FMC
Opening Br. 5-6 (maps of area).
From 1949 to 2001, FMC and its predecessors
owned and operated an elemental phosphorus
processing plant on FMC’s land. ER946. Elemental
phosphorus is a basic ingredient used in a variety of
everyday products, such as soda, cereal, flour, and
toothpaste. However, the processing of elemental
phosphorus generates a number of byproducts,
including solidified elemental phosphorus, phossy
water containing residual phosphorus particles, and
phosphine gas, which can be harmful—if unmanaged.
App. 18a-19a; ER844, 847, 937, 955, 976.
But the elemental phosphorus and byproducts on
FMC’s land were not unmanaged. To the contrary,
they are heavily regulated under numerous federal
environmental laws, including the Resource
Conservation and Recovery Act (RCRA), 42 U.S.C.
§ 6901 et seq.; Comprehensive Environmental
Response, Compensation, and Liability Act
(CERCLA), id. § 9601 et seq.; and extensive
regulations under those statutes. App. 17a-19a. And
they are subject to extensive monitoring to this day.
In 1990, EPA designated FMC’s land, along with a
neighboring fertilizer plant, a “Superfund Site” under
CERCLA, and spent years studying it to determine
the remedial measures necessary to protect human
health and the environment. App. 71a-73a; ER944,
967. EPA proposed an elaborate remediation plan for
the site, under both RCRA and CERCLA. The RCRA

6
remedy is embodied in a consent decree, which,
among other things, called for the construction of
state-of-the-art waste containment ponds, and
stringent monitoring controls. App. 6a, 8a-9a; ER850,
856, 1152-58. The CERCLA remedy was set forth in
a 1998 Record of Decision, later updated in 2012, and
required additional remedial measures and
monitoring. App. 17a-18a; ER939-45.
From the outset, the Tribes objected to containing
the waste on FMC’s property, arguing that doing so
would pose an unacceptable threat to the health and
safety of the Tribes. But, after consultation with the
Tribes and careful consideration, EPA disagreed and
found that containing and monitoring the waste in
place is “protective of human health and the
environment.” Id. at 941-44; see id. at 915-17, 959,
965. Indeed, in EPA’s judgment, it is the removal of
the waste that would present the real threat. See id.
at 958-59. And, in rejecting the Tribes’ challenge to
the consent decree, the Ninth Circuit itself found that
“the Tribes have presented no evidence that capping
the ponds poses a threat to human health or the
environment.” United States v. Shoshone-Bannock
Tribes, 229 F.3d 1161, 2000 WL 915398, at *2 (9th
Cir. 2000), cert. denied, 532 U.S. 1019 (2001).1

1

In urging the Ninth Circuit to uphold the RCRA consent
decree, the United States likewise stated that there is “no
evidence” of harm based on any “past violations” of federal law
and that EPA’s plan to contain the waste on FMC’s land “fully
protected human health and the environment.” U.S. Br. *24-25,
*31 & n.20 (Feb. 7, 2000), 2000 WL 33996529; see U.S. Opp. Br.
*17-18, Shoshone-Bannock Tribes v. United States, 532 U.S.
1019 (2000) (No. 00-1262), 2000 WL 34001040.

7
The phosphorus-related waste has now been on
FMC’s land for more than 70 years, and there is no
evidence of any “measurable harm” to the Tribes or
anyone else in the vicinity. ER18-20.
B. The
Tribes’
Increasing
Regulatory
Demands And Closure Of FMC’s Plant
Unable to derail EPA’s containment plan, the
Tribes sought to impose their own regulatory
demands on FMC based on the assertion of tribal law.
In 1997, the Tribes demanded that FMC apply to
their Land Use Policy Commission (LUPC) for a
permit to construct EPA-mandated containment
ponds, and threatened to enjoin construction in tribal
court if FMC did not comply. ER1200-01 ¶ 4; id. at
1246-47 ¶¶ 3-4. Two weeks later, the Tribes upped
their demands by adding a disposal fee of $182 million
annually—an amount so large it would have required
FMC to close its operations. Id. at 1093.
Eventually, after a series of letters and meetings
over the course of a year or so in which the Tribes
repeated their demands, FMC relented and entered
into a settlement agreement with the Tribes, in order
to avoid even more crippling regulatory penalties. As
stated in a May 19, 1998 letter, “in lieu of the
hazardous and nonhazardous waste permit fees”
established by the Tribes’ then current Guidelines,
FMC agreed to pay the Tribes a “one time startup” fee
of $1 million, and an annual “hazardous and
nonhazardous fixed permit” fee of $1.5 million.
ER1045-46; App. 63a. FMC paid the startup fee and
$1.5 million annual fee from 1998 to 2001. App. 63a.
In 2001, FMC was forced to close its plant due to a
sudden and unexpected increase in energy prices.
FMC stopped disposing of waste on the site and began

8
dismantling the facility altogether.
ER844.
Meantime, FMC worked with EPA to supplement the
existing containment plan, including construction of
protective caps engineered with millions of tons of
clean soil, and implementing extensive additional
monitoring controls. Id. at 845-46, 940-43, 960-61.
EPA later affirmed that the updated plan, as
embodied in an Interim Record of Decision
Amendment (IRODA), is “protective of human health
and the environment.” Id. at 939-44, 956.
Today, after implementation of these measures,
FMC’s site is a series of grassy and shrub-covered
rolling hills, underneath which the capped ponds are
secured, with monitoring devices on top. Id. at 96466, 975; FMC Opening CA9 Br. 16 (photo).
C. This Dispute And Tribal Court Process
Resulting In The Judgment At Issue
After the plant’s closure, the Tribes took the
position that FMC is required to obtain a special use
permit and pay the $1.5 million annual fee for as long
as the waste remains on the site, which, under EPA’s
plan, likely will be for centuries. ER1054-55. The
Tribes also demanded that FMC obtain additional
building and other permits. See id. at 1060-81. FMC,
however, maintained that it only agreed to pay the
fees while FMC was actually disposing waste at the
site (which it did), but not after the plant closed.
In 2005, the Tribes filed a motion in the RCRA
consent decree action in federal court seeking a
declaration that FMC was required to comply with
their various demands. The district court ruled for
the Tribes, and ordered FMC to exhaust its
jurisdictional objections in tribal court first. App. 9a.
On appeal, the Ninth Circuit reversed, holding that

9
the Tribes—who were not parties to the consent
decree—had no right to enforce the decree. United
States v. FMC Corp., 531 F.3d 813 (9th Cir. 2008).
Meanwhile, however, FMC embarked on what
ended up being an eight-year, tribal-court exhaustion
process. That process culminated in a 2014 Tribal
Court of Appeals (TCA) judgment that FMC owed the
Tribes some $19.5 million in unpaid permit fees for
2002-2014. App. 3a, 23a. The tribal courts found that
the Tribes’ jurisdiction extended to all matters
regarding “the permitting process, and the ancillary
issues related to it,” including both “regulatory and
adjudicatory” jurisdiction. ER172.
The Shoshone-Bannock tribal courts operate
subject to the sole governing, political arm of the
Tribes—the Business Council—and tribal court
judges thus “serve at the pleasure of the Fort Hall
Business Council.” Id. at 366, 980. The tribal court
proceedings in this case were marked by striking
irregularities. For example, while FMC’s case was
pending before them, two of the three TCA Judges
who initially heard and decided the case made public
remarks at a law school conference evidencing a clear
bias in favor of tribal jurisdiction.
One of the judges, Fred Gabourie, criticized this
Court’s decisions on tribal jurisdiction, describing
Montana as “murderous to Indian tribes” and
emphasizing the need to “get around” it. Id. at
772:10-15, 774:24-775:3. He also observed that it was
important for tribal appellate courts “to step in . . . to
protect the tribe,” id. at 791:15-18, for example, by
“tak[ing] the case and mold[ing] it.” Id. at 768:20769:10. The other judge, Mary L. Pearson, likewise
emphasized the importance of “avoid[ing]” “bad
[Supreme Court] decisions” on tribal jurisdiction. Id.

10
at 789:4-8. And she confessed to the audience that
“we’re sitting on [a case] now that we know is going to
go up, so we’re saying our prayers as well as reading
the cases.” Id. at 778:17-20.
Once these stunning remarks became public,
Judges Gabourie and Pearson were removed and
replaced with two new judges. But the new panel
refused to reconsider the previous ruling of the TCA
on the first Montana exception, explaining that the
court had “previously ruled” that it had jurisdiction
under that exception. Id. at 115. Moreover, the TCA
took the unusual step of receiving evidence on the
second Montana exception itself—while the case was
on appeal—thus depriving FMC of any opportunity
for appellate review of that decision, since the TCA is
the Tribes’ highest court. CA9 FMC Opening Br. 56.
Yet, while the TCA went out of its way to allow
evidence by the Tribes, it barred FMC from
presenting evidence that came to light during the
case. Id. at 56-57. Remarkably, the TCA also
assessed nearly $1 million in attorney’s fees against
FMC simply for disputing the Tribes’ jurisdiction to
impose their regulatory demands. ER46, 132.
D. Federal Court Decisions Below
Once the TCA issued its final judgment, FMC filed
a complaint in federal district court seeking a
declaration that the TCA’s judgment was not
enforceable because the Tribes lacked jurisdiction
over FMC and the tribal court proceedings violated
due process. App. 25a; ER637-721.
In September 2017, the district court issued a
decision holding that the tribal court’s judgment
should be enforced. App. 56a. The court first held
that the Tribes had jurisdiction over FMC under the

11
first Montana exception, reasoning that FMC’s
decision to accede to the Tribes’ permitting demands
so it could construct the containment ponds was “a
simple business deal” representing the “same type of
consensual relationship” approved under Montana.
Id. at 78a, 23a-24a. But the court concluded that the
judgment could not be enforced under the second
Montana exception, because “the Tribes have never
explained why an annual fee of $1.5 million is
necessary to provide . . . supplemental protection”
over and above EPA’s remediation plan. Id. at 85a.
The Ninth Circuit affirmed the district court’s
decision enforcing the TCA’s judgment—but went
even further than the district court by holding that
the Tribes had jurisdiction to impose the annual $1.5
million fee under the second Montana exception as
well. Id. at 55a-56a. As to the first Montana
exception, the court found that FMC had consented to
tribal jurisdiction because it “negotiated and entered
into [a] permit agreement with the Tribes” requiring
“an annual $1.5 million permit fee” to keep waste on
FMC’s land. Id. at 30a. In the court’s view, “FMC
should have reasonably anticipated that” this
agreement would “‘trigger’ tribal regulatory
authority.” Id. at 32a (citation omitted).
As to the second Montana exception, the court
acknowledged that the waste was subject to an EPAapproved containment plan, but reasoned that, “no
matter how well [EPA’s] system is designed, the
system may fail.” Id. at 44a-45a (quoting district
court). Then the court excused the Tribes’ failure to
account for how the fees would be spent to remedy this
threat, stating: “There is nothing . . . requiring the
Tribes to show that the $1.5 million annual use
permit fee [would] be spent on supplemental

12
measures, beyond those now being taken by EPA, to
protect against hazards posed by [the] waste.” Id. at
47a. Indeed, the court suggested that a tribe might
actually charge more if it liked. Id. at 47a-48a.
Finally, the court held that the Tribes had
adjudicatory as well as regulatory jurisdiction over
FMC. Id. at 48a-49a. The court recognized that “the
Supreme Court has never decided whether a Tribe’s
adjudicatory jurisdiction is necessarily as extensive
as its regulatory jurisdiction.” Id. at 48a. But the
court held that, where a tribe may “regulate the
activities of nonmembers, ‘civil jurisdiction over
disputes arising out of such activities presumptively
lies in the tribal courts.’” Id. (citation omitted).
Likewise, the court brushed off FMC’s due process
challenge to the tribal court proceedings, finding that
there was nothing “indicat[ing] bias against FMC”
and that “‘[e]mpirical studies’” show that “‘tribal
courts are even-handed in dispensing justice to
nonmembers.’” Id. at 52a, 54a (citation omitted).
The Ninth Circuit denied FMC’s petition for
rehearing en banc. Id. at 90a-91a.
REASONS FOR GRANTING THE WRIT
I. THE
NINTH
CIRCUIT’S
DECISION
CONFLICTS WITH THE DECISIONS OF
THIS COURT AND OTHER CIRCUITS
The Ninth Circuit decision below broadly expands
tribal jurisdiction over nonmembers—in conflict with
the decisions of this Court and other circuits.

13
A. The Ninth Circuit Refuses To Recognize A
Fundamental Limitation On Tribal
Sovereignty Over Nonmembers
1. America was founded on the right of people to
govern themselves—a right that depends on having a
say in that government. Tribal sovereignty over
nonmembers, however, stands in stark contrast.
“[N]onmembers have no part in tribal government—
they have no say in the laws and regulations that
govern tribal territory.” Plains Commerce Bank v.
Long Family Land & Cattle Co., 554 U.S. 316, 337
(2008). This Court, accordingly, has long held that
“efforts by a tribe to regulate nonmembers” are
“‘presumptively invalid.’”
Id. at 330 (citation
omitted). Moreover, the Court has held that this
presumption “is particularly strong when the
nonmember’s activity occurs on land owned in fee
simple by non-Indians.” Id. at 328. Indeed, a key
purpose of the Allotment Acts was to dissolve tribal
jurisdiction over fee lands conveyed under the Acts,
like the land here. See Montana v. United States, 450
U.S. 544, 559 n.9 (1981).2
While much of the attention in cases involving the
exercise of tribal jurisdiction over nonmembers
centers on the Montana exceptions, this Court’s
precedents make clear that there is a minimum
requirement a tribe must meet regardless of the
exceptions: the tribe must show that its regulation of
nonmembers “stem[s] from the tribe’s inherent
sovereign authority to set conditions on entry,
2 This rule, of course, does not mean that nonmember
interactions or agreements with tribes are unregulated. Rather,
it means that they are regulated like everything else—subject to
state and federal law, enforceable in state and federal court.

14
preserve tribal self-government, or control internal
relations.” Plains Commerce, 554 U.S. at 337; see
Strate v. A-1 Contractors, 520 U.S. 438, 459 (1997)
(“[A] [tribe’s inherent power does not reach] beyond
what is necessary to protect tribal self-government or
to control internal relations.” (first alteration added)
(quoting Montana, 450 U.S. at 564)).
As this Court has explained, “[t]he logic of
Montana is that certain activities on non-Indian fee
land . . . may intrude on the internal relations of the
tribe or threaten tribal self-rule,” and thus may be
regulated “[t]o the extent they do.” Plains Commerce,
554 U.S. at 334-35 (emphasis added). But “[w]here
nonmembers are concerned, the ‘exercise of tribal
power beyond what is necessary to protect tribal selfgovernment or to control internal relations is
inconsistent with the dependent status of the tribes,
and so cannot survive without express congressional
delegation.’” Nevada v. Hicks, 533 U.S. 353, 359
(2001) (quoting Montana, 450 U.S. at 564) (emphasis
added). Thus, irrespective of the Montana exceptions,
a tribe has no authority to regulate nonmembers
outside of these specified areas of sovereign concern.
As the Court put it in Plains Commerce, “[e]ven
then”—i.e., even when an exception is met—“the
regulation must stem from the tribe’s inherent
sovereign authority to set conditions on entry,
preserve tribal self-government, or control internal
relations.” 554 U.S. at 337 (emphasis added).
2. The Ninth Circuit, however, has repeatedly
ignored this touchstone limit. For example, seizing on
the Court’s passing observation in Plains Commerce
that the defendant there had no reason to
“anticipate[]” the assertion of tribal jurisdiction over
its sale of land, the Ninth Circuit has applied a far

15
broader test that looks to whether a nonmember
should have “reasonably anticipated” the exercise of
tribal jurisdiction. See, e.g., Grand Canyon Skywalk
Dev., LLC v. ‘Sa’ Nyu Wa Inc., 715 F.3d 1196, 1206
(9th Cir. 2013) (citing Plains Commerce, 554 U.S. at
338); Water Wheel Camp Recreational Area, Inc. v.
LaRance, 642 F.3d 802, 817 (9th Cir. 2011) (same); see
App. 32a (reasoning that “FMC should have
reasonably anticipated that its interactions [with the
Tribes] might ‘trigger’ tribal regulatory authority”
(citing Water Wheel, 642 F.3d at 818)).
That test is circular—what can be “reasonably
anticipated” depends on the governing law regarding
tribal jurisdiction, which is the very subject in
dispute. Yet, time and again the Ninth Circuit has
invoked that amorphous test as a warrant to find
tribal jurisdiction over nonmembers.
As Judge
Christen observed, the Ninth Circuit’s tribal
jurisdiction jurisprudence has “flip[ped] Montana’s
general rule on its head.” Window Rock Unified Sch.
Dist. v. Reeves, 861 F.3d 894, 907, 916 (9th Cir. 2017)
(Christen, J., dissenting) (describing trend in Ninth
Circuit decisions). In effect, the Ninth Circuit has
created a caveat emptor regime in which a
nonmember’s interactions with a tribe can subject it
to tribal jurisdiction based simply on a court’s later
view that the nonmember should have known what it
was getting into—even where, as here, the underlying
events or interactions occurred years earlier.
Here, despite the fact that FMC strenuously
pressed the argument in its briefs and at oral
argument, the Ninth Circuit eschewed any
determination whether the tribal regulation at issue
stems from the Tribes’ inherent sovereign authority—
i.e., its authority to set conditions on entry, control

16
internal relations, or preserve tribal selfgovernment.3 Instead, as it has done in prior cases,
the Ninth Circuit simply disregarded that threshold
limitation on tribal sovereignty, and began and ended
its analysis of tribal jurisdiction with the Montana
exceptions. See App. 46a-47a.
As explained below, the court’s Montana analysis
is grossly at odds with this Court’s precedents. But
the Ninth Circuit’s more basic failure to enforce the
inherent limits on tribal sovereignty alone was
outcome determinative. It is clear that the tribal
jurisdiction at issue was not necessary to protect any
of the aspects of inherent tribal sovereignty
recognized by this Court. Because FMC owns the
land on which the waste sits, the permit fees cannot
possibly be justified by the Tribes’ inherent authority
to set conditions on entry.
Likewise, the fees
obviously have nothing to do with controlling internal
relations, like membership.
Nor are the fees necessary to preserve tribal selfgovernment. The Tribes existed, and maintained
their political integrity, for centuries before they
attempted to impose fees on the presence of material
on another landowner’s fee land. Moreover, as
discussed, EPA is directly—and extensively—
regulating the containment of the waste on FMC’s
property, belying any claim that extraction of the
permit fees at issue is necessary for the Tribes’
continuing political existence. See Montana, 450 U.S.
at 564 n.13 (explaining that tribal regulation of
3 This argument was a central feature of FMC’s appeal.
See CA9 FMC Opening Br. 29, 49-51; CA9 FMC Response &
Reply Br. 8; CA9 Oral Argument 13:20-13:41, 17:00-17:55 (May
17, 2019); CA9 FMC Pet. for Reh’g 9-11.

17
hunting and fishing by nonmembers was not
“necessary to Crow tribal self-government” given that
the State has traditionally regulated hunting and
fishing on fee lands within the reservation).
3. The Ninth Circuit’s reliance on the Montana
exceptions alone to justify tribal jurisdiction over
nonmembers places it in square conflict with the
Seventh and Eighth Circuits. In Kodiak Oil & Gas
(USA) Inc. v. Burr, for example, the Eighth Circuit
concluded that a tribe lacked jurisdiction over claims
for “royalties from wastefully-flared gas” from wells
on trust land within a reservation. 932 F.3d 1125,
1129-30 (8th Cir. 2019). The Eighth Circuit held that,
although “[t]he oil and gas companies’ leases are
consensual relationships with tribal members” that
might otherwise qualify under Montana’s first
exception, “[a] consensual relationship alone is not
enough.” Id. at 1138 (emphasis added). “Even where
there is a consensual relationship with the tribe or its
members, the tribe may regulate non-member
activities only where the regulation ‘stem[s] from the
tribe’s inherent sovereign authority to set conditions
on entry, preserve tribal self-government, or control
internal relations.’” Id. (quoting Plains Commerce,
554 at 336). The court explained that the federal
regulation of oil and gas leases on allotted lands
defeated the notion that tribal regulation in this area
was “necessary for tribal self-government.” Id.
Kodiak is on all fours with this case. Here, as in
Kodiak, the Tribes argue that tribal jurisdiction
exists under Montana’s first exception for “consensual
relationships.” Yet, in this case, the Ninth Circuit
held that the existence of such a relationship alone
was sufficient to establish tribal jurisdiction under
Montana, App. 33a-34a, whereas in Kodiak the

18
Eighth Circuit held that such a consensual
relationship (even when present) “alone is not
enough.” 932 F.3d at 1138 (emphasis added). And
here, as in Kodiak, the fact that the federal
government is already heavily regulating the alleged
threat eliminates any argument that tribal regulation
is necessary to preserve tribal self-government. Id. If
anything, Kodiak is a stronger case for tribal
jurisdiction, because the land there was held in trust
by the federal government for the benefit of the tribe.
Here, the land is purely private fee land. Kodiak thus
squarely conflicts with the decision below.
The decision below also conflicts with Jackson v.
Payday Financial, LLC, 764 F.3d 765 (7th Cir. 2014).
Once again, the tribal defendants sought to establish
tribal jurisdiction under Montana’s first exception
(there, based on a loan contract specifying a tribal
forum for resolving disputes). Id. at 777. Yet, the
Seventh Circuit held that, under this Court’s
precedents, “a nonmember’s consent to tribal
authority is not sufficient to establish the jurisdiction
of a tribal court.” Id. at 783 (emphasis added).
Rather, the relevant “regulation must stem from the
tribe’s inherent sovereign authority to set conditions
on entry, preserve tribal self-government, or control
internal relations.” Id. (emphasis omitted) (quoting
Plains Commerce, 554 U.S. at 337). Because the
tribal defendants had “made no showing that the
present dispute implicates any aspect of ‘the tribe’s
inherent sovereign authority,’” the court held,
Montana’s first exception did not apply. Id.
In sum, in the Seventh and Eighth Circuits, the
rule is that fitting a case within a Montana exception
is not enough to trigger tribal jurisdiction. Instead, a
tribe must show that the regulation stems from its

19
inherent sovereign authority. In the Ninth Circuit,
however, satisfying a Montana exception is enough to
trigger tribal jurisdiction—regardless of whether the
regulation at issue stems from the tribe’s inherent
sovereign authority to preserve tribal selfgovernment or control internal relations.
4. The Ninth Circuit’s consistent refusal to enforce
this inherent limitation on tribal sovereignty
warrants review. As Judge Smith explained in
Dolgencorp, Inc. v. Mississippi Band of Choctaw
Indians, disregarding this fundamental requirement
“profoundly upsets the careful balance that the
Supreme Court has struck between Indian tribal
governance, on the one hand, and American
sovereignty and the constitutional rights of U.S.
citizens, on the other hand.” 746 F.3d 167, 178 (5th
Cir. 2014) (Smith, J., dissenting), aff’d by an equally
divided court sub nom. Dollar Gen. Corp. v.
Mississippi Band of Choctaw Indians, 136 S. Ct. 2159
(2016); see id. at 178-80. This Court’s intervention is
needed to resolve this circuit conflict and eliminate
any confusion on whether the Montana exceptions
displace the inherent limits on tribal sovereignty.4

4

This issue split the Fifth Circuit in Dolgencorp. See 746
F.3d at 178 (Smith, J., dissenting) (criticizing panel majority for
upholding tribal jurisdiction “without a finding that jurisdiction
is ‘necessary to protect tribal self-government or to control
internal relations’”); see Dolgencorp, Inc. v. Mississippi Band of
Choctaw Indians, 746 F.3d 588, 590 (5th Cir. 2014) (Smith, J.,
joined by Jones, Clement, Owen, and Southwick, JJ., dissenting
from the denial of rehearing) (arguing that this independent
requirement is “plain” from this Court’s decisions).

20
B. The Ninth Circuit Vastly Expanded The
Scope Of Montana’s First Exception
The Ninth Circuit’s expansive interpretation of
the Montana exceptions also warrants review. In
finding that the Tribes had jurisdiction under the first
Montana exception, the Ninth Circuit held that “FMC
entered a consensual relationship with the Tribes,
both expressly and through its actions, when it
negotiated and entered into [a] permit agreement
with the Tribes” as to the fees at issue. App. 30a.
1. The Ninth Circuit’s decision conflicts with this
Court’s precedents confining the scope of the first
Montana exception. As this Court has explained,
“Montana’s list of cases fitting within the first
exception indicates the type of activities the Court
had in mind” for that exception. Strate, 520 U.S. at
457 (citation omitted); see Plains Commerce, 554 U.S.
at 332; Hicks, 533 U.S. at 372; see also Montana, 450
U.S. at 565-66 (citing cases). And what the cases cited
by the Court in Montana have in common is that they
all involved voluntary commercial relationships by
nonmembers who chose to go onto tribal land or do
business with a tribe or its members.
As the Court explained in Hicks, one of cases
involved “nonmember purchasers of cigarettes from
tribal outlets” on tribal lands; one involved a “general
store on the Navajo reservation”; one involved
“ranchers grazing livestock and horses on Indian
lands ‘under contracts with individual [tribal]
members’”; and one involved a tax on “nonmembers
for the ‘privilege . . . of trading within the borders’” of
tribal lands. 533 U.S. at 372 (descriptions taken from
parentheticals; citations omitted); see Plains
Commerce, 554 U.S. at 332-33 (summarizing cases).

21
The “consensual relationship” alleged here is
fundamentally different. Here, the agreement at
issue did not stem from FMC’s decision to do business
with the Tribes, or its use of tribal land. The Tribes
went to FMC and sought to regulate FMC’s own land.
FMC only agreed to pay the $1.5 million annual fee in
response to the Tribes’ assertion of the regulatory
power at issue—in a good faith effort to prevent the
assertion of broader regulatory jurisdiction that could
have interfered with FMC’s compliance with EPA’s
remediation plan. It would be perverse to construe
such an agreement as “consent” to the very tribal
jurisdiction it was intended to forestall.
Moreover, unlike the voluntary commercial
relationships in the cases cited in Montana, the
“consensual relationship” here cannot be terminated.
In other Montana cases, nonmembers could avoid—
and terminate—jurisdiction simply by choosing to no
longer do business with a tribe, or stay off tribal
lands. Here, FMC cannot do anything to terminate
the regulation short of removing the waste—which it
is not allowed to do under EPA’s plan. In other words,
the Ninth Circuit’s version of the first Montana
exception is like the “Hotel California”—you can
check out but you can never really leave. See Eagles,
Hotel California (Asylum Records 1976).5
5

The Ninth Circuit also pointed to the RCRA consent
decree, which it believed “required [FMC] to obtain tribal
permits.” App. 31a. But that is clearly wrong. First, as the
United States has already explained, nothing in the consent
decree recognized, much less created, any tribal jurisdiction to
impose any permits. See U.S. Amicus Br. § C, United States v.
FMC Corp., No. 06-35429 (9th Cir. May 14, 2007), 2007 WL
1899170. Indeed, the consent decree expressly states that it does
not create rights in anyone not a party to the decree. Id. And,

22
2. The decision below thus confirms the Ninth
Circuit’s sweeping conception of the first Montana
exception: in the Ninth Circuit, an agreement with a
tribe, even one involving non-Indian fee land,
establishes regulatory jurisdiction over the resulting
relationship—and adjudicatory jurisdiction to decide
the scope of such jurisdiction—as long as a
nonmember should have “reasonably anticipated that
its interactions might ‘trigger’ tribal regulatory
authority.” App. 30a, 32a (emphasis added) (citation
omitted). This case illustrates how broad that rule is.
FMC vigorously objected to the notion that it had
somehow agreed to pay a $1.5 million annual fee to
the Tribes for as long as waste remains on FMC’s
land.
But the Ninth Circuit—invoking its
“reasonabl[e] anticipation” test—declared that simply
by “enter[ing] into [a] permit agreement with the
Tribes,” FMC had agreed to give the Tribes the
regulatory power to impose that unprecedented
penalty, and the adjudicatory jurisdiction to interpret
the scope of that agreement. App. 30a-32a.6
The Ninth Circuit’s broad conception of the first
Montana exception is thus the epitome of an “in for a
penny, in for a [p]ound” regime. Atkinson Trading Co.
v. Shirley, 532 U.S. 645, 656 (2001) (citation omitted).
second, and in any event, anything FMC was “required” to do by
federal law or otherwise, can hardly establish the kind of
voluntary relationship embodied by the cases cited in Montana.
6

If this case had been brought as a breach-of-contract
action in state court, the Tribes would have had to establish
exactly what “contract” FMC had entered into, and its precise
terms. Moreover, under Idaho law, any contract that does not
specify its duration “is terminable at will by either party.” Zidell
Explorations, Inc. v. Conval Int’l, Ltd., 719 F.2d 1465, 1473 (9th
Cir. 1983); see 5 Corbin on Contracts § 24.29 (Online ed., 2019).

23
The crux of the Ninth Circuit’s holding on the first
Montana exception is that an agreement to pay
regulatory fees at one point in time creates perpetual
tribal jurisdiction to (1) adjudicate any disagreement
about the scope of that agreement, and (2) impose fees
and additional requirements, in essence, indefinitely.
That is precisely the sort of never-ending, impossibleto-revoke “consent” that this Court has emphatically
disclaimed in case after case, when propounding the
“limit[ed]” nature of the first Montana exception.
Plains Commerce, 554 U.S. at 332.
The Ninth Circuit’s reinvention of the first
Montana exception warrants certiorari.
C. The Ninth Circuit Vastly Expanded The
Scope Of Montana’s Second Exception
After expanding the first Montana exception
beyond recognition, the Ninth Circuit could have
stopped (after all, it had found jurisdiction to impose
the fees at issue). But instead, the Ninth Circuit went
out of its way to expand Montana’s second exception,
too. That ruling likewise warrants review.
This Court has explained that there is a
particularly “‘elevated threshold’” for Montana’s
second exception: “The conduct must do more than
injure the tribe, it must ‘imperil the subsistence’ of the
tribal community.” Plains Commerce, 554 U.S. 341
(citations omitted). The exception thus is a break-theglass, failsafe that confers jurisdiction when it is
“necessary to avert catastrophic consequences.” Id.
(citation omitted); see Atkinson Trading Co., 532 U.S.
at 657 n.12. And like the first exception, “Montana’s
second exception grants Indian tribes nothing ‘beyond
what is necessary to protect tribal self-government or
to control internal relations.’” Id. at 658-59 (citation

24
omitted). The decision below eradicates these limits,
in direct conflict with this Court’s precedent.
1. Once again, the Ninth Circuit failed to explain
how the regulation at issue (the $1.5M annual fee)
was necessary to protect tribal self-government.
Plains Commerce, 554 U.S. at 341; see Strate, 520 U.S.
at 459. And any such finding would directly conflict
with Montana itself. 450 U.S. at 565 n.13. There, this
Court held that tribal regulation of hunting and
fishing on non-Indian fee lands was not necessary to
protect tribal “self-government,” given that the State
of Montana had traditionally regulated the
nonmember activity at issue. The same goes here,
where EPA has extensively regulated the waste on
FMC’s property—and continues to regulate it.
2. The Ninth Circuit also rested its invocation of
the second Montana exception on a highly speculative
threat. While the court tried to paint the threat posed
by elemental phosphorus and its byproducts in the
most extreme terms,7 ultimately the court
acknowledged that FMC and “EPA ha[ve] taken
substantial steps to contain the toxic waste and
prevent harm.” App. 44a (quoting district court).
Indeed, EPA brought all the muscle of the federal
environmental laws to the situation, and designed
and imposed a remediation plan for the site that it
repeatedly determined would protect human health
and the environment. In compliance with federal
requirements, FMC has spent more than $100 million

7 While irrelevant to the legal issues presented here, the
Ninth Circuit’s opinion, like the tribal court decisions, misstates
the threat actually posed by the waste under EPA’s containment
plan. See CA9 FMC Response & Reply Br. 28-44.

25
in state-of-the-art soil caps, monitoring systems, and
other facilities. See supra at 5-6.
Yet, pointing to this Court’s statement in Plains
Commerce that a tribe may “seek to protect its
members from noxious uses that threaten tribal
welfare or security,” 554 U.S. at 336, the Ninth
Circuit held that there is jurisdiction under the
second Montana exception based on the theoretical
possibility that EPA’s plan will fail. As the court put
it, “no matter how well [a] containment system is
designed, the system may fail.” App. 44a (quoting
district court). But, if that were the way to analyze
risks, nuclear power plants could not be built, planes
could not fly, and most surgeries would be banned. By
holding that any risk, no matter how speculative,
triggers tribal jurisdiction, the Ninth Circuit’s
decision delegates to the Tribes the authority to
decide what activities are too risky to undertake on
non-Indian land on a reservation.
That sort of plenary tribal jurisdiction over
dangerous activities on non-tribal land cannot be
reconciled with this Court’s precedent. See Strate,
520 U.S. at 457–58 (“Undoubtedly, those who drive
carelessly on a public highway running through a
reservation endanger all in the vicinity, and surely
jeopardize the safety of tribal members. But if
Montana’s second exception requires no more, the
exception would severely shrink the rule.”).
Indeed, the determination of the federal agency
charged with protecting human health and the
environment that containing the waste on FMC’s
land—subject to EPA’s extensive controls—is safe
alone should defeat any argument that tribal
jurisdiction is “necessary to avert catastrophic
consequences.” Plains Commerce, 554 U.S. 341

26
(citation omitted).
The Tribes’ assertion of
jurisdiction is a direct affront to EPA’s finding. And
here, the Tribes must overcome history as well. As
the district court itself observed, and independent
studies have confirmed, even though the phosphorus
waste has existed on FMC’s property in large
quantities for more than 70 years, there has been “no
measurable harm” to humans or water quality. App.
73a-74a (emphasis added); see id. at 72a. In the face
of such experience, the argument that tribal
jurisdiction is “necessary” is the height of speculation.
3. Finally, and perhaps most startlingly, the Ninth
Circuit held that the Tribes were not even required to
explain how the regulation at issue was to be used to
address the alleged threat. App. 48a. It is undisputed
that the imposition of a $1.5 million annual fee does
nothing to make any “catastrophic consequence[]” less
likely. App. 44a-45a (citation omitted). The Ninth
Circuit nevertheless held that this was immaterial,
stating that “[t]here is nothing . . . requiring the
Tribes to show that the $1.5M annual use permit fee
be spent on supplemental measures, beyond those
now being taken by EPA, to protect against hazards
posed by FMC’s hazardous waste.” Id. at 47a; see also
id. at 47a-48a (suggesting, remarkably, that a tribe
might “charge substantially more,” including up to
“$3.3 billion.”) That cannot be correct. The second
Montana exception applies only when a regulation is
“necessary to avert” the alleged harm—a regulation
that concededly does nothing to reduce the alleged
harm to begin with cannot possibly qualify.
The Ninth Circuit analogized the $1.5M annual
fee at issue here to “storage” fees charged by waste
disposal facilities. Id. at 47a. But such storage fees
are paid to private companies that take and dispose

27
of the waste. Here, the Tribes have not taken the
waste, and are doing nothing to the waste; they
simply seek to extract fees from FMC for FMC’s own
containment of waste on FMC’s own land. In essence,
therefore, the fees at issue operate as a penalty, with
no demonstrated nexus to the threat that the Tribes
supposedly are seeking to alleviate. This Court has
never remotely suggested that Montana’s second
exception can be invoked in such a manner.
Here again, the decision below parts with other
circuits, which have heeded this Court’s admonitions
on the narrow scope of Montana’s second exception.
See, e.g., Stifel, Nicolaus & Co. v. Lac du Flambeau
Band of Lake Superior Chippewa Indians, 807 F.3d
184, 209 (7th Cir. 2015) (holding that adverse
“financial consequences” to a tribe cannot qualify
under Montana’s second exception because they do
not “threaten[] the right of tribal members ‘to make
their own laws and be ruled by them’”); Belcourt Pub.
Sch. Dist. v. Davis, 786 F.3d 653, 660 (8th Cir. 2015)
(noting that “a lax application or overly broad reading
of the second Montana exception would render
meaningless Montana’s general rule,” and thus
rejecting tribal jurisdiction over various claims,
including excessive force, arising from a nonmember
operating a school on tribal land). The Ninth Circuit,
by contrast, has eviscerated Montana’s limits.
The Ninth Circuit’s wholly unnecessary, and
wildly expansive, ruling on the second Montana
exception warrants this Court’s review.

28
D. All Told, The Ninth Circuit’s Revamped
Montana Framework “Swallows The
Rule” That Tribes Presumptively Lack
Jurisdiction Over Nonmembers
The decision below represents nothing less than a
ground-up overhaul of the Montana framework. This
Court has repeatedly emphasized that the Montana
exceptions should not be interpreted in a way that
“swallow[s]” or “severely shrinks” the general rule
that tribal regulation of nonmembers is invalid.
Plains Commerce, 554 U.S. at 330 (citations omitted);
Atkinson Trading Co., 532 U.S. at 655. Yet, the
decision below does just that—in several independent
ways—transforming
tribal
jurisdiction
over
nonmembers into the rule, not a rare exception.
Based on the decision below, a tribe may now
(under Montana’s first exception) assert unfettered
regulatory and adjudicatory jurisdiction over
nonmembers who enter into any sort of contractual
arrangement with the tribe. A tribe no longer has to
show the agreement’s nexus to self-government or
control of internal relations, and it is immaterial
whether the agreement itself disclaims or seeks to
limit tribal jurisdiction. And separately, even where
no contract has been signed, a tribe may assert
jurisdiction (under Montana’s second exception) to
regulate hazardous activity occurring on fee lands—
even where the relevant activity is already
extensively regulated by federal or state law, and the
tribal regulation consists of a penalty which does
nothing to remove or reduce the asserted threat.
This Court has never remotely suggested that
tribal jurisdiction over nonmembers is so expansive.
And because the Ninth Circuit—answering in the

29
Tribes’ favor yet another question reserved by this
Court’s precedent—held that a tribe’s adjudicatory
jurisdiction extends as far as its regulatory
jurisdiction, the decision below will channel
nonmembers into tribal court almost as a matter of
course. Indeed, because tribal exhaustion is required
for any colorable claim of tribal jurisdiction (see
Strate, 520 U.S. at 448), virtually every case involving
a tribe will now have to be adjudicated in tribal court
for starters—since there will almost always be at
least a colorable argument for tribal jurisdiction
under the reasoning of the decision below.
As this case underscores, that too will have farreaching consequences. FMC spent over a decade
litigating this case before the Tribes themselves, in
proceedings marked by striking irregularities and
blatant bias. See supra at 9-10. In reality, most
parties simply cannot afford to litigate their way
through the maze of the tribal courts for years simply
to see the inside of a federal courtroom. It is for that
reason that this Court’s tribal exhaustion
requirement has always been premised on the highly
limited scope of tribal jurisdiction. But in the Ninth
Circuit, that limited scope is no more:
Tribal
jurisdiction is now firmly the norm, not the exception.
II. THIS CASE PRESENTS A RECURRING
ISSUE
OF
UNQUESTIONABLE
IMPORTANCE AND WARRANTS THIS
COURT’S INTERVENTION HERE
A. This Court Has Repeatedly Recognized
The Need To Enforce The Limits On
Tribal Jurisdiction Over Nonmembers
This Court has long recognized the importance of
properly defining the scope of tribal jurisdiction over

30
nonmembers, and has repeatedly intervened when
lower courts have misapplied the Montana
framework—even absent any circuit conflict. Indeed,
this Court twice in recent years has granted certiorari
to address the reach of Montana’s exceptions in the
absence of such a conflict. See Dollar General Corp.,
136 S. Ct. at 2159; Plains Commerce, 554 U.S. at 320;
see also Hicks, 533 U.S. at 357. This case presents a
clear circuit conflict—in addition to the same need to
clarify the limits of Montana’s exceptions.
“The ability of nonmembers to know where tribal
jurisdiction begins and ends . . . is a matter of real,
practical consequence.” Hicks, 533 U.S. at 383
(Souter, J., concurring). The Ninth Circuit’s decision
creates enormous uncertainty for any person or entity
doing business with a tribe, or operating on or
adjacent to tribal land. Tribal and nonmember
communities are often economically and socially
interdependent, to the mutual benefit of both. In a
circuit that is home to over 400 Indian tribes, there
are countless relationships that could be impacted.
The Ninth Circuit’s holding on the first Montana
exception implicates virtually all contractual
relationships between tribes and nonmembers, which
may now form the basis for purported “consent” to
tribal jurisdiction—even when (as here) the relevant
agreement was entered into years, if not decades, ago.
In each of these countless relationships, nonmembers
risk being subjected to onerous regulatory demands,
or being haled into tribal courts that operate without
fundamental constitutional guarantees. Moreover,
the Ninth Circuit’s decision invites tribes to impose
new demands on nonmembers in an effort to spur
settlement agreements that can then be used to

31
manufacture jurisdiction—a sure recipe for conflict.
This alone warrants this Court’s intervention.
The Ninth Circuit’s holding as to Montana’s
second exception will also imperil settled
expectations. Because the mere possibility of harm to
tribal welfare is now grounds to invoke jurisdiction—
even based on materials contained entirely on nontribal land—any entity who owns or uses land within
a reservation now risks being subject to tribal
jurisdiction. For example, under the Ninth Circuit’s
decision, tribes could seek to impose new and farreaching fees on nonmembers for ubiquitous activities
like the transportation of hazardous materials on
public roadways or tracks within the boundaries of a
reservation. See App. 34a-36a. And businesses
operating on fee lands within a reservation could be
subjected to new “permit fees” based on alleged
threats stemming from such operations.
Because (as discussed above) only colorable tribal
jurisdiction is needed to trigger the exhaustion
requirement, the decision below also will have farreaching implications even in cases where jurisdiction
would ultimately be deemed to not lie with the tribe.
In the best case scenario, nonmembers could spend
years or decades tied up in tribal litigation, before
having their rights vindicated in federal court. Much
more likely, they will be forced to settle well before
seeing the inside of a federal court. Either way, there
are few areas of the law where uncertainty can have
such dramatic consequences; and the decision below,
at a minimum, fosters enormous uncertainty.
The decision below could harm Indian tribes, too.
If the Ninth Circuit’s ruling is left to stand,
commercial entities will be wary if not unwilling to
enter into contractual arrangements with tribes, for

32
fear of automatically subjecting themselves to broadbased tribal jurisdiction. Businesses might likewise
be wary of operating on or close to tribal land. But
such relationships with nonmembers are often the
lifeblood of the tribal economy, and withdrawal by
nonmembers from tribal communities—where
unemployment is already high and access to
commercial services is low—could be devastating to
tribal welfare.
See Unemployment on Indian
Reservations at 50 Percent: The Urgent Need to Create
Jobs in Indian Country: Hearing Before the S. Comm.
on Indian Affairs, 111th Cong. (2010).
The decision below also invites conflict among
tribes and federal, state, and local governments.
Here, for example, the Tribes’ assertion of authority
is directly at odds with EPA’s own determinations as
to the threat posed by the waste on FMC’s land. EPA
approved a containment plan that keeps waste on
FMC’s land subject to EPA’s controls based on the
premise that doing so is protective of human health
and the environment, see supra at 6; yet the Tribes’
assertion of regulatory jurisdiction here is based on
the opposite premise. The only way FMC can avoid a
penalty under tribal law is to remove the waste from
the land, but doing so would violate federal law.
Those directly conflicting regulatory requirements
place regulated parties in an impossible situation and
undercut the effectiveness of federal and state law.
The state of Indian law in the Ninth Circuit is a
matter of singular importance, given that two-thirds
of the nation’s Indian tribes are based in the circuit,
as well as scores of reservations. California alone has
more than 100 Indian reservations—the most of any
State. And the division in authority between the
Ninth and other circuits—including the Eighth

33
Circuit, which is also home to many Indian tribes—is
itself of major practical significance. The rights of
both tribes and nonmembers should not vary based on
the happenstance of geography. Yet, the decision
below creates the very real possibility that the scope
of an individual tribe’s sovereign power will turn on
which jurisdiction it happens to be operating in, as
will the fundamental rights of identically situated
nonmembers.
Only this Court’s review can
reestablish nationwide uniformity and consistency in
the scope of tribal jurisdiction over nonmembers.
B. This Case Presents An Ideal Vehicle To
Clarify And Reinforce The Limits Of
Tribal Jurisdiction Over Nonmembers
This case presents an exceptionally clean vehicle
for the Court’s review. The Ninth Circuit’s opinion
squarely addresses the Montana framework in
unusually strong, frank, and unequivocal language.
The decision below is a final judgment that
conclusively determines the parties’ rights, and
therefore the last opportunity for this or any court to
address the questions presented here. And those
questions are without doubt outcome determinative.
Moreover, unlike many tribal jurisdiction cases,
which reach federal court before tribal exhaustion—
and thus present only the question of whether tribal
jurisdiction is “colorable”—FMC has fully exhausted
its remedies in tribal court, and there is no other
procedural impediment to this Court’s review. The
opportunity for this Court to review a case in such a
posture is rare, in light of the often inexorable
pressure to settle cases rather than endure years of
tribal litigation before reaching the first step of
federal review.
This case also presents an

34
opportunity to address both Montana exceptions, and
thus the Montana framework as a whole.
Moreover, this case involves both a tribe’s
assertion of regulatory and adjudicatory authority.
Indeed, the Ninth Circuit separately ruled that the
Tribes had both forms of jurisdiction, and were thus
permitted to impose the $1.5 million annual fee both
as a result of their regulatory power to require
permits and their adjudicatory power to interpret the
agreement as mandating fees indefinitely. App. 48a.
The practical consequences of the Tribes’ assertion of
jurisdiction in this case are also unusually penal. The
Tribes assert a right to extract an annual $1.5 million
fee from FMC—in perpetuity.
That is an
uncommonly harsh if not unprecedented penalty.
In short, it is difficult to imagine a better or more
compelling case for clarifying the limits of tribal
jurisdiction over nonmembers.

35
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
GREGORY G. GARRE
Counsel of Record
ELANA NIGHTINGALE DAWSON
SAMIR DEGER-SEN
GENEVIEVE P. HOFFMAN
ALLISON HERZOG
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
Counsel for Petitioner
March 16, 2020

APPENDIX

TABLE OF CONTENTS
Page
Opinion of the United States Court of Appeals
for the Ninth Circuit, FMC Corp. v.
Shoshone-Bannock Tribes, 942 F.3d 916
(9th Cir. 2019) .....................................................1a
Memorandum Decision and Order of the
United
States
District
Court
for
the District of Idaho, FMC Corp. v.
Shoshone-Bannock Tribes, No. 4:14-CV489-BLW, 2017 WL 4322393 (D. Idaho
Sept. 28, 2017) ..................................................56a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc, FMC Corp. v.
Shoshone-Bannock Tribes, Nos. 17-35840,
17-35865 (9th Cir. Jan. 13, 2020).....................90a
Opinion, Order, Findings of Fact and
Conclusions of Law, Shoshone-Bannock
Tribes Land Use Department and Fort Hall
Business Council v. FMC Corp., Nos. C-060069, C-07-0017, C-07-0035 (Tribal Ct.
App. filed Apr. 30, 2014), ER63-78 ..................92a
Amended Findings of Fact, Conclusions of
Law, Opinion and Order Re Attorney
Fees and Costs, Nunc Pro Tunc, ShoshoneBannock Tribes Land Use Department
and Fort Hall Business Council v. FMC
Corp., Nos. C-06-0069, C-07-0017, C-070035 (Tribal Ct. App. filed Feb. 5, 2013),
ER119-37 .........................................................111a

ii
Page
Amended Nunc Pro Tunc Findings of Fact,
Conclusions of Law, Opinion and Order,
FMC Corp. v. Shoshone-Bannock Tribes
Land Use Department and Fort Hall
Business Council, Nos. C-06-0069, C-070017, C-07-0035 (Tribal Ct. App. filed June
14, 2012), ER158-224......................................136a
Opinion, FMC Corp. v. Shoshone-Bannock
Tribes’ Land Use Department and Fort
Hall Business Council and Shoshone
Bannock Tribes’ Land Use Policy
Commission, Nos. C-06-0069, C-07-0017,
C-07-0035 (Tribal Ct. May 21, 2008),
ER293-311 .......................................................225a

1a
UNITED STATES COURT OF APPEALS,
NINTH CIRCUIT
FMC CORPORATION, PlaintiffAppellant/ Cross-Appellee,
v.
SHOSHONE-BANNOCK TRIBES, DefendantAppellee/ Cross-Appellant.
Nos. 17-35840
17-35865
Argued and Submitted May 17, 2019 Seattle,
Washington
Filed November 15, 2019
942 F.3d 916
Before: MICHAEL DALY HAWKINS and
WILLIAM A. FLETCHER, Circuit Judges, and
DAVID C. BURY,* District Judge.
OPINION
W. FLETCHER, Circuit Judge:
For over 50 years, FMC Corporation (“FMC”)
operated an elemental phosphorus plant on fee land
within the Shoshone-Bannock Fort Hall Reservation
(“Reservation”) in Idaho. FMC’s operations produced
approximately 22 million tons of hazardous waste
that is currently stored on the Reservation. The
waste is radioactive, carcinogenic, and poisonous.
In 1990, the U.S. Environmental Protection
Agency (“EPA”) declared FMC’s plant and storage
*
The Honorable David C. Bury, United States District
Judge for the District of Arizona, sitting by designation.

2a
area, together with an adjoining off-reservation plant
owned by J.R. Simplot, a Superfund Site under the
Comprehensive
Environmental
Response,
Compensation and Liability Act (“CERCLA”). In
1997, the EPA further charged FMC with violating
the Resource Conservation and Recovery Act
(“RCRA”). A Consent Decree settling the RCRA suit
required FMC to obtain permits from the ShoshoneBannock Tribes (“the Tribes”). FMC and the Tribes
negotiated an agreement under which FMC agreed to
pay $1.5 million per year for a tribal use permit
allowing storage of hazardous waste. FMC paid the
annual use permit fee from 1998 to 2001 but refused
to pay the fee in 2002 after ceasing active plant
operations.
FMC has continued to store the
hazardous waste on the Reservation despite its
failure to pay the use permit fee.
The Tribes sued FMC in Tribal Court, seeking
inter alia payment of the annual $1.5 million use
permit fee for waste storage. Under Montana v.
United States, 450 U.S. 544, 101 S.Ct. 1245, 67
L.Ed.2d 493 (1981), there are two potentially relevant
bases for tribal jurisdiction in this case—two of the
three so-called “Montana exceptions.” First, “[a] tribe
may regulate, through taxation, licensing, or other
means, the activities of nonmembers who enter
consensual relationships with the tribe or its
members, through commercial dealing, contracts,
leases, or other arrangements.” Id. at 565, 101 S.Ct.
1245. Second, “[a] tribe may also retain inherent
power to exercise civil authority over the conduct of
non-Indians on fee lands within its reservation when
that conduct threatens or has some direct effect on the
political integrity, the economic security, or the
health or welfare of the tribe.” Id. at 566, 101 S.Ct.

3a
1245. After years of litigation, the Tribal Court of
Appeals held in 2014 that the Tribes have regulatory
and adjudicatory jurisdiction over FMC under both
Montana exceptions. The court held that FMC owed
$19.5 million in unpaid use permit fees for hazardous
waste storage from 2002 to 2014, and $1.5 million in
annual fees going forward.
After the decision of the Tribal Court of Appeals,
FMC sued the Tribes in federal district court. FMC
argued that the Tribes did not have jurisdiction under
either of the Montana exceptions; that the Tribal
Court of Appeals denied FMC due process because
two judges on the Tribal Court of Appeals were biased
against FMC; and that the judgment by the Tribal
Court of Appeals was unenforceable. The Tribes
counterclaimed, seeking an order recognizing and
enforcing the judgment of the Tribal Court of Appeals.
The district court held that the Tribes had regulatory
and adjudicatory jurisdiction under both Montana
exceptions, that the Tribal Court of Appeals had not
denied FMC due process, and that the Tribal Court of
Appeals’ judgment was entitled to comity, and was
therefore enforceable, under the first but not the
second Montana exception.
FMC appeals the district court’s judgment in favor
of the Tribes. The Tribes cross-appeal the district
court’s decision that the Tribal Court of Appeals’
judgment is not enforceable under the second
Montana exception.
We affirm the judgment of the district court. We
hold that the judgment of the Tribal Court of Appeals
is enforceable under both Montana exceptions.

4a
I. Factual and Procedural Background
The Shoshone-Bannock Tribes are a federally
recognized Indian tribe comprising the eastern and
western bands of the Northern Shoshone and the
Bannock, or Northern Paiute, bands. The Tribes are
organized under the Indian Reorganization Act of
1934, 25 U.S.C. §§ 5101 et seq., and are governed by
the Fort Hall Business Council, a legislative body
consisting of seven elected members. ShoshoneBannock
Tribes,
Tribal
Government,
http://www2.sbtribes.com/government (last visited
Sept. 19, 2019). The ancestral lands of the Tribes
included land in present-day Idaho, Oregon,
Nevada, Utah, Wyoming, Montana, and parts
of Canada.
See Shoshone-Bannock Tribes,
http://www2.sbtribes.com/about (last visited Sept. 19,
2019). Pursuant to the Fort Bridger Treaty of 1868,
15 Stat. 673, and related executive orders, the Tribes
today have sovereign authority over the Fort Hall
Reservation. The Fort Hall Reservation originally
encompassed approximately 1.8 million acres, or
2,800 square miles. See id. The Reservation now
encompasses approximately 544,000 acres, or 840
square miles, in what is now southeastern Idaho.
Ninety-seven percent of the Reservation is tribal land
or land held in trust by the United States for the
benefit of the Tribes and their members.
Approximately three percent of the Reservation is fee
land owned by non-members.
A. FMC’s Phosphorus Plant, Consent
Decree, and Permit Fees
From 1949 to 2001, FMC Corporation and its
predecessors owned and operated an elemental
phosphorus production plant occupying 1,450 acres.

5a
Virtually all of the property is fee land on the Fort
Hall Reservation. FMC’s plant was the largest
elemental phosphorus plant in the world. FMC
Idaho, Plant History, http://fmcidaho.com/planthistory (last visited Sept. 19, 2019). For most of its
operation, FMC obtained or mined raw materials for
its plant from tribal and allottee lands on the
Reservation. See, e.g., id.
Hazardous waste from the plant’s 52 years of
operation contaminates FMC’s land on the
Reservation.
Approximately 22 million tons of
hazardous waste are stored in waste storage ponds on
the site. Some storage ponds are capped. Some are
not.
Some ponds are lined.
Some are not.
Phosphorus, arsenic, and other hazardous materials
contaminate an additional 1 million tons of loose soil
and groundwater throughout the site. Millions of tons
of slag containing radioactive materials contaminate
the site. Somewhere between twenty one and thirty
railroad tanker cars containing toxic phosphorous
sludge are buried on the property. There is no lining
underneath the tanker cars and no cap above them.
As will be described in greater detail below, the
hazardous waste in the storage ponds, tanker cars,
soil, groundwater, and air at the site is radioactive,
carcinogenic, and poisonous.
In 1990, EPA declared the FMC plant, as well
as an adjoining off-reservation plant owned
by a different company, J.R. Simplot, as a
National Priority List Superfund Site—the “Eastern
Michaud Flats” site—under CERCLA. See 55 Fed.
Reg. 35502, 35507. The National Priorities List is a
list of the nation’s “worst hazardous waste
sites.”
EPA, Superfund Cleanup Process,

6a
https://www.epa.gov/superfund/superfund-cleanupprocess (last visited Sept. 19, 2019).
In 1997, EPA charged FMC with violating RCRA.
RCRA regulates the disposal of solid and hazardous
waste. To avoid litigation, FMC began negotiations
with the EPA over the terms of a possible Consent
Decree that would settle the RCRA suit. Though not
a formal party, the Tribes participated in the
negotiations. Among other measures, the proposed
RCRA Consent Decree required construction of a
treatment facility and additional waste storage ponds
on FMC’s fee land on the Reservation. As a condition
to obtaining the Consent Decree, the EPA required
FMC to obtain relevant permits from the Tribes. See
Consent Decree, Case No. 4:98-cv-00406-BLW (D.
Idaho, July 13, 1998).
Pursuant to the Tribes’ Land Use Policy
Ordinance (“LUPO” or “Ordinance”) and associated
Guidelines, the relevant tribal permits included a
building permit for construction of the treatment
facility and waste storage ponds, and a use permit for
storage of the hazardous waste. FMC and the Tribes
met in July 1997 to discuss the permits. During
negotiations, FMC consented to tribal jurisdiction.
See, e.g., Letter from the Land Use Policy Commission
to FMC (Aug. 6, 1997) (stating that following the July
meeting, “We understood that FMC would recognize
tribal jurisdiction within the exterior boundaries of
the Fort Hall Indian Reservation.”); Letter from J.
Paul McGrath, Senior Vice President and General
Counsel and Secretary of FMC, to the Fort Hall
Business Council, Shoshone-Bannock Tribes (Oct. 30,
1997) (stating “[i]n connection with the land use
permit, we did agree that we would consent to tribal

7a
jurisdiction in that area”). FMC applied for the
building and use permits in August 1997.
While negotiations were proceeding, the Tribes
considered and then adopted amended LUPO
Guidelines for storage of hazardous waste on the
Reservation. The Tribes finalized the amended
Guidelines in April 1998. The amended Guidelines
required an annual use permit for storage of
hazardous waste on the Reservation, with an annual
fee of $5.00 per ton. Money from use permit fees was
to be “deposited in the Shoshone-Bannock Hazardous
Waste Management Program Fund,” and to be used
“to pay the reasonable and necessary costs of
administrating the Hazardous Waste Management
Program.” Amendments to Chapter V: Fort Hall
Land Use Operative Policy Guidelines, § V-9-2(B)
(1998).
The Land Use Policy Commission (“LUPC” or
“Commission”), the Tribes’ administrative and
enforcement body for the Ordinance, notified FMC of
the amended Guidelines. FMC estimated that the $5
per ton storage fee would cost over $110 million per
year. FMC sought to negotiate a compromise with the
Tribes. FMC Corp. v. Tribes, No. 4:14-CV-489-BLW,
2017 WL 4322393, at *2 (D. Idaho Sept. 28, 2017).
In May and June 1998, the Tribes and FMC
negotiated an agreement under which FMC agreed to
a one-time fee of $1 million and an annual use permit
fee of $1.5 million to cover FMC’s storage of its
hazardous waste on the Reservation. See Letter from
LUPC to FMC (May 19, 1998). The parties agreed
that FMC was required to obtain a use permit and to
pay the $1.5 million fee even if FMC capped and
closed the eleven hazardous waste ponds that were
subject to the RCRA Consent Decree (the “RCRA

8a
ponds”). See id. (stating that FMC agreed to pay the
annual use permit fee “beginning on June 1, 1999,
and for every year thereafter”); Letter from J. Paul
McGrath, Senior Vice President and General Counsel
and Secretary of FMC, to LUPC (June 2, 1998) (“[I]t
is our understanding that the permit covers the plant
and that the $1.5 million annual fee would continue
to be paid for the future even if the use of ponds 17–
19 was terminated in the next several years.”);
Affidavit of Robert J. Fields, Division Manager of
FMC (Oct. 20, 2000) (stating that he participated in
the negotiations with the Tribes and that the June 2,
1998 letter from FMC was intended to confirm FMC’s
shared understanding that the use permit covered the
entire facility and that FMC’s agreement to pay $1.5
million per year would not end when Ponds 17, 18 and
19 were closed pursuant to the Consent Decree). FMC
paid its first fee on June 1, 1998.
A few months later, FMC and the EPA agreed to a
Consent Decree to settle the RCRA suit. FMC Corp.
v. Tribes, 2017 WL 4322393 at *3. Paragraph 8 of the
Consent
Decree
memorialized
the
Decree’s
requirement that FMC obtain permits from the
Tribes: “Where any portion of the Work requires a . . .
tribal permit or approval, [FMC] shall submit timely
and complete applications and take all other actions
necessary to obtain all such permits or approvals.”
See Consent Decree, No. 4:98-CV-00406-BLW, ¶ 8 (D.
Idaho July 13, 1998).
Pursuant to the Consent Decree, FMC agreed to
pay a fine to the U.S. government of $11.9 million, to
install a range of upgrades in its handling of waste,
and to cap nine of the eleven RCRA ponds covered by
the Consent Decree. FMC Corp. v. Tribes, 2017 WL
4322393 at *3. Between 1999 and 2005, FMC capped

9a
and/or closed the RCRA ponds. Id. at *4. In 2005,
FMC certified that the last of the RCRA ponds had
been capped and/or closed.
B. Prior Federal Court Proceedings
From 1998 to 2001, FMC paid the Tribes the
annual use permit fee of $1.5 million pursuant to its
1998 agreement with the Tribes. In December 2001,
FMC stopped all active phosphorus processing
operations at the site. When the $1.5 million use
permit fee came due in 2002, FMC refused to pay it.
After negotiations failed, the Tribes filed a motion
in the RCRA Consent Decree action in federal district
court, seeking a declaration that FMC was required
by the Consent Decree to obtain tribal permits for
waste storage on the Reservation. Id. The district
court held that “(1) the Tribes had jurisdiction over
FMC under the first Montana exception . . . , (2) FMC
was required to apply for Tribal permits based on
FMC’s agreement to submit to tribal jurisdiction in
¶ 8 of the RCRA Consent Decree, (3) the Tribes were
intended third-party beneficiaries of the Consent
Decree and therefore had a right to enforce its terms,
and (4) FMC was required to exhaust tribal remedies
over any challenges to the Tribal permit decisions.”
FMC Corp. v. Tribes, 2017 WL 4322393 at *4; see
United States v. FMC, No. CV-98-0406-E-BLW, 2006
WL 544505 (D. Idaho 2006).
On appeal from the district court, we addressed
only the third of the district court’s holdings. We held
that the Tribes were incidental rather than intended
beneficiaries of the Consent Decree and therefore had
no right to judicial enforcement of the Decree. United
States v. FMC, 531 F.3d 813, 815 (9th Cir. 2008). We
remanded to the district court with instructions to

10a
dismiss the Tribes’ suit. Id. at 824. However, we
noted that during the pendency of the appeal to our
court “FMC began the process of applying for tribal
permits, which is the main relief that the Tribes have
sought in this action.” Id. at 823. We explicitly noted
and relied on a representation by FMC. We wrote:
At oral argument, the Tribes expressed their
concern that, if we were to hold that the Tribes
lack standing to enforce the Consent Decree,
FMC would withdraw its permit applications
and undo the progress made to date on the
proper resolution of this dispute. In response
to questioning from the panel, FMC’s lawyer
represented to the court that FMC understands
that it has the obligation to continue, and will
continue, with the current tribal proceedings to
their conclusion. We accept that statement
from counsel as binding on FMC.
Id. at 823–24.
C. Tribal Proceedings
In 2006, after entry of the district court’s order but
while FMC’s aforementioned appeal to our court was
still pending, FMC applied to the Tribes’ Land Use
Policy Commission for a building permit for
demolition activities and a use permit for continued
storage of the waste. Following notice and a public
hearing, the Commission granted FMC’s applications
for the two permits. See Findings of Fact and Decision
on FMC Application for Building Permit for Activities
at the FMC Pocatello Plant (Land Use Policy
Commission, Apr. 25, 2006); Findings of Fact and
Decision on FMC Application for Special Use Permit
for Activities at the FMC Pocatello Plant (Land Use
Policy Commission, Apr. 25, 2006). The Commission

11a
concluded that it had regulatory jurisdiction under
both Montana exceptions to require FMC to obtain
the permits. The Commission assessed a one-time
building permit fee at $3,000 for demolition activities
during that year. The Commission also assessed
FMC’s use permit fee for storage of hazardous waste
at the previously agreed $1.5 million annual rate.
The Commission provided, as an alternative, that
FMC could choose to pay the higher $5 per ton fee
based on the weight of the waste stored on FMC’s
property on the Reservation, pursuant to the Tribes’
amended Guidelines. Id.
FMC appealed the Commission’s decision to the
governing body of the Tribes, the Fort Hall Business
Council (“Council”). On July 21, 2006, the Council
affirmed the Commission’s decision.
Fort Hall
Business Council Decision Regarding FMC’s Appeals
of the April 25, 2006 Land Use Permit Decisions (July
21, 2006). On February 8, 2007, the Commission
issued a “letter resolution” setting the use permit fee
at the agreed-upon $1.5 million. FMC again appealed
the Commission’s decision to the Council. On June
14, 2007, the Council affirmed the Commission’s
decision.
FMC appealed the Council’s and the Commission’s
decisions to the Tribal Court.
(The ShoshoneBannock tribal court system consists of a trial court
and an appellate court—the “Tribal Court” and the
“Tribal Court of Appeals.”) The Tribal Court held
inter alia that, pursuant to the Tribes’ laws, the
Tribes were required to submit their Land Use Policy
Guidelines and the Hazardous Waste Management
Act of 2001, upon which the tribal use permit
requirement was premised, to the Secretary of the
Interior for approval. FMC Corp. v. Shoshone-

12a
Bannock Tribes’ Fort Hall Business Council and Land
Use Policy Commission, Case Nos. C-06-0069, C-070017, C-07-0035 (Shoshone-Bannock Tribal Court,
Civil Division, May 21, 2008). The Tribal Court found
that the Guidelines and the Act had not been
approved by the Secretary of the Interior, and
therefore, were unenforceable as a matter of tribal
law.
In June 2008, the Tribes and FMC cross-appealed
to the Tribal Court of Appeals. The members of that
court were Judges Fred Gabourie, Mary Pearson, and
Cathy Silak. None of them is a member of the
Shoshone-Bannock Tribes. Judge Gabourie is a
former California state court judge, former Chief
Judge for the Kootenai Tribe of Idaho, and a former
prosecutor and city attorney. Judge Pearson is a
former Chief Judge for the Spokane Tribe and the
Coeur d’Alene Tribe. Judge Silak is a former Justice
of the Idaho Supreme Court.
1. Conference Remarks by Judges
Gabourie and Pearson
While the case was pending before the Tribal
Court of Appeals, Judges Gabourie and Pearson spoke
at a conference entitled “Tribal Courts: Jurisdiction
and Best Practices” convened by the University of
Idaho College of Law on March 23, 2012. In the
audience were law students, tribal court
practitioners, other lawyers, and members of the
public. The conference was videotaped. FMC’s
counsel attended the judges’ presentation.
Judge Gabourie described the manner in which
tribal appellate court decisions come before federal
courts, and he noted that very few federal court judges
have experience with tribes. He stated that “every

13a
court has—should be impartial” and “a good opinion
comes [from] both sides, both parties. Because both
parties rely on a good opinion, strong opinion.” He
stated that a tribal appellate court decision should
discuss the tribe’s tradition and culture so that judges
in the federal system have some context when they
read the decision. He stated that an appellate judge
has a responsibility to remand the case for testimony
from expert witnesses if there is a weakness in the
record. He discussed limitations on tribes’ sovereign
powers under current law, and how, in light of
Supreme Court decisions like Montana, “which has
just been murderous to Indian tribes,” it is important
for tribes to support good appellate courts that can
issue strong opinions in the event issues are heard in
a federal court. He discussed Nevada v. Hicks, 533
U.S. 353, 121 S.Ct. 2304, 150 L.Ed.2d 398 (2001), and
Strate v. A-1 Contractors, 520 U.S. 438, 117 S.Ct.
1404, 137 L.Ed.2d 661 (1997), noting that the tribal
appellate court decisions had not been good, and that,
as a result, the U.S. Supreme Court did not have vital
information about the tribes’ cultures and traditions.
Judge Pearson discussed the importance of tribal
attorneys creating a record at the tribal trial court
level. She stated tribal attorneys should involve the
tribe in the “big cases.” She noted that they had a big
case at that moment that they knew was “going to go
up,” so they were saying prayers, reading cases, and
“trying to do . . . the history.” She described Bugenig
v. Hoopa Valley Tribe, 266 F.3d 1201 (9th Cir. 2001),
as a case where the tribal lawyers had effectively laid
out the history for the tribal trial and appellate
courts.
She discussed the importance of this
responsibility—how “[you] just need to make sure

14a
that you do the job right”—since non-Indian federal
judges were reviewing the decisions.
In response to questions, Judge Gabourie
discussed the value of anthropologists and scientists
testifying in tribal court cases. He stated that the use
of experts in Bugenig was a model for tribes seeking
to protect their sovereignty, traditions, and cultures.
Expanding on his earlier discussion of experts, Judge
Gabourie stated:
You know, there’s one area, too, there are tribes
that have had mining and other operations
going on, on the reservation, you know, and
then the mining company or whatever,
manufacturing company, disappears. They
leave, you know. They’ve . . . either dug
everything they could, and then the ground is
disturbed, sometimes polluted beyond repair.
And you sit as . . . an appellate court justice,
and you’re starting to read the cases that come
down from the tribal court. And you’re saying
to yourself, you know, we know that . . . there’s
pollution, that the food that they’re eating is
polluted, the water’s polluted, but nobody
proved it. And while John Jones said that it is
polluted, you know, John Jones don’t count.
But the tribal courts have got to realize that you
need expert witnesses. You need chemists and
whatever to get out of testifying. It may cost a
little, but so the appellate court is in a position
of remanding that case back and say “do it.”
You know, you made—and you’re really being
fair to both sides. . . . That’s why you need the
expert witnesses to cover those loose ends, you
know, so when it finally goes to the—whatever

15a
circuit it may go to, they can see that there’s
been some experts testifying on behalf. Maybe
experts that testify on behalf of the mining
company, but experts nonetheless. Well, you
can be damn sure that the mining company’s
going to spend the money to protect their
interest, you know.
So the appellate courts have got to step in and
in their own way, make a good, balanced
decision, a hundred-percenter for both sides,
but be sure to protect the tribe. And that’s my
own opinion, that last sentence.
Judge Pearson clarified, “We’re not guaranteeing
anybody anything.” Judge Pearson advised the
audience:
Well, I encourage you to get the Bugenig
handouts, because it’s really important. If
you’re a law student and you’re going to
practice law, as well as if you’re a judge and
you’re going to be hearing cases, you know
where—companies come on the reservations
and do business for X number of years and they
dirty up your groundwater and your other
things, and they go out of business. And they
leave you just sitting. And you need to know
what you can do as you’re sitting as a judge
with those cases coming toward you.
2. Decisions of the Tribal
Court of Appeals
Just over a month later, on May 8, 2012, the Tribal
Court of Appeals issued an opinion holding inter alia
that (1) the Tribes have regulatory and adjudicatory
jurisdiction over FMC under the first Montana
exception to require FMC to obtain a building permit

16a
for demolition and construction, and a use permit for
hazardous waste storage, and to require FMC to pay
the agreed-upon annual use permit fee of $1.5 million;
(2) the use permit fee was authorized by and
enforceable under tribal law, because, inter alia, the
Land Use Policy Ordinance and the Hazardous Waste
Management Act were both approved by the
Secretary of the Interior consistent with tribal law;
and (3) the Tribal Court erred in failing to consider
whether the Tribes have jurisdiction under the second
Montana exception. The court issued an amended
order on June 26, 2012. FMC Corp. v. ShoshoneBannock Tribes Land Use Dep’t and Fort Hall Bus.
Council, Amended, Nunc Pro Tunc Findings of Fact,
Conclusions of Law, Opinion and Order, Case Nos. C06-0069, C-07-0017, C-07-0035 (Shoshone-Bannock
Tribal Court of Appeals, June 26, 2012) (“Tribal Court
of Appeals, June 2012 Opinion”).
On January 10, 2013, pursuant to a state-court
order under the Idaho Public Records Act, FMC
obtained a videotape of Judges Gabourie and
Pearson’s remarks at the law school conference. In
April 2013, Judges Peter McDermott and Vern
Herzog Jr. replaced Judges Gabourie and Pearson on
the Tribal Court of Appeals. Judge McDermott is a
retired Idaho state district court judge. Judge Herzog
is a practicing attorney. Neither is a member of the
Shoshone-Bannock Tribes. Judge Silak remained on
the court.
On May 6, 2013, FMC filed briefs asking the
reconstituted Tribal Court of Appeals to reconsider its
prior rulings on the ground that the statements by
Judges Gabourie and Pearson showed bias against
FMC. In an order dated May 28, 2013, the Tribal
Court of Appeals revised its earlier ruling on an issue

17a
unrelated to the questions now before us. It upheld
its earlier rulings on all other issues. The court
ordered an evidentiary hearing to resolve the
question previously left open—whether the Tribes
had regulatory and adjudicatory jurisdiction over
FMC under the second Montana exception.
From April 1 to April 15, 2014, the Tribal Court of
Appeals held an evidentiary hearing on the second
Montana exception. Judge Silak was not available for
the hearing. Judge John Traylor replaced Judge
Silak. Judge Traylor is a practicing attorney. He is
not a member of the Shoshone-Bannock Tribes.
Judges McDermott and Herzog remained on the
court. Following the hearing, the Tribal Court of
Appeals made factual findings and held that the
Tribes had regulatory and adjudicatory jurisdiction
under the second Montana exception. See ShoshoneBannock Tribes Land Use Dep’t and Fort Hall Bus.
Council v. FMC Corp., Opinion, Order, Findings of
Facts and Conclusions of Law (Shoshone-Bannock
Tribal Court of Appeals, May 16, 2014) (“Tribal Court
of Appeals, May 2014 Opinion”); see also ShoshoneBannock Tribes Land Use Dep’t and Fort Hall Bus.
Council v. FMC Corp., Statement of Decision
(Shoshone-Bannock Tribal Court of Appeals, Apr. 15,
2014) (“Tribal Court of Appeals, Statement of
Decision”).
In 2012, prior to the decision of the Tribal Court of
Appeals, the EPA had issued an Interim Amendment
to the Record of Decision (“IRODA”) under CERCLA
addressing the FMC Operable Unit (“OU”) of the
Eastern Michaud Flats Superfund Site. See EPA,
Interim Amendment to the Record of Decision for the
EMF Superfund Site, FMC Operable Unit, Pocatello,
Idaho (Sept. 2012) (“IRODA”). The IRODA replaced

18a
an earlier 1998 Record of Decision (“ROD”). EPA
concluded that it needed to issue the IRODA because
the human health and environmental threats at the
FMC site were greater than anticipated, there were
“immediate” threats to human health and the
environment, and EPA “no longer considered” the
1998 ROD “protective of human health and the
environment.” IRODA at v, 14, 52; see also id. at ii,
16, 20.
The IRODA noted the particular dangers of the
elemental phosphorus present at the FMC site:
Elemental phosphorus is an “ignitable and reactive
waste” that has “physical properties unlike most
contaminants of concern . . . encountered in
environmental response actions.” Id. at iii. Due to
these characteristics, elemental phosphorus “requires
special handling techniques not only for routine
handling but also for emergency response.” Id. The
IRODA noted that the remedial work completed
under the RCRA Consent Decree was independent of
the remedial work that remained to be done under
CERCLA. Id. at v.
The IRODA outlined an extensive, multi-part
“interim amended remedy” to be implemented on the
FMC site.
The IRODA included the following
remedial measures: (1) place evapotranspiration caps
over eight “remediation areas” on the Reservation
containing “non-slag fill (such as elemental
phosphorous, phossy solids, precipitator solids, . . . ),”
id.; (2) place “approximately 12 inches of soil cover
over areas containing slag fill, ore stockpiles, and the
former Bannock Paving areas to prevent [ ] exposure
to gamma radiation and fugitive dust,” id. at iii–iv;
(3) ”[c]lean underground reinforced concrete pipes
that
contain
elemental
phosphorous
and

19a
radionuclides,” id. at iv; (4) “[i]nstall an interim
groundwater extraction/treatment system to contain
contaminated groundwater, thereby preventing
contaminated groundwater from migrating beyond
the FMC OU and into the Simplot OU and/or
adjoining springs or the Portneuf River,” id.;
(5) ”[i]mplement a long-term groundwater monitoring
program to evaluate the performance of the soil and
groundwater
remedial
actions,”
id.;
and
(6) ”[i]mplement a gas monitoring program at the
FMC OU capped ponds (also referred to as the
CERCLA Ponds to distinguish them from the RCRAregulated ponds) and subsurface areas where
elemental phosphorous is present to identify potential
phosphine and other potential gas generation at
concentrations that could pose a risk to human
health,” id. (emphasis in original).
In its brief to us, FMC wrote, “The IRODA—which
remains in effect today—requires an additional set of
remedial actions that EPA has concluded are
appropriate and fully ‘protective of human health and
the environment.’ ” (emphasis added.) FMC’s brief
misrepresents what the EPA wrote. The EPA did not
write that the interim remedial measures described
in the IRODA would be “fully” protective. Here is
what the EPA wrote in the IRODA, specifying that
the remedial measures are “interim” (which FMC’s
brief failed to mention), and not using the word “fully”
(which FMC’s brief supplied):
The measures in this selected interim amended
remedy will be protective of human health and
the environment, comply with federal and
state/tribal requirements that are applicable or
relevant and appropriate within the scope of
the selected interim amended remedy, and

20a
result in cost-effective action and utilize
permanent solutions and alternative treatment
(or resource recovery) technologies to the
maximum extent practicable.
IRODA at v (emphasis added to indicate words quoted
in FMC’s brief).
The IRODA went on to specify:
Because the selected interim amended remedy
will result in hazardous substances, pollutants,
or contaminants remaining on the FMC OU
above levels that allow for unrestricted use and
unlimited exposure, a statutory review will be
conducted within 5 years after initiation of the
remedial action, and every 5 years thereafter to
ensure that the interim amended remedy is or
will [sic] protect human health and the
environment.
Id. at vi.
The Tribal Court of Appeals’ factual findings were
based in substantial part on the IRODA, and on
earlier orders by the EPA, whose factual findings
were not contested by FMC. See e.g., Tribal Court of
Appeals, May 2014 Opinion, at 6 n.2. The Tribal
Court of Appeals found that “FMC created and
continues to store millions of tons of toxic waste on its
fee land within Reservation boundaries.” Id. at 5.
This hazardous waste includes (1) as much as 16,000
tons of elemental phosphorus that leaked into the soil
during
production
and
now
contaminates
approximately 780,000 cubic yards of soil weighing
approximately 1 million tons; (2) elemental
phosphorus that is “suspended in contaminated
water” and contained in 23 waste storage ponds on
the site; (3) “phosphine gas,” which is produced when

21a
elemental phosphorus is exposed to water;
(4) approximately 21 tanker rail cars that were used
to ship hazardous elemental phosphorous sludge and
are now buried in unlined soil on the site; and
(5) groundwater contaminated with arsenic and
phosphorus that flows into important ground and
surface water resources on the Reservation. Id. at 5–
7 (citing IRODA at 7–9). “The site was also filled and
graded using millions of tons of slag that contains
radioactive materials which emit gamma radiation in
excess of EPA’s human health safety standards.” Id.
at 6 (citing IRODA at 7–9).
The Tribal Court of Appeals found that FMC’s
creation and storage of this hazardous waste on the
Reservation creates “an ongoing and extensive threat
to human health” and threatens the “welfare and
cultural practices of the Tribes and their members.”
Id. at 5. “The elemental phosphorus in the soil and in
containment ponds [on] FMC’s land is reactive,
meaning that it will burst into flames when exposed
to oxygen.” Id. at 6 (citing IRODA at 77). “The
phosphorus itself is toxic when ingested, inhaled or
absorbed.” Id. (citing IRODA at 78). Phosphine gas,
which “is harmful and even deadly to humans at
certain levels,” has been released from the site at
dangerous levels. Id. at 7 (citing IRODA at 77). The
tanker rail cars buried at the site contained “from 200
to 2,000 tons of elemental phosphorus sludge, 10–25%
of which remained in each of the tankers at the time
they were buried” because FMC concluded cleaning
them was “dangerous” to employees. Id. at 7–8.
These tankers remain in the ground today, and “it is
possible that they either have or will corrode to the
point of leakage.” Id. “Arsenic and phosphorus from
the site are continuously flowing in the groundwater

22a
from FMC’s land through seeps and springs directly
into the Portneuf River and Fort Hall Bottoms.” Id.
at 8. This groundwater contamination “negatively
affects the ecosystem and subsistence fishing,
hunting and gathering by tribal members at the
River, as well as the Tribes’ ability to use this
important resource as it has been historically used for
cultural practices, including the Sundance.” Id.
The Tribal Court of Appeals stated that “FMC does
not challenge” that the hazardous materials present
at the FMC site “do pose a threat” to the Tribes. Id.
at 9. “Rather, [FMC] contends that if certain methods
suggested by the EPA are undertaken and properly
implemented by FMC in the future, the risk will be
contained.” Id. But the court found that EPA itself
continues to view FMC’s site as dangerous to public
health and welfare. For example, in 2013, a year after
the issuance of the IRODA, the EPA wrote that
hazardous waste at the FMC site “may constitute an
imminent and substantial endangerment to public
health or welfare or the environment.” Id. (quoting
EPA, Unilateral Admin. Order for Remedial Design
and Remedial Action, No. CERCLA-10-2013-0116, at
9–10 (June 10, 2013)). Further, the court wrote,
“Although the EPA has been involved at this site since
1990, remedial actions chosen by the EPA have not
been implemented” and many “proposed remedial
actions are still in design phase only.” Id. “EPA’s
IRODA is itself only an interim measure.” Id. “[A]
final Record of Decision will not be available for five
to ten years.” Id. (citing IRODA at 19). “EPA’s plans
remain just that: Plans.” Id. In addition, “EPA’s
plans are containment plans,” which would keep the
hazardous wastes on the Reservation “for the
indefinite future.” Id.

23a
The Tribal Court of Appeals held that the Tribes
had regulatory and adjudicatory jurisdiction over
FMC under the second Montana exception.
It
concluded that FMC’s storage of millions of tons of
toxic waste on the Reservation poses a serious threat,
and has a direct effect on, “the political integrity, the
economic security or the health or welfare of the
[Tribes].” See Tribal Court of Appeals, May 2014
Opinion at 14–15; Tribal Court of Appeals, Statement
of Decision at 29–32. The Court concluded that this
threat “is real; it is not a mere potential,” and is a
threat of catastrophic consequences to the Tribes.
Tribal Court of Appeals, May 2014 Opinion, at 11.
On May 16, 2014, the Tribal Court of Appeals
issued a final judgment, holding FMC liable for an
annual use permit fee of $1.5 million. See ShoshoneBannock Tribes Land Use Dep’t and Fort Hall Bus.
Council v. FMC Corp., Judgment and Order for
Attorney Fees and Costs, May 16, 2014. The court
assessed FMC $19,500,000 for unpaid permit fees for
2002–2014; $928,220.50 in attorneys’ fees; and
$91,097.91 in costs, for a total judgment of
$20,519,318.41. Id.
D. Federal District Court Proceedings
In November 2014, FMC filed a complaint in the
United States District Court for the District of Idaho,
requesting that the district court deny enforcement of
the judgment of the Tribal Court of Appeals. The
Tribes counterclaimed, seeking an order enforcing the
judgment.
The district court granted the Tribes’ motion to
enforce the judgment. The court concluded that the
Tribes had jurisdiction over FMC under both
Montana exceptions. The district court rejected

24a
FMC’s due process challenge based on the alleged bias
of Judges Gabourie and Pearson on the first panel of
the Tribal Court of Appeals. The court noted that the
reconstituted panel reconsidered the rulings of the
first panel and, in relevant part, independently
reached the same conclusions.
The district court enforced the judgment in its
entirety under the first Montana exception. However,
the court denied comity under the second Montana
exception on the ground that there was insufficient
nexus between the $1.5 million annual permit fee and
the costs of tribal programs required to mitigate the
threat from the storage of FMC’s hazardous waste on
the Reservation. The court concluded that the second
Montana exception was therefore not a ground on
which the judgment could be enforced.
The present appeal followed. FMC argues that the
Tribes lacked jurisdiction over FMC under both
Montana exceptions, and that FMC was denied due
process. The Tribes cross-appeal, arguing that the
district court erred in finding that the judgment was
not enforceable under the second Montana exception.
II. Appellate Jurisdiction and
Standard of Review
We have appellate jurisdiction under 28 U.S.C.
§ 1291.
“We have . . . recognized that because tribal courts
are competent law-applying bodies, the tribal court’s
determination of its own jurisdiction is entitled to
‘some deference.’ ” Water Wheel Camp Recreational
Area, Inc. v. LaRance, 642 F.3d 802, 808 (9th Cir.
2011) (quoting FMC v. Shoshone-Bannock Tribes, 905
F.2d 1311, 1313 (9th Cir. 1990)). “As we consider
questions of tribal jurisdiction, we are mindful of ‘the

25a
federal policy of deference to tribal courts’ and that
‘[t]he federal policy of promoting tribal selfgovernment encompasses the development of the
entire tribal court system, including appellate courts.’
“ Id. at 808 (quoting Iowa Mut. Ins. Co. v. LaPlante,
480 U.S. 9, 16–17, 107 S.Ct. 971, 94 L.Ed.2d 10
(1987)); see also United States v. Wheeler, 435 U.S.
313, 332, 98 S.Ct. 1079, 55 L.Ed.2d 303 (1978)
(recognizing that “tribal courts are important
mechanisms for protecting significant tribal
interests”).
We review de novo tribal courts’ legal rulings on
tribal jurisdiction, and we review for clear error tribal
courts’ factual findings underlying their jurisdictional
rulings. Big Horn Cty. Elec. Coop., Inc. v. Adams, 219
F.3d 944, 949 (9th Cir. 2000); AT&T Corp. v. Coeur
d’Alene Tribe, 295 F.3d 899, 904 (9th Cir. 2002).
We review de novo the district court’s summary
judgment decision on the due process claim. Big Horn
Cty., 219 F.3d at 949.
III. Discussion
The core question in this appeal is whether we
should recognize and enforce the Shoshone-Bannock
Tribal Court of Appeals’ final judgment holding FMC
liable for an annual use permit fee of $1.5 million.
“As a general rule, federal courts must recognize
and enforce tribal court judgments under principles of
comity.” AT&T Corp. v. Coeur d’Alene Tribe, 295 F.3d
at 903 (citing Wilson v. Marchington, 127 F.3d 805,
810 (9th Cir. 1997)). In some circumstances, however,
we will not recognize and enforce a judgment. Id.
First, we will not recognize and enforce a judgment if
the tribal court did not have both personal and subject
matter jurisdiction. Id. Second, we will not enforce a
judgment if the tribal court denied due process

26a
to the losing party. Id. Further, “[u]nder limited
circumstances, . . . [we] may refuse to recognize or
enforce a tribal judgment on equitable grounds as an
exercise of discretion.” Id.
FMC argues we should not enforce the judgment
of the Shoshone-Bannock Tribal Court of Appeals for
two reasons. First, FMC argues the Tribes lacked
subject matter jurisdiction over FMC. Second, FMC
argues it was denied due process of law because two
judges of the Tribal Court of Appeals were biased
against it.
Unless we hold that the Shoshone-Bannock Tribal
Court of Appeals lacked subject matter jurisdiction or
denied FMC due process, we “must enforce the tribal
court judgment without reconsidering issues decided
by the tribal court.” Id. at 903–04 (citing Iowa Mut.
Ins. Co., 480 U.S. at 19, 107 S.Ct. 971 (“Unless a
federal court determines that the Tribal Court lacked
jurisdiction . . . proper deference to the tribal court
system precludes relitigation of issues . . . resolved in
the Tribal Courts.”)). We “may not readjudicate
questions—whether of federal, state or tribal law—
already resolved in tribal court absent a finding that
the tribal court lacked jurisdiction or that its
judgment be denied comity for some other valid
reason.” Id. at 904.
We address each of FMC’s arguments in turn. We
hold that the Tribes had regulatory and adjudicatory
jurisdiction under both Montana exceptions to impose
and enforce the permit fees. We further hold that
there was no due process violation. Finally, we hold
that the final judgment of the Shoshone-Bannock
Tribal Court of Appeals is entitled to recognition and
enforcement under principles of comity under both
Montana exceptions.

27a
A. Subject Matter Jurisdiction
We first determine whether the ShoshoneBannock Tribal Court of Appeals had subject matter
jurisdiction over the Tribes’ claims against FMC. To
make that determination, we must answer two
related questions.
First, did the Tribes have
regulatory jurisdiction to impose the permit fees?
Second, did the Tribes have adjudicatory jurisdiction
to enforce those fees in tribal court? See, e.g., Water
Wheel, 642 F.3d at 809 (“To exercise its inherent civil
authority over a defendant, a tribal court must
have [ ] subject matter jurisdiction—consisting of
regulatory and adjudicative jurisdiction . . . .”); see
also Knighton v. Cedarville Rancheria of N. Paiute
Indians, 922 F.3d 892, 899 (9th Cir. 2019) (quoting
the same). For the reasons that follow, we hold that
the Tribes had both regulatory and adjudicatory
jurisdiction.
1. Regulatory Jurisdiction
The case before us concerns nonmember conduct
on non-Indian-owned fee land within the boundaries
of the Reservation. We therefore apply the Supreme
Court’s framework set forth in Montana v. United
States, 450 U.S. 544, 101 S.Ct. 1245, 67 L.Ed.2d 493
(1981), to determine whether the Tribes had
regulatory jurisdiction to impose permit fees on FMC.
See Window Rock Unified Sch. Dist. v. Reeves, 861
F.3d 894, 898 (9th Cir. 2017), as amended (Aug. 3,
2017) (explaining that “[o]ur caselaw has long
recognized two distinct frameworks for determining
whether a tribe has jurisdiction over a case involving
a non-tribal-member defendant: (1) the right to
exclude, which generally applies to nonmember
conduct on tribal land; and (2) the exceptions

28a
articulated in Montana v. United States, 450 U.S. 544,
101 S.Ct. 1245, 67 L.Ed.2d 493 (1981), which
generally apply to nonmember conduct on non-tribal
land.” (emphasis added)).
In Montana, the Supreme Court held that there
are three bases for tribal regulatory jurisdiction over
nonmember activities on non-Indian fee land within
the boundaries of a reservation—the so-called
Montana exceptions. 450 U.S. at 565–66, 101 S.Ct.
1245 (“Indian tribes retain inherent sovereign power
to exercise some forms of civil jurisdiction over nonIndians on their reservations, even on non-Indian fee
lands.”); Bugenig v. Hoopa Valley Tribe, 266 F.3d
1201, 1209–10 (9th Cir. 2001) (en banc) (discussing
the same); see also Iowa Mut. Ins. Co., 480 U.S. at 18,
107 S.Ct. 971 (“Tribal authority over the activities of
non-Indians on reservation lands is an important part
of tribal sovereignty.”); Attorney’s Process &
Investigation Servs., Inc. v. Sac & Fox Tribe of Miss.
in Iowa, 609 F.3d 927, 934–35 (8th Cir. 2010) (briefly
discussing some of the historical scope of tribal
sovereignty and changes over time). Cf. Worcester v.
Georgia, 31 U.S. 6 Pet. 515, 557, 8 L.Ed. 483 (1832)
(Tribes are “distinct political communities, having
territorial boundaries, within which their authority is
exclusive, and having a right to all the lands within
those boundaries, which is not only acknowledged,
but guarantied by the United States.”).
First, a tribe retains the inherent sovereign
authority to “regulate, through taxation, licensing, or
other means, the activities of nonmembers who enter
consensual relationships with the tribe or its
members, through commercial dealing, contracts,
leases or other arrangements.” 450 U.S. at 565, 101
S.Ct. 1245. Second, a tribe “retain[s] inherent power

29a
to exercise civil authority over the conduct of nonIndians on fee lands within its reservation when that
conduct threatens or has some direct effect on the
political integrity, the economic security, or the
health or welfare of the tribe.” Id. at 566, 101 S.Ct.
1245. Third, a Tribe may regulate the conduct of
nonmembers on non-Indian fee land when that
regulation is expressly authorized by federal statute
or treaty. See Strate, 520 U.S. at 445, 117 S.Ct. 1404;
Montana v. U.S. EPA, 137 F.3d 1135, 1140 (9th Cir.
1998).
There is a presumption against tribal
jurisdiction over nonmember activity on non-Indian
fee land. Bugenig, 266 F.3d at 1209–10; see Plains
Commerce Bank v. Long Family Land & Cattle Co.,
554 U.S. 316, 330, 128 S.Ct. 2709, 171 L.Ed.2d 457
(2008). The Tribes bear the burden of rebutting that
presumption. Plains Commerce Bank, 554 U.S. at
330, 128 S.Ct. 2709.
Only the first two jurisdictional bases are relevant
here. We examine them in turn.
a. First Montana Exception
The first Montana exception provides that tribes
have jurisdiction to “regulate, through taxation,
licensing, or other means, the activities of
nonmembers who enter consensual relationships with
the tribe or its members,” including consensual
relationships “through commercial dealing, contracts,
leases or other arrangements.” Montana, 450 U.S. at
565–66, 101 S.Ct. 1245; see also Strate, 520 U.S. at
446, 117 S.Ct. 1404. The Supreme Court has
recognized that permit requirements and permit fees
constitute a form of regulation. See Morris v.
Hitchcock, 194 U.S. 384, 24 S.Ct. 712, 48 L.Ed. 1030
(1904) (recognizing tribal jurisdiction to require non-

30a
members to obtain permits and pay a permit fee in
order to graze livestock on reservation).
For purposes of determining whether a consensual
relationship exists, “consent may be established
‘expressly or by [the nonmember’s] actions.’ ” Water
Wheel, 642 F.3d at 818 (quoting Plains Commerce
Bank, 554 U.S. at 338, 128 S.Ct. 2709). The test is
not subjective. Rather, it is “whether under th[e]
circumstances the non-Indian defendant should have
reasonably anticipated that [its] interactions might
‘trigger’ tribal authority.” Id. at 817–18 (quoting
Plains Commerce Bank, 554 U.S. at 337, 128 S.Ct.
2709) (stating also “[t]he Supreme Court has
indicated that tribal jurisdiction depends on what
non-Indians ‘reasonably’ should ‘anticipate’ from
their dealings with a tribe or tribal members on a
reservation.”).
FMC entered a consensual relationship with the
Tribes, both expressly and through its actions, when
it negotiated and entered into an permit agreement
with the Tribes, requiring annual use permits and an
annual $1.5 million permit fee to store 22 million tons
of hazardous waste on the Reservation. As the
district court noted, FMC then “affirmed its
consensual relationship with the Tribes by signing
the Consent Decree, which required FMC to obtain
Tribal permits.” FMC Corp. v. Tribes, 2017 WL
4322393 at *9. “FMC then cited its consensual
relationship with the Tribes” to the district court and
our court “as part of its argument that the Decree
should be approved.” Id. The conduct that the Tribes
seek to regulate through the permit fees at issue—the
storage of hazardous waste on the Reservation—
arises directly out of this consensual relationship. See
Knighton, 922 F.3d at 904 (“Montana’s consensual

31a
relationship exception requires that ‘the regulation
imposed by the Indian tribe have a nexus to the
consensual relationship itself.’ ” (quoting Atkinson
Trading Co. v. Shirley, 532 U.S. 645, 656, 121 S.Ct.
1825, 149 L.Ed.2d 889 (2001))).
FMC argues this consensual relationship was
“coerced” because EPA required FMC to obtain
relevant permits from the Tribes in order to obtain a
Consent Decree to settle EPA’s RCRA-based claims
against FMC. FMC may indeed have been “coerced”
in the sense that the EPA required it to obtain tribal
permits as a condition for obtaining a Consent Decree.
However, the “coercion,” if it can be called that, came
from FMC’s strong interest in obtaining a Consent
Decree that would allow it to settle the RCRA suit on
favorable terms.
FMC was highly motivated to obtain the Consent
Decree proffered by the EPA. In the words of the
district court, “[T]he Consent Decree allowed FMC to
dump the toxic mess it had created in the EPA’s lap
by paying a small fine of $11.9 million along with a
few million dollars in construction commitments.
That was a sweetheart deal and FMC was desperate
to grab it.” FMC Corp. v. Tribes, 2017 WL 4322393 at
*13. Faced with a choice between years of litigation,
on the one hand, and a “sweetheart deal” that
required FMC to pay a small fine and obtain tribal
permits whose terms were already known, on the
other, FMC chose to consent to tribal jurisdiction.
The district court wrote, “This was a simple business
deal . . . .” Id. at *10. It was “not the product of illegal
duress or coercion.” Id.
We fail to see why a strong interest in obtaining a
particular result is “coercion” that invalidates an
agreement designed to achieve that desired result.

32a
Further, to the extent that there was some kind of
“coercion,” it was “coercion” by the EPA. It was the
EPA that insisted on tribal permits as a condition to
agreeing to enter into the Consent Decree. As the
district court observed, the Tribes simply “took
advantage of their bargaining leverage, a longstanding practice in the sharp-elbowed corporate
world in which FMC does business every day.” Id.
Moreover, FMC should have reasonably
anticipated that its interactions might “trigger” tribal
regulatory authority. Water Wheel, 642 F.3d at 818
(quoting Plains Commerce Bank, 554 U.S. at 338, 128
S.Ct. 2709). FMC “is no stranger” to the Tribes’
governance and laws or to the Tribes’ regulatory and
adjudicatory jurisdiction. Knighton, 922 F.3d at 904.
FMC has operated on the Reservation for over 50
years and has had an extensive relationship with the
Tribes for 70 years. That relationship includes a long
history of “commercial dealing[s], contracts, leases,
and other arrangements” with the Tribes, including
mining leases, contracts for the supply of phosphate
shale, agreements recognizing the Tribes’ taxing
power, royalty payments, and employment and
permit agreements. Montana, 450 U.S. at 565–66,
101 S.Ct. 1245; see also FMC v. Shoshone-Bannock
Tribes, 905 F.2d at 1312 (9th Cir. 1990) (discussing
FMC’s extensive mining operations on the
Reservation to supply the phosphate shale needed to
produce phosphorus at FMC’s facility).
Based on FMC’s history on the Fort Hall
Reservation, we have previously held that FMC had
entered into a consensual relationship with the
Tribes. In 1990, in FMC v. Shoshone-Bannock Tribes,
we held that the Tribes had regulatory jurisdiction
over FMC’s activities on its fee land within the

33a
Reservation such that the Tribes could require FMC
to comply with the Tribes’ Tribal Employment Rights
Ordinance. 905 F.2d 1311. Enacted by the Tribes in
1980, the Ordinance required employers on the
Reservation,
including
non-Indian
employers
operating on fee land, to give mandatory preferences
in hiring, contracting, and subcontracting to Indians.
Id. at 1312. FMC initially objected to application of
the Ordinance to its phosphorus production plant, the
same plant at issue here. Id. But there, as here,
“[a]fter negotiations with the Tribes, FMC entered
into an employment agreement based on the TERO in
1981 that resulted in a large increase in the number
of Indian employees at FMC.” Id. at 1312–13.
In 1986, “the Tribes became dissatisfied with
FMC’s compliance with the employment agreement,”
and after attempts to negotiate failed, the Tribes filed
suit in Tribal Court. Id. at 1313. There, as here, FMC
argued the Tribes lacked regulatory and adjudicatory
jurisdiction over FMC. Id. The Tribal Court held the
Tribes had jurisdiction over FMC and concluded that
FMC had violated the Ordinance. Id. The Tribal
Court of Appeals affirmed. Id. When the parties
could not agree on a compliance plan, the Tribal Court
of Appeals entered its own compliance plan and levied
an annual fee of approximately $100,000 against
FMC. Id.
We held that the Tribes had jurisdiction over FMC
under Montana‘s first exception. We wrote:
FMC has certainly entered into consensual
relationships with the Tribes in several
instances. Most notable are the wide[ ]ranging
mining leases and contracts FMC has for the
supply of phosphate shale to its plant. FMC
also explicitly recognized the Tribes’ taxing

34a
power in one of its mining agreements. FMC
agreed to royalty payments and had entered
into an agreement with the Tribes relating
specifically to the TERO’s goal of increased
Indian employment and training. There is
also the underlying fact that its plant is
within reservation boundaries, although,
significantly, on fee and not on tribal land. In
sum, FMC’s presence on the reservation is
substantial, both physically and in terms of the
money involved.
Id. at 1314.
We therefore conclude that the Tribes had
regulatory jurisdiction under Montana’s first
jurisdictional basis to impose the permit fees based on
FMC’s consensual relationship with the Tribes.
b. Second Montana Exception
Under Montana‘s second exception, the Tribes
must demonstrate that FMC’s conduct on its fee lands
within the Reservation “threatens or has some direct
effect on the political integrity, the economic security,
or the health or welfare of the tribe.” Montana, 450
U.S. at 566, 101 S.Ct. 1245. Under the second
exception, a tribe “may quite legitimately seek to
protect its members from noxious uses that threaten
tribal welfare or security, or from nonmember conduct
on the land that does the same.” Plains Commerce
Bank, 554 U.S. at 336, 128 S.Ct. 2709. Threats to
tribal natural resources, including those that affect
tribal cultural and religious interests, constitute
threats to tribal self-governance, health and welfare.
See, e.g., id. at 333, 128 S.Ct. 2709; Brendale v.
Confederated Tribes & Bands of Yakima Indian
Nation, 492 U.S. 408, 441, 109 S.Ct. 2994, 106

35a
L.Ed.2d 343 (1989); Montana v. U.S. EPA, 137 F.3d
at 1139, 1141 (“We have previously recognized that
threats to water rights may invoke inherent tribal
authority over non-Indians. A tribe retains the
inherent power to exercise civil authority over the
conduct of non-Indians on fee lands within its
reservation when that conduct threatens or has some
direct effect on the health and welfare of the tribe.
This includes conduct that involves the tribe’s water
rights. . . . [D]ue to the mobile nature of pollutants in
surface water it would in practice be very difficult to
separate the effects of water quality impairment on
non-Indian fee land from impairment on the tribal
portions of the reservation: A water system is a
unitary resource. The actions of one user have an
immediate and direct effect on other users.”) (internal
quotation marks and citations omitted).
To establish jurisdiction under Montana’s second
exception, the nonmember’s activities “must do more
than injure the [Tribes].” Plains Commerce Bank, 554
U.S. at 341, 128 S.Ct. 2709. The activities must
“imperil the subsistence or welfare” of the tribal
community. Montana, 450 U.S. at 566, 101 S.Ct.
1245; accord Plains Commerce Bank, 554 U.S. at 341,
128 S.Ct. 2709; Evans v. Shoshone-Bannock Land Use
Policy Comm’n, 736 F.3d 1298, 1306 (9th Cir. 2013).
Tribal jurisdiction under the second Montana
exception may exist concurrently with federal
regulatory jurisdiction. See Tribal Court of Appeals,
May 2014 Opinion, at 5 (discussing the same). As we
have explained previously, there is “no suggestion” in
the Montana case law that “inherent [tribal]
authority exists only when no other government can
act.” Montana v. U.S. EPA, 137 F.3d at 1141.

36a
We conclude that FMC’s storage of millions of tons
of hazardous waste on the Reservation “threatens or
has some direct effect on the political integrity, the
economic security, or the health or welfare” of the
Tribes to the extent that it “imperil[s] the subsistence
or welfare” of the Tribes. Montana, 450 U.S. at 566,
101 S.Ct. 1245. We base our conclusion on the factual
findings of the Tribal Court of Appeals, the factual
findings and conclusions of the EPA, expert testimony
presented in the Tribal Court of Appeals, and the
record as a whole. The record contains extensive
evidence of toxic, carcinogenic, and radioactive
substances at the FMC site. We highlight here only
two sources of contamination and the threats they
pose to the Tribes: elemental phosphorus in the
ground, and phosphine gas in the air.
i. Elemental Phosphorus in the Ground
Millions of tons of “ignitable-reactive elemental
phosphorus,” “high concentrations of arsenic,” and
gamma radiation contaminate the soil at the FMC
site.
EPA, 2013 Unilateral Admin. Order for
Remedial Design and Remedial Action, CERCLA No.
10-2013-0116, at 7 (June 10, 2013) (“2013 UAO”).
“The elemental phosphorus contamination within the
FMC OU alone is at a scale unprecedented anywhere
in the United States . . . .” IRODA at 83. As much as
16,000 tons of elemental phosphorus saturate the
ground, extend in a plume at least 85 feet below
ground, and contaminate approximately 780,000
cubic yards of soil weighing 1 million tons. IRODA at
21, 78, 83. This calculated amount of phosphorus does
not include elemental phosphorus-contaminated
wastes that currently sit in ponds on the FMC site,
the elemental phosphorus waste that has migrated or
been blown off-site, and the unknown amount of

37a
waste that is contained in buried rail tanker cars that
may corrode and leak. IRODA at 9, 14, 83. The
elemental phosphorus contamination at the FMC site
poses a serious threat to human health, the
environment, and the welfare of the Tribes. In the
EPA’s words, elemental phosphorus at the FMC site
exists “in concentrations exceeding 1,000 parts per
million (ppm)” in the soil and “will present a
significant risk to human health and the environment
should exposure occur.” IRODA at ii; see also id. at 34
(“[R]isks from exposure to ignitable elemental
phosphorus are severe and highly certain should
direct exposure occur.”).
The EPA concluded that the elemental phosphorus
at the FMC site constitutes a “principal threat waste.”
IRODA at ii, 77–78. “Principal threat wastes are
those source materials considered to be highly toxic or
highly mobile that generally cannot be reliably
contained or would present a significant risk to
human health or the environment should exposure
occur.” Id. at ii–iii. Elemental phosphorus “is highly
toxic by ingestion, inhalation, and skin absorption”;
“may be fatal at high concentrations; is corrosive to
skin and other living tissue”; “is likely to cause skin
burns upon contact”; and is pyrophoric, meaning it
will spontaneously burst into flames when exposed to
the air, producing phosphine and other toxic gases.
Id. at 77–78. Exacerbating the threat, elemental
phosphorus “has physical properties that are unlike
most [contaminants of concern] encountered in
environmental response actions,” requiring “special
handling techniques not only for routine handling but
also for emergency response.” Id. at iii, 77–78; see also
id. at 28 (concluding that elemental phosphorus at the
FMC site “could ignite, causing burns and inhalation

38a
hazards from intensely irritating phosphoric acid
aerosols with potential to drift beyond the immediate
area.”). “The threat of elemental phosphorus was
vividly described by Claudeo Bronco, [a witness before
the Tribal Court of Appeals,] who testified that he
[saw] ducks spontaneously ignite as they took off from
FMC’s phosphorus containment ponds.” Tribal Court
of Appeals, May 2014 Opinion, at 6–7.
The EPA’s CERCLA plan calls for FMC to place
evapotranspiration caps over areas contaminated
with elemental phosphorus. IRODA at 68. However,
despite the EPA’s involvement at the site since 1990
when the EPA first declared the plant a Superfund
Site, many areas of the site, including the area where
the tanker railroad cars are buried, still had not been
capped at the time of the 2014 hearing before the
Tribal Court of Appeals. Further, as the EPA wrote,
capping “does not reduce [the] toxicity, mobility, or
volume of contaminants.” Id. at 60. Even if capped,
phosphorus-contaminated soil will remain on the
Reservation indefinitely and continue to present a
threat to Tribal health and welfare.
ii. Phosphine Gas in the Air
Phosphine gas produced from elemental
phosphorus stored in ponds on FMC’s site poses a
constant threat to the Tribes. Phosphine gas is “very
flammable,” “highly reactive,” and “extremely toxic”
to humans. Letter from Kai Elgethun, Idaho Dep’t of
Health and Welfare to Greg Weigel, EPA Idaho
Operations Office, at 2–3 (June 1, 2010) (“Letter from
Idaho Dep’t of Health and Welfare”); EPA, Unilateral
Admin. Order for Removal Action, FMC Idaho LLC,
CERCLA No. 10-2010-0170, at 9 (June 14, 2010)
(“2010 UAO”); see also Expert Witness Testimony

39a
from Dr. Jerrold Leikin and Dr. Peter Orris, members
of EPA’s Supplemental Environmental Project 14 for
the FMC Site (discussing the dangers of phosphine
gas and the FMC site in particular). Phosphine gas is
“immediately dangerous to life and health” at
concentrations of 50 parts per million (“ppm”). 2010
UAO at 9. It burns spontaneously upon contact with
air and explodes at concentrations at or near 20,000
ppm. Id.; see also Expert Witness Testimony of Dr.
Jerrold Leikin (describing phosphine as a
“knockdown gas,” meaning a few breaths can render
a person unable to walk or talk, and can result in
extreme harm or eventual death). The short-term
upper limit for human exposure is 1 ppm for 15
minutes of exposure. 2010 UAO at 9.
There are eleven RCRA waste ponds on FMC’s
property that are supervised under the Consent
Decree. Nine of those ponds were capped between
1999 and 2005. See 2010 UAO at 8; FMC Corp. v.
Tribes at *4. The other two were left uncapped. Id.
at 9–10. Dangerous levels of phosphine gas build up
beneath the evapotranspiration caps on the capped
ponds and are released from the uncapped ponds. Id.
Although the EPA has ordered FMC to implement
measures to contain the gas, releases continue to
occur.
In 2006 and 2010, for example, the EPA entered
Unilateral
Administrative
Orders
(“UAO”)
responding to phosphine gas releases from capped
and uncapped RCRA ponds. See EPA, Unilateral
Admin. Order for Removal Actions, FMC Idaho LLC,
CERCLA No. 10-2007-0051 (Dec. 14, 2006) (“2006
UAO”); 2010 UAO at 10–11 (noting that in 2005, 2006,
2007, and 2009, levels of phosphine gas in the air
around the RCRA ponds were high enough that

40a
workers in the area either had to delay work or leave
the area for their safety).
The EPA reported in its 2006 UAO that phosphine
gas releases had been detected at RCRA Pond 16S. In
June 2006, “intermittent emissions of smoke” from
two temperature monitoring points (“TMP”) had been
observed at the pond. 2006 UAO at 10. Subsequently,
“[v]isible air emissions from Pond 16S [were] observed
on a number of occasions [after] June 2006, including
by Shoshone-Bannock Tribal staff on September 6,
2006 and September 18, 2006.” Id. FMC had
reported to the EPA that phosphine gas was collecting
in TMP well casings at Pond 16S, and was “likely
accumulating to the phosphine auto-ignition
concentration (20,000 parts per million) inside the
temperature well casings or vents.” Id. The EPA
concluded that “[t]he conditions at the Site
constitute[d]
an
imminent
and
substantial
endangerment to public health or welfare or the
environment within the meaning of Section 106(a) of
CERCLA, 42 U.S.C. § 9606(a).” Id. at 13–14 (stating
also that the conditions “constitute a threat to public
health or welfare or the environment”). The EPA
issued a “time critical Action Memorandum on
December 13, 2006 for Pond 16S to remove and treat
phosphine and other gases at levels of concern . . . .”
Id. at 12–13.
Dr. Peter Orris testified before the Tribal Court of
Appeals that he “absolutely” agreed with the EPA’s
findings and conclusions in the 2006 UAO. He
testified that the phosphine gas was “both acutely and
chronically dangerous to people in the area or
downstream, if you will, or downwind.” “Phosphine
gas [is a] close cousin to the phosgene gas used in
World War I . . . that gassed all the soldiers, so that a

41a
high dose short-term exposure can kill people. . . .
This is pretty catastrophic stuff.”
The EPA reported in its 2010 UAO that
“[p]hosphine gas ha[d] been detected in and around
TMPs and in ambient air at a number of the RCRA
Ponds.” 2010 UAO at 9. In late 2009, FMC detected
phosphine levels above 1 ppm near Pond 15S,
triggering alarms downwind and requiring
evacuations on November 2, 23, and 27, and on
December 22. Id. at 11. In December 2009 to April
2010, FMC detected concentrations of phosphine gas
as high as 23,000 ppm inside a lift station associated
with Pond 15S. Id. Daily monitoring from February
to April 2010 measured phosphine gas in “ambient
air,” at breathing zone height, ranging from 0 to at
least 20 ppm. Id. at 12. The actual concentrations
may have been much higher. The EPA reported,
“[O]n numerous occasions the monitors [ ] ‘pegged out’
at 20 ppm,” the upper detection limit for FMC’s
monitors, “indicating some unknown concentration
higher than 20 ppm.” Id. Another phosphine survey
on April 30, 2010, “provided phosphine readings that
averaged 300 ppm” in another area of the pond. Id.
FMC first reported the issues with Pond 15S to the
EPA in a letter dated April 14, 2010. Id. at 11. In
response to an EPA request for information, FMC
sent the EPA monitoring data from all the RCRA
ponds on April 26, 2010. Id. at 12. The data indicated
that phosphine concentrations in the ambient air
around two more ponds—one capped and one
uncapped—were at or near the upper detection limit
for FMC’s monitors. Id. (Ponds 8E and 17); see id. at
8 for a list of capped and uncapped RCRA ponds.
On June 1, 2010, shortly before the EPA’s release
of its 2010 UAO, Dr. Kai Elgethun of the Idaho

42a
Department of Health and Welfare wrote: “We
conclude that the phosphine gas being released from
Pond 15S is an urgent public health hazard to the
health of people breathing the air in the proximity of
Pond 15S . . . .” Letter from Idaho Dep’t of Health and
Welfare at 1. Pond 15S is approximately 400 meters
south of a road and 600 meters south of an interstate
highway that crosses the Reservation. Id. at 3.
The EPA wrote in the 2010 UAO: “Action is
necessary to protect receptors from inhalation of
phosphine at RCRA Ponds, and to minimize the risk
of fire and explosion from high concentrations of
phosphine gas at the RCRA Ponds.” 2010 UAO at 14.
“Receptors,” in the jargon of the EPA, are individuals
who may be exposed to phosphine gas. The EPA
wrote that “receptors” included individuals “at or near
the facility boundaries,” such as railroad and power
company workers, bicyclists and pedestrians on “old
Highway 30,” and “members of the ShoshoneBannock Tribes.” Id. at 13. The EPA concluded in
2010, as it had in 2006, that the “[h]igh
concentrations of phosphine accumulating within the
[FMC] RCRA Ponds and being released” “constitute
an imminent and substantial endangerment to public
health or welfare or the environment within the
meaning of Section 106(a) of CERCLA, 42 U.S.C.
§ 9606(a).” Id. at 13–15. The EPA issued a “time
critical removal Action Memorandum on June 11,
2010, for Ponds 8E, 15S and 17 and the other RCRA
Ponds, requiring air monitoring and action to remove
and treat phosphine gas . . . .” Id. at 13.
David Reisman, a former EPA official who worked
at the EPA for thirty-six years, including several
years at the FMC site, testified before the Tribal
Court of Appeals that the threat of phosphine gas

43a
being released from the FMC site—both onsite and
offsite—is “always there.” Reisman testified that
when he visited the FMC site and walked on the caps
on the RCRA ponds he observed visually that “they
were not well maintained.” He testified further, “I
think the data bears out that there is moisture and
air getting under the cap, and mixing with the waste
stream in one fashion or another.” Reisman noted
that some phosphine gas is already escaping because
of the nature of the evapotranspiration cap. He
testified that at a landfill site near Las Vegas,
repeated downpours of rain had caused part of an
evapotranspiration cap to slide off the landfill,
exposing the waste. If the caps at the FMC site were
to similarly crack or slide off, Reisman testified,
massive clouds of phosphine gas at lethal exposure
levels would be released.
Reisman testified that proper monitoring to detect
releases of phosphine gas was not being done at the
FMC site. According to Reisman, monitoring
remained “a big question mark” under the 2012
IRODA. See also Testimony of Rob Hartman, Vice
President of FMC Idaho (discussing how a monitoring
plan for phosphine gas “has not been developed”).
Reisman testified that FMC does not have an early
warning system in place, stating that he “hope[d] that
all parties would look into some early warning system
in case some of the catastrophic events would occur.”
Another expert witness described the monitoring at
the FMC site as “completely inadequate.”
The record establishes that FMC’s RCRA ponds on
the Reservation continue to generate lethal amounts
of phosphine gas that accumulate beneath the pond
covers. As the district court wrote, this phosphine gas
“pose[s] a constant and deadly threat to the Tribes”

44a
and “a real risk of catastrophic consequences should
containment fail.” FMC Corp. v. Tribes, 2017 WL
4322393 at *11.
iii. FMC’s Arguments
FMC makes two arguments in its brief against
jurisdiction under the second Montana exception.
Both arguments fail.
First, FMC argues that the hazardous waste on its
site is contained, is “actively monitored by FMC and
EPA,” and poses little danger to the Tribes. FMC
writes, “The record does not remotely support
jurisdiction under the second Montana exception.”
FMC’s argument fails to take into account what is
actually in the record.
The hazardous waste at the FMC site constitutes
a serious and continuous threat. The district court
summarized:
[T]he EPA has taken substantial steps to
contain the toxic waste and prevent harm.
But the threat remains. . . . Because the EPA
intends to leave the waste on the site
indefinitely, and because the waste’s toxicity
has such a long life—decades if not longer—
there is a real risk that no matter how well
its containment system is designed, the
system
may
fail. . . .
EPA
reports
demonstrate that the waste sites are not
reservoirs of passive liquid that can be
contained with a simple dam. Instead, these
sites are generating lethal gases that
accumulate under pressure beneath the pond
covers. In other words, they pose a constant
and deadly threat to the Tribes, a real risk of
catastrophic
consequences
should

45a
containment fail. And despite the best efforts
of the EPA, there have releases of these toxic
gases. . . . This dangerous threat can only be
contained, not removed or treated. . . . It is so
toxic that there is no safe way to remove it,
ensuring that it will remain on the
Reservation for decades.
FMC Corp. v. Tribes, 2017 WL 4322393 at *10–11.
Second, FMC argues that our decision in Evans v.
Shoshone-Bannock Land Use Policy Comm’n, 736
F.3d 1298 (9th Cir. 2013), compels the conclusion that
the Tribes lack jurisdiction. Evans is light years away
from the case before us. In Evans, we held that the
Tribes’ Land Use Policy Commission did not have
jurisdiction under the second Montana exception to
require a nonmember to obtain tribal permits for the
construction of a single-family home. We held that
the Tribes had not established that the construction
of one single-family home on fee land in an area of the
Reservation that already “contain[ed] many
residential properties owned and inhabited by
nonmembers”—unlike the area in Brendale v.
Confederated Tribes & Bands of Yakima Indian
Nation, 492 U.S. 408, 109 S.Ct. 2994, 106 L.Ed.2d 343
(1989), which was closed to the general public—
threatened or had some direct effect on the political
integrity, economic security, or the health or welfare
of the Tribes. Id. at 1303–06. In stark contrast to
Evans, the threats from the FMC site, as Dr. Orris
testified, “are not minimal annoyances. They are the
threat of catastrophic health reactions, including
death.”

46a
iv. Nexus
The district court held that due to the extensive
contamination at the FMC site, the Tribes had
established jurisdiction under the second Montana
exception. However, as a matter of comity, the court
refused to enforce the judgment of the Tribal Court of
Appeals under the second exception. In the view of
the court, the Tribes had failed to sufficiently explain
the connection between the $1.5 million annual
permit fee and the threat posed by the hazardous
waste. Citing Wilson v. Marchington, 127 F.3d 805
(9th Cir. 1997), the court wrote:
Having jurisdiction under the second Montana
exception, the Tribes are authorized to assess a
permit fee that has some nexus to the costs of
supplementing the EPA’s program to fully
protect the health and safety of Tribal
members. Yet the Tribes have never explained
why an annual fee of $1.5 million is necessary
to provide that supplemental protection.
FMC Corp. v. Tribes, 2017 WL 4322393 at *12.
The district court was mistaken in holding that
the Tribes had jurisdiction under the second Montana
exception and, at the same time, holding that the
Tribal Court of Appeals’ judgment was not entitled to
comity.
The nexus question is part of the
jurisdictional question.
Once jurisdiction is
established, lack of nexus is not a ground for denying
comity under Marchington.
We take it as a given that there must be some
nexus between a basis for jurisdiction under Montana
and a tribal action taken in the exercise of that
jurisdiction. For example, if the Tribes had insisted
under the second Montana exception that FMC

47a
disinvest from its businesses in China, such
insistence would have been an unreasonable exercise
of jurisdiction. However, there is nothing in Montana
requiring that nexus be narrowly defined. There is
nothing, for example, requiring the Tribes to show
that the $1.5 million annual use permit fee be spent
on supplemental measures, beyond those now being
taken by the EPA, to protect against hazards posed by
FMC’s hazardous waste. There is evidence in the
record suggesting that the Tribes have spent
approximately $1.5 million annually on measures to
monitor and mitigate the dangers posed by FMC’s
hazardous waste, and indeed that the Tribes might
spend more if funds were available. But we need not
rely on that evidence alone to find nexus.
A more-than-sufficient nexus may be shown by
comparing fees charged on the open market for
hazardous waste storage, on the one hand, to the $1.5
million annual fee charged by the Tribes, on the other.
FMC’s own evidence in the Tribal Court of Appeals
showed that as of 1995, commercial hazardous waste
disposal facilities charged between $50 and $250 per
ton for bulk disposal (the type of materials typically
disposed of at FMC’s facility). Given the extreme
danger posed by FMC’s hazardous waste, it is an open
question whether anyone could be persuaded to
accept its waste at any price. But assuming that
someone would be willing to accept FMC’s hazardous
waste, and using a midrange fee of $150 per ton, the
one-time fee for disposing of FMC’s 22 million tons of
hazardous waste would be $3.3 billion. Compared to
$3.3 billion, an annual fee of $1.5 million is an
extraordinary bargain.
Although we conclude that the Tribes can
establish nexus in this case by showing that they

48a
charge less than the open market fee for comparable
activity, we do not mean thereby to suggest that a
tribe in some circumstances might not be able to
charge substantially more than an open market fee,
or might not be able to forbid waste storage or other
activities entirely. We need not hypothesize cases not
before us. It is enough for current purposes to show
that there is a more-than-sufficient nexus between
the storage of FMC’s highly dangerous—potentially
catastrophically dangerous—waste and the $1.5
million annual use permit fee to warrant the
assessment of that fee under Montana’s second
exception.
2. Adjudicatory Jurisdiction
A
tribe’s
adjudicatory
jurisdiction
over
nonmembers may not exceed its regulatory
jurisdiction. Strate, 520 U.S. at 453, 117 S.Ct. 1404;
Water Wheel, 642 F.3d at 814 (noting that the
Supreme Court has “articulated the general rule that
a tribe’s adjudicative jurisdiction may not exceed its
regulatory jurisdiction”). However, the Supreme
Court has never decided whether a Tribe’s
adjudicatory jurisdiction is necessarily as extensive
as its regulatory jurisdiction. See Water Wheel, 642
F.3d at 816. Where as here, we hold that the Tribes
had regulatory jurisdiction, we are thus presented
with the question of whether they also had
adjudicatory jurisdiction.
The Court has held that “where tribes possess
authority to regulate the activities of nonmembers,
‘civil jurisdiction over disputes arising out of such
activities presumptively lies in the tribal courts.’ ”
Strate, 520 U.S. at 453, 117 S.Ct. 1404 (citation
omitted); see also Iowa Mut. Ins. Co., 480 U.S. at 18,
107 S.Ct. 971 (“Tribal authority over the activities of

49a
non-Indians on reservation lands is an important part
of tribal sovereignty. Civil jurisdiction over such
activities presumptively lies in the tribal courts
unless affirmatively limited by a specific treaty
provision or federal statute.” (internal citations
omitted)); Knighton, 922 F.3d at 906 (discussing the
same); Water Wheel, 642 F.3d at 814 (discussing the
same). In two recent cases—both involving
nonmember conduct on tribal land—we have held
that tribes had adjudicatory jurisdiction.
See
Knighton, 922 F.3d at 906–07; Water Wheel, 642 F.3d
at 814–16. In both cases, we based our holding on the
existence of regulatory jurisdiction, the nature of the
tribal sovereign interests, long-standing principles of
Indian law, and congressional interest in tribal selfgovernment.
Based on those same factors, we
conclude that the Shoshone-Bannock Tribal Court of
Appeals had adjudicatory jurisdiction over the Tribes’
claims in this case. See Knighton, 922 F.3d at 907
(concluding the same); Water Wheel, 642 F.3d at 816
(concluding the same). As we stated in Water Wheel,
“Any other conclusion would impermissibly interfere
with the tribe’s inherent sovereignty, contradict longstanding principles the Supreme Court has
repeatedly recognized, and conflict with Congress’s
interest in promoting tribal self-government.” 642
F.3d at 816.
B. Due Process
We held in Wilson v. Marchington that a federal
court must “reject a tribal judgment if the defendant
was not afforded due process of law.” 127 F.3d at 811.
“Due process, as that term is employed in comity, . . .
[requires] that there has been opportunity for a full
and fair trial before an impartial tribunal that

50a
conducts the trial upon regular proceedings after
proper service or voluntary appearance of the
defendant, and that there is no showing of prejudice
in the tribal court or in the system of governing laws.”
Id. Comity, however, “does not require that a tribe
utilize judicial procedures identical to those used in
the United States Courts.” Id. We must “be careful
to respect tribal jurisprudence” as well as tribes’
customs and traditions. Id. “Extending comity to
tribal judgments is not an invitation for [us] to
exercise unnecessary judicial paternalism in
derogation of tribal self-governance.” Id. “However,
the tribal court proceedings must afford the
defendant the basic tenets of due process or the
judgment will not be recognized by the United
States.” Id. FMC argues it was denied due process.
We disagree.
FMC’s primary argument is that two judges on the
Tribal Court of Appeals—Judges Gabourie and
Pearson—were not impartial. In support of its
argument, FMC cites the judges’ remarks at the
conference sponsored by the University of Idaho
College of Law. FMC’s argument fails for two
reasons.
First, Judges Gabourie and Pearson did not make
any statements at the conference indicating bias
against FMC. At several points in their remarks, both
judges emphasized the importance of impartiality.
Transcript of Tribal Courts: Jurisdiction and Best
Practices (“Transcript”) at 9 and 19 (stating “every
court has—should be impartial”; “a good opinion
comes [from] both sides, both parties. Because both
parties rely on a good opinion, strong opinion.”; you
“need to make sure that you do the job right”).
Although Judges Gabourie and Pearson criticized

51a
various Supreme Court opinions, including Montana,
disagreement with an opinion of the Supreme Court
does not indicate that judges cannot faithfully apply
that opinion to the case before them. If such were the
case, federal and state judges would need to recuse
themselves with some frequency.
See, e.g.,
Republican Party of Minn. v. White, 536 U.S. 765, 779,
122 S.Ct. 2528, 153 L.Ed.2d 694 (2002) (“[J]udges
often state their views on disputed legal issues
outside the context of adjudication—in classes that
they conduct, and in books and speeches.”); In re
Complaint of Judicial Misconduct, 632 F.3d 1289,
1289 (9th Cir. 2011) (“The Code of Conduct
encourages judges to ‘speak, write, lecture, teach, and
participate in other activities concerning the law, the
legal system, and the administration of justice.’
Engaging in such law-related activities—including
speeches that comment on current events and legal
developments—is permitted not only because judges
are citizens, but because they are particularly
knowledgeable on such topics.” (internal citations
omitted)); In re Charges of Judicial Misconduct, 769
F.3d 762, 785 (D.C. Cir. 2014) (“[C]riticizing the
[Supreme] Court does not constitute judicial
misconduct. . . . It would be all but impossible for a
judge to urge changes in the course of the law, or even
to comment on substantive legal issues, without being
able to reference and criticize decisions of the
Supreme Court. Not surprisingly, then, there is a
long tradition of lower court judges criticizing the
Court on issues of constitutional law [and other
areas].”).
Judge Pearson did mention at one point that she
had a “big case” that she believed was “going to go up,”
and that she was saying prayers, reading cases, and

52a
trying to do the history. However, she said nothing
about the merits of the case. Cf. In re Charges of
Judicial Misconduct, 769 F.3d at 787–88
(“[N]otwithstanding the general prohibition on
commenting on the merits of pending or impending
matters, the Code contains an exception for offering
such comments in the context of ‘scholarly
presentations made for purposes of legal education.’ ”
(citing Canon 3A(6) of the Judicial-Conduct Rules)).
Second, to the degree Judges Gabourie and
Pearson’s remarks may be thought to have indicated
bias against FMC, a reconstituted panel of judges
considered the prior rulings of the Tribal Court of
Appeals. The reconstituted panel revised one aspect
of the court’s prior decision and affirmed the others.
A differently reconstituted panel then handled all
proceedings going forward, including the hearing on
jurisdiction under Montana’s second exception. The
actions of the reconstituted panels eliminated any
possible due process concerns arising from the
remarks of Judges Gabourie and Pearson, and from
their participation in earlier decisions of the Tribal
Court of Appeals.
FMC makes other due process arguments,
including that the Fort Hall Business Council
improperly closed the record; that the Tribal Court of
Appeals improperly rejected evidence from FMC as
untimely; that the Tribal Court of Appeals, rather
than the trial court, held an evidentiary hearing; and
that the tribal courts are not independent from the
Fort Hall Business Council. FMC has either waived
these arguments or they are self-evidently meritless.
FMC’s due process arguments are based in part on
an underlying argument that, in FMC’s words, tribal
courts present “inherent risks . . . for denying

53a
nonmembers” due process protections. The Supreme
Court, our circuit, and our sister circuits have
repeatedly rejected that and other similar arguments.
See, e.g., Nat’l Farmers Union Ins. Cos. v. Crow Tribe
of Indians, 471 U.S. 845, 855–57, 105 S.Ct. 2447, 85
L.Ed.2d 818 (1985) (requiring nonmembers to
exhaust tribal court remedies and stating that
exhaustion will “provide other courts with the benefit
of [tribal court] expertise”); Norton v. Ute Indian Tribe
of the Uintah & Ouray Reservation, 862 F.3d 1236,
1249–50 (10th Cir. 2017) (“We also reject the officers’
arguments that they will suffer undue bias and a lack
of due process if subjected to tribal jurisdiction. The
officers offer little support for their allegations, which
boil down to baseless ‘attacks’ on the competence and
fairness of the Ute Tribal Court. The Supreme Court
has already explained that such arguments are
contrary to federal policy . . . . The Court has also
‘repeatedly’ recognized tribal courts ‘as appropriate
forums for the exclusive adjudication of disputes
affecting important personal and property interests of
both Indians and non-Indians.’ ” (citing Iowa Mut.
Ins. Co., 480 U.S. at 19, 107 S.Ct. 971; Santa Clara
Pueblo, 436 U.S. at 65, 98 S.Ct. 1670; Wheeler, 435
U.S. at 332, 98 S.Ct. 1079 (“[T]ribal courts are
important mechanisms for protecting significant
tribal interests.”))).
The Tenth Circuit recently wrote, “Although it is
true that the Bill of Rights does not itself constrain
tribal court proceedings, see Talton v. Mayes, 163 U.S.
376, 382–85, 16 S.Ct. 986, 41 L.Ed. 196 (1896), this
does not leave the rights of nonmembers unprotected
in tribal courts.” Norton, 862 F.3d at 1249. “The
Indian Civil Rights Act (ICRA), 25 U.S.C. §§ 1301–04,
expressly provides that no tribe may ‘deny to any

54a
person within its jurisdiction the equal protection of
its laws or deprive any person of liberty or property
without due process of law.’ ” Id. at 1249–50 (citing
25 U.S.C. § 1302(a)(8)); see also Iowa Mut. Ins. Co.,
480 U.S. at 19, 107 S.Ct. 971 (noting that ICRA
“provides non-Indians with various protections
against unfair treatment in the tribal courts”).
“Making good on these due process guarantees, nearly
five decades of tribal cases applying ICRA show that
tribal courts protect the rights of both member and
nonmember litigants in much the same way as do
federal and state courts.” Norton, 862 F.3d at 1250.
“[T]ribal courts often provide litigants with due
process that ‘exceed[s] the protections offered by state
and federal courts.’ ”
Id. (second alteration in
original) (citing Matthew L.M. Fletcher, American
Indian Tribal Law 325 (2011)).
“[E]mpirical studies demonstrate that tribal
courts are even-handed in dispensing justice to
nonmembers.” Id.; see, e.g., Bethany R. Berger,
Justice and the Outsider: Jurisdiction Over
Nonmembers in Tribal Justice Systems, 37 Ariz. St.
L.J. 1047, 1047, 1051 (2005) (“Navajo appellate courts
are remarkably balanced in hearing cases involving
outsiders. . . . The court is both numerically balanced
in its decisions regarding nonmembers . . . and
qualitatively balanced, even in areas . . . that might
seem particularly prone to bias. A less comprehensive
review of decisions from other tribal court systems
reveals a similar effort to decide issues fairly, even
where it requires ruling against tribal members or the
tribe itself.”); Mark D. Rosen, Multiple Authoritative
Interpreters of Quasi-Constitutional Federal Law: Of
Tribal Courts and the Indian Civil Rights Act, 69
Fordham L. Rev. 479, 578 (2000) (concluding from a

55a
study of twelve years of decisions from approximately
twenty-five tribal courts that “tribal courts have [not]
succumbed to the temptation to favor the insider at
the expense of outsiders”).
Our own experience in reviewing tribal court
decisions is consistent with the findings of these
studies. Tribal courts, like all courts (including our
own), make mistakes. But, contrary to the contention
of FMC, tribal courts do not treat nonmembers
unfairly.
C. Comity
Because we hold that the Tribes had regulatory
and adjudicatory jurisdiction under both Montana
bases, and that FMC was not denied due process, we
recognize and enforce the Tribal Court of Appeals’
judgments under principles of comity. See AT&T
Corp. v. Coeur d’Alene Tribe, 295 F.3d at 903. The
judgment of the Tribal Court of Appeals is enforceable
under both the first and second Montana exceptions.
See Wilson v. Marchington, 127 F.3d at 810.
Conclusion
We hold that the Tribes had regulatory and
adjudicatory jurisdiction under both Montana
exceptions, and that the Tribal Court of Appeals did
not violate FMC’s right to due process. We hold that
the judgment of the Tribal Court of Appeals is
enforceable under principles of comity.
AFFIRMED.

56a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
FMC CORPORATION
Plaintiff,
v.
SHOSHONEBANNOCK TRIBES,

Case No. 4:14-CV-489BLW
MEMORANDUM
DECISION AND
ORDER

Defendant.
2017 WL 4322393
INTRODUCTION
In several pending motions, the Tribes and FMC
ask the Court to determine whether the Tribes may
enforce a Judgment imposed by the Tribal Appellate
Court. That Judgment imposes an annual permit fee
of $1.5 million. The Court heard oral argument on the
motions and took them under advisement. For the
reasons explained below, the Court finds that the
Tribes had jurisdiction over FMC to impose the
permit fees, and will grant the Tribes’ motion to
enforce the Tribal Court Judgment.
SUMMARY
For over 50 years, FMC operated a phosphorus
production plant on 1,450 acres of property FMC
owned in fee in Pocatello, Idaho, lying mostly within
the Shoshone-Bannock Fort Hall Reservation. FMC’s
operations produced 22 million tons of waste products
stored on the Reservation in 23 ponds. This waste is
radioactive, carcinogenic, and poisonous. It will

57a
persist for decades, generations even, and is so toxic
that there is no safe method to move it off-site.
The
waste’s
extreme
hazards
led
the
Environmental Protection Agency (EPA) to declare
the site a CERCLA Superfund clean-up site and to
charge FMC with violating the Resource
Conservation and Recovery Act (RCRA). The EPA
designed and implemented a program to contain the
waste.
To avoid litigation over the RCRA charges, FMC
negotiated with the EPA over a Consent Decree. As a
condition of agreeing to that Consent Decree, the EPA
insisted that FMC obtain Tribal permits for work
FMC would do under the Consent Decree on the
Reservation. The Tribes, however, were demanding
$100 million for those permits, although they would
drop the fee to $1.5 million a year if FMC consented
to Tribal jurisdiction. To get the lower permit fee, and
to satisfy the EPA’s condition that they obtain Tribal
permits, FMC consented to Tribal jurisdiction.
FMC challenged those permit fees in Tribal courts
by producing evidence that the stored waste had
caused no harm and the EPA’s containment program
foreclosed any need to impose substantial fees. The
Tribes produced evidence that the waste was severely
toxic, would remain so for generations, and could not
be moved off-site. After hearing this evidence, the
Tribal Appellate Court issued a Judgment against
FMC requiring them to pay an annual fee of $1.5
million.
The parties brought this action to resolve the issue
whether the Tribes could enforce that Judgment. The
Court finds that the Tribes have jurisdiction over
FMC. The source of the jurisdiction is based on FMC’s

58a
consent, discussed above, and the catastrophic threat
FMC’s waste poses to Tribal governance, cultural
traditions, and health and welfare.
Having identified the source of the Tribes’
jurisdiction over FMC, the Court turns next to the
scope of that jurisdiction. To the extent that Tribal
jurisdiction is based on FMC’s consensual
relationship with the Tribe to pay $1.5 million
annually to store hazardous waste within the
Reservation, the Tribes have jurisdiction to impose
the $1.5 million annual fee for as long as the waste is
stored there. The Tribal Appellate Court relied on
this ground of jurisdiction to impose its Judgment,
and the Court finds that the Judgment must be
enforced on that ground.
To the extent that Tribal jurisdiction is based on
the catastrophic threat FMC’s waste poses to the
Tribes, the amount of the annual permit fee must be
closely tied to the threat. Here, the Tribal Appellate
Court never identified the measures necessary to
protect against the threat and their cost. Instead of
using that calculation to arrive at the $1.5 million
figure, the Tribal Appellate Court simply carried over
that amount from the consensual relationship
agreement between FMC and the Tribes. Using an
agreed-upon figure is fine when the basis of
jurisdiction is a consensual relationship, but when
jurisdiction is based instead on a catastrophic threat,
the amount of the Judgment must bear some
relationship to the Tribes’ need to protect against the
threat. Because there is no such relationship in this
record, the Court cannot enforce the Judgment on the
basis of the catastrophic threat basis for Tribal
jurisdiction. Nevertheless, the Court will enforce the
Judgment because, as discussed above, it was

59a
properly entered under the consensual relationship
basis for Tribal jurisdiction.
FACTUAL BACKGROUND
History of the FMC Plant Cleanup
From 1949 to 2001, FMC and its predecessors
operated an elemental phosphorus production plant
on 1,450 acres of property FMC owned in fee in
Pocatello, Idaho, lying mostly within the exterior
boundaries of the Shoshone-Bannock Fort Hall
Reservation. FMC historically stored the waste from
its plant in ponds on that property. FMC has
estimated that about 22 million tons of waste is
contained in the 23 waste storage ponds on FMC’s
property. The waste includes hazardous materials
such as arsenic, and radioactive materials that emit
gamma radiation which exceeds the human health
safety standards set by the Environmental Protection
Agency (EPA). In 1990, the EPA declared the FMC
plant a superfund clean-up site under CERCLA, and
in 1997 charged FMC with violating RCRA, a law
regulating the disposal of hazardous and nonhazardous solid wastes.
To resolve these RCRA charges outside of
litigation, FMC began negotiation over the terms of a
Consent Decree with the EPA. As a condition of any
agreement, the EPA required that FMC obtain
necessary permits for the clean-up work from the
Tribes. The proposed Consent Decree would require
construction of new waste storage ponds and a
treatment facility on FMC’s property within the
Reservation boundaries, and so the Tribes were
demanding that FMC obtain Tribal permits for this
work. Because the EPA was insistent on FMC
obtaining the necessary Tribal permits, FMC “was

60a
justifiably concerned that an unresolved dispute
between FMC and the Tribes would jeopardize the
likelihood of successfully completing FMC’s Consent
Decree negotiations with the United States.” See
FMC Response Brief (Dkt. No. 72) at p. 18. According
to FMC, resolution of the waste permit issue with the
Tribes was “of such great importance that FMC’s
negotiating team was led Paul McGrath, FMC’s
Senior Vice President and General Counsel.” Id.
McGrath faced a substantial obstacle—the Tribes
were demanding $100 million to issue the permits.
See 002610. Finding himself in a weak bargaining
position, FMC’s negotiator McGrath, “select[ed] the
only rational choice for resolving FMC’s dispute with
the Tribes—to negotiate a lower fee.” See FMC
Response Brief, (Dkt. No. 72) at p. 18.
The Tribes were willing to negotiate a lower fee
but only if FMC consented to Tribal jurisdiction. FMC
described its analysis of the Tribes’ demand: “FMC
knew that contesting the Tribes’ jurisdiction would
take years. Although FMC vigorously disagreed with
the Tribes’ assertion of jurisdiction to compel
compliance with the claimed permit requirement,
FMC had no realistic alternative but to resolve its
dispute with the Tribes in a manner that would
enable continued operation of the Pocatello Plant . . . .
Permanent shutdown of the Pocatello Plant at that
time would have caused FMC severe economic
damages.” See FMC’s Statement of Facts (Dkt. No. 671) at p. 9.
On August 11, 1997, FMC’s Health Safety &
Environmental Manager David Buttelman filed
applications for permits with the Tribes and stated in
an accompanying letter as follows:

61a
Through submittal of the Tribal “Building
Permit Application” and the Tribal “Use
Permit Application” for Ponds 17, 18 and 19,
FMC Corporation is consenting to the
jurisdiction of the Shoshone-Bannock Tribes
with regard to the zoning and permitting
requirements as specified in the current Fort
Hall Land Use Operative Policy Guidelines.
See Exhibit 57. With FMC having consented to Tribal
jurisdiction, the Tribes lowered their fee to $1.5
million a year to cover hazardous and nonhazardous
waste beginning in 1998 and continuing “for every
year thereafter . . . .” See Exhibit 61.
FMC responded to that letter on May 26, 1998, by
expressing its appreciation for the Tribes “agreeing to
the fixed fee proposal that we discussed, which we
understand will apply during the time these ponds
are in operation,” and by stating “we . . . intend to
make the payments of $2.5 million on June 1, 1998,
and the $1.5 million on June 1 in the following years.”
See Exhibit 62. The Tribes’ attorney Jeanette Wolfley
objected to the language in this letter implying that
the obligation to pay the fee would end with the
closure of Ponds 17, 18 & 19. According to FMC’s
Division Manager, Robert Fields, Wolfly asked
McGrath “to acknowledge in writing that the Use
Permit and the annual fee applied broadly to the
entire facility.” See Exhibit 66, Fields Affidavit.
Fields testified that “McGrath agreed and sent Ms.
Wolfley his letter of June 2, 1998.” Id. In that letter,
FMC clarified that the language of the May 26 letter
was “too narrow, and indeed it is our understanding
. . . that the $1.5 million annual fee would continue to
be paid for the future even if the use of ponds 17-19

62a
was terminated in the next several years.” See
Exhibit 63.
FMC’s resolution with the Tribes was a major
factor in reaching an agreement with the EPA on the
RCRA Consent Decree. Within just a few months of
resolving the permit issues, FMC reached agreement
with the EPA on the RCRA Consent Decree. By the
terms of that Consent Decree, FMC agreed to pay a
fine of $11.9 million and to close and cap the waste
ponds in accordance with closure plans developed in
coordination with the EPA—removal or treatment of
the waste was deemed too expensive and too
dangerous by the EPA. See Interim Record of Decision
Amendment (IRODA) at pp. 1-2. To do the work
necessary to comply with the Consent Decree, FMC
was required to obtain Tribal permits, as set forth in
paragraph 8 of the Consent Decree: “Where any
portion of the Work requires a . . . tribal permit or
approval, [FMC] shall submit timely and complete
applications and take all other actions necessary to
obtain all such permits or approvals.”
Prior Proceedings in the Federal Courts
The EPA did file an action against FMC but
simultaneously presented the Consent Decree to this
Court for approval to settle the lawsuit. The Tribes
objected to the Consent Decree, seeking removal of
the waste rather than capping of the ponds. The
Court granted the Tribes motion to intervene, but
found that “the capping requirements are adequately
environmentally protective—the record contains no
legitimate basis on which the Court could conclude
that capping allows an unreasonable health risk to go
unchecked,” and approved the Consent Decree. See
Order (Dkt. No. 27) in U.S. v. FMC, CV-98-406-BLW.

63a
On appeal, the Ninth Circuit affirmed that
decision, holding that “the Tribes have presented no
evidence that capping the ponds poses a threat to
human health and the environment.” See U.S. v.
Shoshone-Bannock Tribes, 229 F.3d 1161 at *2
(unpublished disposition) (9th Cir. 2000). In the
proceedings before the Ninth Circuit, FMC argued
that the Tribes had no right to object to the Consent
Decree because the Tribes had “granted permits to
FMC for its construction and use of Ponds 17 and 18
. . . subject to payment of a $1 million startup fee and
a $1.5 million annual permit fee payable to the
Hazardous Waste Program of the Tribes Land Use
Department.” See Brief of FMC, 2000 WL 33996531,
at *17-18. While not specially citing this argument,
the Circuit did hold that the Tribes had been
adequately consulted. Shoshone-Bannock Tribes, 229
F.3d at *2.
Between 1999 and 2005, FMC completed closure
and capping of the RCRA Ponds pursuant to this
Consent Decree and the EPA-approved closure plans.
In 2005, FMC certified final closure of the last of the
RCRA Ponds in accordance with EPA-approved
closure plans. See 002371.
FMC paid the annual permit fee of $1.5 million
under the 1998 agreement from 1998 to 2001. In
December of 2001, FMC ceased all mineral processing
operations at the site. When the fee became due for
2002, FMC objected, arguing its obligation had ended
because (1) the Tribes failed to codify the fee to
“ensure that [it] remains the same in the future”; and
(2) the fee only applied to the disposal of waste, not its
storage, and FMC had ceased disposing of waste.
FMC refused to pay the $1.5 million fee and refused

64a
to apply for any further permits as it continued with
the RCRA clean-up efforts.
After negotiations failed, the Tribes filed a motion
in U.S. v. FMC, CV-98-406-BLW asking the Court to
clarify whether FMC had an obligation to obtain
tribal permits for activities FMC undertook under the
RCRA Consent Decree. This Court issued a decision
on March 6, 2006, holding that (1) the Tribes had
jurisdiction over FMC under the first Montana
exception (see Montana v. U.S., 450 U.S. 544, 565-66
(1981)), (2) FMC was required to apply for Tribal
permits based on FMC’s agreement to submit to tribal
jurisdiction in ¶8 of the RCRA Consent Decree, (3) the
Tribes were intended third-party beneficiaries of the
Consent Decree and therefore had a right to enforce
its terms; and (4) FMC was required to exhaust tribal
remedies over any challenges to the Tribal permit
decisions. See U.S. v. FMC, 2006 WL 544505 (D.
Idaho 2006).
On appeal, the Ninth Circuit only addressed the
third finding and reversed it, holding that the Tribes
were merely incidental beneficiaries of the Consent
Decree without standing to enforce its provisions.
U.S. v. FMC, 531 F.3d 813 (9th Cir. 2008). The
Circuit vacated this Court’s decision and remanded
the case with instructions to dismiss the action. Id.
at 824. At the conclusion of its decision, the Circuit
noted that FMC had “began the process of applying
for tribal permits, which is the main relief that the
Tribes have sought in this action” and that FMC’s
counsel during oral argument “represented to the
court that FMC understands that it has the obligation
to continue, and will continue, with the current tribal
proceedings to their conclusion.” Id. at 824.

65a
Initial Proceedings Before the Tribal Courts
FMC’s application was granted by the Tribes’
Land Use Policy Commission (LUPC) on the condition
that FMC either resume paying the $1.5 million fee
or pay a much higher fee based on the weight of the
material stored in the ponds. FMC appealed that
decision to the Fort Hall Business Council (FHBC),
which affirmed the LUPC decision. FMC appealed
the FHBC decision to the Shoshone-Bannock Tribal
Court.
The Tribal Court issued two decisions. The first,
issued on November 13, 2007, held that FMC was
subject to Tribal jurisdiction, and the decision also
dismissed the Tribes’ breach of contract and air
quality permit counterclaims. The second, issued on
May 21, 2008, held that (1) FMC was required to
obtain a Tribal Building Permit, but the Tribes could
not impose a $3000 fee for that permit; (2) FMC was
not required to obtain a special use permit; (3) the
1998 Agreement between the parties had not been
incorporated into a tribal ordinance; and (4) the
Tribes could not impose the $1.5 million permit fee
because it had not been approved by the Secretary of
the Interior under the Tribal Constitution.
The Tribes appealed that decision to the Tribal
Appellate Court, and FMC cross-appealed. The threejudge panel for the Tribal Appellate Court consisted
of Judges Gabourie, Pearson, and Silak. About three
months before reaching any decision, but while the
case was pending before them, Judge Gabourie and
Pearson spoke at a conference on tribal courts held at
the University of Idaho College of Law.
The
conference, held on March 23, 2012, was attended by

66a
attorneys and members of the public, and was
videotaped.
In their remarks, both Judges asserted that it was
important for Tribes to obtain as much jurisdiction
and sovereignty as possible, and explained how tribal
appellate judges could issue decisions to achieve this
goal for tribes. They criticized many of the principal
United States Supreme Court decisions regarding
tribal jurisdiction, labeling the Montana decision as
“murderous to Indian tribes.” See 006580. They were
similarly critical of other Supreme Court decisions.
Judge Gabourie told the audience that the tribal
“appellate courts have got to step in” and “be sure to
protect the tribe.” 006599. They explained that the
way to avoid “bad decisions” was for the tribal
appellate courts to ensure that the record would
support any decision on appeal through the federal
courts. Id.
Judge Gabourie also made comments about the
pollution left behind by companies who operated
within reservation boundaries:
You know, there’s one area, too, there are
tribes that have had mining and other
operations going on, on the reservation, you
know, and then the mining company or
whatever,
manufacturing
company,
disappears.
They leave, you know.
They’ve – they’ve either dug everything they
could, and the then ground is disturbed,
sometimes polluted beyond repair. And you
sit as a – as an appellate court justice, and
you’re starting to read the cases that come
down from the tribal court. And you’re saying
to yourself, you know, We know that

67a
the – there’s pollution, that the food that
they’re eating is polluted, the water’s
polluted, but nobody proved it. And while
John Jones said that it is polluted, you know,
John Jones don’t count. But the tribal courts
have got to realize that you need expert
witnesses. You need chemists and whatever
to get out of testifying. It may cost a little, but
so the appellate court is in a position of
remanding that case back and say “do it.”
See 006598.
Judge Pearson made similar comments:
If you’re a law student and you’re going to
practice law, as well as if you’re a judge and
you’re going to be hearing cases, you know
where – companies come on the reservations
and do business for X number of years and
they dirty up your groundwater and your
other things, and they go out of business. And
they leave you just sitting. And you need to
know what you can do as you’re sitting as a
judge with those cases coming toward you.
See 006605-06.
About three months later, on June 26, 2012,
Judges Gabourie, Pearson, and Silak issued an
opinion holding that (1) the Tribes have jurisdiction
under the first Montana exception to require FMC to
obtain a waste storage permit and pay the annual fee;
(2) Tribal ordinances (the Land Use Policy Ordinance
and the Hazardous Waste Management Act (HWMA))
independently authorized the imposition of the waste
storage permit fee on FMC; (3) the Tribal Court erred
in dismissing the Tribes’ air quality and breach of
contract counterclaims without permitting discovery,

68a
and in failing to consider whether the Tribes have
jurisdiction over FMC under the second Montana
exception.
In April of 2013, Judges Gabourie and Pearson
were replaced on the panel with Judges McDermott
and Herzog. Judge Silak—a former Justice of the
Idaho Supreme Court—remained on the panel.
Shortly thereafter, on May 6, 2013, FMC filed a brief
with the Tribal Appellate Court, asking it to
reconsider the rulings of the prior panel, and arguing
that if the new panel agreed with those rulings, it
should then conclude the proceedings; but that if the
new panel did not agree with those rulings, it should
vacate the rulings of the prior panel and proceed
anew. FMC supported this request by asserting that
it “ha[d] obtained new evidence regarding public
statements made by two of the judges [Judges
Gabourie and Pearson] from the prior appellate
panel” at the conference held on March 23, 2012,
which FMC claimed showed that those judges were
biased.
On May 28, 2013, the new panel reconsidered and
reaffirmed the prior panel’s determinations. The new
panel also decided to hold an evidentiary hearing to
resolve whether the second Montana exception
applied, and granted the parties a period of discovery
on that issue.
Tribal Appellate Court Evidentiary Hearing
An evidentiary hearing was held from April 1
through April 15, 2014, with the Tribes and FMC
presenting witness testimony, documentary evidence,
and legal arguments regarding the second Montana
exception.
To summarize, the Tribes’ evidence
showed the serious toxicity of the stored waste and

69a
the uncertainty over its geographic scope, while
FMC’s evidence highlighted the EPA’s containment
program, and showed that the agency’s extensive
testing and monitoring revealed no actual physical
harm to humans and no measurable contamination of
air or water to this point.
For example, the Tribes’ evidence identified
components of FMC’s stored waste, including the
following: (1) elemental phosphorus that leaked into
the subsurface soil during production; (2) elemental
phosphorus and chemical byproducts from the
phosphorus production process suspended in
contaminated water that are contained in ponds
on the site; (3) phosphine gas produced by elemental
phosphorus; (4) contaminated rail cars buried
at the site that were used in the transport
of
elemental
phosphorus;
(5) contaminated
groundwater containing arsenic and phosphorus that
seeped into the groundwater from other sources of
contamination on the site; and (6) millions of tons of
slag that contains radioactive materials which emit
gamma radiation in excess of EPA’s human health
safety standards.
Testimony showed that the elemental phosphorus
contained in the soil and containment ponds is
reactive, meaning that it will burst into flames when
exposed to oxygen. This reaction also produces
numerous chemical byproducts, which react to form
phosphoric acid aerosols. The phosphorus itself is
toxic when ingested, inhaled or absorbed, and will
remain reactive for thousands of years. When
exposed to water, elemental phosphorus produces
phosphine gas, which is harmful and even deadly to
humans at certain levels; indeed, it is the active
ingredient in some poisons.

70a
The Idaho Department of Health and Welfare
evaluated an EPA air sample and notified the EPA
that phosphine gas being released from a pond on
FMC’ s property was an urgent public health hazard
to the health of people breathing the air in the
proximity of Pond 15S, and that breathing the air for
just a few seconds could cause measurable harm and
could be lethal. The EPA responded to that notice and
remedied the situation.
The EPA estimates that there are as much as
16,000 tons of elemental phosphorus in the ground,
contaminating approximately 780,000 cubic yards of
soil weighing approximately 1 million tons. But the
EPA described as “significant unknowns” the
“horizontal and vertical gradients in the
concentrations of elemental phosphorous, the total
mass of elemental phosphorous, and the form of
elemental phosphorous in the soil.” See 008543.
The Tribes’ evidence showed that in 1964, FMC
buried approximately twenty-one tanker rail cars on
the FMC site. The tankers contained elemental
phosphorus sludge, and instead of requiring workers
to undertake the dangerous work of cleaning up this
toxic material, FMC simply buried the rail cars,
covering them with clay and then with radioactive
slag. The evidence indicates the tankers contained
from 200 to 2,000 tons of elemental phosphorus
sludge, 10-25% of which remained in each of the
tankers at the time they were buried. The level of
corrosion of the tankers is unknown and it is possible
that they either have or will corrode to the point of
leakage from phosphoric acid produced by the
phosphorus. EPA decided that the area where the
tankers were buried should be capped and that no
efforts to remove the tankers should be undertaken,

71a
but it is undisputed that no remedial action to address
this threat has been implemented.
Arsenic and phosphorus from the site are
continuously flowing in the groundwater from FMC’s
land through seeps and springs directly into the
Portneuf River and Fort Hall Bottoms.
This
negatively affects the ecosystem and subsistence
fishing, hunting and gathering by tribal members at
the River, as well as the Tribes’ ability to use this
important resource as it has been historically used for
cultural practices, including the Sundance. The
EPA’s Interim Amendment to the Record of Decision
for the EMF Superfund Site FMC Operable Unit
Pocatello Idaho (2012) (“IRODA”) calls for a decadeslong regime of ground water monitoring and
treatment to minimize risks.
However, such
intervention programs are in the design phase only,
and have not yet been implemented. Uncontroverted
evidence at trial showed that Tribal members’ ability
to take part in tribal cultural practices on the River
has been compromised by FMC’s contributions to
contamination of the River. Although FMC tried to
show that none of the groundwater seeping into the
Portneuf is above EPA levels of concern, Rob
Hartman’s testimony did show that groundwater
extraction systems have not been put into place at the
FMC site, and that arsenic and phosphorus are
actually traveling to the Portneuf River.
Although the EPA has been involved at this site
since 1990, remedial actions chosen by the EPA have
not been implemented. Many of EPA’s proposed
remedial actions are still in design phase only, and
the threat at the site remains today. EPA’s IRODA is
itself only an interim measure, and according to the
IRODA, a final Record of Decision will not be

72a
available for five to ten years. In any event, EPA’s
plans are containment plans, which would keep the
threatening hazardous wastes on fee land for the
indefinite future.
FMC, on the other hand, presented evidence that
EPA’s containment program includes: (a) installation
of engineered evapotranspiration (“ET”) soil barrier
caps over areas on site that are potential sources of
groundwater contamination; (b) installation of
engineered “gamma” soil barrier caps at areas on site
containing slag fill and ore; (c) installation of a
groundwater extraction and treatment system that
will capture and contain all contaminated
groundwater at the FMC Property fence line, and
treat the extracted groundwater; and (d) long-term
monitoring and maintenance of the soil caps and
groundwater extraction and treatment system.
In addition, FMC produced evidence that between
1977 and 2000, independent epidemiologists from the
University of Minnesota conducted multiple
epidemiological human health studies of FMC’s
Pocatello Plant workers. Those studies establish that
long-term exposure to the contaminants at the FMC
Property did not cause any adverse health impacts to
those workers whose exposures would be many times
that of community members outside the Plant
boundaries. See 262733; 262766; 262897. Similarly,
in 2006, researchers from the Oregon Health &
Science University and the Northwest Portland Area
Indian Health Board conducted an independent
human health study of the Tribal community. See
289037. The Tribes participated in the design and
implementation of that study. See 289038. That
study failed to find adverse health impacts to Tribal

73a
members that could be attributed to contamination at
the FMC Property. See 289053.
FMC presented evidence from the EPA that
contamination at the FMC site has not affected water
quality off-site. The EPA concluded that: (a) no offsite drinking water wells are contaminated from any
substances emanating from the FMC Property
(008022); (b) sampling conducted in 2012 and 2013
establishes that the off-site groundwater meets
federal drinking water quality criteria (008027);
(c) the Simplot plant is the source of 95% of total
arsenic and more than 95% of the total phosphorus
mass loading to EMF Superfund Site-impacted
groundwater flowing into the Portneuf River (id.);
(d) since 2001, Simplot is the sole source of fluoride
emissions (007984); (e) measurements of the
radioactivity establish that radium-226 levels are not
a risk to human health or the environment (008069);
and (f) Tribal members have not been exposed to
phosphine gas, as shown by approximately 40,000
measurements of phosphine gas emissions taken
since 2008 that show no detections of phosphine (0.00
parts per million) at the FMC property fence line
(008151).
The Agency for Toxic Substances and Disease
Registry (“ATSDR”) evaluated air quality impacts
from the site in 2006 after the shutdown of the FMC
Pocatello Plant. See 285232. The ATSDR found that
the Superfund Site currently presents no public
health hazard. See 285240.
To summarize, neither side directly contradicted
the other. The Tribes’ evidence established without
rebuttal that the waste is radioactive, carcinogenic,
poisonous, and likely to remain toxic—and on the
site—for decades. FMC’s evidence established

74a
without rebuttal that despite the toxicity of the waste,
no measurable harm had yet occurred to humans or
water quality, and the EPA’s containment program
would prevent any future harm.
Analyzing this evidence, the Tribal Appellate
Court ultimately concluded that FMC’s storage of
millions of tons of toxic waste posed a serious threat,
and has a direct effect on, “the political integrity, the
economic security, or the health or welfare of the
[Tribes].” See 008552. Consequently, the Court held
that Montana’s second exception applied, and that the
Tribes had jurisdiction to require FMC to obtain
permits for the remediation work.
Based on this ruling, the Appellate Court issued a
Final Judgment against FMC, dated May 16, 2014,
finding FMC liable for a permit fee of $1.5 million a
year. The Judgment charges FMC with $19,500,000
in permit fees for the years 2002 up through the date
of the Judgment in 2014, $928,220.50 in attorneys’
fees, and $91,097.91 in costs, for a total of
$20,519,318.41. Both sides agree that the Judgment
imposes the $1.5 million fee in perpetuity with no
ending date established.
FMC responded to this Judgment by filing this
lawsuit in November 2014, requesting that this Court
deny enforcement of the Judgment issued by the
Tribal Appellate Court. The Tribes counterclaimed
for an Order allowing them to enforce the Judgment.
LEGAL STANDARDS
The recognition and enforcement of tribal
judgments in federal court rests upon principles of
comity, which is “neither a matter of absolute
obligation, on the one hand, nor of mere courtesy and
good will, upon the other.” Wilson v. Marchington,

75a
127 F.3d 805, 809 (9th Cir. 1997) (quoting Hilton v.
Guyot, 159 U.S. 113, 163–64 (1895)). As a general
policy, “[c]omity should be withheld only when its
acceptance would be contrary or prejudicial to the
interest of the nation called upon to give it effect.” Id.
At its core, comity involves a balancing of interests.
“[I]t is the recognition which one nation allows within
its territory to the legislative, executive, or judicial
acts of another nation, having due regard both to
international duty and convenience, and to the rights
of its own citizens, or of other persons who are under
the protection of its laws.” Id. at 810. Wilson holds
that “comity still affords the best general analytical
framework for recognizing tribal judgments.”
As a “general principle, federal courts should
recognize and enforce tribal judgments.”
Id.
However, federal courts must neither recognize nor
enforce tribal judgments if: (1) the tribal court did not
have both personal and subject matter jurisdiction; or
(2) the defendant was not afforded due process of law.
Id. In addition, a federal court may, in its discretion,
decline to recognize and enforce a tribal judgment on
equitable
grounds,
including
the
following
circumstances: (1) the judgment was obtained by
fraud; (2) the judgment conflicts with another final
judgment that is entitled to recognition; (3) the
judgment is inconsistent with the parties’ contractual
choice of forum; or (4) recognition of the judgment, or
the cause of action upon which it is based, is against
the public policy of the United States or the forum
state in which recognition of the judgment is sought.
Id. “Unless the district court finds the tribal court
lacked jurisdiction or withholds comity for some other
valid reason, it must enforce the tribal court judgment
without reconsidering issues decided by the tribal

76a
court.” AT&T Corp. v. Coeur d’Alene Tribe, 295 F.3d
899, 903-04 (9th Cir. 2002).
FMC has challenged the Tribal Judgment on
jurisdictional and due process grounds. The Court
reviews the Tribal Courts’ legal rulings de novo. See
FMC v. Shoshone-Bannock Tribes, 905 F.2d 1311 (9th
Cir. 1990) (holding that in reviewing Tribal court
judgments, “[f]ederal legal questions should therefore
be reviewed de novo”). The Tribes have the burden of
proving jurisdiction, while FMC has the burden of
proving a lack of due process. See generally Bank
Melli Iran v. Pahlavi, 58 F.3d 1406, 1408 (9th Cir.
1995).1
The Court will turn first to the jurisdictional
challenge.
ANALYSIS
First Montana Exception
The pending motions raise the issue whether the
Tribes had jurisdiction to impose a $1.5 million fine
on FMC for actions taken on land owned in fee by
FMC within Reservation boundaries. In Montana v.
U.S, 450 U.S. 544 (1981), the Supreme Court held
that with two exceptions, the “inherent sovereign
powers of an Indian tribe do not extend to the
activities of nonmembers of the tribe” on privatelyowned fee lands within a reservation. Id. at 565. The
1

Pahlavi discusses but does not resolve the burden of
proof on due process issues. But the discussion in that case
clearly leans toward finding that the party claiming a lack of due
process has the burden of proving that defense. Id. at 1409
(quoting with approval a leading federal court treatise so
finding, and commenting that “a strong argument can be made
that a claimed lack of due process should be treated as a
defense”).

77a
Tribes have the burden of proving that one of the two
exceptions apply here. Plains Commerce Bank v.
Long Family Land & Cattle Co., 554 U.S. 316, 330
(2008).
The first exception provides that “a tribe may
regulate through taxation, licensing, or other means,
the activities of non-members who enter into
consensual relationships with the tribe or its
members, through commercial dealing, contracts,
leases, or other arrangements.” Id. at 565-66. In a
decision issued 16 years after Montana, the Supreme
Court described the scope of the first exception by
explaining that what the Court “had in mind” was
contained in a list of cases cited in Montana, including
Morris v. Hitchcock, 194 U.S. 384 (1904), a case
upholding a tribal permit tax on nonmember-owned
livestock within boundaries of a reservation. Strate v.
A-1 Contractors, 520 U.S. 438, 457 (1997).
In the Morris case, the Chickasaw Nation required
that any non-member grazing cattle on Reservation
land must obtain a permit and pay a permit tax of 25
cents per head. Cattle owners who had contracts with
individual Chickasaw Nation members to graze cattle
on their land failed to pay the permit tax and were
threatened with seizure of their cattle. The cattle
owners responded by filing suit, claiming the
Chickasaw Nation had no jurisdiction to impose the
tax on non-Tribal members. The Supreme Court in
Morris upheld the right of the Chickasaw Nation to
impose the tax. More than ninety years later, the
Supreme Court in Strate confirmed the correctness of
that ruling by pointing to the consensual relationship
between the cattle owners and individual members of
the Chickasaw Nation as satisfying the consensual
relationship prong of Montana.

78a
The same type of consensual relationship exists
here. In the series of letters discussed above, FMC
agreed to obtain a Tribal permit to do the work
necessary to comply with the Consent Decree. FMC
then affirmed its consensual relationship with the
Tribes by signing the Consent Decree, which required
FMC to obtain Tribal permits. FMC then cited its
consensual relationship with the Tribes to this Court
and the Ninth Circuit as part of its argument that the
Decree should be approved.
FMC complains that this agreement was a product
of duress, but the Tribes only took advantage of their
bargaining leverage, a long-standing practice in the
sharp-elbowed corporate world in which FMC does
business every day. FMC had a strong desire to
obtain a Consent Decree from the EPA, but the EPA
was insisting that FMC obtain Tribal permits. The
Tribes, recognizing their superior bargaining
position, used that leverage to extract a high price for
the permits. FMC paid the price because the Tribal
permit was a key component to obtaining the Consent
Decree, which in turn was worth the price of the
Tribal permit. This was a simple business deal, not
the product of illegal duress or coercion. FMC cites no
case law holding that Montana’s exception does not
apply when the consensual relationship is formed
begrudgingly or by one party taking advantage of
bargaining leverage.
FMC argues at length that it never agreed to
submit to Tribal jurisdiction. This argument is a red
herring. As Montana, Strate and Morris make clear,
it is the consensual relationship that triggers Tribal
jurisdiction, regardless of whether a separate
agreement to submit to jurisdiction exists. Even if a
party like FMC could preserve an objection to

79a
jurisdiction at the same time it entered into a
consensual relationship—a theory without legal
support in FMC’s briefing—FMC never made that
objection before entering into the consensual
relationship.
Finally, even if the red herring
argument is pursued, the exchange of letters
discussed above shows that FMC agreed to submit to
Tribal Court jurisdiction to obtain the permit they so
badly wanted and needed.
For all of these reasons, the Court finds that the
Tribal Courts had jurisdiction under Montana’s first
exception to resolve disputes over the Tribal permit
FMC agreed to obtain authorizing it to dispose and
store
hazardous
waste
within
Reservation
boundaries.
Second Montana Exception
Tribal jurisdiction exists under the second
Montana exception when “the conduct of non-Indians
on fee lands within its reservation . . . threatens or
has some direct effect on the political integrity, the
economic security, or the health or welfare of the
tribe.” Montana, 450 U.S. at 566. For a tribe to have
authority over nonmember conduct, “[t]he conduct
must do more than injure the tribe, it must ‘imperil
the subsistence’ of the tribal community.” Plains
Commerce Bank v. Long Family Land & Cattle Co.,
Inc., 554 U.S. 316, 341 (2008). Thus, “Montana’s
second exception does not entitle the tribe to complain
or obtain relief against every use of fee land that has
some adverse effect on the tribe.” Evans v. ShoshoneBannock Land Use Policy Comm’n, 736 F.3d 1298,
1306 (9th Cir. 2013). Rather, the challenged conduct
must be so severe as to “fairly be called catastrophic
for tribal self-government.” Plains Commerce, 554

80a
U.S. at 341 (internal quotation and citation omitted).
The fine imposed by the Tribal Judgment must be
“necessary to avert catastrophe.” Evans, supra at
1306 n.8. (9th Cir. 2013).
Here, the EPA has taken substantial steps to
contain the toxic waste and prevent harm. But the
threat remains: The EPA itself found in 2013 that the
toxic waste “may constitute an imminent and
substantial endangerment to public health or
welfare or the environment.” See 2013 Unilateral
Administrative Order for Remedial Design and
Remedial Action No. CERLCA-10-2013-0116 (June
10, 2013). Because the EPA intends to leave the
waste on the site indefinitely, and because the waste’s
toxicity has such a long life – decades, if not
longer – there is a real risk that no matter how well
its containment system is designed, the system may
fail.
That risk becomes much less abstract when the
containment system’s ability to contain three lethal
gases—phosphine, hydrogen cyanide, and hydrogen
sulfide—is examined. According to the EPA, each of
these gases is “immediately dangerous to life and
health” at different concentrations.
See EPA
Unilateral Administrative Order for Removal Action
at ¶¶ 20-23. In 1999, the EPA ordered FMC to close
and cap pond 16S, located entirely within Reservation
boundaries, and in 2005 FMC certified that it had
capped and closed the pond in accordance with the
EPA-approved closure plan. Id. at ¶ 12 at 332332.
But a year later, in 2006, monitoring revealed that
dangerous levels of phosphine gas, hydrogen cyanide
gas, and hydrogen sulfide gas were “being generated
within the cap at pond 16S.” Id. at ¶ 19. In addition,
air samples showed that hydrogen sulfide gas had

81a
escaped from the pond and was being carried
downwind. Id. In a later report, the EPA found that
in 2005, 2006, 2007, and 2009, levels of phosphine gas
in the surrounding air were high enough to require
workers in the area to either delay work or leave the
area for their safety.
See EPA Unilateral
Administrative Order for Removal Action at ¶¶ 17-23
at 5707-09.
It is true that these releases were discovered and
stopped, and that there is no evidence that anyone
was harmed. At the same time, however, these EPA
reports demonstrate that the waste sites are not
reservoirs of passive liquid that can be contained with
a simple dam. Instead, these sites are generating
lethal gases that accumulate under pressure beneath
the pond covers. In other words, they pose a constant
and deadly threat to the Tribes, a real risk of
catastrophic consequences should containment fail.
And despite the best efforts of the EPA, there have
been releases of these lethal gases. Indeed the EPA
itself has concluded in 2010 that “[c]oncentrations of
phosphine, hydrogen cyanide and hydrogen sulfide
gas accumulating within the Pond 16S cap and being
released may present an imminent and substantial
endangerment to human health and the
environment.” Id. at 19 (emphasis added). In even
broader terms, the EPA concluded in 2013 that the
waste sites “may constitute an imminent and
substantial endangerment to public health or welfare
or the environment.”
See EPA Unilateral
Administrative Order for Remedial Design and
Remedial Action (June 10, 2013).
The Tribal Appellate Court heard testimony from
a former EPA official who worked at the agency for 36
years, David Reisman, who concluded that these

82a
lethal gases were escaping from the waste sites and
that the EPA’s monitoring procedures were not
sufficient to detect all the releases.
See Trial
Transcript, Vol II at 331-33. It is no wonder that the
Tribal Appellate Court concluded that “[n]o evidence
has been offered to rebut the conclusion that if any of
the containment efforts fail for any reason, escape of
the toxic waste or any of its by-products at certain
levels could prove catastrophic to the tribe, its
members, its environment, its health, safety and
welfare.” See 8547.
This dangerous threat can only be contained, not
removed or treated. The EPA has concluded there is
“no technologies that could reliably, safely, and
effectively be utilized to excavate and treat the
elemental phosphorus-contaminated wastes” at the
site. See 2012 Interim Record of Decision Amendment
at p. 78. Removal would involve excavating 780,000
yards of contaminated soil, much of it “at a significant
depth (up to 85 feet bgs [below ground surface]) and
unevenly distributed throughout the soil column.” Id.
The EPA concluded that safe treatment and removal
was not technologically feasible, but even if it was, it
would cost $4.7 billion, an amount one hundred times
greater than the cost of containment ($47 million). Id.
at pp. 65, 83-84.
And so there it sits. For how long? The EPA
calculated its cost – the $47 million figure – by
estimating that containment must continue for at
least 30 years. Id. at p. 65 (also estimating that
treating all the waste would take up to 44 years).
In Evans, the Circuit held that Tribes failed to
show that a catastrophic risk was posed by the
construction of a single-family house that might cause
groundwater contamination, and that the Tribes

83a
therefore lacked jurisdiction over the home builder
under the second Montana exception. Evans, 736
F.3d at 1306. By comparison, the threat in this case
is many levels of magnitude greater than the threat
in Evans. FMC’s waste is radioactive, carcinogenic,
poisonous, and massive in size. It is so toxic that
there is no safe way to remove it, ensuring that it will
remain on the Reservation for decades. While the
EPA’s containment program is extensive, it has not
prevented lethal phosphine gas from escaping.
Moreover, the EPA cannot say how deep and
widespread the deadly plume of phosphorus extends
underground, beyond estimating that it already
extends 85 feet below the surface.
Under the standard discussed in Evans, the record
shows conclusively that a failure by the EPA to
contain the massive amount of highly toxic FMC
waste would be catastrophic for the health and
welfare of the Tribes. This is the type of threat that
falls within Montana’s second exception.
Due Process
Having found that the Tribal Appellate Court had
jurisdiction to resolve disputes over FMC’s hazardous
waste permits, the Court turns next to FMC’s
argument that it was denied due process in the Tribal
Courts. The governing legal standard was set forth in
Marchington, 127 F.3d at 811:
Due process, as that term is employed in
comity, . . . [requires] that there has been
opportunity for a full and fair trial before an
impartial tribunal that conducts the trial
upon regular proceedings after proper service
or voluntary appearance of the defendant,
and that there is no showing of prejudice in

84a
the tribal court or in the system of governing
laws.
FMC argues that the Tribal Appellate Court was not
impartial, citing the statements made by Judges
Gabourie and Pearson, discussed above, showing that
they were biased in favor of the Tribes. But FMC
asked the Tribal Appellate Court to reconsider the
ruling by those Judges, and that was done by a new
panel that did not include either Judge Gabourie or
Judge Pearson. So even if the prior panel was biased,
a new panel was convened that independently came
to the same conclusion, removing any due process
concern.
That new panel was comprised of a former Justice
on the Idaho Supreme Court (Judge Cathy Silak), a
retired Idaho District Court Judge (Judge Peter
McDermott), and a practicing attorney (Vern Herzog
Jr.). After that decision was rendered, John Traylor
replaced Cathy Silak on the panel that resolved the
issue of the second Montana exception following an
evidentiary hearing. Judge Traylor is a licensed
attorney, was a former Trial Court Administrator for
both the Tribal Courts and the Ada County State
Courts in Idaho, and served as Director of Planning
and Zoning for Ada County. He currently does private
consulting work.
Each of these Judges has had a long and
distinguished career in Idaho. There is no evidence
whatsoever that they were biased in favor of the
Tribes or against FMC. There is also no evidence that
these Judges were stooges for the Tribal Council. The
Judges all have careers that are independent of any
reliance on the Tribal Council, and there is nothing in

85a
the record suggesting that the Council had any
influence over them.
After examining the entire record, the Court finds
that FMC received a full and fair trial before an
impartial Tribal Appellate Court, and can find no
prejudice there or in the Tribal laws.
Comity Analysis
From the discussion above, the Tribes had
jurisdiction under both the first and second Montana
exceptions to resolve disputes over the permits issued
to FMC allowing it to store toxic wastes within the
Reservation boundaries. The next issue to resolve is
whether the annual permit fee is so prejudicial or
unfair to FMC that it cannot be enforced under the
comity analysis in Marchington.
The scope of the Tribes jurisdiction depends on its
source. If the source is the second Montana exception,
the permit fee must have some relationship to the
Tribe’s obligation to protect the health and safety of
Tribal members. Here, the EPA is undertaking a
substantial role in protecting the Tribes. From the
discussion above, the EPA’s containment program is
not fail-safe, and the Tribes are reasonable in their
desire to provide an additional level of protection to
supplement the EPA’s program. Having jurisdiction
under the second Montana exception, the Tribes are
authorized to assess a permit fee that has some nexus
to the costs of supplementing the EPA’s program to
fully protect the health and safety of Tribal members.
Yet the Tribes have never explained why an annual
fee of $1.5 million is necessary to provide that
supplemental protection. For example, what are the
monitoring or containment costs that the Tribes
expect to incur to shore up the weak points in the

86a
EPA’s program? There may be legitimate reasons
justifying the Judgment amount, but they have never
been explained, and FMC has never had an
opportunity to address them. Under Marchington’s
comity analysis, it would be unfairly prejudicial to
enforce the permit fee imposed by the Tribal
Appellate Court under the second Montana exception.
This conclusion changes when the Judgment is
examined under the first Montana exception. Under
Montana’s first exception, Tribal jurisdiction is based
on the consensual relationship between FMC and the
Tribes. FMC agreed to obtain a use permit under the
Amendments to Chapter V of the Fort Hall Land Use
Operative Policy Guidelines, and pay a $1.5 million
annual fee for that permit.
What was FMC
consenting to under those regulations? FMC agreed
to obtain a permit to “store” hazardous waste “which
may remain at the site for a perpetual period of time.”
See Chapter V § 9-1(1)(A)(xiii).
Moreover, as
discussed above, FMC agreed that its obligation
would extend beyond three identified ponds and
encompass all wastes at the plant.
Thus, FMC agreed to pay the annual permit fee for
as long as it stored the waste on the site. The EPA
has estimated that it will spend $47 million over 30
years to clean up FMC’s mess. That is just over $1.5
million a year, about the same sum as FMC agreed to
pay, an indication that the $1.5 million sum is neither
exorbitant nor unfair.
FMC argues that its obligation to pay the fee
should end when it closed its plant, but there is
nothing in the negotiations or series of letters that
conditions the annual fee on the FMC plant being
operational. This absence was certainly noticed (or
should have been noticed) by FMC’s attorneys, but

87a
FMC never attempted to negotiate any modifications
to add such a condition. FMC was anxious to obtain
the permit along with the Consent Decree, and so the
inevitable delays that would result from negotiations
over an expiration date would have been unacceptable
to FMC. After all, the Consent Decree allowed FMC
to dump the toxic mess it had created in the EPA’s lap
by paying a small fine of $11.9 million along with a
few million dollars in construction commitments.
That was a sweetheart deal and FMC was desperate
to grab it. FMC’s arguments that its cadre of
attorneys had no idea that they were agreeing to a
permit fee with no expiration date is ludicrous.
For all of these reasons, the Judgment passes
Marchington’s comity analysis under Montana’s first
exception.
CONCLUSION
Based on the analysis above, the Court makes the
following findings as a matter of law: (1) The Tribes
have jurisdiction over FMC under Montana’s first and
second exceptions to impose a requirement that FMC
obtain a permit to store waste within the Reservation
and charge a fee for that permit; (2) The Tribal
judicial process generally, and the Tribal Appellate
Court Judgment specifically, did not violate FMC’s
due process rights; (3) Under Montana’s first
exception, the Tribal Appellate Court properly
exercised its jurisdiction to impose a $1.5 million
annual permit fee for as long as the hazardous waste
is stored within the Reservation; (4) Under Montana’s
second exception, the Tribal Appellate Court failed to
properly exercise its jurisdiction when it did not
explain why $1.5 million was needed each year to

88a
protect against the threat posed by FMC’s storage of
hazardous waste within the Reservation.
Based on these findings, the Court will (1) grant
the Tribes’ motion to enforce the Judgment under
Montana’s first exception; (2) grant in part the Tribes’
motion to enforce the Judgment under Montana’s
second exception, finding that the Tribes had
jurisdiction under Montana’s second exception, but
refusing to enforce the Judgment on this ground
because the Tribes failed to explain why $1.5 million
was needed annually; (3) grant in part the Tribes’
motion for summary judgment on the due process and
enforcement issues, finding no due process violation,
and finding that the Judgment shall be enforced
under Montana’s first exception but not the second
exception; and (4) deny FMC’s motion for declaratory
judgment and an injunction against enforcing the
Judgment
ORDER
In accordance with the Memorandum Decision set
forth above,
NOW THEREFORE IT IS HEREBY ORDERED
that the Tribes’ motion to enforce the Judgment under
Montana’s first exception (docket no. 64) is
GRANTED.
IT IS FURTHER ORDERED, that the motion to
enforce the Judgment under Montana’s second
exception (docket no. 65) is GRANTED IN PART AND
DENIED IN PART. It is granted to the extent it seeks
a ruling that the Tribes had jurisdiction over FMC
under Montana’s second exception to impose an
annual permit fee to store hazardous waste within the
Reservation, but is denied to the extent it seeks to

89a
enforce the Judgment of an annual permit fee of $1.5
million, for the reasons discussed above.
IT IS FURTHER ORDERED, that the motion for
summary judgment on due process and to enforce
judgment (docket no. 66) is GRANTED IN PART AND
DENIED IN PART. It is granted to the extent it seeks
a ruling that there was no due process violation, that
jurisdiction was proper under both Montana
exceptions, and that the Judgment is enforceable
under Montana’s first exception, but is denied to the
extent it seeks a ruling that the Judgment is
enforceable under Montana’s second exception.
IT IS FURTHER ORDERED, that FMC’s motion
for declaratory judgment and permanent injunction
(docket no. 67) is DENIED.
IT IS FURTHER ORDERED, that the Court will
issue a separate Judgment as required by Rule 58(a).
DATED: September 28, 2017
[seal omitted]
s/ B. Lynn Winmill
B. Lynn Winmill
Chief Judge
United States District Court

90a
FILED
JAN 13 2020
MOLLY C.
DWYER, CLERK
U.S. COURT OF
APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FMC CORPORATION,
Plaintiff-Appellant,
V.
SHOSHONE-BANNOCK
TRIBES,
Defendant-Appellant.

No. 17-35840
D.C. No. 4:14-cv00489-BLW
District of Idaho,
Pocatello
ORDER

FMC CORPORATION,
Plaintiff-Appellant,
V.
SHOSHONE-BANNOCK
TRIBES,
Defendant-Appellant.

No. 17-35865
D.C. No. 4:14-cv00489-BLW
District of Idaho,
Pocatello

Before: HAWKINS and W. FLETCHER, Circuit
Judges, and BURY,* District Judge.
Plaintiff-Appellant FMC Corporation filed a
petition for rehearing en banc on November 29, 2019
(Dkt. Entry 74). Judge W. Fletcher voted to deny the
*
The Honorable David C. Bury, United States District
Judge for the District of Arizona, sitting by designation.

91a
petition for rehearing en banc, and Judges Hawkins
and Bury so recommend.
The full court has been advised of the petition for
rehearing en banc and no judge of the court has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for rehearing en banc is DENIED.

92a
FILED IN THE
SHOSHONE-BANNOCK
TRIBAL COURT
2014 APR 30 AM 8 40
CLERK OF THE COURT
IN THE SHOSHONE-BANNOCK TRIBAL COURT
OF APPEALS
FOR THE FORT HALL RESERVATION, IDAHO
SHOSHONE-BANNOCK
TRIBES LAND USE
DEPARTMENT AND
FORT HALL BUSINESS
COUNCIL,
Appellants and
Counterclaimants,
VS.
FMC CORPORATION,
Respondents.

Case Nos. C-06-0069
C-07-0017
C-07-0035
OPINION,
ORDER,
FINDINGS OF
FACT AND
CONCLUSIONS
OF LAW

The Shoshone-Bannock Tribal Court Opinion of
Hon. Peter McDermott, Hon. Vern E. Herzog, and
Hon. John Traylor, dated April 15, 2014, before the
Shoshone-Bannock Tribal Court of Appeals,
submitted and argued April 1, 2014 to April 15, 2014.
Opinion by Justice TRAYLOR:
Appellants/Counterclaimants
the
ShoshoneBannock Tribes Land Use Department and Fort Hall
Business Council are represented by William F.
Bacon, Esq., Shoshone-Bannock Tribes, Pocatello,
Idaho, and Paul Echo Hawk of the law firm of
Kilpatrick, Townsend & Stockton LLP, Seattle,

93a
Washington. Respondent FMC Corporation is
represented by Lee Radford of the law firm of Moffatt
Thomas Barrett et al, of Idaho Falls, Idaho, and Ralph
Palumbo, David Heineck, and Maureen Mitchell of
the Summit Law Group, Seattle, Washington.
I. BACKGROUND AND PROCEDURAL
HISTORY
This case revolves around a single issue. The
Shoshone-Bannock Tribes wish to exercise civil
jurisdiction for purposes of planning and zoning, and
hazardous waste management regulation over onreservation fee land owned by the defendant, FMC.
Since the late 1940s, FMC Corporation (and any
subsidiary or other registered name by which FMC
operated, collectively referred to herein as “FMC”) has
engaged in the production, treatment, and storage of
hazardous and non-hazardous waste, much of it
entirely within the boundaries of the Fort Hall
Reservation, as part of its production of elemental
phosphorus. FMC continues to store over twenty-two
million (22,000,000) tons of hazardous and nonhazardous waste within the Reservation boundaries
to this day. This waste includes radiation-emitting
slag, elemental phosphorus (also known by its
chemical abbreviation, “P4”), and a wide range of
other heavy metals and other contaminants of
concern.
The federal Environmental Protection
Agency (“EPA”) has used its authority under
CERCLA, 42 U.S.C. § 9601 et seq., to declare FMC’s
elemental phosphorus plant as a national priority list
superfund site. It monitors other contaminated parts
of the FMC plant under the Resource Conservation
and Recovery Act, 42 U.S.C. § 6901 et seq.

94a
The Shoshone-Bannock Tribes Land Use Policy
Commission (“LUPC”) regulates waste activity within
the boundaries of the Fort Hall Reservation through
enforcement of the Tribes’ Land Use Policy Ordinance
(“LUPO”) and Land Use Policy Guidelines
(“Guidelines”). The Tribes have also enacted a
number of other ordinances and tribal laws pursuant
to their sovereign authority to protect the health and
welfare of the Tribal members and Reservation
natural resources, as shown by the evidence
submitted at trial. On February 8, 2007, the LUPC
issued a letter to FMC setting an annual $1.5 million
special use permit fee for FMC’s storage of hazardous
waste on the reservation pursuant to the LUPO. On
March 19, 2007, FMC posted a bond in the agreed
upon amount of $1.5 million and appealed the LUPC’s
decision to the Fort Hall Business Council (“FHBC”).
After accepting briefs from the parties and hearing
oral argument on May 10, 2007, the FHBC affirmed
the LUPC’s decision on June 14, 2007. On June 29,
2007, FMC filed an appeal of the FHBC June 14, 2007
decision in Tribal Court. On February 22, 2008, FMC
filed another appeal challenging the FHBC decisions
applying tribal regulatory jurisdiction to it. On May
21, 2008, the Tribal Court held that the $1.5 million
fee could not be imposed on FMC. On May 28, 2008,
the Tribes filed an Appeal to the Tribal Court of
Appeals, and on June 10, 2008, FMC filed a crossappeal.
We note that on May 28, 2010 the Tribes filed an
additional suit for the unpaid permit fees at issue in
this case for the years 2007, 2008, 2009, and 2010.
See Case No. C-10-0196.
The parties filed a
stipulation to stay that case pending outcome of the
Court’s decision in this case. Given the passage of

95a
time during this case and in light of the applicable
three (3) year tribal statute of limitations, the Tribes
filed another case for unpaid fees covering the years
from 2010 to 2013. See Case No. 2013-CV-OC-0214.
The permit fee for 2014 is due on June 1, 2014. The
issues in those cases are identical to the present case.
This Court held in June of 2012 that the Tribes
have jurisdiction over FMC under the first exception
of Montana v. United States, 450 U.S. 544 (1981),
under which an Indian tribe may regulate, through
taxation, licensing, or other means, the activities of
non-Indians on fee land within the tribe’s reservation
who have entered into “consensual relationships with
the tribe or its members . . . .” Id. at 565. The Tribes’
jurisdiction under this exception was established in
part by FMC’s statement in an August 11, 1997 letter,
sent to the Tribes when they first amended the LUPO
to establish permitting fees for the storage of
hazardous waste on the Reservation, in which FMC
expressly consented to tribal permitting.
In the June of 2012 decision, the Court also ruled
that the Tribal Court erred in not allowing the Tribes
to present evidence to support the Tribes’ argument
that jurisdiction over FMC’s waste storage activities
on the Reservation is also supported by the second
Montana exception, under which Indian tribes may
regulate the conduct of non-Indians on fee land on the
reservation that threatens or has some direct effect
“on the political integrity, the economic security, or
the health or welfare of the tribe.” Id. at 566. This
Court held that the Tribes would be granted an
evidentiary trial to present evidence on this issue.
That trial was held before this Court from April 1,
2014 to April 15, 2014, at which the evidence
presented was comprehensive. The Court listened to

96a
the witnesses, considered all the evidence presented
and gave all of it due consideration in reaching our
decision. We find, based on the evidence summarized
below in the findings of fact, that the Tribes have met
their evidentiary burden of demonstrating that the
second Montana exception has been met.
II. BURDEN OF PROOF
Appeals from the Shoshone-Bannock Tribal Trial
Court are tried de novo on both questions of law and
fact before the Tribal Court of Appeals. ShoshoneBannock Law and Order Code, ch. 4 § 3. The
standard of proof at any tribal civil trial is a
preponderance of the evidence standard, under which
an allegation is accepted as true if the evidence shows
it is more likely than not to be true. Id. ch. 3 § 4.
To establish jurisdiction under the second
Montana exception, the Tribes must demonstrate
that the conduct of FMC on its fee land “threatens or
has some direct effect on the political integrity, the
economic security, or the health or welfare of the
tribe.” 450 U.S. at 566. A tribe “may quite
legitimately seek to protect its members from noxious
uses that threaten tribal welfare or security, or from
nonmember conduct on the land that does the same.”1
1

We note that the Court’s discussion of the second
Montana exception in Plains Commerce Bank is dicta. The case
involved the sale, by a non-Indian bank to non-Indians, of nonIndian fee land within a reservation. The Court distinguished
tribal regulation of nonmember activity on non-Indian land from
tribal regulation of the sale of non-Indian land, and found that
the sale of such land was not “conduct” covered by the second
Montana exception. 554 U.S. at 333-34, 341. By finding that
Montana did not apply to the sale of non-Indian land, therefore,
the Court’s statements as to the Montana test are not a part of
its holding.

97a
Plains Commerce Bank v. Long Family Land & Cattle
Co., 554 U.S. 316,336 (2008). Under Montana tribes
can take action to, for instance, mitigate onreservation threats to the natural resources on which
their members rely. See, e.g., Bugenig v. Hoopa Valley
Tribe, 229 F.3d 1210, 1222 (9th Cir. 2000). Tribal
jurisdiction under the second Montana exception may
also exist concurrently with federal regulatory
jurisdiction over a non-Indian’s activities. See South
Dakota v. Bourland, 508 U.S. 679, 695, 697-98 (1993)
(remanding for review of bases for tribal jurisdiction,
under Montana, over a flood control project regulated
by the Army Corps of Engineers). As the Ninth
Circuit held in Montana v. EPA, 137 F.3d 1135, 1141
(9th Cir. 1998), there is “no suggestion” in the
Montana case law that “inherent [tribal] authority
exists only when no other government can act.”
III.

FINDINGS OF FACT

1.
The evidence presented at trial shows that the
FMC’s activities on its fee land have created an
ongoing threat to the health, welfare and cultural
practices of the Tribes and their members. EPA’s
regulatory involvement in the site emphasizes the
severity of the threat, while the evidence shows that
the agency’s containment plan, by design, leaves the
threat in place for generations to come. The evidence
at trial also shows that FMC’s waste creation and
storage have some direct effect on the political
integrity, economic security, or the health and welfare
of the Tribes.
2. The evidence of FMC’s activities on the
Reservation shows an ongoing and extensive threat to
human health. FMC created and continues to store
millions of tons of toxic waste on its fee land within

98a
Reservation boundaries. As described in EPA’s
Interim Amendment to the Record of Decision for the
EMF Superfund Site FMC Operable Unit Pocatello,
Idaho (2012) (“IRODA”) at 7-9, that waste is present
on the site in the following forms:
elemental
phosphorus that leaked into the subsurface soil
during production; elemental phosphorus and
chemical byproducts from the phosphorus production
process suspended in contaminated water that are
contained in ponds on the site; phosphine gas
produced by elemental phosphorus; contaminated rail
cars buried at the site that were used in the transport
of elemental phosphorus; and contaminated
groundwater containing arsenic and phosphorus that
seeped into the groundwater from other sources of
contamination on the site.2 The site was also filled
and graded using millions of tons of slag that contains
radioactive materials which emit gamma radiation in
excess of EPA’s human health safety standards. Id.
3. The FMC production site on the Reservation was
one of the major producers of elemental phosphorus
in the world. IRODA at 83. The contamination on the
FMC site is unprecedented, in the sense of scale, but
also in observers’ inability to determine its scope:
“There are significant unknowns beyond the actual
volume of contaminated soils, including the
horizontal
and
vertical
gradients
in
the
concentrations of elemental phosphorous, the total
mass of elemental phosphorous, and the form of
elemental phosphorous in the soil.”
Id.
EPA
estimates that there are as much as 16,000 tons of
elemental phosphorus in the ground, contaminating
2 This and all of the other EPA’s conclusions in the IRODA
were uncontested by FMC at trial.

99a
approximately 780,000 cubic yards of soil weighing
approximately 1 million tons. Id. at 21, 78, & tbl. 2.
4. The elemental phosphorus in the soil and in
containment ponds at FMC’s land is reactive,
meaning that it will burst into flames when exposed
to oxygen. Id. at 77. This reaction also produces
numerous chemical byproducts, which react to form
phosphoric acid aerosols. Id. The phosphorus itself is
toxic when ingested, inhaled or absorbed. Id. at 78.
The threat of elemental phosphorus was vividly
described by Claudeo Bronco, who testified that he
witnessed ducks spontaneously ignite as they took off
from FMC’s phosphorus containment ponds. Final
Statement of Decision (filed April 15, 2014) (“SOD”)
at 18. FMC did not cross-examine the witness on this
issue; although its attorneys clarified that these
ducks were incinerated by an uncapped pond, this
evidence still corroborates the potency of the threat
posed by elemental phosphorus at the site. That
phosphorus will remain reactive for thousands of
years.
5. When exposed to water, elemental phosphorus
produces phosphine gas, which is harmful and even
deadly to humans at certain levels; indeed, it is the
active ingredient in some poisons. IRODA at 77. In
June 2010, the evidence shows, the Idaho Department
of Health and Welfare evaluated an EPA air sample
and notified the EPA that phosphine gas being
released from a pond on FMC’s property is
an urgent public health hazard to the health of
people breathing the air in the proximity of
Pond 15S, including workers, visitors to the
pond area and any potential trespassers in the
pond area . . . breathing the air for just a few

100a
seconds could cause measurable harm and
could be lethal . . . . People near the Pond 15S
perimeter and immediately downwind of [15S]
could also be breathing phosphine at levels that
could cause respiratory tract irritation if
exposed for 8 hours a day . . . .
SOD at 21. There are approximately 23 waste storage
ponds on the site, some emitting these gases, along
with hydrogen sulfide and hydrogen cyanide, both of
which are also toxic. See Unilateral Administrative
Order for Removal Actions, No. CERCLA-10-20070051 at 10-12 (Dec. 14, 2006).
6. FMC admitted that in 1964 it buried
approximately twenty-one tanker rail cars on the
FMC site, as shown by the Gordon Scherbel memo.
SOD at 10. FMC chose to bury the tankers because
they were clearly dangerous, as shown by Defense
Exhibit# 5133. The tankers were used for shipping
hazardous P4 sludge. Id. Because of the danger to
employees who were charged with cleaning remaining
sludge out of the tankers to prepare them for reuse,
FMC buried the tankers without cleaning them. Id.
The evidence indicates the tankers contained from
200 to 2,000 tons of elemental phosphorus sludge, 1025% of which remained in each of the tankers at the
time they were buried. Id. at 10-11. The tankers were
buried, covered with clay and then with radioactive
slag. Id. at 10. The level of corrosion of the tankers
is unknown and it is possible that they either have or
will corrode to the point of leakage from phosphoric
acid produced by the phosphorus. Id. One of FMC’s
witnesses, Rob Hartman, testified that the method of
burial of these tankers would not meet today’s
standards for burial of hazardous waste. Id. at 11.
EPA decided that the area where the tankers were

101a
buried should be capped and that no efforts to remove
the tankers should be undertaken, but it is
undisputed that no remedial action to address this
threat has been implemented. Id. Weighing this
evidence in light of the EPA’s involvement at the site
and uncontroverted evidence that FMC was not
entirely forthcoming in its disclosure of the buried
tankers, SOD at 10, the Court finds it to be true.
7. Arsenic and phosphorus from the site are
continuously flowing in the groundwater from FMC’s
land through seeps and springs directly into the
Portneuf River and Fort Hall Bottoms. SOD at 12.
This negatively affects the ecosystem and subsistence
fishing, hunting and gathering by tribal members at
the River, as well as the Tribes’ ability to use this
important resource as it has been historically used for
cultural practices, including the Sundance. Id. at 16,
29. The EPA’s IRODA calls for a decades-long regime
of ground water monitoring and treatment to
minimize risks. IRODA at 20. However, such
intervention programs are in the design phase only,
and have not yet been implemented. Uncontroverted
evidence at trial showed that Tribal members’ ability
to take part in tribal cultural practices on the River
has been compromised by FMC’s contributions to
contamination of the River. SOD at 16, 29. Although
FMC tried to show that none of the groundwater
seeping into the Portneuf is above EPA levels of
concern, Rob Hartman’s testimony did show that
groundwater extraction systems have not been put
into place at the FMC site, and that arsenic and
phosphorus are actually traveling to the Portneuf
River. Id. at 12.
8. FMC does not challenge that these materials do
pose a threat. Id. at 21. Rather, it contends that if

102a
certain methods suggested by the EPA are
undertaken and properly implemented by FMC in the
future, the risk will be contained.
The EPA
documents that were submitted contain similar
statements. FMC presented testimony from a former
EPA administrative employee, Mary Ann Horinko,
that the EPA is complying with federal laws and its
own regulations. Id. at 15. However, EPA’s plans
remain just that: Plans. Although the EPA has been
involved at this site since 1990, remedial actions
chosen by the EPA have not been implemented. Id.
Many of EPA’s proposed remedial actions are still in
design phase only, and the threat at the site still
remains today. EPA’s IRODA is itself only an interim
measure, and according to the IRODA, a final Record
of Decision will not be available for five to ten years.
IRODA at 19. In any event, EPA’s plans are
containment plans, which would keep the threatening
hazardous wastes on fee land for the indefinite future.
9. The fact that the EPA is involved in this case
actually demonstrates the severity of the threat.
Absent a threat to public health and welfare, EPA
would likely not be involved in this matter. In its
2013 Unilateral Administrative Order for Remedial
Design and Remedial Action, No. CERCLA-10-20130116 (June 10, 2013), the EPA justified involvement
at the FMC site on the grounds that conditions there
“may constitute an imminent and substantial
endangerment to public health or welfare or the
environment.” Id. at 9-10. FMC asserted that this
language was nothing more than boilerplate used to
assert EPA CERCLA jurisdiction, but the fact that
the language is boilerplate does not mean it is not
true, and FMC did not contest its truthfulness. SOD
at 27. Even aside from this justification, the very act

103a
of containment admits the existence of a threat. And
containment does not eliminate the threat; by
definition it only confines it.
10. Even if the EPA had shown itself to be effective
in containing the threat, the evidence does not show
that the EPA will or can adequately represent the
Tribes in the protection of their interests. Tribal
access to the EPA has also been insufficient to ensure
the protection of tribal interests. Although the EPA
and the Tribes have consulted on how to remediate
the threat, Fort Hall Business Council Chairman
Nathan Smalls testified that, in response to his
repeated requests to testify at an EPA meeting on the
FMC site, the EPA gave him ten minutes to testify
and allowed him to submit a written narrative not to
exceed ten pages. Id. at 15. The evidence shows that
EPA has not always implemented the Tribes’ desired
remedies, and the EPA itself stated in a document
entered into evidence that it does not have to do what
the Tribes ask. Id. This evidence shows that the EPA
does not necessarily represent tribal interests. And
the EPA’s assessments do not take into account tribal
customs and traditions, which are unique to the
Tribes and cannot be measured by non-Indian
standards. Id. at 29.
11. FMC has not challenged the evidence that shows
that elemental phosphorus exists on the contained
property and will remain reactive for thousands of
years. Id. at 22. No evidence has been offered to rebut
the conclusion that if any of the containment efforts
fail for any reason, escape of the toxic waste or any of
its by-products at certain levels could prove
catastrophic to the tribe, its members, its
environment, its health, safety and welfare. Id.

104a
12. The clear conclusion to be drawn from this
evidence is that the activity of FMC on the property
in question has created a threat that will likely not go
away in the long term. The evidence shows that a
threat of a catastrophe does exist here. The threat
that the Court has found to exist is also “disruptive to
the tribes’ social welfare,” as one expert witnesses
stated. Id. at 23. That witness continued that these
threats “are not minor annoyances; they are a threat
of a catastrophic nature in health and reactions,
including death. The threat from the FMC site is real,
it is not a mere potential. The threat and the
exposures are already present.” Id. As another
expert witness stated, “[e]lemental phosphorous
levels at the FMC site would be catastrophic to the
Shoshone Bannock Tribes.” Id. And this threat is
aside from the realized and ongoing destructive
effects that contamination from the site is having on
tribal members’ cultural practices on the Portneuf
River. Id. at 29-31.
IV. CONCLUSIONS OF LAW
A. The factual evidence establishes that the
contamination on FMC’s fee land poses a threat to the
Tribes and tribal members. The legal question
remains whether an actual catastrophe must occur
before the second Montana exception is satisfied.
FMC asserts that a catastrophe has not materialized
and further contends that without a catastrophe
having actually happened, the Tribes cannot meet the
second Montana exception. As the cases applying the
second Montana exception make clear, however, a
tribe can exercise its jurisdiction before a catastrophe
occurs in order to avert a threat to its members.

105a
B. The Montana case expressly stated that the
second exception is satisfied if the non-Indian conduct
at issue “threatens or has some direct effect on . . . the
health or welfare of the tribe.” 450 U.S. at 566. The
use of the disjunctive “or” between the words
“threatens” and “has some effect” indicates there are
two scenarios that can satisfy the second exception:
1) The threat of harm; or 2) actual harm. As the
Supreme Court has said, “[t]he logic of Montana is
that certain activities on non-Indian fee land . . . or
certain uses . . . may intrude on the internal relations
of the tribe or threaten tribal self-rule. To the extent
they do, such activities or land uses may be
regulated.” Plains Commerce, 554 U.S. at 334-35
(emphasis added). This view is reflected in the
respected Cohen’s Handbook of Federal Indian law,
which the Plains Commerce Court approvingly cited
for the statement that “th[e] elevated threshold for
application of the second Montana exception suggests
that tribal power must be necessary to avert
catastrophic consequences.” Id. at 341 (citing Nell
Jessup Newton, et al., Cohen’s Handbook of Federal
Indian Law § 4.02[3][c] at 232 n.220 (2005 ed.))
(emphasis added). The Court also said the second
exception authorizes the tribe to exercise civil
jurisdiction when non-Indian conduct menaces the
political integrity, the economic security, or the
health or welfare of the tribe. Id. The word “menaces”
connotes a threat of harm, rather than harm itself.
C. The fact that a threat of harm can justify tribal
regulation is also demonstrated by Brendale v.
Confederated Tribes & Bands of Yakima Indian
Nation, 492 U.S. 408 (1989), in which the owner of onreservation fee land was subject to tribal regulation
despite having simply filed permits to construct

106a
buildings and a sewage disposal system. Id. at 440
(Stevens, J.). No work had begun and nothing other
than the filing of permits had taken place. Yet, the
United States Supreme Court recognized the Tribe’s
civil jurisdiction over his activities merely based on
what might happen. Id. at 443. In Brendale, the
Court also recognized the tribe’s interest in a part of
their reservation that “remain[ed] an undeveloped
refuge of cultural and religious significance, a place
where tribal members may camp, hunt, fish, and
gather roots and berries in the tradition of their
culture.” Id. at 441 (emphasis added) (internal
quotation marks omitted). Brendale has significance
to this case, as the Shoshone-Bannock Tribes are
seeking to enforce a land use policy ordinance permit
requirement for the storage of toxic and deadly waste
that generates the emission of deadly gases and
contaminates ground water, both to protect the
quality of their land and natural resources, and to
protect their members’ ability to take part in
important cultural ceremonies that cannot be
performed because of contamination in the Portneuf
River. In sum, a catastrophe does not have to happen
for the Tribes to assert jurisdiction in this case.
D. Evans v. Shoshone-Bannock Land Use Policy
Commission, 736 F.3d 1298 (9th Cir. 2013), is not to
the contrary. In Evans, the Ninth Circuit Court of
Appeals determined that the Tribes did not have civil
jurisdiction over a matter involving the construction
at a single residential house, stating that the Tribes
had only generalized concerns about waste disposal
and fire hazards and that their concerns were
speculative as they did not focus on Evans’s specific
project. Id. at 1306. In the present case, the Tribes
have demonstrated concrete threats and specific

107a
impacts from FMC’s conduct, specifically the storage
of millions of tons of toxic waste. These concerns are
not based on speculation.
Rather, the Tribes’
concerns have been bolstered and substantiated by
testimony from multiple experts and other witnesses
as well as public record documents issued by the EPA.
E. This case law shows that whether a catastrophe
has occurred is not determinative of whether the
Tribes may exercise jurisdiction under Montana. The
second Montana exception permits the Tribes to act
to “avert” catastrophe. Numerous experts testified
that the activity on FMC’s fee land continues to
present a real, catastrophic threat to the Tribes. And
this threat extends not only to the immediate
environment and persons in the immediate vicinity,
but also to members of the Shoshone-Bannock Tribes
throughout the Reservation. Even if this potential
may be mitigated by future action yet to be
implemented, there is no evidence that it will be
eliminated.
F. This Court finds that whether a tribe’s political
integrity, economic security, or health or welfare has
been directly affected or threatened can be shown by
means other than statistical analysis and scientific
measurement. Indeed, in Brendale, the Supreme
Court was satisfied that the second Montana
exception requirements had been met when the
Yakima Nation demonstrated a mere possibility that
the non-Indian owner’s intended use of fee land would
in the future impinge upon the tribal members’
cultural and religious traditions. In this case we have
more than a mere possibility. We have an action
completed. We have uncontroverted testimony that
the activity of FMC has in fact interfered with the
customs and traditions of the Shoshone Bannock

108a
Tribal Members. That interference has a direct effect
on the Tribes’ political integrity, economic security, or
their health or welfare. The impact on the Tribes in
this case far outweighs the speculative chances of
future interference brought out and approvingly
recognized by the Supreme Court in Brendale.
Indeed, if a catastrophic impact were required,
Brendale shows that interfering with sacred tribal
customs and traditions has such an impact.
G. Given these rules of law, the Court finds that the
second Montana exception is satisfied because:
1. The millions of tons of slag deposited and
remaining on the FMC site, which emit
gamma radiation in excess of EPA human
health standards, threaten or have some
direct effect on the political integrity, the
economic security, or the health or welfare
of the Shoshone-Bannock Tribes.
2. The as much as 16,000 tons of reactive and
ignitable elemental phosphorus in the soil
at the FMC site, that contaminate over
780,000 cubic yards of soil, threaten or have
some direct effect on the political integrity,
the economic security, or the health and
welfare of the Shoshone-Bannock Tribes.
3. The 23 waste ponds located on the FMC site
threaten or have some direct effect on the
political integrity, the economic security, or
the health or welfare of the ShoshoneBannock Tribes because they contain
reactive elemental phosphorus and other
dangerous contaminants and emit toxic
gasses.

109a
4. The contaminated rail cars buried at the
FMC site threaten or have some direct
effect on the political integrity, the
economic security, or the health or welfare
of the Shoshone-Bannock Tribes.
5. The heavy metals, including arsenic and
phosphorus, leaching into the groundwater
at the FMC site threaten or have some
direct effect on the political integrity, the
economic security, or the health or welfare
of the Shoshone-Bannock Tribes by flowing
into the Portneuf River.
6. The phosphine gas emitted from the waste
ponds threatens or has some direct effect on
the political integrity, the economic
security, or the health or welfare of the
Shoshone-Bannock Tribes.
V. CONCLUSION AND ORDER
The Court concludes that the evidence presented
shows by a preponderance of the evidence that FMC’s
activities on its on-reservation fee land have created
a significant threat and have “some direct effect on
the political integrity, the economic security, or the
health or welfare” of the Shoshone-Bannock Tribes
and that this threat exists today, and will continue to
exist for the foreseeable future.
Therefore, the Court finds for the ShoshoneBannock Tribes, and will enter a separate judgment
accordingly for the annual tribal waste storage permit
fees unpaid by FMC from 2002 to present. Costs and
attorney fees in this case are awarded to the Tribes.

110a
IT IS SO ORDERED
s/ Peter D. McDermott
Peter D. McDermott, Tribal Appellate
Judge

5-16-14

s/ Vern E. Herzog, Jr.
Vern E. Herzog, Jr., Tribal Appellate
Judge

5-16-14

s/ John Traylor
John Traylor, Tribal Appellate
Judge

5-16-14

111a
FILED IN THE
SHOSHONE-BANNOCK
TRIBAL COURT
2013 FEB 5 AM 9 22
CLERK OF THE COURT
BY
ASSISTANT CLERK
IN THE SHOSHONE-BANNOCK
TRIBAL COURT OF APPEALS
FOR THE FORT HALL RESERVATION, IDAHO
SHOSHONE-BANNOCK
TRIBES LAND USE
DEPARTMENT AND
FORT HALL BUSINESS
COUNCIL,
Appellants and
Counterclaimants,
Vs.
FMC CORPORATION,
Respondents.

Case Nos. C-06-0069
C-07-0017
C-07-0035
AMENDED
FINDINGS OF
FACT,
CONCLUSIONS OF
LAW, OPINION
AND ORDER RE
ATTORNEY FEES
AND COSTS, Nunc
Pro Tunc

A hearing on this matter was held in the
Shoshone-Bannock Tribal Court of Appeals on
November 8, 2012, the Hon. Mary L. Pearson,
presiding. Also present on a conference line were
Chief Justice Fred Gabourie, Sr., and Justice Cathy
Silak. Present in Court representing FMC Corp.
(FMC) were Maureen Mitchell, who argued FMC’s
Opposition to an award of fees, and Lee Radford of
Moffatt, Thomas, et al. The Shoshone-Bannock

112a
Tribes (the Tribes) were represented by Paul C. Echo
Hawk, Echo Hawk Law Offices, and William F.
Bacon, General Counsel for the Tribes.
This Opinion addresses whether this Court’s
award of fees and costs to the Tribes in its May 8, 2012
decision favoring the Tribes is appropriate in this
matter. FMC appeals from that Opinion, citing:
A) Lack of jurisdiction of the Tribes over FMC,
B) There Is No Tribal Law or Ordinance that
Authorizes an Award of Fees and Costs, C) The
Request is Untimely, D) No Attorney Fees is
Appropriate, Even if Costs Were Awarded, E)Any
Award of Tribal Costs must be limited to their
documented costs on appeal, F) The Tribe’s fees and
costs memorandum is deficient, and G) An Award of
Fees and Costs Would Have a Chilling Precedential
Effect.
Based upon the briefs filed and oral argument, the
Court took the matter(s) under advisement and now
issues its opinion, that includes Findings of Fact,
Conclusions of Law regarding the award of fees and
costs to the Shoshone-Bannock Tribes, and this
Court’s Order Revoking Remand to the Trial Court for
trial on several issues that were originally denied by
the Trial Court before Judge Maguire. This Court
does so in the interests of time.
Opinion by Justice Pearson.
BACKGROUND
The initial argument made by FMC Corp. of lack
of jurisdiction by the Shoshone-Bannock Tribes over
FMC is rejected out of hand. Jurisdiction was found
at the Tribal Court trial level by adopting that
jurisdiction found at the federal district court level.
Although the federal district court level decision was

113a
vacated with the appeal to the Ninth Circuit the
jurisdiction issue did not change. Jurisdiction was
found at the Tribal Appellate level. (See May 8, 2012,
opinion FMC V. SBT, (3 cases), and expanded in the
Nunc Pro Tune Opinion of June 16, 2012). This Court
awarded fees and costs because this was such a
difficult case, made even more difficult by FMC’s
continuous resistance to recognizing the sovereignty
of the Shoshone-Bannock Tribes. This resistance was
manifested in correspondence between the parties, in
applications for permits, in the Federal District
Court, District of Idaho, and at the Ninth Circuit
Court of Appeals, when the United States sued FMC
for violation of the Consent Decree and the Shoshone
Bannock Tribes Intervened. (United States of
America v. FMC, No. 06-35429, June 27, 2008.) citing
Blue Chip Stamps vs. Manor Drug Stores, 421 U.S.
723, 750, 95 S.Ct. 1917, 44 L.Ed.2d 539 (1975),
The reason for the suit was that the Consent
Decree entered in the Idaho District Court in case No.
4:98-cv-00406-BLW, between, the Environmental
Protection Agency of the United States and the FMC
Corp. was in danger of being violated and the Tribes
wished to intervene.
The Consent Decree in Idaho District Court case
No.
4:98-cv-00406-BLW,
was
between,
the
Environmental Protection Agency of the United
States and the FMC Corp., and
“. . . called for the closing of FMC’s illegal
hazardous waste ponds; construct a hazardous
waste treatment plant to treat the facility’s
phosphorus waste so that it is no longer
ignitable and reactive and will not leach metals
in dangerous concentrations; and install plant-

114a
wide secondary containment upgrades for all
pipes, tanks, and other units handling reactive
or ignitable wastes in order to provide
additional protection against releases due to
leaks.”
In that suit and in the appeals arising from the
Counterclaims filed by the Shoshone-Bannock Tribes
it was very obvious in 1998 that the Tribes’ efforts
were to protect their tribal members from the effects
of the hazardous waste site.
That decision did not destroy this Tribes’
jurisdiction over FMC. It merely determined that the
Tribes were not third party beneficiaries to the
Consent Decree, a very high standard to meet under
federal case law. USA v. FMC, June 27, 2008.) .
Instead it determined that the Tribes were incidental,
not intended third party beneficiaries to the Consent
Decree, and at the same time recognized that there
was a split of authority on the subject that would not
be settled until the issue was before the United States
Supreme Court.1 (USA v. FMC, June 27, 2008.)
1

Moreover, if Blue Chip Stamps were read broadly to
preclude even intended third party beneficiaries from enforcing
a consent decree, it would create a direct conflict with [Federal]
Rule [of Civil Procedure] 71. Rule 71 clearly allows intended
third party beneficiaries to enforce consent decrees, and Blue
Chip Stamps should be read to avoid eviscerating Rule 71. Hook,
972 F.2d at 1015 (citations, internal quotation marks, and
alterations omitted). . . .In short, under Ninth Circuit precedent,
incidental third-party beneficiaries may not enforce consent
decrees, but intended third-party beneficiaries may. Most other
circuits arc in accord with our restrictive reading of the Supreme
Court’s statement in Blue Chip Stamps. . . . But see Aiken v.
City of Memphis, 37 F.3d 1155, 1168 (6th Cir.1994) (en banc)
(“The plain language of Blue Chip indicates that even intended
third-party beneficiaries of a consent decree lack standing to

115a
Even though the Ninth Circuit found that: A key
dispute (and one that continues through this appeal)
is whether FMC’s operations remain subject to tribal
jurisdiction.” That Court recognized that it was the
Tribal Court that would have to decide that issue and
reported that:
In closing, we note that, during the pendency of
this appeal, FMC began the process of applying
for tribal permits, which is the main relief that
the Tribes have sought in this action. At oral
argument, the Tribes expressed their concern
that, if we were to hold that the Tribes lack
standing to enforce the Consent Decree, FMC
would withdraw its permit applications and
undo the progress made to date on the proper
resolution of this dispute. In response to
questioning from the panel, FMC’s lawyer
represented to the court that FMC understands
that it has the obligation to continue, and will
continue, with the current tribal proceedings to
their conclusion. We accept that statement
from counsel as binding on FMC.6
The Court then entered its orders vacating the Orders
of March 6, 2006, and December 1, 2006, VACATED;
REMANDED with instructions to dismiss this action.
Costs on appeal were awarded to FMC Corporation.

enforce its terms. Although other circuits have held to the
contrary, we are unable to join them until the Supreme Court
revisits the unequivocal language of Blue Chip.” (citations
omitted)). . . . The Tribes argue that, under Hook, they are
intended third-party beneficiaries and not merely incidental
third-party beneficiaries.

116a
STANDARD OF REVIEW
We review de novo the trial court’s determination
of all issues and since the counterclaims were
dismissed without attorney fees being raised, this is a
de novo2 determination.
THE ARGUMENTS
FMC raises eight arguments against an award of
attorneys’ fees and/or costs which are set out above
and again below as each argument is discussed. Some
of the arguments are in different order than employed
by FMC.
A. This Court has Jurisdiction over the
Parties and the Subject Matter Sufficient
to Authorize an Award of Attorneys’ Fees
and Costs to the Tribes.
Before determining that an award of fees and costs
was proper, this Court looked first to its own law.
Shoshone-Bannock Tribes, Rules of Appellate
Procedure and the Rules of Civil Procedure, found at
Chapter I, § 2 provide that in a civil case:
. . . the Court of Appeals may affirm, modify or
reverse any judgment, decree, or order of the
trial court and may remand the case and order
a new trial or may direct entry of an
appropriate judgment, decree or order, or
require such other action or further proceedings
as may be just in the circumstances.

2

Chap. IV, Sec. 2, provides_Section 2 for the Jurisdiction
of the Court of Appeals: The Court of Appeals shall have
jurisdiction to review final orders, commitments and judgments
of the Shoshone-Bannock Tribal Court. On appeal, each case
shall be tried anew, except for questions of fact submitted to a
jury in the trial court. . . .

117a
These three cases are all civil and costs are addressed
at Chapter III, § 3.58, of the Shoshone-Bannock Law
and Order Code:
The court may enter judgment “that a party
shall recover all costs” and that “[e]ntry of the
judgment shall not be delayed for taxing of costs.”
(Chapter III, § 3.58)
These statutes create broad jurisdiction and authority
in the Court of Appeals which includes entry of a
judgment that includes costs as well authority to
revoke the Remand portion of its May 8, 2012 Order,
thus saving the time of a new trial which can then be
appealed to this Court.
“Costs” may include both costs as well as
reasonable attorney fees. When there is no specific
code provision in the Tribal Law and Order Code, the
Tribal Court is directed to look first to the Tribal
custom and tradition, of the Shoshone-Bannock
Tribes and then to applicable Federal Law.3 As no
evidence of custom and tradition was introduced to
this Court it will look now to Federal Law.
A. Federal Law – The American Rule.
Federal Law follows the prevailing rule called the
“American Rule” which provides that “the prevailing
litigant is not ordinarily entitled to collect reasonable
attorney fees from the loser,” however; there are
several common law exceptions to this rule.4 These
exceptions include: 1) the common benefit doctrine;
2) Bad Faith; and 3) cases in which the plaintiff acts
3

See Shoshone-Bannock Tribes Law and Order Code,
Chapter III, Section 1.1.
4 Alyeska, Pipeline Service Co, v, Wilderness Society, 421
U.S. 240, 24 and 263 (1975).

118a
as a “private attorney general.” (See Alyeska, 421
U.S. at 259.) 4) A fourth exception is found at Id., 263,
that allows fees where the legislature has enacted a
statutory exception.
FMC has challenged the “American Rule” as a
legal principle and claims that FMC should not be
penalized for defending or prosecuting a lawsuit.
Fleishmann v. Maier Brewing Co., 386 U.S. 714, 718
(1967). The same is also true that an injured party
will not be made whole if he bears the expense of a
lawyer to obtain relief from the initial harm. Rodulfa
v. United States, 295 F. Supp. 28 (D.D.C. 1969) appeal
dismissed, 461 F.2d 1240 (D.C. Cir. 1972), cert.
denied, 409 U.S. 949 (1972) (holding that, “a person
who is successful in litigation is a part loser because
he has to pay his own expenses and counsel fees,
except a few minor items that are taxable as costs.”)
The Tribes argue that the rule and each of its
exceptions regarding the award of attorney fees and
costs should apply to all of these court cases, as well
as the cases before the Tribal Administrative
Agencies. See New York Gaslight Club v. Carey, 447
U.S. 54 (1980); In re University Place/Idaho Water
Center Project, 146 Idaho 527, 199 P.3d 102 (2008).
This Court will first discuss the exceptions to the
American Rule.
Exceptions to the American Rule
1. The Common Benefit Doctrine.
The first exception, to the Rule, has been used by
the United States Supreme Court to allow attorney
fees where a plaintiff acted on behalf of a larger group
such as trustees or shareholders in a class action.5 In
5

See Trustees v. Greenough, 105 U.S. 527 (1881).

119a
Trustees cases, the court held that “if the complainant
is not a trustee, he has at least acted the part of a
trustee in relation to the common interest.” Citing to:
Mills v. Electric Auto-Lite Co. 396 U.S. 375 (1970)a
stockholders derivative suit, and Boeing Co. v. Van
Gemert, 444 U.S. 472 (1980) which was a class action
suit. In these cases, the Tribes have been acting as
trustees for the more than 5,500 Shoshone-Bannock
Tribal members. The actions of the Tribal Land Use
Department and Tribal Business Council in enforcing
Tribal ordinances and a contract between FMC and
the Tribes, have benefited each and every member of
the tribes that share in per capita gains (and losses),
as well as using the money for hazardous waste
matter protection.
2. The Bad Faith Exception.
This exception applies when the opposing party
has “acted in bad faith, veraciously, wantonly, or for
oppressive reasons.” Hall v. Cole, 412 U.S. 1, 5,
(1973). Justification for the bad faith exception can
be found in actions leading to the lawsuit as well as
litigation conduct. Id., at 15; see also Nepera
Chemical, Inc. v. Sea-Land Service, 794 F.2d 688, 701
(D.C. Cir. 1986). In this case, the underlying conduct
of FMC Corp. gave rise to the creation of a Federal
Superfund Site located within the boundaries of the
Fort Hall Reservation that the Tribes feared would be
abandoned and left to the Tribes to clean-up, had the
United States EPA not intervened and brought a
CERCLA action against FMC.
3. The Private Attorney General Exception.
This exception applies that a party “should be
awarded attorneys’ fees when he has effectuated a
strong Congressional Policy which benefited a large

120a
class of people”, in this case more than 5,500 Tribal
members; “and where necessity and financial burden
of private enforcement are such as to make the award
essential.” LaRaza Unida v. Volpe, 57 F.R.D. 94, 98
(N.D. Cal. 1973, aff’d 488 F.2d 559 (9th Cir. 1973),
cert. denied, 417 .S. 968 (1974).
Although Alyeska overturned the concept of a
private attorney general for attorney fees, based on
the primary reason that there was a difficulty “for the
courts without legislative guidance to consider some
statues important and some unimportant: and the
fact that “the rational application of the private
attorney general rule would immediately collide with
the express provision of 28 U.S.C. 2412, which at that
time specifically prohibited fee awards to the United
States unless specifically provided by statute,
Alyeska, 421 U.S. at 263-266, there is no such
prohibition in Tribal law. Furthermore, it should be
noted that Congress responded to Alyeska, by
enacting the Civil Rights Attorney’s Fee Awards Act
of 1976, 42 U.S.C. Sec. 1988(b) and several other
statutes that authorize awards of attorneys’ fees in
specific situations.
Furthermore, the special
circumstances of these cases, in terms of the
immensity and complexity of issues, the time
demanded to represent the Tribes in these matters
required private co-counsel for the Tribes who was
acting on behalf of the Tribes and all ShoshoneBannock Tribal members.
4. Where there is a Statutory Exception.
Where there is diversity between the parties,
unless there is an applicable federal law, state law
applies. Erie Railroad v. Tompkins, 304 U.S. 64
(1938). Idaho law provides that “the prevailing party
shall be allowed a reasonable attorneys’ fee to be set

121a
by the court, to be taxed and collected as costs: in a
civil action, including, “any commercial transaction
unless otherwise provided by law.” I.C. § 12-120(3).
That same code section also applies to “cases on
appeal”. Freiburg v. J-U-B Engineers, Inc., 141 Idaho
415, 111 P.3d 100 (2005), regarding “appeal of
declaratory judgment entered in a contract case.”
Hoffer v. Callister, 137 Idaho 291, 47 P.3d 1261 (2002)
re: whether zoning violations constituted an
encumbrance on title.”
FMC Corporation is a Delaware Corporation and
the Shoshone-Bannock Tribes and their Tribal
entities reside in Idaho, thereby meeting the diversity
requirement. This Court has earlier concluded based
on the facts of these cases that FMC and the Tribes
entered into a consensual relationship that created a
contract for the storage of FMC’s waste of several
underground holding sites, within and upon the Fort
Hall Reservation. (Pp. 61-62 of Original Findings,
Conclusions and Order.) This was a commercial
transaction that required a Tribal Permit and one
that occurred at arm’s length.
The language of the Shoshone-Bannock Tribes
Law and Order Code, found at Chapter III, § 3.58,
contains language similar to that of I.C. § 12-120. The
U.S. Supreme Court has also held that “costs”
includes attorneys’ fees in actions brought under
statutes that allow for cost awards. Marek v.
Chesney, 473 U.S. 1 (1985). In addition to several
federal statutes that allow awards of attorney fees,
several statutes allowing only “costs” have been
interpreted to also allow reasonable attorney’s fees as
part of the costs. See 28 U.S.C. § 1912 (interpreted to
permit awards of attorney fees, 50 ALR Fed 652, 67
ALR Fed 319; 28 U.S.C. App. Rule 68 (addressed in

122a
Marek); 28 U.S.C. App. Rule 38 (interpreted to permit
awards of attorneys’ fees, 50 ALR Fed 652, 78 ALR
Fed 319).
Despite FMC’s argument that an award of
attorney fees for the administrative hearing portion
of these cases should not be allowed, there is an Idaho
statute that provides for a prevailing party to be
awarded reasonable attorney fees, witness fees and
reasonable expenses, if the court finds that the party
against whom the judgment is rendered acted without
a reasonable basis in fact or law, at I.C. § 12-117. This
Court reserves its decision on this exception until it
hears the Tribes’ evidence on Montana II to be heard
at the February 2013 hearing.
5. There is an Idaho Statutory Exception for
Cases Brought or Defended for Reasons That
Are Frivolous, Unreasonable or Without
Foundation.
Another Idaho statute allows for an award of
attorney fees to the prevailing party upon a finding
that the action was brought or defended frivolously,
unreasonably, or was without foundation. See Kelly
v. Silverwood Estates, 127 Idaho 624,903 P.2d 1321
(1995).
Unreasonableness, as well as lack of foundation,
can be inferred from FMC’s continued challenge to
this Tribes’ jurisdiction despite rulings by the Idaho
Federal District Court as well as the Tribal Trial and
Appellate Courts, that there is jurisdiction in this
Court found in this Court’s own laws and the first
Montana exception’s application to this case. The
Statutory exception does not require this Court to find
all three exceptions in order to find the other two.

123a
The amount of fees and the period over which the
Tribes are entitled to an award is the issue before this
Court at this time.
C. The Tribes Request for Attorney Fees and
Costs is Untimely.
FMC challenges the Tribes’ request for attorney
fees and costs as being untimely and therefore
precluded from such an award on appeal. (p.4 of FMC
brief.) They are in error. The Tribes previously
requested an award of costs and attorney fees in Part
XI of its Answer and Part V of the Counterclaim filed
September 14, 2006, and in Part IV of the Amended
Counterclaim filed October 2, 2006. FMC alleges that
this issue should have been raised on appeal,
pursuant to Chapter IV,§ 9, of the Shoshone-Bannock
Tribes Law and Order Code. (See FMC’s Brief p.5.)
This position is unsupported in Idaho law. See
DeWils Interiors, Inc. v. Dines, 106 Idaho 288, 678
P.2d 80 (1983); and when attorney fees has been the
material issue on appeal, an award of attorney fees
based on I.C. § 23-230(3) as an expense of appeal has
been denied. Id. In contrast, in a contract issue, an
award of attorney fees and costs has been supported
where the commercial transaction comprises the core
of the lawsuit. Id.; See also Troupis v. Summer, 148
Idaho 77, 218 P.3d 11238 (2009). This Court is acting
as an appellate court on some issues and as a trial
court on other issues, and is therefore entitled to
attorney fees at both levels.
D. An Award of Attorney Fees as well as
Costs is Appropriate in These Cases.
FMC argues that if this court is to award attorney
fees they should only be awarded on appeal. (See
FMC Brief, p. 6.) An award of attorneys’ fees should

124a
include an award for the appeal from the Fort Hall
Business Council because that decision is filed as a
complaint and treated as a civil case from that point
forward. An appeal from the Trial Court to the Court
of Appeals is filed as a civil action which also meets
the language of Chapter IV, § 2. This civil action
continued through both trials before Judge Maguire,
and those appeals to this Appellate Court, as well as
the Tribes’ Counterclaim(s) and it too, should be
accorded attorney fees and costs. This is so because
the Tribes successfully defended its position
regarding jurisdiction over FMC in this Court, and
have expended an inordinate amount of time and
money fighting this issue. Additionally, the Tribes
still have to present evidence to this Court on the
second Montana exception due to the Trial Court’s
ruling that excluded that evidence.
The
Administrative hearings, however, are not “civil”
cases within the jurisdiction of this Court. (See Land
Use Policy Ordinance, Chapter V, § 6, and Chapter
III, § 3.58, and Chapter IV, §2.)
E. The Tribes’ Memorandum of Fees and
Costs is Not Sufficient as Originally
Provided or as Supplemented Herein.
FMC has objected to the format of the
Memorandum of Fees and Costs submitted by the
Tribes.
In response, the Tribes prepared a
spreadsheet showing more detail and described as
Exhibit “A”. Errors that were found were corrected
(with the exceptions noted previously).
The
methodology cited by the Tribes and outlined in
Pennsylvania v. Delaware Valley Citizens’ Council for
Clean Air (DELAWARE VALLEY I) 478 U.S. 546,
562-569 1986), involved a two-step process. Id. The
first step is to find a lodestar figure – calculated by

125a
multiplying the number of hours spent on the
litigation by a reasonable hourly rate. Id. The second
step is to adjust the fee upward or downward based
on consideration of a variety of factors. Id. To be
entitled to an upward adjustment. A prevailing party
must show that it would have been unable “to obtain
counsel without any promise of a reward for
extraordinary performance,” and must present
“Specific evidence as to what made the results it
obtained . . . so ‘outstanding.’” The party must also
show “that the lodestar figure . . . was far below
awards made in similar cases where the court found
equally superior quality of performance.” Id. Finally,
to adjust a fee upward, a court must make “detailed
findings as to why the lodestar amount was
unreasonable, and in particular as to why the quality
of representation was not reflected in the number of
hours times the reasonable hourly rate.” Id. The
Supreme Court subsequently clarified that the time
of paralegals and law clerks should be included in the
amount of the award of attorney’s fees. (Missouri v.
Jenkins), 491 U.S. 274 (1989).
Since this matter is being continued to the
February calendar for a hearing on the ShoshoneBannock Tribes Counterclaims, this Court will
require that the Tribes engage an expert witness to
testify before the Appellate Panel at its May 2013
calendar, with the filing of briefs by both sides after
the Tribes have submitted an additional bill for costs
and fees subsequent to the February 2013 hearing
before this Court makes an announcement of the final
figure for the attorneys’ fees award. Counsel for the
Tribes should be prepared to include a final claim for
fees and costs prior to the May 2013 hearing in order
to give FMC an opportunity to object to the new

126a
materials, and show hours spent in electronic
research, rather than a flat dollar figure, the number
of copies made each month on its final spread sheet
rather than providing the Court with total figures for
those items, and an estimate for the time spent in
preparing for the May 2013 final hearing.. It would
also be helpful to have a key to the initials of the
lawyers, paralegals, law students, represented by
initials for work done. The expert witness can advise
this Court as to whether the Tribes’ claim for fees and
costs is reasonable and give FMC another opportunity
to object to specific matters. Said briefing schedule
will be provided to the parties at the February 7, 2013
trial on the Tribes’ Counterclaims.
F. An award of Fees and Costs Will Have a
Chilling Effect on Tribal Court Litigants.
FMC next argues that an award of attorney’s fees
and costs would have a chilling precedential effect on
Tribal
Court
litigants.
(FMC
Corporation’s
Opposition to Appellant’s Memorandum of Fees and
Costs, pp. 7-8). This court, as well as the Trial Court
have awarded fees and costs in cases in which either
prosecution or defense has been specious or
particularly difficult. For a run of the mill case, fees
are not usually awarded, although costs may be.
G. Lack of Specificity.
Many of FMC’s objections to the lack of specificity
in the claim for attorneys’ fees and costs have been
answered by the Tribes. This is the same argument
addressed in, however, there is still some lack of
specificity in the statements that fail to identify who
is doing the work (initials only are provided), there is
a flat fee for the cost of making copies as well as
electronic research rather than a breakdown of

127a
numbers of copies and the time spent for the research
at an hourly rate, rather than a flat fee for a month.
Furthermore, it is unrealistic to expect the Appellate
Justices to determine if the Attorneys Fees and Costs
are reasonable, given their lack of resources and the
need to hear the evidence of an expert witness
regarding the reasonableness.
FINDINGS OF FACT
1. This Court finds that it has authority to enter
a judgment for attorneys’ fees that includes costs but
declines to do so for the administrative hearings
because the SBLOC only authorizes fees for “civil”
cases and an administrative hearing is not a “civil”
case. (See Shoshone-Bannock Tribes Law and Order
Code, Chapter III, Section 1.1.)
2. This Court finds that the language of the
statute authorizing an award of fees and costs is
discretionary with the Court.
3. This Court finds that the language of the
statute that authorizes the Appellate Court to enter
an appropriate judgment, decree or order, or require
such other action or further proceedings as may be
just in the circumstances, includes the discretion to
revoke a remand order.
4. This Court finds that under Chapter III,
Section 1.1, it has authority to revoke the Remand
Order found in the May 8, 2012 Order and does
hereby Order the parties to prepare to put on evidence
and argue the Tribes’ Counterclaims previously
denied, including evidence of the second Montana
exception to Tribal jurisdiction, breach of contract,
and failure to obtain air permits which were properly
filed, and these claims are reinstated with

128a
instructions for them to be reheard on February 7,
2013.
5. This Court finds that Tribal Law and Custom
do not apply to this case.
6. This Court finds that same code section
directs this Court to look next to federal law6 that
defines the American Rule and its exceptions.)
7. This Court finds that it is reasonable to follow
those exceptions to the American Rule that apply to
this case.
8. This Court finds that the “private attorney
general” exception applies because a party “should be
awarded attorneys’ fees when he [they] has [have]
effectuated a strong Congressional, in this case a
Tribal, Policy which benefited a large class of people,
and further finds that the Tribes litigated the issues
in these cases that will benefit more than 5,500 Tribal
members by protecting the health of those members
as well as creating income to operate their hazardous
waste program and this can be addressed at the
February 2013 hearing.
9. This Court further finds that these actions
were necessary and directs the Tribes to offer
evidence of the need to hire private legal counsel to
make the award essential. (See Alyeska, 421 U.S. at
259.)
10. This Court finds that FMC has “acted in bad
faith, veraciously, wantonly, or for “oppressive
reasons” sufficient to justify for the bad faith
exception to the American Rule by its actions leading
6 See Shoshone-Bannock Tribes Law and Order Code,
Chapter III, Section 1.1, Alyeska, Pipeline Service Co, v,
Wilderness Society, 421 U.S. 240, 24 and 263 (1975).

129a
to the lawsuit as well as litigation conduct, where the
underlying conduct gave rise to the creation of a
Federal superfund Site that would have been
abandoned and left to the Tribes to clean-up, had the
government not stepped in, and where issues such as
jurisdiction should have been obvious under the
circumstances.
11. This Court finds that in response to the
American Rule Congress enacted over 200 Federal
statutes that authorize awards of attorney fees,
showing the Congress’ legislative action was passed
to overcome Supreme Court decisions denying awards
of attorneys’ fees.
12. This Court finds that the underlying basis of
the appeal by FMC has always been related to the
commercial transaction rather than the adequacy of
any award, or lack thereof, of attorney fees at the trial
court level is right per the case law, and that the state
of the law does not support FMC’s position re the fees.
13. This Court finds that it is unable to
determine if the time and fees are fair and reasonable,
for the work performed without an expert witness to
review the current materials, and testify at the
hearing to be held at the May 2013 calendar, unless
decided upon submission of evidence and briefs.
14. This Court finds that the Shoshone-Bannock
Tribes shall be awarded attorney fees and costs as
authorized under Idaho statutes, the ShoshoneBannock Law and Order Code cited above, and the
federal case law.
15. This Court finds that an award to the Tribes
for the proceedings before the Land Use Committee
and the appeal to the Fort Hall Business Council are

130a
denied because they do not fit the definition of a “civil
case.”
16. This Court finds that it is appropriate for the
Tribes to engage an expert witness and prepare such
findings to be filed with the Court and served on FMC
no later than April 12, 2013, in order to give sufficient
time to object to the expert’s determination(s).
17. This Court finds that FMC shall have until a
stipulated date in the future to object to the expert’s
findings, and the Tribes will have until two weeks
after that date to answer.
18. This Court finds but there is still some lack of
identity as to who is doing the work (initials only are
provided); there is a flat fee for the cost of making
copies as well as electronic research rather than a
breakdown of numbers of copies, and the time spent
for the research at an hourly rate; and this Court is
not prepared to rule on the reasonableness of the fees
and costs without input from an Expert.
19. This Court finds that it is appropriate that
the SBTs shall have until the stipulated date to
provide FMC with a list of their witnesses.
20. This Court finds that FMC shall have until
two weeks after that date to provide its list of
witnesses.
21. This Court finds that the American Rule does
not apply to this case because there are too many
exceptions to that Rule that do apply.
22. This Court finds that an award of fees and
costs in this case does not set a dangerous precedent
in this Court because both the trial court and the
appellate court have previously awarded attorneys’
fees and costs in cases that are particularly difficult
and/or heinous.

131a
CONCLUSIONS OF LAW
1. This Court concludes that it has authority to
enter a judgment for attorneys’ fees that includes
costs, as well as the authority to enter an appropriate
judgment, decree or order, or require such other
action or further proceedings as may be just in the
circumstances.
2. This Court concludes that it has authority to
revoke the remand Order of May 8, 2012 and Order
the parties to prepare to put on evidence and argue
the counterclaims previously denied to the Tribes at
the February 7, 2013 hearing, including evidence of
the second Montana exception to jurisdiction, breach
of contract, and failure to obtain air permits which
were properly filed, and these claims are reinstated
with instructions for them to be reheard at the
February 7, 2013 Appellate Calendar.
3. This Court concludes that Tribal Law and
Custom do not apply to this case,
4. This Court concludes that the SBLOC directs
this Court to look next to federal law, and it has done
so.
5. This Court concludes that it is reasonable to
follow the exceptions to the American Rule that apply
to this case.
6. This Court concludes that the Tribes litigated
issues in these cases that will benefit more than 5,500
Tribal members by protecting the health of those
members as well as creating income to sustain their
hazardous waste program.
7. This Court concludes that the “private
attorney general” exception applies because the
Tribes “should be awarded attorneys’ fees when [they]

132a
he has effectuated a strong Policy which has benefited
a large class of people, which it has done.
8. This Court concludes that these actions were
necessary and directs the Tribes to offer evidence of a
financial burden to the Tribes that caused the need to
hire private enforcement to make the award essential.
9. This Court concludes that in response to the
American Rule Congress enacted over 200 Federal
statutes that authorize awards of attorney fees,
showing the Congress’ legislative action was passed
to overcome Supreme Court decisions denying awards
of attorneys’ fees, and that the Shoshone-Bannock
Law and Order Code shows the legislative intent of
the Tribes.
10. This Court concludes that the underlying
basis of the appeal by FMC has always been related
to the commercial transaction rather than the
adequacy of any award, or lack thereof, of attorney
fees at the trial court level, and that the state of the
law does not support FMC’s position re the fees.
11. This Court concludes that it is appropriate for
the Tribes to engage an expert witness and prepare
such findings as to the reasonableness of the
attorneys’ fees, with attention to the failure to
identify who is doing the work (initials only are
provided), and concludes there is a lack of specificity
for the cost of making copies and electronic research
by providing a breakdown of numbers of copies and
the time spent for the research at an hourly rate, to
be addressed by this Court at its next authorized
calendar to give sufficient time to file these specifics
as well as allow FMC to object to the expert’s
determination(s).

133a
13. This Court concludes that it is appropriate
that the Tribes shall have until the stipulated date to
file its Expert Witness Findings that shall include the
specifics set forth above.
14. This Court concludes that FMC shall have
until the stipulated date to object to the Tribes’ Costs
and Fees Expert and Specifics that include an award
of paralegal and law clerks’ fees as part of the
attorneys’ fee award.
15. This Court concludes that SBT shall have
until the stipulated date to reply to the objections.
16. This Court concludes that an award of fees
and costs in this case does not set a dangerous
precedent because both the trial court and the
appellate court have previously awarded attorneys’
fees and costs.
Based upon the foregoing Findings of Fact and
Conclusions of Law, this Appellate Court enters the
following Order.
ORDER
IT IS HEREBY ORDERED AND THIS DOES
ORDER THAT:
1. A final award of attorneys’ fees and costs will
be entered in this matter once the Tribes have
introduced evidence that the fees and costs claimed
are reasonable, necessary and specific at the
scheduling that is set forth above: Specifics to be filed
by the Tribes by dates stipulated, Objections filed by
FMC by date stipulated, and the Tribes Reply by date
stipulated, with the arguments to be heard on a date
set by the Court Clerk on the Appellate Calendar; and
2. This Court REVOKES the remand portion of
the May 8, 2012 Order, and

134a
3. This Court Orders that the claims of the
second Montana exception to tribal jurisdiction,
breach of contract, and failure to obtain air permits
were properly filed, and these claims are reinstated
with instructions for them to be reheard at the next
Appellate Calendar.
4. This Court Orders that the Tribes shall file
their list of witnesses by a date stipulated at 5:00
p.m., and FMC shall have until one week later by 5:00
p.m. to file a witness list, unless the parties stipulate
otherwise.
5. This Court Orders that the parties prepare to
put on evidence of the specificity of the claim for
attorneys’ fees and the reasonableness of such fees
and costs through an expert witness at the next
Appellate hearing, based on the schedule set out in
(2) above;
6. This Court’s prior Order for FMC to obtain a
Tribal Special Use Permit and pay the associated
permit fee of $1.5 million for each of the years from
2002 up to including 2007, based upon the authority
of the Tribes’ Land Use Policy Ordinance, Operative
Guidelines as amended, is upheld, and a separate
judgment will be entered.
7. The Clerk is ordered to set aside the entire
day for these subjects.
Dated this 31st day of January, 2013.
Nunc pro tunc.
s/ Fred Gabourie, (Sr.)
The Honorable Fred Gabourie,
Chief Justice

135a
The Honorable Mary L. Pearson,
Associate Justice
The Honorable
Associate Justice

Cathy

Silak,

136a
FILED IN THE
SHOSHONE-BANNOCK
TRIBAL COURT
2012 JUN 26 AM 11 33
CLERK OF THE COURT
BY
ASSISTANT CLERK
IN THE SHOSHONE-BANNOCK
TRIBAL COURT OF APPEALS
FOR THE FORT HALL RESERVATION, IDAHO
FMC CORPORATION,
Respondents,
vs.
SHOSHONE-BANNOCK
TRIBES LAND USE
DEPARTMENT AND
FORT HALL BUSINESS
COUNCIL,
Appellants and
Counterclaimants.

)
)
)
)
)
)
)
)
)
)
)
)

Case Nos. C-06-0069
C-07-0017
C-07-0035
AMENDED, NUNC
PRO TUNC
FINDINGS OF
FACT,
CONCLUSIONS
OF LAW,
OPINION AND
ORDER

Appeals from the Shoshone-Bannock Tribal Court
Opinions of Hon. Judge David Maguire dated
November 13, 2007 and May 21, 2008, before the
Shoshone-Bannock Court of Appeals, the Hon. Fred
Gabourie, Chief Justice, Hon. Cathy Silak, and Hon.
Mary L. Pearson, Appellate Justices, submitted and
argued May 12, 2011.
Opinion by Justice Pearson.

137a
Plaintiff FMC Corporation is represented by Lee
Radford and Gary Dance of the law firm of Moffatt
Thomas Barrett et al, of Idaho Falls, Idaho, and Ralph
Palumbo, of the Summit Law Group, Seattle,
Washington, and Lynn H. Slade and Wm. C. Scott, of
Modrall Sperling, Albuquerque, New Mexico.
Defendant/Counterclaimants are represented by Paul
Echohawk of the law firm of Echohawk, Pocatello,
Idaho, and Wm. F. Bacon, Esq., Moffatt Thomas
Barrett Rock & Fields, Pocatello, Idaho for the
Shoshone-Bannock Tribes.
I. STATEMENT OF THE CASE
The first appeal is Case No. C-06-0069, an
Amended Complaint by FMC against the Tribes for a
review of the Shoshone-Bannock Tribes (Tribes) Land
Use Policy Commission’s (LUPC) Findings of Fact
and Decision of April 25, 2006, requiring FMC to first
purchase a waste permit and subsequently to
purchase a building permit1 and the Fort Hall
Business Council’s (FHBC) affirmation of both of
those Decisions on July 21, 2006.
The second appeal is Case No. 07-0017, a Verified
Complaint for Review of the Fort Hall Business
Council’s March 5, 2007 decision affirming the April
25, 2006, Land Use Policy Commission’s Decision
(Appeal C-06-0069) affirmance denying FMC’s Motion
for a Stay.
Before seeking relief in the Fort Hall Tribal Court,
FMC first filed a motion in the Federal District Court
of Idaho, seeking a stay of the Tribes’ efforts to enforce
permitting requirements and to reconsider that
1 AR 000346-000348, ER 000199-201 and AR 000349-AR
000354, ER 000202-ER 000207).

138a
Court’s determination that FMC must apply to the
Tribes for the necessary permits required under a
Consent Decree entered July 13, 1999 between the
United States Environmental Protection Agency
(EPA) and the FMC. The District Court, Hon. Judge
Winmill, denied the stay and reconsideration, and
sent FMC back to the Tribes. In his analysis of the
case, Judge Winmill recognized that FMC had
appealed his decision of March 6, 2006 to the Ninth
Circuit in an effort to avoid obtaining Tribal permits
which his order had required and the Tribe had set a
deadline for FMC to pay the $1.5 million or pay a
weight-based fee that could exceed $100 million.2 The
District Court found jurisdiction over the Tribes by
virtue of the tribes’ intervention in the district court
case in an effort to require FMC to pursue the Tribal
permit process. The Court made a finding that the
Tribes offer a process for obtaining a stay and FMC
must first apply for such stay and exhaust any Tribal
remedies before appealing any refusal to the District
Court. The District Court denied the stay. When
FMC requested the right to reserve discovery on the
jurisdictional issue and raise the issue again after
discovery was complete, this was denied by the
District Court.3 Appeal number three is Case No. C07-0035 – FMC’s Verified Complaint for review of the
FHBC June 14, 2007, affirmation4 of the LUPC’s
February 8, 2007 Decision setting the Special Use
Permit Fee at $1.5 million.

2

Winmill Opinion, supra, at p. 3, ER 000219, AR 002812.

3

Supra, at p. 6 and , ER 000213-214, AR 002815-2815.

4

ER 000636-000639, AR 003021-3024.

139a
The Tribes appealed from Judge Maguire’s
November 13, 2007 decision to dismiss the Tribe’s
counterclaims and they appealed from Judge
Maguire’s May 21, 2008, decision reversing the
decisions of the Fort Hall Business Council and the
Land Use Policy Commission in all three consolidated
appeals on June 02, 2008.5 Oral arguments were
heard in November 2010. Shortly thereafter FMC
filed a request for a post hearing Brief and requested
oral argument which was opposed by the Tribes but it
was allowed and heard at the May 2011 appellate
calendar.
This Appellate Opinion is also a review of the
Tribes’ sovereignty and its civil regulatory authority.
FoSr the most part, the Appellate Panel has adopted
the proposed Findings of Fact and Conclusions of Law
of the Shoshone-Bannock Tribes, taking into
consideration the objections filed by FMC without
allowing oral argument on the objections.
II. FACTS AND PROCEDURAL BACKGROUND
Since the late 1940’s, FMC Corporation (and any
subsidiary or other registered name by which FMC
operated, collectively referred to herein as FMC) has
engaged in activities, including the production,
treatment, and storage of hazardous and nonhazardous waste. Much of that activity occurred on
fee land within the boundaries of the Fort Hall
Reservation, and the storage of twenty-two million
(22,000,000) tons of hazardous and non-hazardous
waste continues on fee land within the Reservation
boundaries to this day. The Shoshone-Bannock
Tribes Land Use Policy Commission
(“LUPC”)
5 Notice of Appeal, June 02, 2006, ER 000850, AR 004376.
Amended Counterclaim, ER 000238-000274.

140a
regulates waste activity within the boundaries of the
Fort Hall Reservation through enforcement of the
Tribes’ Land Use Policy Ordinance (“LUPO”) and
Land Use Policy Guidelines (“Guidelines”).
On October 16, 1998, the United States
Environmental Protection Agency (EPA) filed a
complaint in the Idaho Federal District Court alleging
FMC’s multiple violations of the Resource
Conservation and Recovery Act (RCRA). That same
day in 1998 the United States filed with the Court a
Consent Decree signed by the EPA and FMC, citing
numerous violations of CERCLA by FMC and in
which FMC agreed to pay a fine, and take a number
of remedial actions. FMC admitted the allegations of
venue, subject matter and personal jurisdiction, but
did not admit any wrongdoing. In the Consent
Decree, FMC consented to the “clean-up” of its
Pocatello, Idaho plant, and also agreed to apply for
Tribal permits. During the same time frame that
FMC was negotiating with the EPA, FMC and the
Shoshone-Bannock Tribes were also discussing
FMC’s compliance with the Tribes’ land use
permitting regulations. FMC was notified by the
LUPC in August of 1997 that Amended Guidelines to
the LUPO would be adopted, which would address the
storage of hazardous and non-hazardous waste on the
Reservation. Originally, FMC refused to submit to
the jurisdiction of the Tribes in its application for the
permit,6 however, the Tribes refused to grant a permit
6

August 1, 1997 letter from Sheila G. Bush, Counsel for
FMC to Candy Jackson, Tribal Attorney for Shoshone-Bannock
Tribes submitting application for building permit for Ponds 17,
18, and 19, and refusing to submit to jurisdiction of the
Shoshone-Bannock Tribes. ER 000280, AR 000023.

141a
without FMC submitting to tribal jurisdiction. In
response to that notification, the Health, Safety, and
Environmental Manager for FMC, Dave Buttleman,
sent a letter dated August 11, 1997 to the ShoshoneBannock Tribes’ LUPC:
Through submittal of the Tribal “Building Permit
Application” and the Tribal “Use Permit
Application” for Ponds 17, 18, and 19, FMC
Corporation is consenting to the jurisdiction of the
Shoshone-Bannock Tribes with regard to the
zoning and permitting requirements as specified in
the current Fort Hall Land Use Operative Policy
Guidelines. (emphasis added.)
On April 6, 1998, the LUPC sent out proposed
amendments to the LUPO Guidelines proposing
different permit fees for the storage of hazardous and
non-hazardous waste. On April 13, 1998, LUPO sent
FMC a letter setting forth the conditions upon which
the Tribes would issue Building and Special Use
Permits for Ponds 17, 18, and 19. In response to the
proposed amendments, FMC and the Tribes met in
Seattle, Washington in May of 1998 to discuss an
agreement regarding FMC’s obligations to the Tribes
under the Chapter V regulations and to determine the
terms and conditions of FMC’s obtaining Tribal
special use permits for waste ponds 17, 18, and 19.
Thereafter, FMC and the Tribes corresponded in
letters dated May 19, 1998, May 26, 1998, and June
2, 1998. Those letters provide in clear terms that
FMC would obtain Tribal land use permits for its
waste activities on the Reservation and pay the Tribes
an initial payment of $2.5 million and thereafter pay
an annual special use permit fee of $1.5 million each
year, “even if use of ponds 17-19 was terminated”, i.e.,

142a
stopped being used for disposal in the next several
years.7 , and FMC would thereby obtain, and continue
to have an exemption from the otherwise-applicable
Tribal land use permitting regulations.8
FMC paid the annual permit fee of $1.5 million in
accordance with the parties’ agreement for
approximately four (4) years without any apparent
dispute regarding the fee. Then, prior to the annual
permit fee payment due June 1, 2002, FMC indicated
in its letter prepared by John Bartholomew to Tribal
Chairman dated May 23, 2002, FMC’s intention to
cease payment of the annual permit fee.
A
memorandum was attached to that letter which
expressed the FMC attorneys’ reasoning why FMC
was not obligated to pay the annual permit fee,
including an argument that FMC’ s obligation to pay
the fee was conditioned upon the Tribes adopting
certain regulations.9 In response, the Tribes sent a
letter to FMC explaining that the Tribes expected the
annual permit fee payments to continue in reliance
upon the contents of the letter dated June, 2, 1998,
authored by FMC’s General Counsel Paul McGrath to
Tribal Attorney Jeanette Wolfley, which provided,
“[t]he $1.5 million annual fee would continue to be
paid for the future even if the use of the ponds 17-19
was terminated in the next several years.
The LUPC notified FMC by letter dated December
19, 2002, that FMC was in violation of Tribal land use
regulations for failing to apply for and obtain a Tribal
7

McGrath letter of June 2, 1998, to Tribal Attorney,
Jeannette Wolfley, ER 000749, AR 003516.
8

(See May 26, 1998 letter ER 000746.)

9 ER 000139, AR 002140, May 23, 2002 letter from FMC’s
Bartholomew to SBT Chairman Edmo.

143a
permit for the disposal and storage of hazardous
waste on the Fort Hall Reservation.
FMC did not make the $1.5 million annual permit
fee payment in 2002 and 2003, nor did FMC apply for
and obtain the required Tribal land use permits for its
waste activities on the Fort Hall Reservation. In
letters dated April 6, 2004, April 16, 2004, and April
21, 2004, and May 5, 2004, the Tribes demanded that
FMC comply with Tribal land use and air quality
permitting requirements.
In response to the Tribes’ demands for compliance,
FMC again negotiated with the Tribes regarding the
Tribes’ permit process. Those negotiations, which
included discussions of selling or leasing the FMC
land, plant, water rights, etc., and a proposal that
each parties’ rights not be prejudiced were contained
in a letter from FMC to Shoshone-Bannock Tribal
Chairman Fredrick Auck, dated May 27, 2004:
As long as FMC is working in good faith to
transfer ownership or lease the real property,
water rights, and plant assets as discussed with
the Tribes, including how the process and
consideration to be provided to FMC are
defined, the Tribes will stay any regulatory
enforcement of the Tribes’ Land Use
Department’s April 16, 2004 and April 21, 2004,
and May 5, 2004 letters and the Air Quality
Program’s April 6, 2004 letter.
If the above is acceptable, neither party’s
rights, defenses, nor claims will be prejudiced
in any manner whatsoever. If this is agreeable,
please sign below where indicated.
The Tribes’ agreed to FMC’s proposed stay of
enforcement of the Tribes’ land use regulations and

144a
accepted the terms outlined in the May 27, 2004
letter.10
On July 22, 2004, FMC sent the Tribes a letter
proposing to transfer assets at the FMC Pocatello
Plant site to the Tribes in exchange for the following:
immunity from Tribal land use ordinances; the
Tribes’ agreement to support EPA’s recommendations
regarding CERCLA and RCRA compliance; the
Tribes’ agreement to FMC’s proposed method of
conducting reclamation at the Gay Mine; and the
Tribes’ agreement to release FMC from all natural
resource damage claims.
On September 19, 2005, the Tribes filed a Motion
for Clarification in United States v. FMC Corporation,
Case No. CIV-98-0406-E-BLW, in the Federal District
Court for the District of Idaho, seeking clarification of
FMC’s obligation under the RCRA Consent Decree to:
1) obtain all required Tribal permits for activities
conducted at the FMC site; 2) allow Tribal
representatives access to the FMC property to
conduct inspections and monitor FMC’s compliance
with the Consent Decree; and 3) provide the Tribes
with documentation of work activities in accordance
with the Consent Decree.
The issues and proposal set forth in FMC’s letter
dated July 22, 2004, continued to be negotiated by the
parties until FMC, by its Director of Operations John
Bartholomew, sent the Tribes a letter dated
December 6, 2005, which provided in pertinent part:
In July of this year, FMC formally
communicated the issues once again, as well as
our continued willingness and commitment to
10 ER 000155, AR 002518, Letter of May 27, 2004.

145a
work with the Tribes in good faith. FMC’s
issues included resolution of jurisdiction
matters, the site ROD, the Gay Mine, and NRD.
Unfortunately, after several meetings the
Tribal Council declined to engage in complete
discussion of these matters, which negates the
opportunity for Tribal redevelopment of the
property. As a result, FMC now has no choice
but to pursue other interested parties who are
anxious to help their local communities
capitalize on the current opportunity before it
slips away.
This Court rejects FMC’s claim that the statute of
limitations was tolled by the Tribes filing a Motion for
Clarification in Federal District Court on Sept 19,
2005 instead of December 6, 2005. On March 6, 2006,
the Federal District Court entered a Memorandum
Decision and Order addressing the Tribes’ Motion for
Clarification. In its decision, the Federal Court
applied the test set forth in Montana v. United States,
450 U.S. 544 (1981), and rejected FMC’s objection to
the Tribes’ jurisdiction over FMC’s waste activities on
the Fort Hall Reservation finding that the
“consensual relationship” exception was met in three
separate ways, thereby giving the Tribes “jurisdiction
over FMC to enforce the terms of the Tribal permit
system.” The Federal District Court specifically held
that Paragraph 8 of the RCRA Consent Decree, which
provided “[w]here any portion of the Work requires a
federal, state, or tribal permit or approval, [FMC]
shall submit timely and complete applications and
take all other actions necessary to obtain all such
permits and approvals,” required FMC to apply for
Tribal land use permits identified by the Tribes and
that FMC is required to present its arguments

146a
regarding applicability of particular permitting
requirements in Tribal forums (the LUPC, FHBC,
and Shoshone-Bannock Tribal Court) before seeking
further relief in the Federal Court. FMC appealed
from the Federal District Court’s decision to the
Ninth Circuit, which held that only the United States,
not the Tribes, could enforce FMC’s obligations under
the RCRA Consent Decree. United States v. FMC
Corp., 531 F.3d 813 (9th Cir. 2008). The Ninth Circuit
decision, however, did not relieve FMC of its
responsibility to apply for the necessary Tribal
permits.
Following the Federal Court’s Decision in March
of 2006, FMC submitted applications for a Tribal
special use permit and a Tribal building permit. On
April 25, 2006, the LUPC granted FMC a special use
permit and a building permit, conditioned on FMC
paying the annual permit fee and providing the Tribes
with hazardous waste storage information. FMC
sought immediate relief in Federal Court by filing a
motion to clarify or reconsider that court’s March 6,
2006, decision.11 FMC’s requests were denied by the
Federal Court on December 1, 2006. FMC then filed
an Emergency Motion to Stay in the Ninth Circuit
Court of Appeals on December 7, 2006, seeking an
order enjoining the Tribes from enforcing the
requirements of the LUPC’s April 25, 2006 land use
permit decisions.12 The Tribes filed an objection with
the Ninth Circuit on December 8, 2006, and the Ninth
Circuit entered a denial of FMC’s Emergency Motion
to Stay on December 11, 2006.
11 ER 000471, AR 000370. P. 11 of Fed. Dist. Ct. Docket.
12 ER 000199-207, AR 000346-000354.

147a
FMC also timely appealed the LUPC decisions of
April 25, 2006 to the Fort Hall Business Council
(“FHBC”) in accordance with Article V, Section 6 of
the Land Use Policy Ordinance. In support of its
appeal from the LUPC decision, FMC submitted a
brief and a number of documents that were not
previously provided to the LUPC.
The FHBC
correctly
refused
to
take
the
additional
documentation into account since it was not part of
the LUPC’s record, and ultimately affirmed the LUPC
decisions. On August 8, 2006, FMC filed a timely
appeal of the LUPC and FHBC decisions to the
Shoshone-Bannock Tribal Court. On September 14,
2006, the Tribes filed an Answer denying FMC’s
allegations and two counterclaims alleging: (1) that
FMC was subject to the Tribes’ air quality permitting
requirements, and (2) that the 1998 Agreement was a
common law contract and FMC had breached the
contract by not paying the $1.5 million fixed fee for
each of the years from 2002 through 2007.
On February 8, 2007, the LUPC issued a letter to
FMC setting an annual special use permit fee at $1.5
million due on the first day of June beginning in 2007.
On March 19, 2007, FMC posted a bond in the amount
of $1.5 million and appealed the LUPC’s February 8,
2007, decision to the FHBC. After accepting briefs
from the parties and hearing oral argument on May
10, 2007, the FHBC affirmed the LUPC’s decision on
June 14, 2007. On June 29, 2007, FMC filed an
appeal of the FHBC June 14, 2007 decision in Tribal
Court.
On November 13, 2007, the Tribal Court dismissed
the air quality permit counterclaim subject to the
Tribes’ right to file a motion to sever the matter and
have it handled separately and dismissed the contract

148a
counterclaim holding that a common law contract did
not exist between FMC and the Tribes.
On February 22, 2008, FMC filed an Opening Brief
to its appeal from the FHBC’s decisions issued July
21, 2006, March 5, 2007, and June 14, 2007. On May
21, 2008, the Tribal Court held that: (1) FMC was
required to obtain a Tribal Building Permit, but that
the Tribes could not impose the stated $3,000 permit
fee; (2) no special use permit is required for industrial
areas inside an area zoned industrial; (3) the
agreement created through correspondence between
the Tribes and FMC was not incorporated into a
Tribal ordinance; and (4) the Tribes failed to meet the
approval requirements for the imposition of fees to
non-members under the Tribal Constitution and
therefore the imposition of the $1.5 million fee is void.
On May 28, 2008, the Tribes filed an Appeal to the
Tribal Court of Appeals and on June 5, 2008, the
Tribes amended their Notice of Appeal, appealing
from both the November 13, 2007, and May 21, 2008
decisions rendered by the Tribal Court. On June 10,
2008, FMC filed its cross-appeal, also alleging that
the Trial Court erred in both the November 13, 2007
and May 21, 2008 decisions.
III. ISSUES ON APPEAL
This Court finds that the following are the issues
on appeal before this Court.
A. Whether the Shoshone Bannock Tribes have
jurisdiction over FMC with regard to land use
regulation and the alleged breach of contract claim.
B. Whether the Trial Court erred by finding that
Tribal regulations do not require FMC to obtain a
Tribal special use permit and pay the applicable

149a
permit fee for storing hazardous waste on the
Reservation.
C. Whether the Trial Court erred in concluding
that the LUPC had no authority or basis to impose the
$1.5 million annual special use permit fee.
D. Whether the Trial Court erred by applying an
incorrect and arbitrary standard of review in the
appeal of the LUPC and FHBC decisions.
E. Whether the Trial Court erred by dismissing
the Tribes’ amended counterclaim alleging breach of
contract.
F. Whether the Trial Court erred by ruling that
FMC was estopped from asserting a statute of
limitations defense.
G. Whether the Trial Court erred by dismissing
the Tribes’ counterclaim for FMC’s failure to obtain
required Tribal air quality permits.
H. Whether the Trial Court erred by dismissing
the Tribe’s counterclaim without allowing discovery
as to remaining material issues of fact.
I. Whether the Trial Court erred by ruling that
FMC must obtain a Building Permit for demolition.
J. Whether the Trial Court erred by finding that
FMC is not required to pay the building permit fee in
the amount of $3,000.00 as assessed by the LUPC.
IV.
STANDARD OF REVIEW
The Shoshone-Bannock Tribes’ Land Use Policy
Ordinance and Law and Order Code establish the
procedure and standard of review for appeals. Article
V, Section 6 of the Land Use Policy Ordinance
provides in pertinent part:
Any person or persons aggrieved by a decision
of the Commission may appeal such decision to

150a
the Business Council within thirty (30) days of
the final Commission decision, by filing a notice
of such appeal with the Commission or the
Commission Chairman. Upon receipt of such
notice the Secretary of the Commission shall
cause all records of said application including
the Commission findings of fact and decision to
be filed with the Tribal Secretary. The Tribal
Secretary shall then notify the Chairman of the
Business Council of such appeal and the appeal
shall be heard by the Business Council. Any
person aggrieved by a decision of the Business
Council may appeal such decision to the Tribal
Court within fifteen (15) days of the Business
Council decision. Such appeal shall be effected
by the filing of a complaint in the Tribal Court,
verified by the plaintiff and accompanied by the
same filing fee as a complaint in any civil action
in Tribal Court.
On or after the filing of such complaint, said
action shall be prosecuted, defended and
treated as any civil action instituted in said
Court. In the trial of such a case, however, it
shall be presumed, prima facie, that the final
action of the Commission, from which the
appeal is taken is legal in each and every
respect. Members of the Land Use Commission
and Business Council shall not be personally
liable for damages for actions performed within
the actual or apparent scope of their authority
described herein. The Business Council or any
person aggrieved by a decision of the Tribal
Court may appeal to the Tribal Court of
Appeals as provided in the Law and Order Code

151a
for appeals in civil cases. The determination of
the Tribal Court of Appeals shall be final.
The consolidated appeals in this case are before this
Court pursuant to this procedure. Chapter IV,
Section 2 of the Tribal Law and Order Code provides,
“on appeal, each case shall be tried anew, except for
questions of fact submitted to a jury in the Trial
Court.”
V. APPLICABLE LAWS
This Court interprets the application and meaning
of Tribal laws and common law in Tribal Courts. The
inherent sovereignty and rights of the ShoshoneBannock Tribes are reserved, recognized, and
protected by the Fort Bridger Treaty of 1868. In
accordance with the Indian Reorganization Act of
1934 the Tribes adopted a Constitution and Bylaws
that guides the actions of the Tribal government.
Pursuant to the Tribes’ inherent and constitutional
sovereign powers, the Shoshone Bannock Tribes
enacted the Land Use Policy Ordinance of the
Shoshone Bannock Tribes for the Fort Hall
Reservation by resolution on April 26, 1975, which
was approved by the BIA on February 3, 1977 and
March 9, 1977.
The Tribes enacted by resolution of August 24,
1979, the Fort Hall Land Use Operative Policy
Guidelines, which provide greater detail and
clarification of the 1977 Land Use Policy Ordinance
and established the Land Use Commission. The
Guidelines were submitted to the BIA on August 24,
1979, and became effective November 22, 1979, based
on the non-objection of the BIA within ninety (90)
days. See Shoshone-Bannock Tribal Constitution,

152a
Art. VI, Sec. 2; Pawnee Tribe v. BIA, 284 IBIA 5
(1995).
In 1992 the Tribes adopted an Air Quality
Protection Act, and submitted the ordinance to the
BIA for review and approval on August 19, 1992.
In 1997 the Tribes proposed Amendments to
Chapter V of the Guidelines. A Public hearing was
held on August 22, 1997, and the Amendment became
effective April 6, 1998, per the language of the
Amendments or May 18, 1998, per the memo.
Chapter V, Section V-9-2 of the 1997 Amendments to
the Guidelines provided for hazardous waste storage
fees of $5.00 per ton.
The Tribes enacted the Hazardous Waste
Management Act (“HWMA”) by resolution on October
19, 2001. The BIA reviewed the HWMA on October
26, 2001, and the HWMA became effective on
December 4, 2001, upon completion of legal review
and the 30-day public comment period.
The Tribes enacted a Waste Management Act
(“WMA”) by resolution of September 8, 2005, and the
BIA approved of the WMA by letter dated October 7,
2005.
The HWMA is superseded by the Tribes’ WMA
only to the extent that the HWMA is inconsistent
with, or are contrary to, the purposes of the WMA.
(WMA Ch. 10 §1003.) Because no provisions of
HWMA are inconsistent with, conflict with, or are
contrary to the purposes of the 2005 WMA, the 2001
HWMA fee schedule remains effective to date.

153a
VI.
ANALYSIS
A. The Shoshone Bannock Tribes have
jurisdiction over FMC with regard to land
use regulation and the alleged breach of
contract claim.
FMC claims that the Tribes have no jurisdiction to
regulate or adjudicate the conduct at the FMC
Pocatello Property. The Tribes’ assert that the LUPC,
the FHBC and this Court have jurisdiction pursuant
to the Shoshone-Bannock Tribal Constitution &
Bylaws, the Fort Bridger Treaty of 1868, the following
portions of the Shoshone-Bannock Tribal Law and
Order Code: Chapter I, sections 1, 2, and 2.1; and
Chapter III, sections 1, and 1.2, and other well-settled
principles of general federal Indian law.
There is sufficient evidence in the record to
support a finding that the Shoshone Bannock Tribes
have jurisdiction over FMC with regard to land use
regulation of the FMC property located within the
exterior boundaries of the Fort Hall Reservation and
with regard to the alleged breach of contract claim.
1. The federally imposed limitations of
tribal jurisdiction do not preclude the
Shoshone Bannock Tribes exercise of
jurisdiction in this matter.
An analysis of tribal court jurisdiction over any
non-Indian person or entity begins with Montana v.
United States, 450 U.S 544 (1981). In Montana the
United States Supreme Court held that an Indian
Tribe could not regulate hunting and fishing by nonIndians on non-Indian fee land within the
reservation. The Supreme Court in reaching its
decision explained that there are two sources of tribal
jurisdiction over non-members; either positive by law,

154a
by way of statute or treaty, or through the inherent
sovereignty of the tribe. Id. at 564.
The sovereignty of Indian tribes is of a unique and
limited character. It centers on the land held by the
Tribe and on tribal members within the reservation.
Plains Commerce Bank v. Long Family Land & Cattle
Co., Ins., 554 U.S. 316, 326, 128 S. Ct. 2709, 2718, 171
L.Ed.2d 457, (2008). The Supreme Court has stated
that “the inherent sovereign powers of an Indian tribe
do not extend to the activities of non-members of the
tribe.” Plains Commerce Bank, 554 U.S. at 326;
Montana, 450 U.S. at 565. This general rule restricts
tribal authority over non-member activity taking
place on the reservation, and is particularly strong
when the non-member’s activity occurs on non-Indian
fee land.” Plains Bank Commerce, 554 U.S. at 326;
Strate v. A-1 Contractors, 520 U.S. 438, 457 (1997).
That general rule is subject to two exceptions. The
first exception is that a tribe may regulate through
taxation, licensing, or other means, “the activities of
non-members who enter consensual relationships
with the tribe or its members, through commercial
dealing, contracts, leases or other arrangements.”
Montana, 450 U.S. at 565. The second exception is
that a tribe “may also retain inherent power to
exercise civil authority over the conduct of nonIndians on fee land within its reservation when that
conduct threatens or has some direct effect on the
political integrity, the economic security, or the
health and welfare of the tribe.” Id. at 566. The
burden rests on the tribe to establish that one of the
two Montana exceptions are satisfied. Plains Bank
Commerce, 554 U.S. at 327; Atkinson Trading Co. v.
Shirley, 532 U.S. 645, 654 and 659 {2001).

155a
Although Montana expressly addresses only the
regulatory jurisdiction of tribes, there is nevertheless
the presumption that if a tribe has regulatory
authority under Montana to regulate activities of nonmembers, jurisdiction over disputes arising out of
those activities exists in the tribal courts. Strate, 520
U.S. at 453.
a. The conduct between the Tribes and FMC
meet the criteria for the consensual
relationship
exception
outlined
in
Montana.
The record in this case contains sufficient evidence
to support a finding of jurisdiction based upon
consensual commercial dealings between FMC and
the Tribes. FMC’s agreement for payment and the
actual performance of tendering such payment of the
$1.5 million annual permit fee to the Tribes from 1998
to 2001 is precisely the type of commercial dealing
contemplated in the first exception of Montana. This
court finds of utmost significance the letter dated
August 11, 1997, from FMC’s Health, Safety, and
Environmental Manager, J. David Buttleman, which
references the commercial dealings between the
parties and specifically consents to the Tribes’
jurisdiction by stating, “[t]hrough the submittal of the
Tribal ‘Building Permit Application’ and the Tribal
‘Use Permit Application’ for Ponds 17, 18 and 19,
FMC Corporation is consenting to the jurisdiction of
the Shoshone-Bannock Tribes with regard to the
zoning and permitting requirements as specified in
the current Fort Hall Land Use Operative Policy
Guidelines.” FMC did not include any reservation of
rights, nor did FMC object to jurisdiction in the series
of letters that compromise the agreement between the
parties.

156a
The Consent Decree entered in the Federal
District Court regarding the RCRA violations and
proposed remedies is another form of consensual
relationship involving the same subject matter
between these same parties and further supports a
finding of jurisdiction. The record reflects that the
Tribes were not conferred third-party beneficiary
status to enforce the Consent Decree, but also
demonstrates that the Tribes were involved in the
process of District Court approval for the Consent
Decree and that Paragraph 8 of the Consent Decree
contains specific provisions requiring FMC to submit
to the Tribes’ permitting process.
The record reflects that both the LUPC and the
FHBC were well aware of the 1998 agreement and the
Consent Decree at the time that their relative
decisions were rendered. The LUPC and FHBC also
knew of the Federal Court’s ruling regarding
jurisdiction in decisions made after March of 2006.
This Court further finds the record supports the
Trial Court’s ruling on the issue of jurisdiction over
the permitting process, and the ancillary issues
related to it, based upon a consensual relationship
after taking guidance from Judge Windmill’s decision.
Because FMC and the Tribes engaged in a
consensual relationship as evidenced by their
commercial dealings evidenced by the agreements
and the parties’ joint involvement with the Consent
Decree, the LUPC, the FHBC and Tribal Court have
authority to exert their respective jurisdiction over
FMC related to the regulatory and adjudicatory
claims brought herein.

157a
b. There is insufficient evidence in the Trial
Court record to support the Tribe’s
exercise of jurisdiction under the second
Montana exception related to conduct
that threatens or has some direct effect on
the political integrity, the economic
security, or the health or welfare of the
Tribe.
Although proof of only one Montana exception is
required, and although the Trial Court erred by
failing to address the criteria discussed herein, there
is insufficient evidence in the record of this case to
find that the Tribes may also exercise jurisdiction
over FMC pursuant to the second exception stated in
Montana.
This Court finds based on the record herein that
FMC continues to store 22 million tons of hazardous
and non-hazardous waste within the boundaries of
the Fort Hall Reservation. Therefore, it is reasonable
to conclude that if FMC does not bear the reasonable
costs of completing the appropriate elimination or
treatment of the hazardous waste, or pay the fees
associated with the Tribal permits for the regulation
of FMC’s activities, then the expense regarding those
activities will be incurred by the Tribes. However,
without further evidence as to whether there will be
addition costs and/or the possible impacts to the
health of tribal members, particularly the unborn and
future generations, this Court canno determine if
such costs would threaten or cause a direct impact on
the economic security of the Tribes. Based on the
above grounds, this court finds that FMC’s conduct or
omissions may threaten or have some direct effect on
the economic security of the Tribes. The same is true
with regard to FMC’s activities threatening or having

158a
a direct impact on the health and welfare of Tribal
members since the completion of the Consent Decree.
FMC’s activities, including the continued storage of
reactive hazardous waste, resulted in the United
States filing suit against FMC for violation of federal
environmental law and regulations. See United
States v. FMC Corporation, Case No. CV-98-0406E-BLW. The record before this court contains the
Consent Decree, which was created through
negotiations with the United States Government for
the clean-up of the Superfund Site.
The
environmental clean-up is supervised by the EPA and
involves the Resource Conservation and Recovery Act
(RCRA), which was enacted in 1976, setting a
national goal of protecting human health and the
environment from the potential hazards of waste
disposal.
As with the consensual relationship status, the
LUPC and FHBC had common knowledge of the
economic risks and health and safety hazards as they
made their respective permitting decisions.
Based on the facts and circumstances presented in
the record, this court finds that the ShoshoneBannock Tribes should have had the opportunity to
present evidence that the high level of federal
government involvement at the site and reports of
actual and potential dangers to persons near the
waste ponds would support a finding that FMC’s
activities threaten or have a direct impact on the
health and welfare of Tribal members residing on the
Fort Hall Reservation.

159a
2. The Tribes have jurisdiction to consider
the regulatory and contract claims
pursuant to the Shoshone Bannock
Tribes’ Law and Order Code.
The Tribes’ regulatory claims filed in this matter
were brought pursuant to Article V, Section of the
LUPO, which requires that the action “be prosecuted,
defended and treated as any civil action instituted in
Chapter I, Section 2(b) of the
said Court.”13
Shoshone-Bannock Tribal Law & Order Code grants
the Shoshone Bannock Tribal Court original
jurisdiction over, “[a]ll civil actions arising under this
Code or at common law in which the defendant is
found within the Fort Hall Reservation and is served
with process, within, or who is found outside the Fort
Hall Reservation and is validly served with process.”
Absent some independent reason to the contrary, the
Tribal Court has jurisdiction over the claims related
to the interpretation and enforcement of the Land Use
Policy Ordinance.
The Tribes’ Amended Counterclaims were
submitted in these proceedings pursuant to Chapter
III of the Shoshone-Bannock Tribes Law & Order
Code, governing the Rules of Civil Procedure. The
Tribes assert that the counterclaim may be allowed as
either a compulsory or a permissive counterclaim
pursuant to Chapter III, Section 3.13.14
13 The pertinent portion of Article V, Section 6 of the Land

Use Policy Ordinance is set forth fully in the Standard of Review
section above.
14 Chapter III, Section 3.13 provides in pertinent part:

(a) Compulsory Counterclaims
A pleading shall state as a counterclaim any claim which at
the time of the serving the pleading the pleader has against

160a
This Court finds that the Tribes’ Amended
Counterclaims arise out of the same transaction or
occurrence that is the subject matter of FMC’s claim,
namely whether FMC agreed through correspondence
with the Tribes to pay a certain amount for the
storage of hazardous and non-hazardous waste within
the boundaries of the Fort Hall Reservation, and that
there are no third parties over whom the Tribal Court
cannot acquire jurisdiction who are necessary for the
adjudication of the claims filed by FMC and the
Tribes.
Because the conditions for pleading a
counterclaim are met, the matters raised in the
Tribes’ Amended Counterclaims were thus properly
before the Tribal Court pursuant to either a
compulsory counterclaim Section 3.13(a) or a
permissive counterclaim 3.13(b) of Chapter III.
B. The Trial Court erred by finding that
Tribal regulations do not require FMC to
obtain a Tribal special use permit.
The Tribes assign error to the Trial Court’s
decision that the Tribal regulations do not require
FMC to Obtain a Tribal special use permit, which was
any opposing party if it arises out of the transaction or
occurrence that is the subject matter of the opposing party’s
claim and does not require for its adjudication the presence
of the third parties of whom the court cannot acquire
jurisdiction. But the pleader need not state the claim if at
the time the action was commenced the claim was the subject
of another pending action.
(b) Permissive Counterclaims
A pleading may state as a counterclaim any claim against an
opposing party not arising out of the transaction or
occurrence that is the subject matter of the opposing party's
claim.
****

161a
based upon the Trial Court’s interpretation of FMC’s
activity as “industrial activities in an industrial
zone.” Based on a review of the Tribal Law, the LUPO
and the Guidelines, we hold that the Trial Court erred
in finding that a special use permit was not required.
The LUPO established four (4) zone areas for the
entire Reservation. See LUPO, Art. I, § 3. Each
designated area sets forth the primary purpose of that
area. Under the Guidelines, a special use permit is
required for any activities or uses outside of the
established zone areas. See Guidelines, Section V5(2). The FMC plant is located in an Industrial Area.
“Industrial Area” is defined as an area in which the
primary use of the land is for industrial and
manufacturing purposes or similar uses.
See
Guidelines, Ch. I, § 33. “Industrial” is defined as “Any
use of land, including any related building or
structure, involving the manufacturing and
mechanized processing of any goods or
materials
for
purposes
of
commercial
distribution.” Id. at § 32 (emphasis added). The
terms “manufacturing” or “processing” is not defined
under the Ordinance or Guidelines. The Webster’s
Third Dictionary defines “Manufacturing” as “to
make a product suitable for use” and “Processing” as
“to prepare for market, manufacture, or other
commercial use by subjecting to some process.”
We find that when FMC closed the plant in 2002
the primary activity was the storage of millions of
tons of hazardous and non-hazardous waste and that
no manufacturing or processing for commercial
distribution occurred at the FMC plant from that time
forward. Because the storage of hazardous waste
involves no “manufacturing or mechanized processing
of any good or materials for purposes of commercial

162a
distribution,” it cannot be characterized as
“industrial” under the Tribal regulation and is not a
permissible use within an Industrial Area.
An “Urban and Commercial Area” is defined in the
Guidelines to include “[a]n area in which the primary
use of the land is for . . . wreckage yards . . . refuse
dumps or land fills or similar uses of a
commercial nature” and “any similar uses of a
commercial nature.” Guidelines, Ch. 2, Def. § 81
(emphasis added). The Guidelines require a special
use permit for “Urban and Commercial” uses within
an area zoned as industrial. See Guidelines, Section
V-5(2).
This court finds that the Trial Court’s decisions
regarding this issue of whether a special use permit
is required is tainted by the Trial Court’s failure to
apply the correct standard of review on appeal.
Because the discussion regarding the Trial Court’s
error in applying the incorrect standard of review is
set forth fully below, we will not address it in greater
detail at this time. However, it is worth noting here
that the Trial Court failed to give adequate deference
to the LUPC and FHBC interpretations.
In light of all of the facts in the record, this court
finds that the LUPC reasonably interpreted the
Guidelines and that the decision of the LUPC, upheld
by the FHBC, to require that FMC obtain a special
use permit for the storage of hazardous waste was
based on a reasonable application of the Tribal law,
Ordinance and Guidelines. Accordingly, we reverse
the Trial Court’s May 21, 2008 decision and find that
FMC must obtain a Tribal special use permit for its
waste storage activities on the Fort Hall Reservation
because the storage of hazardous waste at a closed

163a
facility does not fall within the definition of general
industrial activities under the Guidelines.
C. The LUPC has the authority to require
FMC to obtain a special use permit and
pay the annual $1.5 million dollar permit
fee for the storage of hazardous and nonhazardous wastes within the boundaries
of the Reservation.
The Trial Court’s May 21, 2008 decision found that
the $1.5 million fee violated Article V, Sections (h) and
(l) of the Tribal Constitution, which requires
Secretary review for non-member “levy taxes or
license fees” and Secretary review of “any ordinance
directly affecting non-members of the Reservation.”
The Trial Court erred in applying the APA
standard of review and erred in failing to recognize
that applicable Tribal land use laws and regulations
(1998 Amendments to Chapter V of the Guidelines
and the HWMA) also provided the LUPC with a
separate and independent basis to support the LUPC
February 8, 2007 decision setting FMC’s permit fee at
$1.5 million annually.
The Trial Court’s May 21, 2008 decision correctly
recognized that the Tribes’ Land Use Policy
Ordinance and Guidelines were properly approved in
1975 and 1979, and found that the LUPC had the
authority to adopt the May 18, 1998 amendments to
Chapter V of the Operative Guidelines. However, the
Trial Court erred in failing to recognize that
applicable Tribal land use laws and regulations (1998
Amendments to Chapter V of the Guidelines and the
HWMA) also provided the LUPC with a separate and
independent basis to support the LUPC February 8,

164a
2007 decision setting FMC’s permit fee at $1.5 million
annually.
The Trial Court’s May 21, 2008 decision correctly
recognized that the Tribes’ Land Use Policy
Ordinance and Guidelines were properly approved in
1975 and 1979, and found that the LUPC had the
authority to adopt the May 18, 1998 amendments to
Chapter V of the Operative Guidelines. The same
decision also held that the amendments to Chapter V
of the Guidelines were never approved by the FHBC
or BIA, and concluded that “a reading of the
Constitution, the ordinance and the guidelines does
not suggest that the Business Council delegated to
the LUPC the broad authority to adopt fees and other
requirements
regarding
hazard
[sic]
waste
management as part of the zoning ordinance.” The
Trial Court further concluded that it was reviewing
the LUPC’s April 25, 2006 decisions under an APA
review standard, and that it could not look to any
Tribal law beyond the four corners of the LUPO and
Guidelines in addressing the legitimacy of the LUPC
action. The Trial Court then summarily concluded
that a special use permit is not required for an
industrial use in an industrial area.
The Trial Court erroneously concluded that the
HWMA was never properly approved and thus could
not be the basis of the LUPC’s authority to impose a
$1.5 million permit fee against FMC. The Court also
erred in concluding that the WMA was not properly
approved by the Secretary. The Trial Court’s decision
incorrectly suggests that the 1998 “Letters
Agreement’’ is the only basis upon which the Tribes
claim the right to assess a $1.5 million fee against
FMC by having the letters agreement incorporated
into the HWMA or WMA. The Trial Court then

165a
rejected without explanation the Tribes’ argument
that FMC should be estopped from asserting that
Secretary approval is required for the $1.5 million
permit fee. The Trial Court Judge Maguire’s decision
then reversed the factual finding of the LUPC that
FMC agreed to pay the permit fee for every year the
waste remained on the FMC property within the
Reservation boundaries. Judge Maguire reversed
this factual finding without evidentiary support or
providing an opportunity for discovery or for an
evidentiary hearing.
1. Although the LUPC had the proper
authority to assess the $1.5 million permit
fee FMC should be equitably estopped
from now asserting that the permit fee is
void due to a lack of Secretary approval.
Although the LUPC was delegated authority to
adopt the Chapter V amendments and also had
authority under the properly approved HWMA to set
the FMC permit fee, FMC should be equitably
estopped from now arguing that Secretary approval is
required for enforcement of the $1.5 million permit
fee.
The Tribes’ assert that FMC should be equitably
estopped from escaping its obligations under the
parties’ 1998 Agreement by now asserting that
Secretary approval was required for enforcement of
the permit fee. The record in this matter supports the
Tribes’ assertion and this court holds that FMC is
equitably estopped from asserting lack of approval
from the Secretary of the Interior as a defense to the
imposition of the $1.5 million fixed permit fee.
“The general doctrine [of equitable estoppel] is
well understood and is applied by courts of law as well

166a
as equity where the technical advantage thus
obtained is set up and relied on to defeat the ends of
justice or establish a dishonest claim.” Union Mut.
Life Ins. Co. v. Wilkinson, 80 U.S. (13 Wall.) 222, 233
(1872); Gius v. Brooklyn Eastern District Terminal,
359 U.S. 231, 234 (1959); see generally, 3 Pomeroy on
Equity Jurisprudence §§ 803-13 (5th ed. 1941).
There are several reasons supporting the
application of equitable estoppel in the unique
circumstance presented by this case. First, FMC
voluntarily entered into an agreement in 1998 with
the Tribes to be exempt from the Chapter V fee
schedule in the Guidelines approved by the Secretary,
by paying a flat annual fee of $1.5 million. Second,
FMC voluntarily paid the $1.5 million annual permit
fee for four (4) years without asserting the permit fee
under the 1998 Agreement required Secretary
approval or the Tribes to pass regulations specifically
exempting FMC from such regulations. Third, the
Tribes never tried to enforce a statutory per/ton fee
against FMC and the Tribe upheld their end of the
bargain in the 1998 Agreement. Fourth, the federal
government was aware of the agreement between the
Tribes and FMC and sent correspondence to the
Tribes offering any assistance to foster the agreement
between FMC and Tribes. Finally, the FMC payment
was incorporated into the Tribes land use budget
which was approved by the FHBC and the Secretary.
During 1997 and 1998, FMC requested to enter
into negotiations for a flat fee for all hazardous waste
storage fees and exemption from any future land use
enforcement under Tribal land use laws and
regulations. In 1998, an agreement was reached
between the Tribes and FMC for a $1.5 million annual
flat fee in lieu of a statutorily imposed fee. FMC

167a
expressed its understanding of this agreement in a
letter dated June 1, 2000, from FMC Plant Manager
Paul Yochum to the LUPC which stated, “As you
know, in May and June 1998, FMC and the LUPC
agreed to an annual fee of One Million Five Hundred
Thousand Dollars ($1,500,000) per year for all
hazardous and non-hazardous waste activities within
the boundaries of the Fort Hall Reservation.”15
As evidenced from the letter above, both the Tribes
and FMC believed they had an agreement where the
Tribes had agreed not to enforce its land use permit
requirements for waste storage in exchange for a flat
$1.5 million annual permit fee. At that time, the
LUPC had recently adopted the 1998 Amendments to
the Land Use Operative Guidelines which included a
$5.00 per ton hazardous storage fee schedule but no
further action took place until 2001 when the
Business adopted the Council Hazardous Waste
Management Act. FMC was the sole entity on the
Fort Hall Reservation subject to hazardous waste
storage permit fees and formal passage of regulations
was not urgent since the 1998 Agreement was in
place. The Tribes relied on the 1998 Agreement in
good faith and accepted the $1.5 million fixed permit
fee from 1998 through 2001. FMC also enjoyed the
benefits of the Agreement by avoiding the much
higher permit fee that could have been assessed per
the Chapter V amendments to the Guidelines.
Shortly before the 2002 permit payment was due
to the Tribes, FMC expressed in a letter from FMC’s
John Bartholomew to the Shoshone-Bannock Tribal
Chairman dated May 23, 2002, its intent not to pay
the upcoming payment stating various reasons,
15 ER 000135, AR 002119.

168a
including, for the first time, an assertion that the
1998 Agreement was subject to the Tribes adopting
certain regulations. FMC failed to make the permit
payment or to apply for and obtain the required Tribal
land use permits in 2002 and subsequent years to
date. The LUPC sent letters notifying FMC of their
failure to pay and demand to comply with the 1998
Agreement on December 19, 2002, April 6, 2004, April
16, 2004, April 21, 2004, and May 5, 2004. Shortly
after receiving the last letter from LUPC, FMC
proposed via letter from FMC to Shoshone-Bannock
Tribal Chairman Fredrick Auck dated May 27, 2004,
that the Tribes stay any land use regulatory
enforcement actions without prejudice to either
party’s “rights, defenses, [or] claims.” The letter
stated in relevant part:
As long as FMC is working in good faith to
transfer ownership or lease the real property,
water rights, and plant assets as discussed with
the Tribes, including how the process and
consideration to be provided to FMC are
defined, the Tribes will stay any regulatory
enforcement of the Tribes’ Land Use
Department’s April 16, 2004 and April 21, 2004,
and May 5, 2004 letters and the Air Quality
Program’s April 6, 2004 letter
If the above is acceptable, neither party’s
rights, defenses, nor claims will be
prejudiced in any manner whatsoever. If
this is agreeable, please sign below where
indicated. (emphasis added.)
As demonstrated by the May 27, 2004 letter; the
Tribes in good faith agreed not to bring enforcement
action while the parties were negotiating. The Tribes

169a
could have pursued Secretary approval of higher
regulatory fees but did not do so based on the parties’
stay agreement. As documented by the May 27, 2004
letter, the Tribes relied in good faith on the stay of
enforcement proceedings with the express promise
that it would not affect its enforcement rights. The
Tribes and FMC ultimately were unable to reach
agreement in 2004, and the LUPC thereafter sought
to enforce the permit payment requirement for the
prior years (2002 to present).
Although we have found elsewhere that the FHBC
and Secretary properly approved the relevant laws
and regulations (LUPO, Operative Guidelines,
HWMA, and WMA), we also hold now that FMC is
estopped from arguing Secretary approval was
required to enforce the permit fee because FMC
bargained for the Tribes’ forebearance of passage and
approval of a higher permit fee. To allow FMC to now
successfully assert a Secretary approval requirement
would unfairly prejudice the Tribes.
The evidence that FMC tendered the payment of
the annual $1.5 million fixed fee for the years of 1998
to and including 2001 is uncontroverted. Likewise,
there is no contention or proof by FMC that FMC
contested the amount of the fee during that time, nor
is there any record of correspondence from FMC to the
Tribes or the Secretary urging Secretarial approval of
the fixed fee. To sit silently by and acquiesce to the
payment and status quo of the authority by which the
payment was agreed upon supports this court’s
finding that, as a matter of equity, it would be unfair
for FMC to assert a defect that FMC had an ability to
remedy in a timely fashion, particularly where FMC
chose instead not to take any action other than
compliance with the agreement.

170a
As part of the express language in the
correspondence between the parties, the Tribes’ were
to not take any action to enforce their permitting
regulations. The record reflects that the Tribes took
no action of any kind to enforce the $1.5 million
annual fee until FMC attempted to repudiate the
agreement. When FMC bargained for the lower flat
fee, the agreement induced the Tribes to stay
regulatory enforcement action, and FMC enjoyed the
benefits of the 1998 Agreement for four (4) years
without ever raising the issue of Secretary approval.
FMC’s agreement in 1998 and the stay agreement to
address ongoing negotiations as outlined in the May
27, 2004 letter waived FMC’s right to assert Secretary
approval requirement as a defense against the Tribes
continued efforts to collect the agreed upon fee, and
FMC’s conduct merits application of the doctrine of
estoppel as a matter of equity.
This Court also finds that estoppel is fair in
consideration of the fact that the federal government
was aware of the parties’ 1998 Agreement. The
Secretary also approved Tribal budgets that
specifically incorporated FMC’s permit payment as
part of the budget for the land use programs.16 These
16 Under Article VI, Section 2 of the Shoshone-Bannock

Constitution “Any resolution or ordinance which by the terms of
this constitution is subject to review by the Secretary of the
Interior shall be presented to the superintendent of the
reservation who shall, within 10 days thereafter, approve or
disapprove the same, and if such ordinance or resolution is
approved, it shall thereupon become effective, but the
superintendent shall transmit a copy of the same, bearing his
endorsement, to the Secretary of Interior, who may within 90
days from the date of enactment, rescind said ordinance or
resolution for any cause, by notifying the council of such action.”
Here, neither the superintendent nor secretary disapproved nor

171a
actions by the federal government demonstrate that
the federal government encouraged, facilitated, and
was well aware of the parties’ 1998 negotiations and
agreement regarding the payment of the permit fee as
a condition of the storage of the hazardous waste by
FMC. The Secretary’s failure to rescind the Business
Council’s resolutions approving the $1.5 million fee
demonstrates that Secretary approval was not
necessary.
This Court finds based on the record herein that
FMC did not suggest that Secretary approval was
required for the fee when it entered the agreement in
1998, or during the four (4) years FMC voluntarily
paid the fee from 1998 through 2001, and that FMC
accepted the benefit of the 1998 Agreement for those
four (4) years without ever raising the issue. Based on
those facts and circumstances, this court further finds
that FMC is estopped as a matter of equity from now
asserting that the agreed-upon permit fee is invalid
for lack of Secretary approval.
2. The special use permit fee was
established
by
the
parties’
1998
Agreement, to be paid annually even after
use of the waste ponds was terminated.
Following
negotiations
to
obtain
FMC’s
compliance with Tribal land use permitting laws,
FMC and the Tribes specifically agreed in 1998 that
the LUPC would issue a permit for FMC’s waste
activities and that FMC would pay a $1.5 million
annual permit fee for its waste activities at the FMC
Pocatello facility. The terms and conditions of the
Agreement were clearly set forth in a May 19, 1998
was the resolution rescinded and thus was effective and
approved.

172a
letter from the Tribes to FMC. It is noteworthy that
by letter dated June 2, 1998, FMC specifically
acknowledged that the “$1.5 million annual fee would
continue to be paid for the future even if the use of
ponds 17-19 was terminated in the next several
years.” (ER 000053, AR 000336.)
In accordance with the 1998 Agreement, FMC paid
$1 million initial cost and the $1.5 million LUPC
waste permit fee in 1998, 1999, 2000, and 2001.
However, no payments have been made from 2002 to
the present. FMC claims that any permit fee
payments related to the 1998 Agreement are no
longer due because the plant is no longer operating
under the same circumstances that existed in 1998.
FMC’s self-serving view of the Agreement fails to take
notice of FMC’s earlier acknowledgment that such
change in circumstance was expected by the parties
and would not substantially change the need for the
permit fee.
Because the original agreement contemplated the
payment of the permit fee at the agreed upon rate
continuing for several years, even if the use of certain
ponds was terminated, the annual permit fee of $1.5
million was properly set by the LUPC and is upheld
as valid by this Court as a proper exercise of the
LUPC’s authority consistent with FMC’s voluntary
agreement.
The Trial Court’s May 21, 2008 decision also
erroneously found that “a reading of the ‘Letters
Agreement’ does not persuade this Court that FMC
agreed to pay a $1.5 million fee to the Tribes for every
year that waste remained on its property.” (May 21,
2008 Opinion at p. 16.) This finding is not supported
by any evidence and is plainly inconsistent with the
facts in this case. We find that this issue is resolved

173a
by reference to FMC’s letter from Paul McGrath to the
Tribes dated June 2, 1998, in which “he stated that
the permit was not limited to ponds 17, 18 and 19, but
that the permit covered the plant and that the $1.5
million annual fee would continue to be paid in the
future, even if the use of ponds 17, 18 and 19 was
terminated.” (ER 000053, AR 000336)
This Court reverses Judge Maguire’s finding on
this issue and affirms the LUPC finding that FMC is
required to obtain a special use permit for its waste
storage on the Fort Hall Reservation even after use of
the waste storage ponds was terminated. (4/25/06
LUPC Decision on FMC Special Use Permit
Application at p. 4.) (ER 000202-000207, AR 000349000354)
3. Judge Maguire erred in finding that the
Tribes do not have the proper authority
based on Tribal laws to impose a special
use permit fee for FMC’s waste storage
activity.
Even assuming the absence of FMC’s contractual
permit fee obligation under the 1998 Agreement,
applicable Tribal laws provide separate and
independent authority for the LUPC to set the FMC
permit fee at $1.5 million per year.
a. The FHBC and Secretary approved the
Land Use Policy Operative Guidelines,
which
included
a
provision
authorizing the LUPC to adopt the
1998 amendments to Chapter V of the
Land Use Policy Operative Guidelines
relating to permit fees.
FMC argues on appeal that the land use permit
fees imposed by the Commission are invalid because

174a
the Secretary of the Interior did not approve the 1998
Amendments to the Land Use Policy Guidelines. We
disagree. In 1977, the FHBC enacted the Land Use
Policy Ordinance with Secretary Approval. Article IV
of the Ordinance created the Land Use Policy
Commission “empowered and charged with the
administration and enforcement of this Ordinance.”
In 1979, the Land Use Operative Guidelines,
which were approved in a sufficient manner outlined
in the Tribes’ briefs, included provisions authorizing
the LUPC to amend the Guidelines. Section I-6 of the
Guidelines provides that “the Commission in its
discretion may alter or amend the Guidelines based
upon suggestions and Comments received.”
(Guidelines, Ch. I, § 1-6.) Sections I-7 , and I-7-3 of the
Guidelines provide:
Section I-7: Amendment
Once given final approval by the Commission as
set forth in Section I-6, these’ Guidelines may be
amended as follows:
Section I-7-1 By the Commission
The Commission may act on its own initiative to
amend the Guidelines after allowing for a
reasonable public comment period or, if deemed
necessary by the Commission, after a public
hearing.
....
Section 1-7-3: Effectiveness of Amendments
Any amendments to these guidelines shall become
effective upon formal approval thereof by the
Commission, and review or approval of such
amendments by the Business Council shall not be
required.

175a
(Land Use Policy Operative Guidelines, §§ I-7, I-7-1,
and I-7-3.) These provisions provide clear authority
for the LUPC to amend the Guidelines without
further approval from the Council or Secretary.
Section I-4 “Interpretation” of the Guidelines states:
In interpreting and applying the Ordinance and
these Guidelines, the Commission shall strive:
a) to accomplish the purposes of the Land Use
Policy of the Tribes as set forth in the Preamble to
the Ordinance and in Article I, Section 2 thereof;
....
The provisions of these Guid[e]lines shall also be
interpreted and applied as minimum
requirements adopted for the promotion of the
public health, safety, morals and general welfare
of the Fort Hall Reservation and for the
preservation of the purposes for which the
Reservation was created by the Fort Bridger
Treaty of 1868. Tribal customs, traditions and
culture shall govern to the extent that they
impose higher or more restrictive standards
than these guidelines.”
Guidelines at I-4 (emphasis added). These provisions
demonstrate clear evidence of the power and
approved authority of the LUPC to amend the
Guidelines as long as the amendments met the
“minimum” standard and satisfied the goals of the
Ordinance Preamble and specific purposes set forth in
the Ordinance.
We find that the Chapter V
amendments authorizing the assessment of the FMC
permit fee at issue in this case were validly adopted.
Judge Maguire correctly found that the Chapter V
amendments were properly approved, but erred in

176a
concluding that additional formal approval from the
FHBC and Secretary were required for the LUPC to
set the FMC permit fee pursuant to the amended
Guidelines. Although the amendments themselves
were not submitted for formal approval after their
adoption, the LUPO and Guidelines were properly
approved and include provisions authorizing the
LUPC to adopt amendments.
The LUPC thus
exercised its delegated authority to amend the LUPO
Guidelines by adopting the amendments to Chapter V
of the Guidelines. Judge Maguire erred in finding
that the Tribe failed to meet the Tribes’
Constitutional requirements for imposing fees on
non-members with respect to the agreed-upon $1.5
million permit.17 The LUPO and Guidelines were
properly approved and gave the LUPC authority to
amend the Guidelines to include the Chapter V
permit fees.
Accordingly, the Court finds and
concludes that the LUPO, Guidelines, and amended
Chapter V Guidelines provided the LUPC with proper
authority to set the FMC permit fee at $1.5 million
per year. The Trial Court’s decision to the contrary is
reversed.

17 In addition, Article VI, § 1(h) of the Tribes’ Constitution

references “taxes” and “license fees” that are subject to review by
the Secretary when imposed on non-members doing business on
the Reservation. Permit fees are not included in that provision,
and FMC was not “doing business” on the Reservation when the
LUPC issued the decisions setting FMC's permit fees. Judge
Maguire thus erred in using this provision to invalidate the FMC
special use permit fee. (this is a good point!!)

177a
b.

Even
if
the
1998
Amended
Guidelines were not a basis of
authority for LUPC to set the FMC
permit fee, the HWMA and WMA were
properly
approved
and
provide
authority for the LUPC’s action in
setting the FMC annual permit fee at
$1.5 millions.
The Trial Court erred in concluding that the
Hazardous Waste Management Act (“HWMA”) was
not properly approved. The record and governmental
records demonstrate that the HWMA was approved
by the FHBC and either approved or not opposed by
the Secretary of the Interior within 90 days of its
creation and is applicable law. Second, the Waste
Management Act (“WMA”), which superseded
inconsistent sections of HWMA, was also approved by
the FHBC and the Secretary. Thus, all of the Tribe’s
ordinances regarding permitting authority for waste
storage have been properly approved. Judge
Maguire’s May 21, 2008 finding that the HWMA and
WMA were not properly approved is reversed for the
reasons explained in more detail below.
2001 Hazardous Waste Management Act
On October 19, 2001 the Shoshone-Bannock
Business Council approved Resolution ENVR-0l-S3
which enacted the HWMA subject to final review by
the tribal attorneys.18 Attached to Resolution ENVR0l-S3 was a Certification of Ordinance ENVR-01-S3
dated October 19, 2001 to be signed by the,

18 Tribal attorney review was completed on December 4,

2001.

178a
Superintendent.19 The Resolution approving the
HWMA specifically referenced Article VI, Section 1(1)
of the Tribes’ Constitution and Bylaws which provides
that “ordinances directly affecting non-members of
the reservation shall be subject to review by the
Secretary of the Interior.” See Shoshone-Bannock
Tribes Constitution and Bylaws, Art. VI, § 1(1). The
Resolution, Certification, and Ordinance were
attached with a letter sent to the Superintendent Eric
LaPointe on October 21, 2001.
The letter to
Superintendent LaPointe stated:
Please find attached original Ordinance No.
ENVR-01-S3, dated October 19, 2001, regarding
the Hazardous Waste Management Act of 2001 for
your consideration of dis/approval and which is to
be returned for the files of the Shoshone-Bannock
Tribes.
Id. The Certification, which was sent back to the
Tribes signed by Mr. LaPointe and dated October 26,
2001, stated:
Pursuant to the authority delegated to the
Superintendent, Bureau of Indian Affairs, Fort
Hall Agency, by virtue of the Indian
Reorganization Act of June 18, 1934 (48 Stat. 984),
and by the authorization of the Secretary of
the Interior, this resolution/ordinance of the
Shoshone-Bannock Tribes of the Fort Hall
Reservation is hereby approved.
19 Resolution ENVR-01-S3 dated October 19, 2001 refers to

the HWMA as an “ordinance” in several places including the
paragraph referencing the authority for the ordinance, the
header, the certification section, and the Superintendent’s
approval stamp. The October 26, 2001 cover letter to the BIA
Superintendent also referred to the HWMA as an “ordinance”.

179a
Id. (emphasis added). Therefore, it would appear that
on October 26, 2001, the HWMA was properly
approved by the Secretary of the Interior, however,
this letter does not appear in the Court record and the
Tribes will be allowed to supplement the record on
remand. The November 22, 2004 from LaPointe
confirms that his office recognized that the resolution
authorized the tribal attorneys to review the draft
ordinances and to seek public comment. LaPointe
commented that the draft ordinances did not require
the Department of Interior approval and it was
LaPointe’s understanding that tribal “attorney
review is still in progress at this time.” (Nov. 22,
2004.)
Even if the superintendent had not given his
express approval on October 26, 2001, the failure of
the Secretary to rescind the HWMA within 90 days
would have satisfied the Secretarial reviewl
requirement of the Tribes’ Constitution and federal
law despite the appearance of conflict in the letters
from LaPointe dated October 26, 2001 and November
22, 2004. In Pawnee Tribe of Oklahoma v. Anadarko
Area Director, Bureau of Indian Affairs, 26 IBIA 284,
288-89 (IBIA 94-95-A, 1994 WL 593097), the Interior
Board of Indian Appeals held:
BIA’s authority to review and approve tribal
legislation normally derives from tribal law, E.g.,
Kerr-McGee Corp. v. Navajo Area Director, 471
U.S. 195 (1985), Burlington Northern Railroad v.
Acting Billings Area Director, 25 IBIA 79 (1993).
That is the case law here. When the Area Director
approved appellant’s law and order code in
December 1984, he acted solely under authority of
Article II, section (d) (iii), of appellant’s
Constitution. This provision gives the Secretary

180a
power to approve or disapprove a law and order
ordinance within a period of 90 days from his
receipt of the ordinance. Once that period has
passed, the Constitution makes clear, the
Secretary no longer has any authority to act on the
ordinance.
A necessary consequence of this
limitation is that Secretarial approval given
during the 90-day period cannot be revoked after
the period has expired.
Pawnee Tribe of Oklahoma v. Anadarko Area
Director, Bureau of Indian Affairs, 26 IBIA 284, 28889 (IBIA 94-95-A, 1994 WL 593097). The ShoshoneBannock Tribal Constitution has a similar provision
providing for Secretary review of Tribal resolutions
and ordinances within a 90-day period. Article VI,
Section 2 of the Shoshone-Bannock Constitution
states:
Any resolution or ordinance which by the terms
of this constitution is subject to review by the
Secretary of the Interior shall be presented to the
superintendent of the reservation who shall,
within 10 days thereafter, approve or disapprove
the same, and if such ordinance or resolution is
approved, it shall thereupon become effective, but
the superintendent shall transmit a copy of the
same, bearing his endorsement, to the Secretary of
Interior, who may within 90 days from the date of
enactment, rescind said ordinance or resolution for
any cause, by notifying the council of such action.
(Emphasis added.) Shoshone-Bannock Tribal
Constitution, Art. VJ, Sec. 2.
In this case, neither the Superintendent nor the
Secretary disapproved the Tribal resolution
approving the HWMA ordinance, nor was the

181a
resolution/ordinance rescinded within the 90-day
period which is all that is required by the Tribal
Constitution and federal law.
2005 Waste Management Act
Further, on September 29, 2005, the Fort Hall
Business Council enacted Ordinance ENVR-05-S4,
establishing the Waste Management Act (“WMA”).
The WMA incorporated the substance of and
superseded the HWMA Act. See WMA, Chapter 10
§ 1003. On October 7, 2005, Superintendent LaPointe
approved
Ordinance
ENVR-05-S4. Shortly
thereafter, on December 15, 2005, the Northwest
Regional Office of the Bureau of Indian Affairs sent
the Superintendent a memorandum confirming that
the
Ordinance
was
effective
upon
the
Superintendent’s October 7, 2005 approval. Under
provisions of the WMA, including Section 1003,
provisions of the HWMA not in conflict with the WMA
remained in effect. Thus, the permitting authority
under the HWMA was effective to provide an
additional basis for the LUPC’s April 25, 2006 permit
decisions.
Judge Maguire erred in accepting FMC’s
argument that the LUPO and amended Guidelines
were the sole basis for the April 25, 2006 LUPC
permitting decisions.20
While the LUPO and
Guidelines as amended do grant the LUPC sufficient
20 The April 25, 2006 permit decisions reference the “Tribal

land use laws and regulations” and “applicable Tribal laws and
regulations” as a basis for its decisions. The HWMA was in effect
as of December 4, 2001 and provides a proper basis of the
Commission’s authority to enforce Tribal land use permitting
requirements. It is noteworthy that the FHBC also cited to the
HWMA as authority supporting the LUPC action.

182a
independent authority to assess the $1.5 million
annual permit fee, the 2001 HWMA specifically
requires a permit fee for storage of hazardous waste
and was also approved by the Secretary prior to
FMC’s refusal to pay the agreed-upon $1.5 million fee
due in June of 2002. Under Sections 301(B) of the
2001 HWMA and 2005 WMA, the Commission and/or
its Program had express authority to impose and
modify permit fees. See HWMA § 301 and WMA
§ 301 (emphasis added). Section 301(B) of the 2001
HWMA and 2005 WMA provide: Section
301. Authorities.
The Program shall have the following duties and
responsibilities regarding permitting:
....
(B) establish and administer a comprehensive
permitting program, including but not limited to
the review of permit applications, the issuance or
denial or permits, and the modification,
suspension or revocation of permits. (AR 001967)
(emphasis added).
And, Section 409 of the HWMA provides for a $5.00
per ton hazardous waste annual fee rate and a $1.00
per ton non-hazardous annual fee rate which was one
of the reasons that the contract for $1.5 million was
negotiated since that figure is less than would have
resulted by using Section 409 of the HWMA.
The LUPC also had inherent authority to impose
fees and a permitting structure under the Ordinance
and the Guidelines. As stated above, the LUPC had
delegated authority to enter into agreements under
the Ordinance as well as under general agency
principles. An agency has “such implied authority as
is necessary to carry out the power expressly

183a
granted.” Warren v. Marion County, 353 P.2d 257,
264 (Or. 1960); see also Colorado v. Buckallew, 848
P.2d 904,908 (Colo. 1993). “Whether the authority be
expressed or implied it necessarily carries with it, or
includes in it as an incident, all the powers which are
necessary or proper or usual as means to effectuate
the purposes for which the agency was created.”
Nevada v. United States, 45 Ct. Cl. 254 (1910). We
find that the Tribal Land Use Commission found it
was necessary to implement a permitting program to
carry out the purpose and goals of the Ordinance,
Guidelines, HWMA, and WMA and to regulate and
raise revenue to pay for programs and services
provided by the Land Use programs. In sum, the
Commission had express authority to carry out a
permitting structure under LUPO, Guidelines as
amended, the HWMA, WMA, and the inherent
authority to do whatever was reasonably necessary to
accomplish the goals of the Ordinance.
Judge
Maguire erred in basing his decision on the November
22, 2004 letter which, under the Tribes’ Constitution
and Pawnee Tribe of Oklahoma v. Anadarko Area
Director, could not have rescinded the HWMA after
the 90-day period of October 2001 when the HWMA
was originally passed.
Judge Maguire also erred in concluding that the
HWMA was not included as a basis for the LUPC
decision and was submitted as a “new” argument on
appeal. The April 25, 2006 LUPC special use permit
decision states that its decision granting FMC a
special use permit was based on “applicable Tribal
laws and regulations,” which include the HWMA.
(4/25/06 LUPC Decision on FMC Special Use Permit
Application at p. 4) (AR 000346-000354; ER 000199000207). In addressing FMC’s objection to the Tribes’

184a
jurisdiction and applicability of Tribal land use
permit requirements, the LUPC found that the Tribes
“and the LUPC also have jurisdiction to enforce the
Tribes’ land use permitting laws by virtue of the
Tribes’ inherent sovereignty and pursuant to the Fort
Bridger Treaty of 1868, the Tribes’ Constitution and
Bylaws, and the Tribal land use laws and
regulations.”
(4/25/06 LUPC Decision on FMC
Special Use Permit Application at p. 3-4) (AR 000346000354; ER 000199-000207). The HWMA is an
“applicable” Tribal law because it had been enacted
and reviewed prior to the LUPC decision. There is no
legal requirement that the LUPC cite to each specific
regulation by chapter and verse providing authority
for its decisions in order for its decisions to be
accorded validity If a valid Tribal law provides
authority for a LUPC decision, then that decision is
valid. Both FMC and Judge Maguire imposed an
artificially high standard for the LUPC that no other
agency faces in state or county government, and
neither FMC nor Judge Maguire offered any legal
authority for such proposition.
Judge Maguire also erred in his analysis regarding
“Incorporation of the ‘Letters Agreement”. The Court
erroneously assumed that the only basis for FMC’s
permit fee obligation was incorporation of the 1998
Agreement into the LUPO, HWMA, or WMA. In fact,
FMC’s permit fee obligation arises separately and
independently from two sources: 1) FMC’s voluntary
agreement to set the permit fee at 1.5 million
annually under the 1998 Agreement; and 2) the $1.5
million permit fee set by the LUPC under the

185a
authority of the LUPO, amended Guidelines of
HWMA, and WMA.21
D. The Trial Court erred by applying an
arbitrary standard of review in the appeal
of the LUPC and FHBC decisions.
The Trial Court, in its May 21, 2008 decision, used
5 USC 706(2) [the Federal Administrative Procedure
Act] as a framework for its decision and then relied
upon “2 AmJur 2d, Administrative Law sections 50,
52, 54, 55 and 70 as a primer regarding the overall
scheme of judicial review of administrative actions,”
And then concluded, in light of the rules relied upon,
that “[the court] is not entitled to look beyond the four
corners of the ordinance and its properly adopted
amendments in order to determine the legitimacy of
the LUPC action.”
Indian tribes have the right “to make their own
laws and be governed by them.” Nevada v. Hicks, 533
U.S. 353, 361 (2001). The Trial Court and this Court
are not bound by federal administrative law
standards but may rely on them for guidance only

21 Although the 1998 Agreement is an independent basis

for FMC’s $1.5 million annual permit fee, Judge Maguire failed
to recognize that the LUPC independently took action to set
FMC permit fee at $1.5 millions per year pursuant applicable
Tribal laws. See Letter dated February 8, 2007 from Tribes to
FMC (setting FMC annual permit fee at $1.5 million). Judge
Maguire erred by concluding that the “letters agreement” had to
be incorporated into the LUPO. Judge Maguire’s analysis
ignored the fact that the LUPO set FMC’s permit fee pursuant
to Tribal laws in addition to the permit fee obligation under the
1998 Agreement.

186a
where Tribal law does not apply. (See Tribal Law and
Order Code, Ch. III. § 1.1.)22
In the appeal from the decisions of the LUPC, the
Trial Court had to look no further than Article V,
Section 6 of the Land Use Policy Ordinance, which is
set forth fully in the Standard of Review Section
above. In summary, a person who disagrees with the
LUPC may appeal the decision to the FHBC. The
FHBC will obtain a copy of the relevant records and
the LUPC’s findings of fact and decision, and then
hold an appeal hearing. If the person then disagrees
with the decision of the FHBC, the person may appeal
to the Tribal Court. In Tribal Court the appeal of the
LUPC/FHBC decisions are treated as any other civil
action brought before the Court, meaning that any
codified or common law claim or defenses may be
raised, and that the Tribal Court Rules of Civil
Procedure found in Chapter III of the ShoshoneBannock Tribes Law & Order Code apply. Section 6
provides for one critical difference from a standard
civil case though, which is the exception that in the
trial of the appeal, the Trial Court is to presume,
prima facie, that the final action of the LUPC is
legally valid in each and every respect. This did not
occur.
In addition to the deference detailed directly in.
Article V, Section 6, a Tribal governing body should
22 Section 1.1 of Chapter III of the Tribes’ Law and Order
Code provides in part:
In any matters that are not covered by the provisions of this
Code, or by any Ordinances or customs and usages of the Tribe,
the court shall apply any laws of the United States that may be
applicable and any authorized regulation of the Interior
Department of the United States.

187a
also be given greater deference than a typical federal
or state agency based upon principles of traditional
Indian sovereignty and the congressional goal of
encouraging tribal self-sufficiency and selfdetermination. See California v. Cabazon Band of
Mission Indians, 480 U.S. 202, 216 (1987). This
notion is further supported by a review of the split of
power between federal legislative bodies and agencies
as compared and distinguished from the interaction
between the FHBC and the LUPC. Under the
Guidelines, the FHBC grants to the LUPC the
authority to “act on its own initiative to amend the
Guidelines after allowing for a reasonable public
comment period or, if deemed necessary by the
Commission, after a public hearing.” Guidelines at
Section I-7-1 (emphasis added). Although the grant
of authority found in Section 1-7-1 is relative to the
LUPC’s legislative function, it is consistent with a
finding that the LUPC acts with more autonomy than
similar federal or state agencies that rely on
congressional delegation, and that the LUPC’s
decisions are given more deference than such other
agencies.
Appeals of civil matters in the Shoshone Bannock
Tribal Court are also governed by Chapter IV, Section
2 of the Tribal Law and Order Code, which provides,
“on appeal, each case shall be tried anew, except for
questions of fact submitted to a jury in the Trial
Court.”
This Court finds that the Trial Court abused its
discretion and erred by applying a standard of review
patterned after the Federal A.P.A., which is totally
inconsistent with the standard set forth in the Tribal
law. The Trial Court’s error resulted in an incomplete
record, clearly erroneous factual findings and

188a
interpretations of law that caused substantial
prejudice to the Tribes’ due process and substantive
legal rights in a number of ways.
The Trial Court’s limitations based on the
application of the federal style standard of review
deprived the Tribes of the opportunity to conduct
discovery and present evidence as would be done in
any new civil trial. This Court finds that a proper
application of the standard of appellate review of the
LUPC/FHBC decisions would have allowed the Tribes
to investigate and present evidence regarding the
existence, scope, terms, and performance of the
parties’ 1998 Agreement.
That additional
information would have been relevant to prove
whether regulatory incorporation of the FMC $1.5
million permit fee was a material term of the parties’
1998 Agreement. The Tribes were thus denied an
opportunity to show that such incorporation was
immaterial, unnecessary, and not a concern to FMC
until the May 23, 2002, letter from FMC’s
Bartholomew, which first proposed that the Tribes’
had materially breached the 1998 Agreement as a
basis for FMC’s own attempted repudiation of that
Agreement.
Relying only on the “four comers of the ordinance,”
insisting on a closed record, and refusing to accept
Tribal documents as evidence, are reversible error
and the case should be remanded to the TTrial
CourtCourt. To allow the Tribes a fair opportunity to
submit evidence to rebut contentions made by FMC
regarding the approval of the Chapter V amendments
to the Operative Guidelines, as well as relevant
factual and legal information about the Tribal HWMA
and WMA. A review of the record indicates that the
proposed evidence would have proven that Tribal

189a
laws that required FMC to obtain Tribal permits and
pay the assessed fees were properly approved and
valid.
This Court finds that the LUPC/FHBC and Tribal
Court have jurisdiction over FMC with regard to the
regulatory actions and breach of contract
counterclaim, as well as the first prong of the
Montana case. This Court also finds that the Trial
Court’s
limitations
prejudiced
the
Tribes’
presentation of meaningful evidence as to whether
the Tribes could exercise jurisdiction over FMC’s
conduct pursuant to the second Montana exception,
and whether FMC’s waste activity on the Reservation
directly impacts or threatens the Tribes’ economic
security, or political integrity, and health and welfare
of the Tribes. This Court further finds that the
absence of evidence may be the only logical
explanation for the Trial Court’s failure to even
address the second Montana exception as an
additional independent basis for the Tribes’
jurisdiction over FMC despite the fact that FMC was
a hazardous waste site.
Based upon the independent reason and ground
that the Trial Court applied the wrong standard of
review, the following Trial CourtCourt Findings and
Conclusions are hereby overruled:
1) that there was no basis for the $3,000 fee for
the building permit;
2) that the imposition of the $1.5 million fee is
void;
3) that FMC’s activities constituted industrial
activities in an industrial zone;

190a
4) that the 1998 amendments to the Land Use
Policy Guidelines required approval of the
Secretary of the Interior; and
5) that the HWMA and the WMA were never
officially approved by the Department of
Interior.
The foregoing stated issues are remanded for
further proceedings consistent with this Court’s
holding herein, unless the issue has otherwise
been dispositively decided elsewhere herein. (Is
this correct?)
Because the Tribes’ at all times have urged the
Tribal Court to follow the standard of review set forth
in the Tribal Law and Order Code, and because Judge
Maguire erred by not following that standard, this
Court should reverse his ruling and apply a correct
standard to these proceedings. (In assessing costs
how can we charge FMC for this Court’s own errors?)
D. The Trial Court erred by dismissing the
Tribes’ amended counterclaim alleging
breach of contract.
After FMC filed a civil complaint against the
Tribes appealing the LUPC/FHBC administrative
decisions in Tribal Court, the Tribes filed an Answer
and Counterclaim, pursuant to the permissive and
compulsory counterclaim provisions in Article V,
Section 6 of the Land Use Policy Ordinance and
Chapter III, Section 3.13 of the Tribal Law and Order
Code. The counterclaim asserted that FMC’s failure
to pay the annual permit fee from 2002 to 2008
constitutes a material and substantial breach of the
parties’ 1998 contract and agreement. FMC filed a
Motion to Dismiss the Tribes’ Counterclaims on
October 16, 2006, pursuant to Tribal Law & Order

191a
Code Chapter III, Section 3.12(b)(2) and (6)23,
asserting three reasons why the Tribes’ counterclaims
should be dismissed: 1) that the Tribal Court did not
have jurisdiction to consider a counterclaim in an
administrative appeal; 2) that the Tribal Court lacks
jurisdiction over FMC and subject matter of the
Tribes’ counterclaims; and 3) that the Tribes’
counterclaim is barred by the applicable statute of
limitations. It is noteworthy that FMC’s Motion to
Dismiss did not assert as grounds for dismissal either
that the 1998 Agreement was not a contract, or that
administrative enforcement was the Tribes’ exclusive
remedy.
The Trial Court entered a decision on November
13, 2007, dismissing the Tribes’ common law breach
of contract counterclaim based on a finding that the
1998 agreement between the Tribes and FMC was not
a contract, and characterizing the negotiations as
merely an agreement to incorporate the permitting
fees into the statutory framework of the ordinance.
The Trial Court further held that the LUPO’s specific
23 Section 3.12(b) of Chapter 111 of the Tribal Law & Order

Code provides in relevant part:
Section 3.12 Defenses and Objections
....
(b) Every defense, in law or fact, to a claim for relief in
any pleading, whether a claim, counterclaim, crossclaim, or third-party claim, shall be asserted in the
responsive pleading thereto if one is required, except
that the following defenses may at the option of the
pleader be made by motion: (1) lack of jurisdiction
over the subject matter, (2) lack of jurisdiction over
the
person,
(3)
insufficiency
of
process,
(4) insufficiency of service of process, (5) failure to
state a claim upon which relief can be granted,
(6) failure to join a party under section 3.19. . . .

192a
enforcement provisions were intended to be the sole
remedy for FMC’s failure to comply with the
permitting requirements of the Land Use Planning
Act.
The Trial Court erred by dismissing the
counterclaim based upon the court’s finding that no
contract existed between the parties and finding that
the LUPO provisions were the sole remedy at law.
1. The 1998 agreement between the Tribes
and FMC is a contract.
It is a well settled point of common law that a valid
contract exists when the following elements are
found: an offer; an acceptance; consideration; and a
mutual meeting of the minds as to the purpose and
material terms of the contract. Based upon the
record, this court finds that the Tribes have
demonstrated the existence of each of the elements of
a valid contact by competent evidence.
FMC and the Tribes engaged in a series of
communications,
including
meetings
and
correspondence via letters throughout May and June
of 1998. The parties discussed FMC’s obligations to
the Tribes and the impact of the proposed land use
regulations. There is sufficient evidence in the letters
to show that FMC and the Tribes reached a
contractual agreement with the purpose of controlling
the amount of risk or financial burden FMC would
bear while maintaining compliance with the Tribes
land use code. The terms included an obligation on
FMC to obtain Tribal land use permits for its waste
activities on the Reservation, FMC’s payment to the
Tribes of a one-time start-up grant fee in the amount
of $2.5 million for the initial year, FMC’s payment for
a special use permit fee in the fixed amount of $1.5

193a
million to be paid annually as long as FMC stores the
waste on the Reservation, even if the use of waste
ponds 17-19 was terminated in the next several years.
In exchange for the fixed special use permit fee, FMC
would be allowed to store the hazardous and nonhazardous waste at its site, FMC would enjoy an
exemption from the otherwise-applicable Tribal land
use permitting regulations, the Tribes would not seek
any other permits or impose conditions on FMC other
that the fixed amounts described above, and the
Tribes would enact the Hazardous Waste
Management Act with a specific provision for either
an exemption from the regulations for FMC or with
the specific fixed fee for FMC.
It is uncontested that FMC tendered the initial
start-up grant payment and then paid the annual
special use permit fee in the fixed amount of $1.5
million in accordance with the parties’ agreement for
approximately four years without any apparent
dispute regarding the fee. It is also uncontested that
th Tribes did not seek to regulate FMC beyond the
agreed upon fee until FMC discontinued payment of
the fee and proposed its own unilateral release from
the contract.
The performance of the parties
demonstrates that there was a meeting of the minds
in 1998 and that a valid contract was formed. The
Court finds and concludes that the parties’ 1998
agreement clearly constitutes a contract and satisfies
the contract elements of an offer, acceptance, and
valuable consideration.
FMC has argued that the Tribes’ failure to adopt
regulations within one year of the parties’ agreement
justified FMC in ceasing to perform it annual
payment obligation. We disagree. Based on the
record and arguments of the parties, we find that the

194a
actual codification of FMC’s exemption was not a
material term of the parties Agreement. FMC only
raised this issue four years after the agreement was
made in an effort to rationalize its decision to cease
payment after its business operations terminated.
2. The Fort Hall Business Council and the
Land Use Planning Commission are
proper parties to assert the Tribes’
counterclaims.
FMC claims that the Fort Hall Business Council
and Land Use Planning Commission are not proper
entities to bring the Tribes’ alleged counterclaims,
arguing that the LUPC is limited to “administration
and enforcement” of the Land Use Ordinance, as
provided in Article IV, Section 1, and that the
Business Council “has no authority to sue in its own
name.” In support of its claim, FMC asserts that the
“agencies” in this matter have no authority to
consider or advance claims beyond the scope of their
statutory authority. See New York v. Fed. Energy
Regulatory Comm’n, 535 U.S. 1 (2002) (“an agency
literally has no power to act . . . unless and until
Congress confers power upon it.”). FMC is incorrect.
This court finds that there is a sufficient basis in
Tribal law to support enforcement by both the FHBC
and the LUPC, without resorting to clarification from
federal case law. See Chapter III Section 1.1 of the
Shoshone-Bannock Tribes’ Law and Order Code
(generally providing that the applicable law in Tribal
civil actions is: taken from the Law and Order Code
and any additional ordinances adopted by the
Shoshone-Bannock Tribes; if not covered there, then
the traditional customs and usages of the ShoshoneBannock Tribes control; if not covered there, then the
Court shall apply any laws of the United States that

195a
may be applicable and any authorized regulation of
the Interior Department of the United States).
The Corporate Charter of the Shoshone-Bannock
Tribes was issued by the Secretary of Interior
pursuant to the Act of June 18, 1934, (48 Stat. 984).
Section 4 of the Charter authorizes the Fort Hall
Business Council to “exercise all the corporate powers
hereinafter enumerated.” Included in the list of
powers is the authority to: “engage in any business
that will further the economic well-being of the
members of the tribe or to undertake any activity of
any nature whatever . . . .”; “make and perform
contracts and agreements of every description . . .
with any . . . corporation”; and to “sue and be sued in
courts of competent jurisdiction within the United
States.” See Sections 5(e), 5(f), and 5(i) respectively.
Article VI, Section l(f) of the Tribal Constitution and
By-Laws provides authority for the Business Council
to “undertake and manage all economic affairs and
enterprises in accordance with the terms of a charter
that may be issued to the Shoshone-Bannock Tribes
by the Secretary of th Interior.” Prior to the
enactment of any of the foregoing documents, the
Shoshone-Bannock Tribes were recognized by the
United States as sovereign nations with the power to
treat with the United States. (Treaty of Fort Bridger
of 1868.) The Fort Hall Business Council is the
product of those sovereign nations.
Based upon the authorization provided in the
Corporate Charter and Tribal Constitution and ByLaws, the FHBC has the authority and standing to
pursue enforcement of the 1998 Agreement through
the amended counterclaim filed in Tribal Court.
The plain language of the Land Use Ordinance
and Guideline do not restrict enforcement solely or

196a
exclusively to administrative actions, and grant the
LUPC with authority to enforce the Tribes’ claim and
seek any appropriate legal remedy in Tribal Court.
Section 4 of Article VII of the Land Use Policy
Ordinance provides:
4. Legal Action
In case any building or structure is erected,
constructed or used, or any land or natural
resource within the outer confines of the Fort
Hall Reservation is used, in violation of any
provision of this Ordinance, the ShoshoneBannock Tribes, in addition to other remedies
provided by law, may institute injunction,
mandamus, abatement, or any other
appropriate action or proceedings to prevent,
enjoin, abate or remove such unlawful erection,
construction,
reconstruction,
alteration,
maintenance, or use.
The LUPC’s authority is further defined in Chapter
VIII, Section VIII-4 of the Guidelines, which provides
in pertinent part:
Judicial Procedures
The Commission shall file, on behalf of the
Shoshone-Bannock Tribes, a civil complaint in the
Tribal Court against any person violating any
provision of the Ordinance, as implemented in
these Guidelines, whenever the correction of any
violation cannot be achieved by administrative
procedures. The pleadings and procedures in any
such civil action shall be the same as authorized
generally for civil actions by the Law and Order
Code of the Shoshone-Bannock Tribes.
The
Commission may in any such civil action seek any
appropriate legal relief, including but not limited

197a
to an order enjoining or compelling action by any
violator in order to secure compliance by the
violator with the provisions of the Ordinance, as
implemented in these Guidelines.
Because the Ordinance and Guidelines specifically
authorize the LUPC to seek all available legal
remedies to enforce the Ordinance, and because the
contract between the parties has been deemed to be
for the purpose of applying a special use permit fee at
an agreed upon fixed amount as a special exception to
the usual fees in the Ordinance, the prosecution of the
Tribes’ breach of contract claim in its Amended
Counterclaim will not be denied for lack of authority
or standing.
3. Issues raised by FMC regarding the
defenses of termination, repudiation, or
the Tribes’ alleged breach of the contract
are not yet ripe.
FMC claims that even if the 1998 agreement
constitutes a contract, there are defenses to
enforcement of the contract including: that the
correspondence did not include a specified end date
and therefore any contract derived therefrom is
improperly perpetual and terminable at will; that
FMC repudiated or opted out of the agreement when
John Bartholomew sent the Tribes a letter dated May
23, 2006, stating that FMC took the position that the
$1.5 million fee need not be paid on June 1, 2002, or
any subsequent year; and that FMC should be
relieved of its contractual duties because the Tribes
failure to enact the Hazardous Waste Management
Act with a specific provision for either an exemption
from the regulations for FMC or with the specific fixed
fee for FMC is a material breach of the contract.

198a
The issues raised by FMC appear to be
alternatives for this court to consider should the court
find that the. dismissal of the Tribes’ counterclaim
was an error. As stated above, this court does find
error in the Trial Court’s dismissal of the Tribes’
counterclaim. However, the issues regarding
termination, repudiation or breach were not
addressed in the Trial Court’s Opinions dated
November 13, 2007 or May 21, 2008, nor were they
raised by FMC in any complaint. The only mention of
termination is on page 15 of the November 2007
Opinion where it states, “FMC’s position has been
that when it shut down the plant, its obligation to
comply with the ordinance terminated.” The Trial
Court does not make any ruling in regard to that
statement, before any hearings on the merits of the
counterclaim can be heard. Because a remand to
Trial Court is necessary to address the merits of the
Tribes’ counterclaim, any defenses to the breach of
contract claim are properly raised in that forum, and
this court declines to speculate on those issues.
E. The Trial Court correctly ruled that FMC
was not entitled to assert as a defense the
Tribal law statute of limitations.
FMC asserts that the Tribes’ breach of contract
counterclaim is barred by Chapter III, Section 3.64 of
the Shoshone-Bannock Tribal Law and Order Code,
which requires that a breach of contract claim be filed
within three (3) years of the date of the breach. FMC
argues that the Tribal Law and Order Codes’
limitations provision is a jurisdictional statute,
relying on John R. Sand & Gravel Co. v. United
States, 552 U.S. 130 (2008). FMC further argues that
the Trial Court erred by finding that FMC was
estopped from asserting the statute of limitations

199a
defense, which is relevant only because this Court has
already found that the Trial Court erred by
dismissing the Tribes’ Amended Counterclaim.
1. The limitation provision of the Shoshone
Bannock Law and Order Code is a general
statute of limitations rather than
jurisdictional.
“Statutes of limitations are not designed to punish
the plaintiff, but rather protect the defendant from
unfair prejudice.” Cachil Dehe Band of Wintun
Indians of Colusa Indians v. California 629 F. Supp.
2d 1091, 1104, affd, 618 F.3d 1066 (9th Cir. 2010) and
reconsideration denied, 649 F. Supp. 2d 1063, and
affd in part, rev’d in part, 618 F.3d 1066 (9th Cir.
2010). “The purpose of a statute of limitations is to
promote justice by preventing surprises through the
revival of claims that have been allowed to slumber
until evidence has been lost, memories have faded,
and witnesses have disappeared.” Id. (quoting Weber
v. Mobile Oil Corp., 506 F.3d at 1315 (10th Cir. 2007)
(internal quotation and citation omitted)).
Chapter III, Section 3.64 of the Shoshone-Bannock
Law and Order Code provides:
Limitations of Actions
Subject to the provisions of the Consumer Code,
the Court shall have no jurisdiction over any
action brought more than three (3) years after the
cause of action accrued.
Where no other Code provision defines how the
limitation is to be applied or interpreted, the Court
must consider the plain language of the Code, and if
there is a matter not covered by the provisions of the
Code, then the Court will give due consideration to
the Tribes’ customs, traditions and the concept of

200a
Tribal justice. See Shoshone-Bannock Tribes Law
and Order Code, Chapter III, Section 1.1.24
Although the term “jurisdiction” is found in
Section 3.64, there is no distinction included in the
Code section regarding cases against the sovereign,
which is a condition to the “jurisdictional” statutes of
the type relied upon by FMC. See John R. Sand &
Gravel Co, 552 U.S. at 140 (finding that statute of
limitations was jurisdictional in suit filed against the
United States in the United States Court of Federal
Claims). In contrast to the specialized jurisdictional
statutes, Section 3.64 is generally applied to all civil
cases in Tribal Court. This Court recognizes that
cases brought in Tribal Court are commonly litigated
by persons representing their own interest without
the assistance of an advocate or attorney, and that
judges are tasked with upholding the Tribes’ laws and
are to see that justice is done is the cases brought in
Tribal Court.
Under the circumstances of its general application
to all participants in civil cases brought in Tribal
24 In all civil cases, the Shoshone-Bannock Tribal Court

shall apply the provisions of this Law and Order Code and
any additional ordinance hereafter adopted by the ShoshoneBannock Tribes.
In any matters that are not covered by the provisions of this
Code or by Ordinance, the Court shall apply the traditional
customs and usages of the Shoshone-Bannock Tribes and for
any doubt arising as to the customs and usages of the Tribe,
the Court may request the advice of counselors familiar with
these customs and usages.
In any matters that are not covered by the provisions of this
Code, or by any Ordinances or customs and usages of the
Tribe, the Court shall apply any laws of the United State[s]
that may be applicable and any authorized regulation of the
Interior Department of the United States.”

201a
Court, Section 3.64 must be read as a common statute
of limitation provision that protects against stale or
unduly delayed claims, rather than as a harsh
jurisdictional bar to a litigant’s cause of action such
as the type of statute of limitations applicable in the
Federal Court of Claims. As such, a claim that the
limitation section applies must be brought as an
affirmative defense at the pleadings stage and will be
subject to forfeiture and waiver.
2. The Trial Court did not err by finding that
FMC was estopped from asserting a
statute of limitations defense.
Section 3.64 of the Tribal Rules of Civil Procedure
requires the filing of a cause of action within three (3)
years from the time the cause of action occurred.
Because the breach of contract alleged by the Tribes’
began to accrue either on May 23, 2002, based upon
the letter from John Bartholomew to the Chairman of
the FHBC indicating that FMC was taking the
position that it would not pay the annual $1.5 million
fee on June l, 2002, or any subsequent year, on June
1, 2002, based upon the Tribes’ claim that the
payment due was not received on that date, and
because the Tribes’ Counterclaim was filed
September 14, 2006, there must be some exception to
the statute of limitations otherwise the Tribes’ claim
will be time barred.
The Trial Court found that FMC was equitably
estopped from asserting the statute of limitations
defense through December 2005 where FMC and the
Tribes had engaged in correspondence including: the
communications in 1997; the May 23, 2002, response
letter from FMC regarding the Tribes’ demand for
payment, which stated, “I, [John Bartholomew], and
FMC are willing to enter into good faith discussions

202a
leading to a successful resolution of this situation;”
the letter dated May 27, 2004, in which the parties
agreed through John Bartholomew and Fred Auck
that “[n]either party’s rights, defenses nor claims will
be prejudiced in any manner whatsoever;” the
exchange of letters between the Tribes and FMC in
July and November of 2004 regarding ongoing
negotiations; and the letter from John Bartholomew
that indicated that FMC was terminating
negotiations with the Tribe.
A party to a lawsuit cannot make representations
or engage in conduct to make the other party believe
that a delay will not prejudice claims, and then seek
later to take advantage of a statute of limitations. See
Glus v. Brooklyn Eastern District Terminal, 359 U.S.
231, 234 (1959). The “maxim that no man may take
advantage of his own wrong . . . has frequently been
employed to bar inequitable reliance on statutes of
limitations.” Id. at 233.
In order to obtain equitable estoppel, a party must
show: (1) a false representation or concealment of a
material fact made with actual or constructive
knowledge of the truth; (2) that the party asserting
estoppel did not and could not have discovered the
truth; (3) an intent that the misrepresentation or
concealment be relied upon; and (4) that the party
asserting estoppel relied on the misrepresentation or
concealment to his or her prejudice. Willig v. State,
Dept. of Health & Welfare, 127 Idaho 259, 261, 899
P.2d 969, 971 (1995). Quasi-estoppel is a similar
doctrine which “prevents a party from asserting a
right, to the detriment of another party, which is
inconsistent with a position previously taken.” C &
G, Inc. v. Canyon Highway Dist. No. 4, 139 Idaho 140,
144, 75 P.3d 194, 198 (2003). This doctrine applies

203a
when: (1) the offending party took a different position
than his or her original position and (2) either (a) the
offending party gained an advantage or caused a
disadvantage to the other party; (b) the other party
was induced to change positions; or (c) it would be
unconscionable to permit the offending party to
maintain an inconsistent position from one he or she
has already derived a benefit or acquiesced in. Id. at
145. To prove quasi-estoppel, it is not necessary to
show detrimental reliance; instead, there must be
evidence that it would be unconscionable to permit
the offending party to assert allegedly contrary
positions. Thomas v. Arkoosh Produce, Inc., 137
Idaho 352, 357, 48 P.3d 1241, 1246 (2002). Similarly,
a party may be subject to a waiver, which is a
voluntary, intentional relinquishment of a known
right and “the party asserting the waiver ‘must show
that he acted in reasonable reliance upon it and that
he thereby has altered his position to his detriment.’”
Fullerton v. Griswold, 142 Idaho 820, 824, 136 P.3d
291, 295 (2006) (quoting Margaret H. Wayne Trust v.
Lipsky, 123 Idaho 253, 256, 846 P.2d 904,907 (1993)).
Although the Trial Court used the words
“equitably estopped,” there is no explanation provide
in the court’s opinion to demonstrate that the court
was applying the strict technical elements of
equitable estoppel. What is clear from the Opinion is
that the Trial Court considered FMC’s ongoing
communications and negotiations with the Tribes
regarding the issue of FMC’s conduct on the Fort Hall
Reservation and all the matters related thereto, such
as payment, transfer of assets, or waiver of tribal
applications.
The correspondence between the
parties supports a finding that: (1) FMC knowingly
and voluntarily entered into a waiver due to the

204a
“relinquishment of rights” as outlined in the May 27,
2004, letter; (2) that FMC’ s current position of
attempting to assert the statute of limitations defense
is different than the position taken in 2004 to hold
action during negotiations; (3) that the Tribes were
induced to cease action during the negotiation period;
and (4) that it would now be unconscionable to permit
FMC assert a statute of limitations defense
inconsistent with the benefit derived from the
passage of time and non-enforcement by the Tribes.
In particular, the letter dated May 27, 2004, with the
phrase, “[n]either party’s rights, defenses nor claims
will be prejudiced in any manner whatsoever,” is
sufficiently broad to induce the Tribes’ to not pursue
enforcement action through the courts while
negotiations continue. The language in that letter is
also sufficiently broad enough to include any legal
claim, remedy, or defense that could be raised be
either party, including any administrative claim or
the common law breach of contract claim based on the
same set of facts and circumstances. There is no
evidence or circumstances to suggest that FMC was
surprised or prejudiced by the passage of time, or that
necessary evidence is now unobtainable to FMC.
Although the factors relate more closely to state
court elements of quasi-estoppel and waiver, as a
matter of Tribal Law, we find that the Trial Court’s
conclusion that FMC is estopped from asserting the
statute of limitations defense as a matter of equity is
not an error.

205a
3. Even if the Trial Court erred by finding
that FMC was equitably estopped from
asserting the statute of limitations
defense, the time for filing the Tribes’
claim was tolled.
The facts which support the tolling of the statute
of limitations are set forth in the correspondence
between the Tribes and FMC.
The letters
demonstrate the following pertinent timeline:
• May 23, 2002, FMC’s proposed repudiation
letter;
• June 1, 2002, FMC failed to make the
previously agreed upon annual $1.5 million
payment;
• December 19, 2002, Notice of Violation was
sent by the Tribes;
• During 2003 the Tribes took public comment on
the proposed Hazardous Waste Management
Act, which included submissions from FMC;
• April of 2004, letters from, Tribes demanding
that FMC comply with the special use permit
and building permit requirements;
• May 27, 2004, FMC proposed “stay” letter;
• September 16, 2004, meeting regarding issue of
required permits;
• October 6, 2004, Tribes’ letter to FMC
demanding a cease of activity not in compliance
with Tribal regulations;
• August 10, 2005, Tribes’ formal demand that
FMC obtain permits for waste storage,
treatment and disposal;

206a
August 25, 2005, Tribes’ letter to FMC
demanding compliance with the LUPO and
permitting requirements;
• December 2005, negotiations are terminated as
evidence by John Bartholomew’s letter
indicating that FMC was attempting to sell the
property to other interested parties;
• September 14, 2006, Tribes’ filed counterclaim
alleging breach of contract; and
• Continuing from 2002 to present – FMC has
stored waste on the Fort Hall Reservation
without payment of either the agreed upon fee
or any other permit fee as required by the
Tribes.
Of particular significance is the May 27, 2004
letter. It was drafted by FMC during a time when the
Tribes had recently sent FMC the letter dated April
16, 2004, which specifically demands that FMC obtain
a special use permit for the hazardous waste ponds,
other solid waste, treatment of pond water and the
slag pile, and further requested that FMC provide a
projection for the amount waste in terms of
volume/mass. The May 27, 2004, letter acknowledges
that regulatory enforcement is at issue, seeks a stay
of such enforcement based upon good faith
negotiations to transfer the property, an indicates the
parties’ agreement that their respective “rights,
defenses, [and] claims will [not] be prejudiced in any
manner whatsoever. . .”
Although the reference in FMC’s letter is
specifically to regulatory enforcement, the context
and circumstances reasonably include a tolling or
stay of any claim based upon the same issues. It
would be inconsistent to require that the Tribes’ file a
•

207a
breach of contract claim at that time, which would
have been within the three year statute of limitations,
and also expect the filing of that claim to not
undermine the ‘‘good faith” negotiations.
Applying tolling based solely on the stay
agreement, the three year statute of limitation would
begin June 1, 2002, and run until May 27, 2004, then
cease until December· 6, 2005, when the negotiations
had broken down and terminated. The third year
would then run from December 6, 2005, until
December 6, 2006. Because the Tribes’ filed the
Counterclaim on September 14, 2006, the filing would
not be subject to the defense raised by FMC.
In addition to the tolling described above, the time
limitations may also be tolled due to other
proceedings raised in various courts between 2006
and the present. In Swam v. Upper Chesapeake
Medical Center, 397 Md. 528, 542, 919 A.2d 33, 41 (Ct.
App. Maryland 2007), the Court stated that
“[s]tatutes of limitations are designed primarily to
assure fairness to defendants on the theory that
claims, asserted after evidence is gone, memories
have faded, and witnesses disappeared, are so stale
as to be unjust.” That court denied the application of
the statute of limitations defense because the
defendant “was fully put on notice of the [plaintiffs]
claim” and allowed for the tolling of the statute of
limitations during the pendency of the suit filed in the
wrong forum. Id.
The Tribes’ filed a Motion for Clarification of
Consent Decree in Federal Court on September 19,
2005. The Tribes’ filed the counterclaim for breach of
the 1998 Agreement after the Federal Court ordered
FMC to submit to the Tribal administrative process
and after FMC did not pay the permit fee even after

208a
the Land Use Commission granted FMC the relevant
land use permits. The Ninth Circuit overturned the
Federal District Court’s ruling by decision rendered
in 2008.
Given the circumstances, the Tribes pursuit of
remedies in the federal forum demonstrate that the
Tribes have exercised reasonable diligence in
asserting the Tribes’ related issues of permitting
applications, enforcement of ordinances and the
breach of the parties 1998 Agreement for a particular
fixed special use fee. The record does not support a
finding that FMC was not on notice of the Tribes’
claims or that FMC was prejudiced by the Tribes’
filing of the counterclaim in September of 2006.
Because there are sufficient ground in the record
to support the Trial Court’s holding that FMC should,
as a matter of equity, be estopped from asserting a
statute of limitations defense, this Court affirms
Judge Maguire’s November 13, 2007, decision in that
regard.
F. The Trial Court erred by dismissing the
Tribes’ counterclaim for FMC’s failure to
obtain Tribal air quality permits.
The Tribes asserted in the Counterclaim that FMC
failed to obtain air quality permits. FMC argued that
the issue was not properly part of the administrative
appeal, that the Tribes’ lack jurisdiction over FMC’s
activities on FMC’s fee land, that FMC is regulated by
the EPA under the Clean Air Act, and that the plant
is now closed with no further emissions. The Tribes
countered stating that there is sufficient evidence of
jurisdiction, that reference was made to air quality
permits in 2005 correspondence between the parties
and a nexus exists between the air quality regulation

209a
and other permitting issues, that the Tribes have
independent inherent authority to regulate air
quality without any federal delegation of authority,
and that there is no federal pre-emption of that
regulation.
The Trial Court’s November 13, 2007, decision
states, ‘“The numerous issues involving this [air
quality permit] dispute leave the court with an
abiding belief that it should not become a part of the
record of this administrative appeal. Whether or not
there are emissions which are subject to ‘Air Quality
Act’ and how such emissions are handled is a matter
for the Air Quality Officer to review. Further, the
issues of tribal jurisdiction and federal pre-emption
make this an even more complicated problem.” The
court, citing to Sections 3.20 and 3.21 of the Tribal
Rules of Civil Procedure, then dismissed the Tribes’
counterclaim regarding FMC’s failure to obtain Tribal
air quality permits “subject to the Tribe’s right to file
a motion to sever the matter and have it handled
separately.”
As discussed herein, Chapter III, Section 3.13 of
the Tribal Law and Order Code requires that the
Tribes to file a compulsory counterclaim in this action
or risk having the claim barred. At a minimum, the
Tribes may file a permissive counterclaim involving
the same parties and similar claims. Multiple claims
against the same party may be brought in the same
suit pursuant to Chapter III, Section 3.18 of the Law
and Order Code, which provides in pertinent part:
Section 3.18 Joinder of Claims and Remedies
(a) Joinder of Claims
A party asserting a claim to relief as an
original claim counterclaim, cross-

210a
claim, or third-party claim, may join
either as independent or as alternate
claims, as many claims, legal or equitable
as he has against an opposing party.
There is no authority in the Law and Order Code
for the Trial Court to limit the Tribes’ claims against
FMC in the manner described in the Opinion entered
November 13, 2007. The Trial Court’s reliance on
Chapter III, Sections 3.20 and 3.21 is misplaced.
Those sections relate entirely and exclusively to the
permissive joinder of parties and the improper joinder
of parties respectively. The cited code sections have
no bearing on the joinder of claims.
The court’s concerns regarding the evidence of
jurisdiction and complicated legal issues are matters
that would properly be addressed during the
consolidated trial of the parties’ claims and
counterclaims. It is clear from the Opinion and record
that the Trial Court did not consider the factual
allegations in the case in the light most favorable to
the non-moving party in the context of FMC’s Motion
to Dismiss.
Because the incorrect standard was used and
because the Trial Court did not correctly apply th
appropriate sections of the Law and Order Code, this
Court is compelled to overrule the Trial Court’s
dismissal of the Tribes’ counterclaim regarding the
issue of FMC obtaining air quality permits, and
remands the issue of air quality permits for further
proceedings consistent with this ruling.

211a
G. The issue whether the Trial Court erred
by dismissing the Tribes counterclaim
without allowing discovery as to
remaining material issues of fact is
currently moot.
Because this Court has decided that the Trial
Court erred by dismissing the Tribes’ counterclaim,
and is remanding that portion of the case for further
proceedings, the issue of whether discovery was
improperly denied is moot. This Court directs the
Trial Court to proceed with the counterclaim as a new
case in civil court subject to all of the provisions of the
Tribal Law and Order Code, including Chapter III,
Civil Procedure.
Any discovery that remains
outstanding can be conducted in that action.
H. The Trial Court did not err by ruling that
FMC must obtain a building permit for
demolition.
In the Opinion dated May 21, 2008, the Trial Court
expressed deference to the LUPC’s decision and
affirmed the LUPC’s authority to require a building
permit, based upon the combination of the Guidelines
and inclusion of the Uniform Building Code of 1997
(UBC) and based upon an independent requirement
for a “use permit” for demolition activities in an
industrial zone.
FMC asserts on cross-appeal that the Trial Court
erred by affirming the Tribes’ right to require a
building permit with respect to demolition activities
at the FMC site. FMC proposes several claims in this
regard. FMC first claims that the LUPC acted beyond
its authority by requiring a building permit and
associated fee. FMC next claims that there is no legal
basis for the LUPC’s building permit decision because

212a
the Ordinance relied up by the LUPC has a plain
meaning of “construction,” which does not include
demolition, and because the LUPC’s decision merely
states that, “FMC is subject to the Tribes’ land use
permitting system,” without providing any further
detail or explanation as to how the LUPC reached its
conclusion. FMC further asserts that, 1) the LUPC
did not defer to the 1997 Building Code, 2) that the
FHBC had no authority to apply a “new
interpretation” of Tribal Law to FMC’s permit
application, and 3) the Tribal Court had no obligation
to defer to such “interpretation” where the
unambiguous definition already existed in another
portion of the guidelines.
1. The LUPC has authority to require that
FMC obtain a building permit.
The LUPC has the authority to require FMC to
obtain the building permit pursuant to Sections l(h)
and l(s) of Article VI of the Shoshone-Bannock Tribes
Constitution and Chapter V of the 1979 Land Use
Operative Guidelines.
By signing the Consent Decree, FMC agreed to
apply for and obtain any permit required by the
Tribes to perform work at the FMC site. Section IV,
General Provisions, paragraph 8, of the Consent
Decree provides in pertinent part:
Where any portion of the work requires a federal,
state, or tribal permit or approval, [FMC] shall
submit timely and complete applications, and take
all other actions necessary to obtain all such
permits or approvals.
Paragraph 76 of Section IV of the Consent Decree
also provides in pertinent part:

213a
[FMC] shall be responsible for obtaining any
federal, state or local permits for any activity at
the FMC Pocatello Plant, including those
necessary for the performance of the work
required by this Consent Decree.
In its decision clarifying the Consent Decree, the
Federal District Court specifically declared that FMC
was to submit to the Tribal permit process for
“hazardous waste storage, treatment and disposal,
and an additional building permit for the demolition
activities.” (Emphasis added).
FMC’s argument that the building permit is void
on its face for lack of compliance with Fort Hall
Operative Policy Guidelines Chapter V, Section V-7-3
is without merit. The Building Permit is allowed
without public hearing and does not require the
LUPC to render any specific reasons for its decision
unless the applicant is denied. (See Fort Hall Land
Use Operative Policy Guidelines, Chapter V, Section
V-1-1.)
Based on applicable Code sections, the Consent
Decree, and review of the record herein, this Court
finds as a matter of Tribal Law that the LUPC had
authority to require that FMC obtain a building
permit for demolition.
2. The LUPC stated sufficient grounds for
its decision, and the FHBC did not apply
grounds inconsistent with the LUPC in
the FHBC decision.
After review of the record, this Court finds that
FMC’s argument does not take into account the entire
basis and grounds for the LUPC decision. The LUPC
decision does state that, “FMC is subject to the Tribes’
land use permitting system,” but also provides that,

214a
“The building permit application is approved
pursuant to Chapter V of the 1979 Land Use
Operative Guidelines.” The LUPC’s stated reliance
on Chapter V of the Guidelines supports a conclusion
that the UBC was considered as an applicable
regulation by the LUPC. Though the LUPC decision
does not provide an extensive explanation of its
reasoning or application of the permitting system, the
Guidelines or the UBC, the citation to the Guidelines
sections relied upon provides a sufficient basis to
support the LUPC decision.
FMC’s argument that the FHBC prospectively
applied a new interpretation of Tribal Law is
similarly flawed. In its July 21, 2006, decision, the
FHBC stated, “For the purpose of interpreting the
Land Use Policy Ordinance, Operative Guidelines,
and Land Use rules and regulations in general the
governing body of the Shoshone Bannock Tribes shall
use as a source of interpretation the Uniform Building
Code. The UBC definition of construction includes
demolition.” As stated above, the LUPC applied
Chapter V of the Guidelines, and by implication the
UBC, as part of its decision to require a building
permit for demolition. The FHBC application of
Chapter V would also lead them to conclude that the
UBC is applicable. The FHBC’s decision was not
applying any new interpretation, but was instead
merely more detailed in its description.
3. It was not Trial Court error to give
deference to the LUPC decision.
A court should give deference to an agency
interpretation if reasonable See Chevron U.S.A., Inc.
v. Natural Resources Defense Council, Inc., 467 U.S.
837, 844 (1984).
Deference under Chevron is
premised on the theory that an ambiguity constitutes

215a
an implied delegation of authority from Congress to
the agency to fill the statutory gaps. Id. at 844. In
the context of tribal agencies, the same principal
would apply with the implied delegation coming from
the FHBC and the LUPC filling the gap left in the
code or ordinance. Such deference includes cases in
which an agency interprets a term, where the
interpretation is more expansive than the stated
definition in the regulations and where such
definition is not exhaustive. See Federal Exp. Corp.
v. Holowecki, 552 U.S. 389 (2008) (upholding the
EEOC Commission’s interpretation of the term
“charge” even though the term was defined in the
EEOC regulations). The agency’s position should be
accepted unless it is “plainly erroneous or
inconsistent with the regulation.” Id. at 6, citing Auer
v. Robbins, 519 U.S. 452 (1997) (quoting Robertson v.
Methow Valley Citizens Council, 490 U.S. 332, 359
(1989)).
The definition of “construction” is found in
Chapter II, paragraph 20 of the 1979 Fort Hall Land
Use Operative Policy Guidelines. Chapter V, Section
V-1-4 of the Guidelines also provides that, “[a]ll
construction or location work authorized under any
Building Permit issued by the Commission shall
comply with all of the provisions and standards set
forth in the most current edition of the “Uniform
Building Code.” Section 106 of the Uniform Building
Code requires permits for the demolition of buildings
or structures, with a provision for exceptions not at
issue here. See UBC § 106.1. The Uniform Building
Code also has provisions for addition requirements
when demolition of any building is involved. See UBC
§3303.9.

216a
Like Holowecki, the applicable regulations in this
case contained a defined term, “construction”, but it
was not an exhaustive definition, because the same
term is expanded within another relevant regulation
– here the UBC.
As a matter of Tribal Law, where an agency’s
interpretation is based upon a reasonable application
of the regulations, the court shall give deference to
such interpretation. Because the record reflects that
the LUPC’s decision relied upon a reasonable
application of all relevant regulations, the Trial
Court’s decision to give it deference is hereby
affirmed.
4. The Trial Court did not err by concluding
that “construction” included demolition.
When interpreting a statute that appears to have
conflicting provisions, it should be read to make both
provisions have force. Korte v. United States, 260
F.2d 633, 636 (9th Cir. 1958). Both the definition of
“construction” under the Guidelines as well as the
section adopting all provisions and standards of the
UBC should be given effect. Clark v. Portland
General Elec. Co., 111 F.2d 703, 706 (9th Cir. 1940)
(holding that in construing a statute, effect must be
given to all the language employed, and inconsistent
expressions are to be harmonized to reach the real
intent of the legislature). Another rule of statutory
interpretation provides that where codes or statutes
address similar issues and there is some potential
conflict, the specific will control over the general. See
Mickelsen v. City of Rexburg, Idaho 305, 612 P.2d 542
(1980) (City’s 1968 beer ordinance which was more
comprehensive and later in time controlled over 1940
ordinance addressing the same issue).

217a
Both rules of statutory construction apply in this
case. The definition of “construction” in the
Guidelines is intended to be consistent with the UBC,
which is made applicable to specific situations
involving building permits by another section of the
same Guidelines. The term construction should thus
be read to include all applicable terms provided in the
Guidelines and the UBC, including demolition. The
UBC also contains more specific requirements
regarding demolition than the Guidelines. Where the
UBC is incorporated by Chapter V of the Guidelines,
and was applicable at all times during the contested
proceedings, the more specific and comprehensive
regulations should apply.
Because the rules of statutory construction and
interpretation support a finding that the term
“construction” includes “demolition,’’ this Court
affirms the Trial Court Trial Court’s finding that a
building permit was properly required for the
demolition of FMC structures.
5. The Trial Court correctly concluded that
there was an independent ground for
FMC to obtain a use permit for the
demolition.
The Trial Court went beyond giving deference to
the LUPC in the May 2008 Opinion and also
determined that, “a use permit would be required for
FMC for demolition activities conducted in an
industrial zone.” The Trial Court applied the
provisions of Chapter II, Section 65 and Chapter V,
Section V-5(1) and (2) in concluding that while a
special use permit is not required for industrial
activity in an industrial zone, FMC’s disassembly of
the FMC plant was not the continuation of an
industrial activity and would require a “use permit”

218a
for FMC’s demolition activity. This independent
alternative basis for the building or use permit for the
demolition was not assigned as error by FMC.
Based upon the grounds and reasons discussed
herein, this Court affirms the Trial Court’s conclusion
that FMC must obtain a building or use permit for
FMC’s demolition activity.
I. The Trial Court erred by finding that FMC
is not required to pay the building permit
fee in the amount of $3,000.00 as assessed
by the LUPC.
The LUPC approved FMC’s building permit for the
demolition activity pursuant to Chapter V of the 1979
Land Use Policy Operative Guidelines on the
condition that FMC pay a three thousand dollar
($3000.00) permit fee and list the contractors and
subcontractor that would work on the site. The Trial
Court accepted the Tribes’ assertion of authority to
require the building permit, but stated, “[n]owhere in
the ordinance is there a requirement for a fee of
$3,000.00 as a condition to obtaining a building
permit.” The court then ruled that the imposition of
the $3,000.00 fee was in excess of the authority of the
LUPC granted by the ordinance. It is apparent from
the Trial Court’s May 21, 2008, Opinion that the court
considered the LUPC decision requiring the building
permit to include a reliance on the 1997 Uniform
Building Code, but also believed that the LUPC was
limited to the maximum fee provided in its own
ordinance.
The Tribes agree that a ten dollar ($10.00)
application fee is set forth in Article V, Section 3 of
e Land Use Policy Ordinance and in Chapter V,
Section V-1-l(b) of the Guidelines, but assert that the

219a
Trial Court’s conclusion overlooks valid authority set
forth in the UBC for the LUPC to impose the stated
fee for FMC’s demolition activity and that there is a
rational basis for the fee, even if not explained in any
detail by the LUPC.
Chapter V, Section V-1-4 of the Guidelines
provides in pertinent part, “[a]ll construction or
location work authorized under any Building Permit
issued by the Commission shall comply with all of the
provisions and standards set forth in the most current
edition of the “Uniform Building Code.”
According to Section 107.2 of the 1997 Uniform
Building Code, permit fees are assessed for each
permit as set forth in Table 1-A. That section further
provides:
The determination of value or valuation under
any of the provisions of this code shall be made
by the building official. The value to be used in
computing the building permit and building
plan review fees shall be the total value of all
construction work for which the permit is
issued, as well as finish work, painting, roofing,
electrical, plumbing, heating, air conditioning,
elevators, fire-extinguishing systems and any
other permanent equipment.
Because the Trial Court’s opinion rendered solely
on a review of the ordinance or Guidelines without
reference to the fee schedule set forth in the UBC, the
Trial Court’s decision must be reversed.
This court next considers whether there is some
rational basis for the LUPC’s calculation for the three
thousand dollar permit fee to allow reinstatement of
the fee without remand. The Tribes assert that the
fee would correspond to the sixth row of Table 1-A.

220a
The fee described there is, “993.75 for the first
$100,000.00 plus $5.60 for each additional $1,000.00
or fraction thereof, to and including $500,000.00.” A
three thousand dollar permit fee would correspond to
work of a true value of approximately four hundred
and fifty-eight thousand dollars ($458,000.00).
Schedule A of FMC’ s permit application indicates
that ten (10) separate buildings and structures were
to be removed. However, the “Value of Proposed
Works” portion of the permit form provides, “no cost
to FMC.” FMC’s report of the valuation is contrary to
the purpose of the application and interferes with the
Tribes’ accurate application of the fee schedule.
The Tribes’ are not limited to reliance on a
defective
application
when
determining
an
appropriate fee amount. The cost of demolition,
safety measures, and clean-up necessary to complete
the work for removing all ten buildings are all factors
that one would reasonably expect to be considered.
See UBC Chapter 1, section 106 and Chapter 33.
As discussed above, the LUPC decision was
rendered in a general manner without specific details
as to how the UBC was applied. However, it is clear
to this court that the LUPC did consider the
provisions of UBC in its decision making process.
While additional clarification in the LUPC decision
would be a better practice to avoid contested issues
such as this, this Court cannot find that the fee
imposed by the LUPC was without a rational basis,
and therefore overrules the Trial Court’s conclusion
and finds that the $3,000.00 fee should be reinstated.
VII. CONCLUSION
Based on the foregoing, we affirm the LUPC and
Business Council decisions appealed by FMC. We

221a
affirm the Trial Court’s finding of Tribal jurisdiction
over FMC, and for the reasons contained in this
decision, evidence included in the record, and
arguments advanced by the Tribes in briefing, find
that the Tribes have jurisdiction over FMC’s waste
storage activities on the Reservation under at least
the first exception set forth in Montana v. United
States. The Tribes have jurisdiction over FMC under
the consensual relationship exception based on the
1998 contractual agreement, the 1998 Consent
Decree, and FMC’s specific consent to Tribal
jurisdiction in the 1997 Buttleman letter. Further,
the Trial Court erred in limiting and foreclosing the
Tribes’ offer of evidence that the Tribes could exercise
jurisdiction over FMC’s waste activities on the Fort
Hall Indian Reservation and whether those activities
threaten or directly impacts or threatens the Tribes’
health, and welfare, political integrity, and economic
security of Tribal members, particularly its children
and this case should be remanded to the Trial Court
for the taking of additional evidence from both parties
as to that issue. We reverse the findings and
conclusion of the Trial Court on all other points
inconsistent with these findings and conclusions.
The portion of the Trial Court’s November 13, 2007
decision dismissing the Tribes’ counterclaim for
breach of contract based on FMC’s failure to abide by
the parties’ 1998 Agreement is reversed, and this
Court finds based on the record that the 1998
Agreement is an enforceable contract and that FMC
agreed to pay an annual permit fee of $1.5 million per
year for the years 2002, 2003, 2004, 2005, 2006, and
2007. We conclude as a matter of Tribal law that a
breach of contract claim was properly filed by the
Tribes based on the existence of an enforceable

222a
contract in 1998 between the Tribe and FMC in which
FMC agreed to pay the annual $1.5 million permit fee
for waste storage even after the use of the Ponds
terminated. We do not address years after 2007
because only the years 2002-2007 are presently at
issue in these consolidated appeals.
This Court further finds that FMC agreed to the
jurisdiction of the Tribes and its Court as well as
applying for Tribal permits only because they were
forced to do so by the Consent Decree entered in the
Federal District Court of Idaho and as soon as the
work which they had consented to perform was
accomplished and they were released by the United
States, FMC refused to make any further payments
to the Tribes despite their earlier 1998, agreements.
In fact, FMC went so far as to close its Pocatello,
Idaho plant rather than pay the Shoshone-Bannock
Indian Tribes what they promised, instead leaving
hazardous waste in at least ponds 17, 18, and 19.
Based upon the foregoing findings of fact and
conclusions of law, the court enters the following
order:
IT IS HEREBY ORDERED:
1. This matter is remanded for the Trial Court to
properly consider evidence offered by either party to
show that the FMC waste activities on the Fort Hall
Indian Reservation would impact or threaten the
Tribes’ economic integrity, and health and welfare of
Tribal members and Tribal children.
2. FMC is ordered to obtain a Tribal special use
permit and pay the associated permit fee of $1.5
million for each of the years from 2002 up to and
including 2007, based upon the authority of the
Tribes’ Land Use Policy Ordinance, the Operative

223a
Guidelines as amended, and the HWMA/WMA, which
authorize the LUPC to assess the $1.5 million permit
fee, and FMC shall comply with the conditions set
forth in the LUPC’s April 25, 2006 decision, including
FMC’s obligation to pay the annual permit fee of $1.5
million per year.
3. Pursuant to Chapter 4, Section 2, Chapter 3,
Section 3.58, and other applicable provisions of Tribal
law, this Court directs that judgment be entered in
favor of the Tribes against FMC in the amount of One
Million and Five Hundred Dollars and No Cents
($1,500,000.00) for each year from 2002 up to and
including 2007, and a separate judgment shall be
issued by the Court as provided in the Law & Order
Code.
4. The Trial Court’s dismissal of the Tribes’
counterclaims for breach of contract and FMC’s
failure to obtain air permits were properly filed, and
the claims are reinstated with instructions on remand
for the Trial Court to properly consider the claims.
5. The Trial Court’s May 21, 2008, decision
finding that FMC is not required to pay the building
permit fee assessed by the LUPC is upheld because
the Fort Hall Business Council failed to act on that
issue.
6. Costs on appeal are awarded to the Tribes in
accordance with the Court’s authority under Chapter
4, Section 2 of the Law and Order Code. The Tribes
are ordered to submit a cost bill to the Appellate Panel
for costs incurred to date within thirty (30) days of the
entry of this Order and FMC will have fifteen (15)
days to respond.

224a
DATED: This _14th day of _June, 2012.

The Honorable Fred Gabourie,
Chief Justice
***
DATED: This _14th day of _June, 2012.
s/ Fred Gabourie, (Sr.)
The Honorable Fred Gabourie,
Chief Justice
s/ Mary L. Pearson
The Honorable Mary Pearson,
Associate Justice
***
s/ Cathy Silak
The Honorable Cathy Silak,
Associate Justice

225a
SHOSHONE-BANNOCK TRIBAL COURT
FORT HALL RESERVATION, IDAHO
CIVIL DIVISION
FMC CORPORATION, a
Delaware Corporation,
Plaintiff,
vs.
SHOSHONE-BANNOCK
TRIBES’ FORT HALL
BUSINESS COUNCIL
and SHOSHONEBANNOCK TRIBES’
LAND USE POLICY
COMMISSION,
Defendants.

)
CASE NO. C-06-0069
)
C-07-0017
)
C-07-0035
)
)
) OPINION
)
)
)
)
)
)

INTRODUCTION
This is an appeal by FMC Corporation (“FMC”)
from Decisions by the Shoshone-Bannock Land Use
Policy Commission (“LUPC”) and the ShoshoneBannock Tribe Fort Hall Business Council (“FHBC”)
regarding FMC’s applications for a building permit
and a special use permit. Three cases involving
common issues pertaining to the building permit and
the special use permit have been consolidated. Those
cases are as follows:
Case No. C-06-0069. Complaint for Review of
Permit Decisions Regarding Building Permit and
Special Use Permit.
That Amended Complaint
petitioned this Court to review the Decision of the
LUPC’s Findings of Fact dated April 25, 2006, and the
affirmation of those Decisions by the FHBC on July
21, 2006.

226a
Case No. C-07-0017. Verified Complaint for
Review of Fort Hall Business Council’s March 5, 2007,
Decision denying FMC Corporation’s Motion for Stay
of the April 25, 2006, Land Use Policy Ordinance
(“LUPO”) Decision.
Case No. C-07-0035. Verified Complaint for
Review of Fort Hall Business Council’s June 14, 2007,
Decision affirming the LUPC’s February 8, 2007,
Letter Decision, setting the special use permit fee at
$1.5 million.
Each of these cases involved common questions of
fact regarding the issuance of the building permit and
the special use permit by the LUPC.
ISSUES PRESENTED
1. Is FMC required to comply with the permit
requirements for demolition activities at the FMC
plant? As a corollary to that question, has the LUPC
properly exercised its authority with respect to the
issuance of the building permit and the imposition of
a $3,000 fee?
2. Is FMC required to comply with the
requirements of the LUPC regarding the issuance of
a special use permit and the imposition of a $1.5
million annual fee for the storage of hazardous and
non-hazardous waste on the Reservation?
HISTORY
The best place to start with respect to this appeal
is 1997. In that year, FMC and the United States
Environmental Protection Agency (“EPA”) were
negotiating terms to comply with the Resource
Conservation and Recovery Act (“RCRA”). These
negotiations were designed to, and ultimately led to,
a consent decree between the EPA and FMC with
respect to storage and disposal of hazardous waste by

227a
FMC at its plant near Pocatello. During this period
of time, FMC was also in communication with the
LUPC regarding its activities at the FMC plant.
In that year, FMC applied for and obtained a
building permit for the work to be done on two new
ponds. In addition, FMC submitted an application for
a Tribal Use permit with respect to ponds 17 and 18.
FMC Ex. 4 AR 000018.
Subsequently, sometime in August 2007, FMC
was notified by the LUPC that it had adopted, or was
proposing to adopt, Amended Guidelines to the LUPC
with respect to the storage of hazardous and nonhazardous waste on the Reservation. Amended
Complaint C-06-69 Par. 23. Thereafter, on about
April 6, 1998, the LUPC sent out different proposed
amendments to the Fort Hall Land Use Operative
Policy Guidelines (‘Guidelines’) to the LUPO
proposing different fees for the storage of nonhazardous and hazardous waste.
Amended
Complaint C-06-69 par. 24 Ex. E. At that time, the
Tribe sent Paul Yochum of FMC a letter outlining the
minutes of a meeting on April 6, 1998, in which the
LUPC discussed special use permits for ponds 17, 18
and 19. The LUPC stated that it would approve the
1997 Application upon compliance by FMC with
respect to requirements A through L. See FMC Ex.5
AR. 003027.1
A meeting was held in Seattle between
representatives of FMC and the Shoshone-Bannock
Tribes (“Tribe”) to discuss the question of hazardous
and non-hazardous waste permits. An agreement
1See Sections F and G pertaining to Amendments V-9-1,
Hazardous Waste Siting Fee, and V-9-2, Hazardous and NonHazardous Waste Disposal Fee.

228a
was reached between FMC and the Tribe with respect
to annual payments to the tribe in lieu of storage fees
envisioned under the Chapter V. Section 9
Guidelines. The agreement was outlined in three
letters (Letters Agreement) dated May 19, May 26
and June 2, 1998. FMC agreed to pay $1.5 million per
year and to pay a one-time start-up fee of $1,000,000.
The agreement provided:
It is agreed between the Land Use Policy
Commission and FMC Corporation that
beginning on June l, 1999, and for every
year thereafter, FMC Corporation will pay
an annual hazardous and non-hazardous
fixed permit established in Chapter V of the
Fort Hall Policy Guidelines.”
The letter further stated that the Chapter V
amendments to the Guidelines that the Tribe
intended to adopt were only temporary. The Tribe
planned on adopting a hazardous waste program and
drafting a hazardous waste act that would include
specific classes or exemptions to ensure that FMC’s
fixed fee of $1.5 million remain the same in the future.
In a letter dated May 26, 1998, Paul McGrath filled in
a few more of the details regarding the agreement and
outlined FMC’s position that the permitting related to
construction of ponds 17, 18 and 19. He stated in his
letter that the fee would apply during the time that
the ponds were in operation. Mr. McGrath also talked
about the conditions set forth in the April 13, 1998,
letter, stating that they would be “discussed with
representatives of the Tribe’s EPA, the Department of
Justice and FMC in connection with the resolution of
environmental issues at the plant.” Mr. McGrath
stated:

229a
We believe these issues and the other issues
raised by the Amended Guidelines will be
satisfactorily worked out.
Mr. McGrath followed up with another letter on
June 2, 1998, in which he stated that the permit was
not limited to ponds 17, 18 and 19, but that the permit
covered the plant and that the $1.5 million annual fee
would continue to be paid in the future, even if the use
of ponds 17, 18 and 19 was terminated. FMC Ex. 6
AR 000333. FMC paid the $1 million start-up fee and
the $1.5 million dollar annual fee for the years 1998,
1999, 2000 and 2001. Since 1998, there is no record
of the LUPC or the Tribe incorporating the “Letters
Agreement” into its LUPO or its subsequently
prepared Hazardous Waste Management Act or its
Waste Management Act.
On about March 29, 1999, a proposed Consent
Decree was filed with the U.S. District Court
outlining an agreement between the EPA and FMC
with respect to violations of federal environmental
laws, including the RCRA that FMC and the EPA had
worked out with respect to cleanups at the FMC
facility.
The Tribe objected to the proposed Consent Decree
and filed a motion to intervene in order to object to
some of its proposed conditions.
On July 13, 1999, Federal Judge Lynn Winmill
approved the Consent Decree over the objections of
the Tribe. Even though the Tribe was not signatory
to the Agreement, the Consent Decree addressed the
question of permits in several locations. Under
Section IV, General Provisions, paragraph 8, was the
following:

230a
Where any portion of the work requires a
federal, state or tribal permit or approval,
defendant shall submit timely and complete
applications and take all other actions
necessary to obtain all such permits or
approvals.
Further, in paragraph 76, is the following:
This Consent Decree shall not be construed
as a ruling or a determination of any issue
related to any federal, state, tribal or local
permit if required in order to implement this
Consent Decree or required in order to
continue or alter operations of the FMC
Pocatello plant (including, but not limited
to, construction, operation or closure
permits required under RCRA, and the
defendant shall remain subject to all such
permitting requirements. The defendant
shall be responsible for obtaining any
federal, state or local permits for any
activity at the FMC Pocatello plant,
including
those
necessary
for
the
performance of the work required by this
Consent Decree.
In 2001, FMC shut down operations at the facility.
By 2002, all operations had ceased and FMC notified
the Tribe that it would no longer be paying the $1.5
million per year fee. Affidavit of Tony Galloway Case
06-69 Ex. G.
Thereafter, negotiations between the Tribe and
FMC continued on a wide number of issues, including
the possibility of the Tribe taking over the facility in
exchange for a release of any liability or potential
liability for permit fees or other obligations. On

231a
December 19, 2002, the Tribe sent out a Notice of
Violation regarding FMC’s failure to obtain
appropriate permits for the storage of waste on the
Reservation. The notice claimed a $5.00 per ton fee
which was different than either of the previous fees.
Tony Galloway Affidavit Case 06-69 Ex. H.
FMC continued to refuse to apply for permits
through the Fort Hall LUPC. Finally, on September
19, 2005, the Tribe filed a motion for a clarification of
the Consent Decree, specifically addressing the issue
of required Tribal permits for activities conducted at
the FMC site.
The dispute over the permits came to a head when
U.S. District Court Judge Lynn Winmill entered his
order dated March 3, 2006, and decided “the sole issue
is whether the Consent Decree requires FMC to
comply with Tribal permitting requirements.”
Judge Winmill emphatically stated that FMC had
the obligation to comply with the permitting process
identified and required by the Tribe. Specifically,
Judge Winmill pointed to the letter dated December
9, 2005, from Paul EchoHawk to Rob Hartman of
FMC. Declaration of William Scott Case 06-69 Ex. E.
In that letter, the Tribe outlined the requirements for
FMC to apply for and obtain a special use permit for
hazardous waste storage, treatment and disposal, and
an additional building permit for the demolition of
activities currently under way at the FMC site. The
letter went on to state that the regulations were
required under the Tribe’s LUPO, the Guidelines and
the 1997 Uniform Building Code.
The letter went on to state that “under Article V of
the Shoshone-Bannock Tribe’s Land Use Policy
Ordinance, FMC is required to obtain the necessary

232a
permits, including, but not limited to, special use
permits for storage, treatment and disposal of
hazardous waste, and demolition of buildings and
structures at the FMC plant.” Under Chapter IV,
Section IV-2.2(a), and Chapter V, Section V-1.1(4) of
the Guidelines, and Chapters 1 and 33 of the 1997
Uniform Building Code, FMC is required to obtain
permits for building and demolition of buildings and
structures.
As a result of the Court’s order, FMC filed a
building permit application and special use permit
application on March 20, 2006.
The building application included a check for $20,
a color sketch marked “SKMAR 2006” and attached
as Schedule A. The schedule showed the buildings
which were to be removed. In addition, there was an
exhibit to FMC’s application which discussed the
jurisdiction over a building permit for the demolition
of the buildings at the FMC site. FMC Ex. 16, AR
000275.
FMC’s Tribal special use permit included a check
for $10, along with a discussion about the demolition
activities at the site and a discussion about
jurisdiction. FMC Ex. 17, AR 000291.
A public hearing concerning the applications for
the building permit and the special use permit was
held on April 25, 2006. The LUPC made separate
findings regarding the building permit and the special
use permit.
The Findings of Fact and Decision regarding the
building permit included a response by the Tribe to
FMC’s argument that the Tribe did not have
jurisdiction over FMC. The Tribe defended its
jurisdictional rights on the basis of the Federal

233a
Court’s March 6, 2006, letter and other FMC
activities which the Tribe considered submission to
jurisdiction. The Tribe went on to find that the
building permit was approved pursuant to Chapter V
of the 1979 Guidelines. The permit was issued
conditioned upon receipt of a fee of $3,000 and a list
of the contractors and subcontractors that would be
on-site working on demolition and dismantling
activities at the FMC plant. FMC Ex. 18 AR000346.
The LUPC also entered Findings of Fact and
Decision regarding the application for a special use
permit.
Again, the Tribe responded to FMC’s
objection to jurisdiction.
The LUPC found that FMC’s activities at the FMC
plant required a special use permit. The LUPC went
on to find that:
FMC voluntarily agreed in 1998 to obtain a
special use permit for its waste activities,
even after use of the waste storage ponds are
terminated.
The Land Use Policy
Commission hereby grants FMC a special
use permit for the disposal and storage of
waste at the FMC Pocatello plant located on
the Indian Reservation, subject to the
requirements and conditions set forth
below:
1. Permit Fee. The fee for the abovereferenced permit for the fee agreed to by
the Tribe and FMC in 1998, which is an
annual fee of $1.5 million.
***
In the event FMC does not acknowledge the
1998 agreement, the permit fee will be
calculated according to the Tribe’s land use

234a
laws and regulations, including the formula
set forth in the Land Use Policy Operative
Guidelines as amended.
***
The permit also required FMC to provide to the
LUPC, within 15 days, information regarding the
quantity in tons of waste currently at the FMC
Pocatello plant, along with a description of the types
of waste materials at the plant. FMC Ex. 19 AR
000349.
FMC promptly appealed the Decisions to the
FHBC.
The FHBC heard the appeal on July 12, 2006, and
filed a written Decision on July 21, 2006.
The Decision contained eight numbered
paragraphs. The first paragraph related to Judge
Winmill’s March 6, 2006, Decision regarding the land
use permit requirements.
Paragraph 2 struck from the record the affidavits
of Marlis Palumbo and Morris Azose because they had
not been presented to the LUPC prior to the time it
made its Decision.
Paragraph 3 discussed the approval of the
Guidelines. The FHBC made the Finding that Article
VI of the Tribe’s Constitution requiring Department
of Interior approval for the resolutions and
ordinances does not apply to guidelines.
Paragraph 4 determined that the Guidelines were
properly amended by the LUPC in 1998. Paragraph
5 found that even if the Guidelines were not properly
amended in 1998, the Secretary of the Interior
approved the 2001 Hazardous Waste Management
Act, providing a waste storage fee of $5 per ton. The
Court also found that FMC applied for and paid $1.5

235a
million per year to the Tribe for a Special Use Waste
Storage Permit between 1998 and 2001. The FHBC
affirmed the Decision of the LUPC. FMC Ex. 21 AR
002787.
FMC filed a motion in Federal Court to stay
enforcement of the permit requirements.
In a Decision dated December 1, 2006, Judge
Winmill denied FMC’s petition for a stay based on the
understanding the FMC could file a petition with the
Business Council for a stay of the permitting
requirements.
FMC also requested that the Court reconsider the
jurisdictional issue, which the Court denied. FMC
was ordered to provide relevant information to the
Tribe regarding its hazardous waste.
The Court stated:
The Court therefore anticipates that FMC
will provide the necessary information and
the Tribe will set a permit fee. After
exhausting Tribal appeals on both the
merits of the fee and any application for
stay, FMC may, if necessary, present the
issues to this Court for resolution.
The Court also made this observation:
FMC has stated that it is willing to provide
the Tribe with information on the waste so
long as the provision of that information is
not deemed a waiver of any legal rights,
including the right to object to the Tribe
permit process. The Court agrees that it is
not a waiver of any rights and this should
satisfy FMC’s concerns.
Subsequent to the Court’s Decision in December
2006, the LUPC re-established the fee requirement,

236a
but also established an escrow account for receipt of
the funds pending a determination of FMC’s appeal.
FMC filed a request for a stay with the FHBC. The
FHBC affirmed the decision of the LUPC and denied
the motion for a stay. Verified Complaint C-07-0017
Ex. A.
FMC also appealed from the decision of the LUPC
dated February 8, 2007. The Business Council
affirmed the decision of the LUPC on June 14, 2007.
Verified Complaint C-07-035 Ex. A. All of these cases
have been appealed and have been consolidated.
LAND USE POLICY ORDINANCE
The “Ordinance-Land Use Policy of the ShoshoneBannock Tribes,” hereinafter “Ordinance,” is a zoning
ordinance and was adopted in two parts. The first
part was adopted by the FHBC and approved by the
Secretary of the Interior in 1975. The Guidelines
were approved by the FHBC on August 24, 1979. The
Guidelines were designed to assist the LUPC in the
implementation of the ordinance. The Guidelines set
forth specific requirements for zoning the entire
Reservation into agricultural, mining, industrial and
commercial/residential areas. The Guidelines provide
specific requirements regarding applications for
permits for uses within those four designated areas.
A building permit is required for the construction
of any structure on the Reservation. Chapter V,
§V-1.
A use permit is required for any industrial activity
within an industrial area involving the construction
of buildings or the change in use of buildings. §V-6.
A special use permit is required when a use of the
property is inconsistent with the zoning plan adopted
by the Council. §V-5. Chapter II, Definitions, § 65.

237a
Building permits can be issued without a public
hearing, but a hearing can be held if the LUPC
believes it will assist in gathering facts necessary to
reach a decision. § V-1-1. The standards for issuance
of the permit at found at §V-1-2.
Special use permits and use permits require a
public hearing and require specific findings by the
LUPC.
In determining whether or not to grant a special
use permit, the LUPC is required to comply with §V5-2 of the Guidelines. Further, the LUPC shall give
detailed consideration to the specific evaluation
factors listed in the application for a special use
permit. See the application filed by FMC for those
evaluation factors. FMC Ex. 17 AR 000293.
With respect to use permits, a use permit is
required for “the initial development of or change in
any industrial use; including agricultural industries
within any area zoned as industrial.” The standards
for issuance are found in § V-6. The standards for
issuance of a use permit are found in § V-6-2. § V-7 is
the procedure for a public hearing regarding permits
and issuance of a written decision. § V-7-3 requires
“such written decision shall include specific factual
findings relied upon in support of the decision, as well
as analysis of how the Commission applied the
applicable standards in these guidelines in reaching
its decision.”
CHAPTER V GUIDELINES
The most important portions of the Guidelines for
the purpose of this Decision are Chapter V of the
Guidelines,§§ V-9-1 and V-9-2. These amendments
pertain to annual hazardous waste siting fees: § V-91, Disposition of Revenue, and § V-9-2, Hazardous

238a
and Non-Hazardous Waste Disposal Fees. These
were adopted by the LUPC on May 18, 1998. There is
no indication that these amendments to Chapter V
were ever approved by the FHBC or by the Bureau of
Indian Affairs Department of the Interior.
To summarize the Chapter V Guidelines, they
impose substantial fees on persons who dispose,
generate, store or treat hazardous wastes within the
exterior boundaries of the Fort Hall Indian
Reservation. There is a permit fee scale, depending
upon the waste volumes. In addition, there is also an
annual fee for hazardous waste and non-hazardous
waste based on volume.
STANDARD OF REVIEW
The parties have suggested several standards for
reviewing the Decisions by the LUPC and its
subsequent affirmation by the Business Council.
FMC suggests the Federal Administrative
Procedure Act, 5 U.S.C. 706(2) or the Tribal
Administrative Procedures Act §17(G). Under those
standards,
this
Court
must
determine
if
administrative action is (1) violative of the Tribe’s
Constitution or applicable law; ( 2) not within the
agency’s lawful authority or jurisdiction; (3) clearly
erroneous in light of the entire record; or (4) arbitrary
or capricious.
The Tribe urges the Court to look at the APA acts
only for guidance and urges great deference to the
Tribe under the standards set for in Chevron U.S.A.
v. Natural Resources Defense Council, Inc., 467 U.S.
837 (1984).
The Court finds that 5 USC 706(2) provides a
reasonable framework for the review of the actions
taken by the LUPC and the approval by the Business

239a
Council with respect to the building permit and the
special use permit filed by FMC and which are the
subject of this issue.
Further, the Court has used 2 AmJur 2d,
Administrative Law, §§50, 52, 54, 55 and 70 as a
primer regarding the overall scheme of judicial review
of administrative actions.
The review of any administrative procedure
requires a comparison of the agency decision against
the ordinance authorizing the action, keeping in mind
any constitutional, statutory or other limitations. In
addition, the decision-making process must
substantially follow the requirements of the
ordinance under which the decision is made.
Further, an administrative agency is not entitled
to conduct its affairs in a legislative capacity when it
is acting in a quasi-judicial capacity. In other words,
even if an agency is authorized to engage in rulemaking, it is not entitled to create new rules during
the time it is ruling on applications or permits that
have been applied for pursuant to existing
ordinances. FCC v. Pacific Foundation 438 U.S. 726
(1978).
THE FOUR CORNERS OF THE ORDINANCE
In light of the above rules, this Court does not
believe that it is entitled to look beyond the four
corners of the ordinance and its properly adopted
amendments in order to determine the legitimacy of
the LUPC action. Further, it is the Court’s position
that it is reviewing the agency action of the LUPC
whose decisions were affirmed by the FHBC.
BUILDING PERMIT
FMC has taken the position that it was not
required to apply for and obtain a building permit

240a
with respect to its demolition activities at the FMC
site. A review of the ordinance in question, with
respect to a building permit, does not clearly show
that demolition is one of the activities that requires a
building permit. See Chapter 2, Definitions, § 14.;
Chapter V, § V-1.
The Tribe responded by saying that under the
1997 Uniform Building Code, demolition is considered
to be construction and a building permit is required.
Giving deference to the LUPC, this Court affirms the
authority of the LUPC to require a building permit.
Further, it is clear that a “use permit” would be
required for FMC for demolition activities conducted
in an industrial zone. See the definition of “use
permit” and the requirements for a use permit under
the ordinance. This bolsters the Court’s belief that
the Tribe’s demand for a building permit is
reasonable.
But the analysis cannot stop there. Nowhere in
the ordinance is there a requirement for a fee of
$3,000 as a condition to obtaining a building permit.
The imposition of the fee is in excess of the authority
of the LUPC granted by the ordinance.
The Court affirms the right of the Tribe to require
a building permit. However, a $3,000 fee, not being a
part of the ordinance, is stricken from the
requirements. The other requirements are not in
dispute and are affirmed.
SPECIAL USE PERMIT
A special use permit is not required for industrial
activities in an industrial zone. Chapter 2, Def.,
§. 65.; Chapter V-5 (1) (2). On the other hand a “use
permit” would be required for FMC’s activities.

241a
APPLICABILITY OF THE MAY 18, 1998
AMENDMENTS -- §§ V-9-1 AND V-9-2
The Tribe argues that a “special use permit” is
required under the Hazardous Waste amendments of
Chapter V, §§ 9-1 and 9-2, and it is entitled to charge
fees under those guidelines. A permit is required
under those guidelines even though it is not called a
“special use permit.” FMC argues that the LUPC
cannot adopt such amendments on its own. Article V,
§§ l(k) & (l) of the Tribe’s Constitution gives the Tribe
the power to enact ordinances. Those powers can be
delegated to subordinate boards pursuant to§(s). The
question is whether or not the Business Council
delegated the authority to the LUPC to adopt
amendments like §§ 9-1 and 9-2. Article 4 of the
Guidelines to the Ordinance gives the LUPC the
authority to administer and enforce the ordinance.
The Guidelines to the Ordinance provide the
authority of the LUPC to make amendments. See
§§ 1-7 of the Guidelines. An “amendment” is defined
as a change in the wording of the Guidelines. But a
reading of the Constitution, the ordinance and the
guidelines does not suggest that the Business Council
delegated to the LUPC the broad authority to adopt
fees and other requirements regarding hazard waste
management as part of the zoning ordinance. This is
especially true considering the magnitude of the fees
and other requirements under the May 18, 1998,
amendments. As early as August 1997, the LUPC
recognized the need for an ordinance regarding this
issue. Amended Verified Complaint C-06-69 Ex. D.
However, the FHBC has clearly ratified the
actions of the LUPC with respect to the issuance of
the May 18, 1998, Amendment.

242a
Throughout this entire process, the FHBC has
been aware of the actions of the LUPC and has
endorsed and approved the LUPC’s actions.
In light of the ratification of the LUPC’s activities,
FMC’s argument that the LUPC did not have the
authority to approve the May 18, 1998, Amendment
is unsupported.
INCORPORATION OF THE “LETTERS
AGREEMENT”
The Tribe urges this Court to incorporate the
“Letters Agreement” into the May 18, 1998, Guideline
amendments. Alternatively, the Tribe urges the
Court to incorporate the “Letters Agreement” into the
Hazardous Waste Act or the Waste Management Act.
The “Letters Agreement” is the basis upon which the
Tribe claims the right to assess a fee of $1.5 million
dollars against FMC. To state the obvious, nowhere
in the LUPO, the Guidelines, the proposed
amendments or any of the other Hazardous Waste
Acts is there any provision for a permitting fee of $1.5
million dollars for FMC in lieu of any other charge.
When the LUPC or the Business Council conduct a
hearing to determine if a permit is to be issued, they
are acting in a quasi-judicial capacity. As such, they
are fact finders. They are not entitled to amend the
ordinance to incorporate additional requirements for
the issuance of a permit. FCC v. Pacific Foundation,
438 U.S. 726 (1978). Cooper v. Board of County
Commissioners of Ada County, 101 Idaho 407, 614
P.2d 947 (1980). Seafarers Int’l Unioni of N. Am. V.
Coast Guard, 81 F. 3d 179 (D.C. Cir. 1960).
The Tribe also argues that FMC agreed to the fee
and therefore it should be estopped from paying.
However, a reading of the “Letters Agreement” does

243a
not persuade this Court that FMC agreed to pay a
$1.5 million dollar fee to the tribe for every year that
waste remained on its property.
Both sides
contemplated substantial work in negotiating
agreements and ordinances regarding non-hazardous
and hazardous waste after the exchange of letters.
Further, FMC’s payments of the fee cannot be
construed as action which caused the tribe to forgo the
adoption of an enforceable ordinance incorporating
the “Letters Agreement”.
CONSTITUTIONALITY OF THE FEE
Article V, §1(h), of the Tribe’s Constitution
provides as follows:
To levy taxes or license fees, subject to
review by the Secretary of the Interior,
upon non-members doing business
within the Reservation.
Subsection (l) of Article V provides as follows:
To safeguard and promote the peace,
safety, morals and general welfare of the
Fort Hall Reservation by regulating the
conduct of trade and the use and
disposition of property upon the
Reservation,
provided
that
any
ordinance
directly
affecting
nonmembers of the Reservation shall be
subject to review by the Secretary of the
Interior.
The May 18, 1998, amendments to the Land Use
Policy Guidelines were not approved by the Secretary
of the Interior.
In its briefs, the Tribe argues that the authority
for the imposition of the $1.5 million fee could be
inferred from the adoption of the Hazardous Waste

244a
Management Act of 2001. This argument was not
included in the decision-making process of the LUPC
when it approved the special use permit for FMC.
After the first round of hearings regarding the special
use permit, the Tribe attempted to incorporate this
argument into its subsequent decisions regarding the
special use permit.
Even assuming that the
Hazardous Waste Management Act of 2001 could be a
basis upon which to argue for the imposition of a $1.5
million fee, this Court finds that the Hazardous
Waste Management Act was never officially approved
by the Department of the Interior. (See the letter
from the United States Department of the Interior
dated
November
22,
2004,
addressed
to
NancyMurillo, Chairperson, FHBC, and signed by
Eric J. LaPointe, Superintendent, attached to Preface
of the Hazardous Waste Management Act of 2001.)
Further, the Waste Management Act of October 7,
2005, appears to have been approved by the FHBC on
September 8, 2005, but there is no indication that it
was ever forwarded to the Secretary of the Interior for
review and approval.
This Court has searched for case law interpreting
the requirement for approval by the Secretary of the
Interior and has not found much that would provide
assistance in this area.
However, this Court
determines that any ordinance which attempts to
impose a fee on a non-member of the Tribe must be
approved by the Secretary of the Interior. If it is not,
the ordinance is void as to those non-members.
CONCLUSION
The Court affirms the issuance of the building
permit, but strikes the requirement of a $3,000 fee.

245a
The Court reverses the Decision of the LUPC with
respect to the special use permit. The Court finds
that no special use permit is required for industrial
activities inside an area zoned industrial.
There has been no incorporation of the so-called
“Letters Agreement” into any of the ordinances
adopted by the Tribe.
The Tribe has failed to meet the approval
requirements for the imposition of fees on
non-members, contrary to its own Constitution and
the imposition of the $1.5 million fee is void.
For the above reasons, the Court finds that a
special use permit is not required.
DATED this 21 May of May, 2008.
s/ David H. Maguire
Tribal Judge David H.
Maguire

